<html>
<title> - DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2020</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




                      DEPARTMENT OF HOMELAND SECURITY
                        APPROPRIATIONS FOR 2020

_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SIXTEENTH CONGRESS

                              FIRST SESSION

                             ______________
 
                    SUBCOMMITTEE ON HOMELAND SECURITY

              LUCILLE ROYBAL-ALLARD, California, Chairwoman

  HENRY CUELLAR, Texas                  CHUCK FLEISCHMANN, Tennessee
  C. A. DUTCH RUPPERSBERGER, Maryland   STEVEN M. PALAZZO, Mississippi
  DAVID E. PRICE, North Carolina        DAN NEWHOUSE, Washington
  DEBBIE WASSERMAN SCHULTZ, Florida     JOHN H. RUTHERFORD, Florida
  GRACE MENG, New York
  PETE AGUILAR, California
  

  NOTE: Under committee rules, Mrs. Lowey, as chairwoman of the full 
committee, and Ms. Granger, as ranking minority member of the full 
committee, are authorized to sit as members of all subcommittees.

             Darek Newby, Michael S. Herman, Robert Joachim,
            Kris Mallard, Karyn Richman, and Elizabeth Lapham
                            Subcommittee Staff

                                __________

                                  PART 3
                     DEPARTMENT OF HOMELAND SECURITY

                                                                   Page
  Fiscal Year 2020 Budget Hearing_
Federal Emergency Management Agency.....
                                                                      1
  Fiscal Year 2020 Budget Hearing_
Department of Homeland Security.........
                                                                     73
  Fiscal Year 2020 Hearing_Cybersurity 
and Infrastructure Security Agency......
                                                                    231
  U.S. Customs and Border Protection_
Border Parol Appropriations for 2020....
                                                                    277
  Oversight Hearing_U.S. Immigration and 
Customs Enforcement.....................
                                                                    323

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                   

                        ____________

          Printed for the use of the Committee on Appropriations
          
          

                                 PART 3
                                  FEMA

                                  DHS

                                  CISA

                                 USCBP

                                 USICE
                                 
                                 
                                 
                                 
                                 
                                 

        DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2020
        
        
        
        
        
        

 
         DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2020

_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SIXTEENTH CONGRESS

                              FIRST SESSION

                              ____________

                    SUBCOMMITTEE ON HOMELAND SECURITY
                    

              LUCILLE ROYBAL-ALLARD, California, Chairwoman

  HENRY CUELLAR, Texas                   CHUCK FLEISCHMANN, Tennessee
  C. A. DUTCH RUPPERSBERGER, Maryland    STEVEN M. PALAZZO, Mississippi
  DAVID E. PRICE, North Carolina         DAN NEWHOUSE, Washington
  DEBBIE WASSERMAN SCHULTZ, Florida      JOHN H. RUTHERFORD, Florida
  GRACE MENG, New York
  PETE AGUILAR, California


  NOTE: Under committee rules, Mrs. Lowey, as chairwoman of the full 
committee, and Ms. Granger, as ranking minority member of the full 
committee, are authorized to sit as members of all subcommittees.

             Darek Newby, Michael S. Herman, Robert Joachim,
            Kris Mallard, Karyn Richman, and Elizabeth Lapham
                            Subcommittee Staff

                               ___________

                                  PART 3
                     DEPARTMENT OF HOMELAND SECURITY

                                                                   Page
  Fiscal Year 2020 Budget Hearing_
Federal Emergency Management Agency.....
                                                                      1
  Fiscal Year 2020 Budget Hearing_
Department of Homeland Security.........
                                                                     73
  Fiscal Year 2020 Hearing_Cybersurity 
and Infrastructure Security Agency......
                                                                    231
  U.S. Customs and Border Protection_
Border Parol Appropriations for 2020....
                                                                    277
  Oversight Hearing_U.S. Immigration and 
Customs Enforcement.....................
                                                                    323

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                   

                                _______

          Printed for the use of the Committee on Appropriations
          
          

                    U.S. GOVERNMENT PUBLISHING OFFICE

  38-921                    WASHINGTON : 2020

                            


 
                      COMMITTEE ON APPROPRIATIONS

                                ----------                              
                  NITA M. LOWEY, New York, Chairwoman


  MARCY KAPTUR, Ohio                          KAY GRANGER, Texas
  PETER J. VISCLOSKY, Indiana                 HAROLD ROGERS, Kentucky
  JOSE E. SERRANO, New York                   ROBERT B. ADERHOLT, Alabama
  ROSA L. DeLAURO, Connecticut                MICHAEL K. SIMPSON, Idaho
  DAVID E. PRICE, North Carolina              JOHN R. CARTER, Texas
  LUCILLE ROYBAL-ALLARD, California           KEN CALVERT, California
  SANFORD D. BISHOP, Jr., Georgia             TOM COLE, Oklahoma
  BARBARA LEE, California                     MARIO DIAZ-BALART, Florida
  BETTY McCOLLUM, Minnesota                   TOM GRAVES, Georgia
  TIM RYAN, Ohio                              STEVE WOMACK, Arakansa
  C. A. DUTCH RUPPERSBERGER, Maryland         JEFF FORTENBERRY, Nebraska
  DEBBIE WASSERMAN SCHULTZ, Florida           CHUCK FLEISCHMANN, Tennessee
  HENRY CUELLAR, Texas                        JAIME HERRERA BEUTLER, Washington
  CHELLIE PINGREE, Maine                      DAVID P. JOYCE, Ohio
  MIKE QUIGLEY, Illinois                      ANDY HARRIS, Maryland
  DEREK KILMER, Washington                    MARTHA ROBY, Alabama
  MATT CARTWRIGHT, Pennsylvania               MARK E. AMODEI, Nevada
  GRACE MENG, New York                        CHRIS STEWART, Utah
  MARK POCAN, Wisconsin                       STEVEN M. PALAZZO, Mississipi
  KATHERINE M. CLARK, Massachusetts           DAN NEWHOUSE, Washington
  PETE AGUILAR, California                    JOHN R. MOOLENAAR, Michigan
  LOIS FRANKEL, Florida                       JOHN H. RUTHERFORD, Florida
  CHERI BUSTOS, Illinois                      WILL HURD, Texas
  BONNIE WATSON COLEMAN, New Jersey
  BRENDA L. LAWRENCE, Michigan
  NORMA J. TORRES, California
  CHARLIE CRIST, Florida
  ANN KIRKPATRICK, Arizona
  ED CASE, Hawaii


                 Shalanda Young, Clerk and Staff Director

                                   (ii)
                                   
                                   


        DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2020

                              ----------                              

                                           Tuesday, April 30, 2019.

  FISCAL YEAR 2020 BUDGET HEARING--FEDERAL EMERGENCY MANAGEMENT AGENCY

                                WITNESS

HON. PETER GAYNOR, ACTING ADMINISTRATOR, FEDERAL EMERGENCY MANAGEMENT 
    AGENCY
    Ms. Roybal-Allard. The Subcommittee on Homeland Security 
will come to order. I welcome everyone to today's hearing on 
the fiscal year 2020 budget proposal for the Federal Emergency 
Management Agency.
    Administrator Gaynor, welcome back.
    I would like to begin by thanking FEMA for its work in 
assisting Californians recovering from last year's devastating 
wildfires in Butte, Los Angeles, and Ventura Counties.
    Last month, you testified on FEMA's continuing efforts to 
support recovery from recent disasters. Since that hearing, 
Chairman Price and I had the opportunity to visit Puerto Rico 
and see some of those efforts firsthand. We also met with 
officials from both Puerto Rico and the Virgin Islands as well 
as disaster survivors, and I thank your staff for facilitating 
and supporting those meetings. They helped to make them very, 
very successful.
    FEMA and its employees continue to lead our nation in 
recovery from the unprecedented disasters of the last few 
years. While it is true FEMA has taken positive steps towards 
recovery in Puerto Rico and the U.S. Virgin Islands, it is 
clear there is still much more to be done to support the 
islands' recoveries.
    Your agency is doing this work while at the same time 
implementing and developing guidance on dozens of new 
provisions created by the Disaster Recovery Reform Act of 2018.
    Every FEMA program and activity is critical. That is why I 
was disappointed that the administration proposes an overall 
cut of 8.5 percent to FEMA's budget outside of the Disaster 
Relief Fund. The proposed cuts are particularly glaring in the 
Federal Assistance account, which has a proposed 20 percent 
reduction to the current year budget.
    With FEMA proposing a new National Priority Preparedness 
Grant program, the proposed cuts to existing programs are even 
larger. This includes, for example, a 37 percent cut to the 
State Homeland Security Grant Program and a 33 percent cut to 
the Urban Areas Security Initiative program. The budget also 
proposes to eliminate programs that train state and local 
homeland security officials, emergency managers, and first 
responders, including those at the Center for Homeland Defense 
and Security in my home state of California.
    Because states and urban areas rely heavily on FEMA grants 
to help improve and maintain their preparedness levels, the 
proposed cuts leave a gaping hole in your budget that we will 
need to find a way to fill.
    We will discuss these and other aspects of your budget 
proposal this afternoon. As you did in our hearing last month, 
I hope you can provide us with an update on recovery efforts 
from recent disasters.
    Again, I thank you for appearing before the subcommittee 
today.
    And I now turn to the Ranking Member Mr. Fleischmann for 
his opening remarks.
    Mr. Fleischmann. Thank you, Madam Chairman. And, again, I 
appreciate your working with the majority and the minority in 
this subcommittee. It is always a privilege to work with you. 
With votes coming, I am going to keep my remarks very brief.
    But, Mr. Gaynor, I want to thank you, sir, for coming back 
to our Subcommittee today. I thought our last hearing was 
extremely productive and I know a lot of my oversight questions 
were answered about the challenges FEMA is facing and the 
ongoing efforts to help those affected by recent storms. I also 
wish to thank not only you but your very attentive and 
cooperative staff. It has been a pleasure working with you all.
    Last time we met, my state, the great state of Tennessee, 
was coming out of some terrible flooding. The affected counties 
did receive some funds but we are still cleaning up and many 
families are still working on resolving damages to homes and 
businesses. I appreciate everything that FEMA is doing to help 
our citizens and I respectfully urge you to keep working with 
our state as we continue working with our localities to repair 
these damages.
    Today, we are here to discuss fiscal year 2020. I am sure 
you have heard a lot about your proposals from your state and 
local partners. We hear from them, too. And I think we are 
probably going to have some of the same questions about your 
budget request.
    I look forward to your testimony today, sir.
    And with that, Madam Chairman, I yield back my time.
    Ms. Roybal-Allard. Mr. Gaynor, we look forward to your 
testimony and we will submit the full text of your testimony 
for the record.
    Mr. Gaynor. Good afternoon, Chairwoman Roybal-Allard, 
Ranking Member Fleischmann and members of the subcommittee. My 
name is Pete Gaynor and I am the acting administrator of FEMA.
    On behalf of Acting Secretary McAleenan and the 
Administration, I would like to thank you for the opportunity 
to discuss FEMA's fiscal year 2020 budget and now it supports 
the execution of the Agency's strategic plan.
    Today, FEMA remains steadfast in its commitment to support 
the needs of disaster survivors. We continue to work tirelessly 
to support state, local, tribal and territorial partners 
before, during and after disasters. We have overcome many 
challenges, and we have gained invaluable knowledge which we 
have incorporated into our strategy going forward.
    Today, I would like to discuss FEMA's budget in terms of 
the goals and objectives of the Agency's strategic plan. This 
plan seeks to unify and further professionalize emergency 
management across the Nation, and helps drive both short and 
long-term funding decisions.
    The plan establishes three strategic goals for FEMA. First, 
build a culture of preparedness; second, ready the nation for 
catastrophic disasters; and finally, reduce the complexity of 
FEMA.
    Every segment of society from individual to government, 
industry to philanthropy, must be encouraged and empowered to 
prepare for the inevitable impacts of future disasters. 
Building a culture of preparedness within our communities will 
allow the nation to significantly reduce the risk before the 
next disaster. The budget requests $2.3 billion in preparedness 
and mitigation grants to help achieve that goal.
    In 2018, Congress took significant steps to support FEMA's 
efforts with the passage of the Disaster Recovery Reform Act, 
or ``DRRA''. This transformational legislation will assist the 
nation in reducing risks and increasing preparedness in a more 
meaningful and tangible way. The budget request funds to begin 
implementing the key mitigation-related elements of DRRA.
    While we will never be able to eliminate all risk, we must 
reduce known risks as much as possible. FEMA continues to work 
with the communities and insurers to close the insurance gap 
and double insurance coverage across the nation.
    Managing risk to insurance, including the National Flood 
Insurance Program, or NFIP, helps communities to recover faster 
from disasters and reduces overall costs for taxpayers. The 
budget includes $5.1 billion to support operating the NFIP.
    FEMA's second goal is to ready the nation for catastrophic 
disasters. Catastrophic disasters include low and no-notice 
incidents which can overwhelm the government at all levels and 
threaten national security. They are life-altering incidents 
for those impacted, causing a high number of fatalities and 
widespread destruction.
    Focusing Federal efforts and resources on preparing for 
catastrophic events is critical to ensure that the response 
recovery missions are successfully executed. The budget 
includes $14.1 billion for the disaster relief fund to support 
response and recovery operations. The budget request also 
includes $1.7 million and 25 positions to support the expansion 
of FEMA Integration Teams (FIT). These teams, which are 
embedded full time into state emergency management agencies, 
are critical to improve customer service and provide targeted 
technical assistance to help build capacity and address 
capability gaps before the next catastrophic disaster. 
Currently, FEMA has FIT teams embedded in 18 states with more 
to follow.
    Communications and pre-positioned commodities are also 
critical to readying the nation. We saw this in Puerto Rico 
where FEMA deployed its Mobile Emergency Response Support 
resources with mobile satellite, radio, and logistics support 
services to provide command and control communications, 
situational awareness, and program delivery to overcome 
communications challenges. The budget includes $6 million for 
six more Mobile Emergency Operations Vehicles.
    Further building on lessons learned from 2017, the budget 
requests $3 million to expand the distribution center in Hawaii 
to increase stocks of pre-positioned life-saving and life-
sustaining commodities maintained outside the continental U.S.
    The final goal of the Agency's Strategic Plan is to reduce 
the complexity of FEMA. FEMA must be flexible and adaptable to 
meet the needs of individuals and communities, and it must 
deliver assistance as simply as possible. For example, FEMA is 
consolidating and updating all FEMA Individual Assistance 
policies and program guidance to streamline information about 
the programs.
    FEMA is also reducing complexity by modernizing its legacy 
IT systems to better support grantees and survivors. The budget 
includes $77.6 million for these investments.
    The Fiscal Year 2020 President's Budget provides FEMA with 
the resources to help people before, during and after disasters 
while allowing us to strive for our vision of a prepared and 
more resilient nation.
    Thank you for the opportunity to testify, and I look 
forward to any questions you may have.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
    
  
    Ms. Roybal-Allard. Mr. Gaynor, since you last appeared 
before the subcommittee, there have been several new disaster 
declarations including for the catastrophic floods in the 
Midwest and severe storms and tornadoes in the south.
    Can you provide us with an update on those disasters and 
the efforts being made to support the recovery of the affected 
communities?
    Mr. Gaynor. Yes, ma'am.
    I had the honor to visit Iowa a couple of weeks ago with 
the Vice President to see firsthand the devastation in both 
Nebraska and Iowa. Water is still on the ground today. We 
visited a farmer whose family has been living on the property 
for over 110 years and it was the worst flooding the family had 
seen since the 1950s.
    Devastation from flooding is sobering. All the impacted 
states, I think there are three or four so far, have applied 
for disaster assistance. We are out there today registering 
disaster survivors to make sure that we can get the maximum 
resources to those impacted.
    We continue to do this across the country not only with 
flooding, but also in Alabama with tornadoes. We have 52 open 
disasters today, delivering disaster response to survivors from 
wild fires, floods, tornadoes, and earthquakes, quite a wide 
expanse of our support to the survivors in those disasters that 
need our help today.
    Ms. Roybal-Allard. As I mentioned in my opening statement, 
the president's budget calls for cuts of more than 20 percent 
to FEMA's preparedness training and grant programs which helps 
states and communities prepare for natural disasters, terrorist 
attacks and other high consequence events.
    It does not appear that the risks of such events have 
waned. Has FEMA determined that the risk warrants a reduced 
investment in preparedness and if not, can you explain the 
basis for the proposed reductions?
    Mr. Gaynor. Yes, ma'am.
    We have had a historically constrained operations support 
budget over the years and, frankly, there are only a few places 
to cut. And when we look across all the potential programs or 
resources that we provide--grants is one of those--and the way 
we look at it is preparedness is a shared responsibility from 
the Federal government to the state to the local.
    Over the past 10 or 12 years, through DHS and FEMA, we have 
funded at least $50 billion in Preparedness grants. We brought 
down a significant amount of risk. Some of those grants have 
turned over time to entitlement grants and really haven't kept 
up with emerging threats.
    So, we think it is fair and equitable to ask states and 
locals to offload some of that responsibility for preparedness 
on to their own budgets so we can deliver and keep up with new 
emerging threats and keep up with innovation. So, again, when 
it is a constrained budget, it is hard to find or it is hard to 
reduce the impact on some of this.
    And I know firsthand, I was a local and state emergency 
manager. I know how much local and state directors depend on 
grants. But, again, we believe that preparedness across the 
country is a shared responsibility.
    Ms. Roybal-Allard. I will be asking another question a 
little bit later on that highlights the fact that states and 
local governments do contribute their own money towards these 
programs.
    But if you could provide the subcommittee a list of where 
you think these entitlement grants exist and the fact that 
there actually is necessarily not a need for them any longer.
    Mr. Gaynor. Yes, ma'am. We will do that.
    Ms. Roybal-Allard. Mr. Fleischmann.
    Mr. Fleischmann. Thank you, Ms. Roybal-Allard. Actually you 
asked a question I was going to ask so thank you so much, I 
appreciate that. That is for efficiency purposes.
    I will just ask Mr. Gaynor some basic questions.
    When you were the director of the Rhode Island Emergency 
Management Agency, which Federal grants were most important to 
you in maintaining and building capabilities, sir?
    Mr. Gaynor. I think for a local emergency management, the 
EMPG or the Emergency Management Performance Grant. We give 
those out to the 50 states and territories each year.
    Mr. Fleischmann. And what values in that capacity did you 
find in the EMPG program, sir?
    Mr. Gaynor. Basically, it supports operations. If you had 
some difficulty sourcing or funding personnel through your 
local or state appropriated budget, EMPG helps you with that.
    It also helps you with preparedness initiatives. If there 
is something that you didn't have in your budget from the 
state, the EMPG gives you a little more bandwidth to deliver 
those preparedness initiatives that are important to your local 
or state program.
    Mr. Fleischmann. Yes, sir. The new Disaster Recovery Reform 
Act provided authorization for pre-disaster mitigation program. 
How is FEMA working with state emergency managers to shape this 
program and reduce vulnerabilities in the nation?
    Mr. Gaynor. Yes, sir.
    First, I would like to thank Congress for helping us pass 
the DRRA. It is really transformational legislation on how we 
look at disasters. We know we are going to pay whatever amount 
of money a disaster cost us after the disaster. It really turns 
the tables on how we invest in pre-disaster mitigation before a 
disaster happens.
    Pre-disaster mitigation is not new to FEMA. It is not new 
to local or state directors across the country. We have a 
program today that has been in effect for many years called 
Pre-Disaster Mitigation, roughly about $50 million a year 
across the country.
    We are in close coordination with our state directors. We 
have briefed, most recently, to the National Emergency 
Management Association (NEMA) meeting that was held in 
Washington D.C. We are in a constant dialogue to make sure that 
we understand the needs on the street and we want to make sure 
that we incorporate those into our plan moving forward.
    It is an ongoing dialogue. Many of us are former directors; 
we understand there are certain issues that apply only to 
certain states. We want to make sure that we are thoughtful 
about building a plan that suits everyone's needs.
    Mr. Fleischmann. Mr. Gaynor then as a follow-up to that, 
what feedback has FEMA gotten from states on those efforts 
specifically?
    Mr. Gaynor. I am not sure I can answer the specific 
feedback.
    I know that we are in dialogue with them. I would be happy 
to get with the program managers and see what kind of best 
practices that states have offered in the new program.
    Mr. Fleischmann. Is the Disaster Recovery Reform Act a 
comprehensive reform bill or do you see FEMA reaching out to 
authorizers to further refine or expand the legislation?
    Mr. Gaynor. Right now there are 49 different sections of 
the DRRA that we are trying to understand. And I will go back 
to the Pre-Disaster Mitigation section, section 1234 where we 
can set aside 6 percent of disaster funds for pre-disaster 
mitigation. That is the one that we are trying to work on first 
and fastest to make sure we can get that out on the street. Our 
goal is to have it available for application in October of 
2020.
    There are other sections of the DRRA that we are working 
on, post fire mitigation. We have our plate full in 
understanding the current legislation and until we get past all 
the sections that we are required to implement by law, I think 
we are good for right now.
    Mr. Fleischmann. Yes, sir.
    At your last hearing with this subcommittee, we talked a 
little about FEMA integration teams. It was actually 
interesting to learn that Tennessee is one of the 16 states 
with an existing team in our state office.
    Can you share how the FEMA integration team helped and 
facilitated response in the recent Tennessee flooding?
    Mr. Gaynor. I can't talk about Tennessee exactly but I can 
tell in general we have numerous stories from disasters to 
exercises to training. We had the integration teams bring a new 
perspective, the Federal perspective, to close the gaps in 
state or local plans and make exercises more robust. As a 
matter of fact, I met with 15 managers last week and we think 
it is really a great initiative. We have gotten great feedback. 
And our goal is to have a FIT team in every state we support. 
And, again, we look for funding to make that happen in this 
fiscal year 2020 budget.
    Mr. Fleischmann. Yes, sir. Thank you, Mr. Administrator.
    And, Madam Chairman, I yield back.
    Ms. Roybal-Allard. Mr. Cuellar.
    Mr. Cuellar. Thank you, Madam Chair.
    Mr. Administrator, the humanitarian crisis due to the 
influx of unaccompanied kids and families have created a burn 
on state and local jurisdictions including NGOS down there on 
the border.
    Back, I think, it was in 2014 I helped change the law here 
in appropriations to address some of those issues and then I 
think on July 13 of 2017, you all came out with an information 
bulletin that provided guidance for homeland security grants 
programs to be allowable for cause for reimbursements to those 
local communities that provide humanitarian care and relief to 
those unaccompanied kids and families--food, water, medicine, 
medical supplies, et cetera, et cetera.
    Earlier this year, DHS Secretary Nielsen reportedly said 
that the administration would treat this surge, the new group 
of people, like a category 5 hurricane. My question is what is 
FEMA's response to address this humanitarian relief for 
accompanied children and families just the fact that it has had 
an impact on local communities?
    I am from the border side, talking from personal knowledge 
there and talking to the folks and basically will communities 
be eligible for reimbursement via those homeland security grant 
programs for expenses that communities whether it is McAllen or 
Brownsville or NGOs, I mean, they are carrying the burden of 
this. So, I just want to see if I can get your thoughts on what 
you all can do taken in consideration that law that would 
change back in 2014 when the surge started.
    Mr. Gaynor. Yes, sir.
    Right now this is not a Stafford Act emergency, so we are 
not using any disaster relief dollars to fund our support to 
CBP or ICE. So, it is not an emergency in that aspect.
    The grant part of it is typically in homeland security 
grants a majority of the money goes to backfill pay and 
overtime. If it is an eligible expense under the rules of those 
grants, they can use it. I would have to know the specifics 
about how they use it to make sure it is actually eligible.
    And I think the state directors or the State Administrative 
Agents (SAAs) will make sure that they use that money 
appropriately.
    Mr. Cuellar. We should be surprised that in the state of 
Texas where we have done the majority on it since 2014 only 
$400,000 have been allocated to these local communities which 
is literally a drop in the bucket.
    It is not working. It is not really working the way we have 
set this up. So, I know they are going to call votes and I 
certainly want to give my other colleagues an opportunity.
    I would like to know if there is somebody here in your 
staff that we can follow-up on this because it is not working. 
$400,000 since 2014 is literally a drop in the bucket.
    Mr. Gaynor. Sure.
    Mr. Cuellar. So we would love to sit down with you and give 
you a little bit more time to digest this and then give us some 
of your thoughts.
    Mr. Gaynor. Typically, sir, we give that money to a state 
and they run the program. Each state has different 
requirements, different initiatives and different priorities. 
And why the state has not been reimbursed, I would have to look 
into it. We don't reimburse those things directly.
    Mr. Cuellar. Right.
    Mr. Gaynor. It is really the state who is responsible for 
those grant programs.
    Mr. Cuellar. Right. It goes to the state then.
    Mr. Gaynor. But I would be happy to find out what some of 
the roadblocks are down there.
    Mr. Cuellar. All right. Thank you.
    Mr. Gaynor. You are welcome, sir.
    Ms. Roybal-Allard. Mr. Palazzo.
    Mr. Palazzo. Thank you, Madam Chair.
    And Acting Administrator Gaynor, thank you for being here 
again.
    Last time we met, I brought up the pending expiration of 
NFIP on May 31. I think you said it has been about 40 plus 
extensions and we know every time we come up against the 
calendar deadline it makes a lot of communities that live on or 
near the water very nervous.
    It makes realtors, economic developers but most importantly 
homeowners who depend on the insurance to be able to insure 
their homes--64,000 NFIP policies, it is probably higher now 
since the last time we have talked because I know they continue 
to attract new policyholders.
    Could you just comment on the importance of NFIP not 
allowing the program to lapse but also maybe talk or either 
share your thoughts on getting with the private sector and 
coming up with maybe an all-hazards type solution so we can 
address this. And what is if anything FEMA doing to kind of 
work with the private sector to address NFIP.
    Mr. Gaynor. Yes, sir. Thank you.
    If I can just put it into context though--insurance. FEMA 
has different disaster programs that we deliver to survivors. 
One of them is Individual Assistance (IA). The cap for 
Individual Assistance is about $34,500 for a number of 
different programs.
    If you look at Harvey in Texas, the average IA payout was 
$4,000. Not many people maxed out the $34,000 for whatever 
reason. If you look at the same disaster and how much we paid 
out for NFIP insurance to those that had insurance, it is 
$130,000. Would you rather have a check from FEMA for $4,000 or 
a check from NFIP for $130,000? I would imagine that most 
people are saying I want that check to make me as whole as 
possible and get me back in my home.
    Insurance is about protecting property, but it is also 
about saving lives, maintaining your livelihood, maintaining 
your neighborhoods and maintaining your communities and 
businesses. That is how we look at insurance.
    It needs to be overhauled. We really haven't had a 
significant overhaul since the 1970s. It needs to be more 
affordable. It needs to be more transparent. It needs to really 
reflect risk.
    I don't think the way we have policies right now reflect 
the risk where you live. We are trying to adapt to a new way of 
looking at insurance to make sure everyone understands how 
valuable insurance is as opposed to other things.
    Should we have a lapse? It will negatively impact home 
closings. It will negatively impact renewals. We don't want 
that. We would like a reauthorization, a year-long 
reauthorization in an effort to work with Congress to really 
relook at NFIP and make sure it is affordable and transparent 
for everyone and reflects risk. It doesn't do that today, 
therefore, we want to have a shot at reforming NFIP sooner 
rather than later.
    Mr. Palazzo. Well, thank you, Acting Administrator Gaynor. 
I concur with your thoughts and I think maybe a year or 24 
months allow Congress to really look at this and come up with 
some common sense reforms that protect the homeowner but also 
protect the taxpayer.
    With that, I will be sensitive with my time and I yield 
back. Thank you.
    Ms. Roybal-Allard. Ms. Meng.
    Ms. Meng. Thank you, Madam Chair.
    I will just ask one question to be sensitive to my 
colleagues' time as well. I wanted to also ask about Urban 
Areas Security Initiative which assists as you know high-
threat, high-density urban areas for terrorism preparedness 
which is very important to my home state of New York. There are 
proposed cuts to both the Urban Areas Security Initiative, a 
decrease of $22.4 million and the State Homeland Security Grant 
Program decrease of $17.4 million.
    I represent a district in New York City which as you may 
know is a highly targeted city for terrorist attacks. In fiscal 
year 2018, 10 houses of worship just in my district alone 
received these much needed grants. How will FEMA ensure the 
safety of Americans in not compromised as a result of this 
decrease in funding?
    Mr. Gaynor. Yes, ma'am. Thank you.
    In a tough budget for FEMA, it is hard to pick out savings 
that have little impact on resources that we deliver or 
preparedness or recovery and there are some hard choices to be 
made.
    Our O&S budget line has been flat for years. It doesn't 
give us much flexibility in deciding what we can live with and 
what we can't.
    One of those is grants. When it comes to grants, we look at 
it as a shared responsibility just like I am sure you have 
heard before that Emergency Management is like a four-legged 
stool where there is the Federal government, state and local, 
the individual and private and NGOs. All those legs have to be 
working together or have to be intact for the whole system to 
work.
    We believe that we have brought down a lot of risks, $50 
billion over 12 years across the nation. The grants in some 
cases have not kept up with threat so we want to make sure that 
we are keeping up with emerging threats and redefining risk as 
we move along. I am not sure they do that exactly today.
    Again, we look at why we cut grants and the answer, from my 
point of view, is that we share this responsibility at all 
levels from the Federal government to the state and the local. 
I hope that answers your question.
    Ms. Meng. Yes. So, I mean, what are some of the higher 
priorities? It is stated in the 2020 budget justification, what 
are the higher priorities?
    Mr. Gaynor. One of them is our legacy IT system, 40 years 
old. We haven't really kept pace with modernizing that. And 
that directly impacts how we deliver disaster resources to 
survivors.
    We have our Grants Management Modernization program which 
is trying to put together 10 and 12 different grant platforms. 
Again, it directly impacts how we deliver preparedness and 
disaster grants across the country. Some of these things we 
haven't paid attention to for the long haul and, frankly, we 
are running out of time. We need to address it in a more 
significant way.
    Ms. Meng. Thank you. I yield back.
    Ms. Roybal-Allard. Mr. Newhouse.
    Mr. Newhouse. Thank you, Madam Chair.
    Thank you, Administrator Gaynor, for being here with us 
this afternoon. I appreciate your time and commitment to FEMA 
and protecting our citizens.
    I represent one of our great national laboratories, the 
Pacific Northwest National Laboratory which as you know, DHS 
along with DOE utilize for a lot of different things.
    For example, I think there is a predictive modeling that 
was developed at PNNL to understand flood risk for hurricane 
landfalls and just more recently using that model to understand 
drying time of affected areas so that that would allow first 
responders to prioritize their recovery efforts so, a lot of 
different things that have been beneficial to FEMA's efforts.
    And my question in the interest of time--thank you, Madam 
Chair--is just to hear from you your perspective on how you 
plan to continue using and engaging in the labs to ensure that 
DHS makes the best use of their unique expertise that is 
available.
    Mr. Gaynor. Yes, sir. We have used the lab in some really 
cutting edge modeling to make sure that we understand risk and 
threat. We have used some of that modeling to help us 
understand the impact of inland flooding and hurricanes, and we 
continue to delve into how we can better understand those risks 
and threats through modeling. I think part of it is how we save 
money doing that and how we can be smarter in the way we 
deliver disaster resources. More importantly, how do we build a 
better defense with Pre-Disaster Mitigation.
    So, if you understand the threat--and now we have this 
great program on the DRRA, how to deal with pre-disaster--that 
modeling is very helpful to design a program that makes a more 
significant impact than we have had the opportunity to do 
before.
    Again, really a great program. We support it, and we derive 
a lot from it. It is important to us to keep that partnership 
going.
    Mr. Newhouse. So, it helps on both sides, the preemptive 
efforts as well as coming to the rescue after an event.
    Mr. Gaynor. Absolutely. Yes, sir.
    Mr. Newhouse. Thank you. Thank you very much for that. I 
look forward to working with you.
    Mr. Gaynor. Thank you, sir.
    Mr. Newhouse. Thank you, Madam Chair.
    Ms. Roybal-Allard. Mr. Aguilar.
    Mr. Aguilar. I appreciate the courtesy of my colleagues 
allowing me to ask a question. Mr. Newhouse and Palazzo, that 
is for you. Thank you, gentlemen.
    Mr. Acting Administrator, in regards to surge capacity, it 
appears FEMA obviously had some issues responding to multiple 
extreme events--Harvey, Irma and Maria--within weeks apart. Can 
you tell me proactively what are some of the steps FEMA is 
taking to enhance surge capacity in preparation efforts, 
obviously, we have hurricane season months away. What are we 
doing now to prepare for that?
    Mr. Gaynor. Yes, sir.
    Hurricane season is 31 days away--not that we are counting. 
First of all, when you look back at the 2017-2018 hurricane and 
wildfire seasons, FEMA was not designed for that end of the 
spectrum. I think you have heard my predecessor say before that 
a bigger FEMA is not the answer. We need to be a smarter FEMA 
when we deal with disasters and how we source our staff.
    We have just completed a disaster workforce review to make 
sure we really understand what the skill sets are that we need 
to apply to a disaster and if we have enough of those. In some 
cases, we reduced the skill set because we have enough, in 
other cases like Public Assistance delivery, we need a lot more 
and we have a plan to try to close that gap.
    Right now when you look at Puerto Rico, we are spending a 
significant amount of money in disaster relief down there. We 
have committed the entire agency; all of our disaster Public 
Assistance experts from across FEMA, from Hawaii to the Virgin 
Islands, to help understand and help maximize the delivery of 
dollars.
    We have learned a lot. We are trying to be smarter. There 
are some challenges in trying to find and hire those skill sets 
but it is on the top of our charts to again be ready to deliver 
disaster assistance whether it is a small disaster or a 
catastrophic disaster.
    Mr. Aguilar. And whether there is one or whether there are 
multiple.
    Mr. Gaynor. That is correct, sir.
    Mr. Aguilar. Thank you, sir. I appreciate it.
    I yield back, Madam Chair.
    Ms. Roybal-Allard. That completes the first round of 
questions, Mr. Gaynor. We do have votes and we honestly don't 
know how long it is going to take. So, we have an agreement 
among our Committee members here that we will submit the rest 
of our questions so you are not kept here unnecessary for any 
long length of time.
    So, we appreciate your being here and we look forward to 
your answers to the questions that we will be submitting and 
others that we will have for you.
    Mr. Gaynor. Thank you very much. Honored to be here today 
and look forward to answering those questions. Thank you very 
much.
    [Questions and answers for the record follow:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   

                                           Tuesday, April 30, 2019.

    FISCAL YEAR 2020 BUDGET HEARING--DEPARTMENT OF HOMELAND SECURITY

                               WITNESSES

HON. KEVIN MCALEENAN, ACTING SECRETARY, DEPARTMENT OF HOMELAND SECURITY
HON. CHIP FULGHUM, ACTING UNDER SECRETARY FOR MANAGEMENT, DEPARTMENT OF 
    HOMELAND SECURITY
    Ms. Roybal-Allard. The committee will now come to order.
    Today, we welcome Kevin McAleenan, the acting Secretary of 
the Department of Homeland Security, along with Chip Fulghum, 
the acting Undersecretary for Management.
    Thank you both for being here this morning.
    Mr. Secretary, the past several weeks have been eventful 
for you and the department. You have had your hands full as the 
CBP Commissioner, and now you are responsible for ensuring the 
smooth functioning of the entire Department of Homeland 
Security.
    Your service as a career CBP employee brings an important 
credibility to your new position. Right now, this credibility 
is sorely needed, and it will be severely tested as you 
navigate your way through extremely controversial waters.
    Most of today's hearing will likely focus on immigration 
enforcement and the challenges at the border. Therefore, let me 
take a moment to recognize the dedication and the commitment of 
the men and women of the Department of Homeland Security who 
carry out the other vital missions that help protect the 
American public and our country from a wide range of threats.
    This includes DHS personnel who assist Americans following 
natural disasters, defend against cyber attacks, secure our 
airports, and investigate child exploitation and trafficking. 
The subcommittee will continue to work with you to ensure they 
have the resources that they need to carry out their important 
missions.
    This weekend's horrific terrorist attacks targeting 
religious minorities were a reminder that we must remain 
vigilant against the growing threat of domestic radicalization.
    I note that you recently announced the establishment of an 
Office of Targeted Violence and Terrorism Prevention. This 
office will help states and local communities counter the broad 
array of violent extremism in this country, including the 
growing threat from white nationalist groups.
    With regards to immigration enforcement and the challenges 
that we face at the border, my hope is we can work together to 
find a balance between protecting our borders and preserving 
our American values, which so far have been lacking in this 
administration.
    As we ensure the integrity of our borders, we must also 
treat immigrants with dignity and due process. And as we 
enforce immigration law, we must also use the discretion 
inherent in the law to prioritize enforcement efforts.
    We must also help facilitate the ability to enter the 
United States through legal means while understanding the 
devastating circumstances that often compel desperate people to 
seek safe haven any way they can. Above all, we must not 
demonize those who, like so many of our ancestors, came to this 
country to seek a better life.
    A few weeks ago, I, along with several other members and 
staff, travelled to El Paso and San Diego to see CBP and ICE 
operations. What we witnessed, to say the least, was extremely 
disturbing.
    We saw families waiting to be processed who were kept for 
hours in the hot sun or in crowded, makeshift shelters. We saw 
dozens of single adults standing shoulder to shoulder in Border 
Patrol holding cells designed for only 10 to 12 people.
    I understand that the surge of migrant families is 
unprecedented, but it is not an excuse for the conditions that 
we saw. I am aware that you are working to improve those 
conditions, but people are suffering and improvements are not 
happening fast enough.
    Addressing the humanitarian crisis in short term is in part 
a resource challenge, but it is also a challenge that requires 
a commitment by your department to respect the rights of 
immigrants and to treat them humanely.
    Unfortunately, that is not what I and other members of 
Congress see during our many oversight visits. I hope we can 
continue to work together to ensure this challenge is met.
    For the long term, we will need to find solutions that 
provide migrants with real alternatives to making the dangerous 
journey north. In the meantime, while ensuring due process for 
migrants, the timeline for adjudicating immigration cases must 
be reduced.
    Simply making it harder to claim asylum in the United 
States is not the answer. Furthermore, the migrant protection 
protocols do not achieve the balance that we need and they are 
making it harder for migrants to seek asylum in the United 
States.
    And unfortunately, efforts to ensure the safety and civil 
rights of migrants so far appear to be only an afterthought.
    To make matters worse, just last night, the president 
directed you and the attorney general to adjudicate all asylum 
applications within 180 days, except in exceptional 
circumstances; to require a fee for asylum applications and a 
fee for asylum-seekers to receive work authorization; and to 
deny work authorization to asylum-seekers who cross between the 
ports of entry.
    Mr. Secretary, as the head of the Department of Homeland 
Security, you will set the tone and establish the rules that 
will guide the department in meeting our shared goals of 
protecting our homeland and protecting our American values.
    I look forward to working with you and the members of the 
subcommittee to fairly, justly, and humanely address the 
challenges at our borders, and the other many challenges facing 
the department across its many critical missions. The 
president's memo is another tragic step in the wrong direction.
    Now, before turning to the acting secretary for his summary 
of his written statement, the full text of which will be put 
into the hearing record, I would like to recognize our 
distinguished ranking member, Mr. Fleischmann, for any remarks 
he may have.
    Mr. Fleischmann. Thank you, Madam Chairwoman.
    And for everyone involved, I do want to thank you for the 
tremendous courtesies and civil and cordial way that we have 
been able to work on these issues. There is a lot of common 
ground, and there are some bona fide differences, but I thank 
you for all these courtesies.
    Thank you, Mr. McAleenan and Mr. Fulghum, for being with us 
here today, for meeting with us on the Department of Homeland 
Security's fiscal 2020 budget request.
    I also want to specifically, Mr. Secretary, thank you for 
stepping into this role and leading this department.
    There is a lot to consider in the entirety of the 
department's budget. I am grateful that the chairwoman has held 
individual budget hearings with the individual agencies within 
the department as best as our schedule would allow. There is a 
lot of great work being done across the department.
    We have heard from the Coast Guard and the TSA. FEMA is 
later this afternoon, and CISA is tomorrow. We have had very 
informative meetings with ICE and CBP. It is clear that the 
people at the department are working every day to keep our 
country safe.
    Every leader from the department I have met with shares the 
same message. The people and their agencies are the most 
dedicated and committed to the mission of protecting our 
country. Please pass along our thanks for the work they are 
doing around the clock every day, sir.
    However, the situation we are seeing at our southwest 
border is really what is front and center these days. It is 
affecting the entire nation. It is pulling resources within the 
CBP, as we are seeing, with wait times at the various types of 
ports within the department.
    And I am sure that you are looking at reprogramming 
options, and I am sure there aren't many, and across of all 
government, from also high priorities, it is straining the 
resources and abilities of the NGOs in our country and in 
Mexico. It was the pin in the revolving negotiations around the 
partial shutdown of our Federal government.
    I am hopeful that together--both sides of the aisle and 
both sides of the capital--we can come to an agreement and a 
solution.
    But this is a budget hearing. So focusing on the 
department's budget request of almost $52 billion in net 
discretionary funding, I think there is many places where we 
can agree: resources for border security, technology, 
humanitarian aid, increases for cybersecurity and research, 
investment in the Coast Guard assets, and FTE investments to 
improve trade, travel, investigations, and enforcement.
    We all know the $5 billion requested for the physical 
border barrier will remain a challenge. We are up to it. Mr. 
Secretary, I think you have demonstrated a need for it.
    I look forward to your testimony on the department's 
proposed investments and initiatives, and I thank you for being 
here.
    Madam Chairwoman, I yield back.
    Ms. Roybal-Allard. Thank you, Mr. Fleischmann.
    And just a quick reminder to members that they will be 
called for questioning based on the seniority in which the 
hearing started.
    And also, please try and keep within the 5 minutes. We have 
a lot of questions. And I do appreciate the fact that the 
secretary has agreed to stay longer than the 2 hours that we 
originally had scheduled.
    And now I would like to turn to the chair of the full 
Appropriations Committee, Ms. Nita Lowey.
    Thank you so much, Madam Chair.
    I would like to thank Chairwoman Roybal-Allard and Ranking 
Member Fleischmann for holding this hearing.
    The Chairwoman. And I thank you, Mr. Secretary, and our 
witnesses, for joining us today.
    The Department of Homeland Security's mission to secure our 
nation from consistent and pervasive threats is not an easy 
one. And I understand that. We know this all too well in New 
York.
    To keep us safe, different components within DHS must 
effectively coordinate and cooperate, all while working closely 
with other Federal, State and, perhaps most importantly, local 
and tribal agencies.
    That is why the chaotic state of the Department of Homeland 
Security is so troubling. It seems like the car is driving off 
the cliff with no one to take the wheel, although, I guess, Mr. 
Secretary, you are now the driver. Congratulations.
    It has even been reported that your predecessor, Secretary 
Nielsen, was so wary of angering President Trump that she 
tiptoed around addressing Russian hacking and interference in 
our elections so as not to ignite his no collusion, anti-
Mueller ire.
    I must tell you, that issue keeps me awake at night, and I 
truly worry about it, and I hope it is a major focus of your 
work. I hope that when it comes to one of the biggest threats 
our country and democracy faces, you will focus on this with a 
laser beam.
    Your predecessor also instituted cruel and inhumane 
policies of ripping children from their families, which you 
helped to implement.
    I want to be very, very clear, and I think it is important 
that we understand this on both sides of the aisle today: 
Ensuring the integrity of our borders and enforcing immigration 
is difficult but necessary jobs, and we understand that. This 
administration's politicization of border security and 
heartless obsession with aggressive immigration enforcement are 
un-American and unacceptable.
    And you have an opportunity to turn it around and work with 
the Congress to humanely and ethically secure our borders. And 
we understand that we have to work together in a bipartisan way 
to secure our borders.
    Turning to fiscal year 2020, the budget request asks for an 
outrageous increase in ICE operations and support, including 
more than 1,000 additional ICE agents in support positions and 
a large increase in detention beds. These increases leave too 
much flexibility for ICE to support this administration's 
overly aggressive interior enforcement policies.
    Democrats simply will not provide these dangerously high 
levels of detention for an agency that has remained opaque and 
whose enforcement tactics are unbalanced.
    ICE should prioritize removal efforts on those with serious 
criminal histories, not those who have lived and worked 
peacefully in our communities for decades or those who are 
fleeing unspeakable violence in hopes of safety and a better 
future.
    The budget also proposes a large cut to the preparedness 
grants programs, including a $214 million decrease for the 
Urban Areas Security Initiative, which assists high-threat, 
high-density urban areas where the consequences of attacks 
would be most catastrophic. That also includes a $193 million 
cut to the state Homeland Security Grant Program, which 
enhances local law enforcement's ability to prevent and respond 
to acts of terrorism and other disasters.
    State and local jurisdictions like those in my district 
cannot effectively plan for the worst when support from their 
Federal partner is inconsistent or insufficient. These programs 
need adequate funding to keep our communities safe.
    This committee, I want to assure you, is eager to support 
the department's essential and complex missions. But we cannot 
do that at the expense of state and local preparedness or our 
American values.
    So, Mr. Secretary, I look forward to a discussion today, 
and I thank you for being here. We will have a lively 
discussion, I am sure.
    Thank you very much.
    Ms. Roybal-Allard. And now I would like to turn to the 
distinguished ranking member of the full committee, Ms. 
Granger.
    Ms. Granger. Thank you, Madam Chair--today to present the 
fiscal year 2020 budget for the Department of Homeland 
Security.
    You recently assumed the enormous responsibility as acting 
secretary of the department, but you are also assisted by a 
dedicated workforce working tirelessly to protect our nation. 
And I commend their efforts and your commitment to the 
department's mission.
    In my home state of Texas, we have a very important 
relationship with neighbors to our south. In many border towns 
and cities, our history and our economy, our families and our 
culture are very intertwined. And I have traveled to the 
southern border many times during my lifetime.
    Unfortunately, we have a humanitarian and security crisis 
on our hands which I have been able to see for myself firsthand 
on two very recent trips to the border. The facts are 
undeniable and the strain on our system is unsustainable.
    There are record-breaking numbers of people, coming mainly 
from Central American countries, but also from places around 
the world. I was told on the last trip, 51 countries coming--
people coming across our southern border, through Mexico to our 
border.
    Unauthorized border crossings are now at a 12-year high. 
You know that. More than 100,000 people come to the border. 
They came, 100,000 people in March alone, as compared to 
approximately 400,000 in all of last year.
    As more migrants claim asylum, the pressures on the system 
will continue to rise. Homeland security agencies have a 
staggering workload, and the immigration courts, which are 
already facing a backlog of up to 5 years, will become even 
more overwhelmed.
    Unfortunately, members of this committee can't solve this 
problem with funding alone. We need policy solutions, as well, 
and we have to work together with our colleagues on the 
authorizing committees to make changes to immigration laws. I 
hope members can come together in a bipartisan way to address 
these very difficult issues.
    I know you have decades of experience with Customs and 
Border Patrol, and we thank you for being willing to serve the 
country in this new role. Your insights were extremely helpful 
as we completed the fiscal year 2019 appropriations process, 
and we look forward to continuing that partnership as we make 
funding decisions for this year. I thank you.
    And I thank Madam Chair, and I yield back.
    Ms. Roybal-Allard. Okay, Mr. Secretary, on our trip to the 
border earlier this month, we witnessed migrants continuing to 
be held in inhumane conditions.
    Oh, I am sorry. I am so anxious to get to the questions 
because we have so many.
    Please, continue with your opening statement.

             Opening Statement: Acting Secretary McAleenan

    Mr. McAleenan. Thank you, Madam Chairwoman.
    Chairwoman Roybal-Allard, Ranking Member Fleischmann, full 
committee Chairwoman Nita Lowey, and Ranking Member Kay 
Granger, I appreciate the opportunity to testify before you 
today. It is a true honor to serve as the acting secretary and 
to represent the distinguished men and women of the Department 
of Homeland Security.
    In my view, DHS has the most compelling mission in 
government: to safeguard the American people, our homeland, and 
our values. As acting secretary, I intend to work with this 
committee and serve as an advocate for the men and women of the 
Department to ensure they have the resources they need to carry 
out critical missions on half of the American people. And 
today, I have the privilege of presenting to you the 
President's fiscal year 2020 budget request for the Department 
of Homeland Security.
    The 2020 budget would strengthen the security of our nation 
through enhanced border security, immigration enforcement, 
cybersecurity, transportation security, counterterrorism, and 
resilience to disasters.
    With regard to border security, as you are all aware, we 
are in the midst of an ongoing security and humanitarian crisis 
at our southwest border. The Department, at the request of our 
front-line officers and agents, has worked with this committee 
to make clear that we need additional resources to respond to 
the crisis.
    In March alone, CBP apprehended and encountered more than 
103,000 migrants crossing without legal status, the most in 1 
month for more than a decade.
    On April 16, we had almost 5,000 people cross the border 
without authorization in a single day, almost 1,000 of them in 
just three large groups. Remarkably, these three large groups 
in one 24-hour period exceeded the total number of large groups 
apprehended in all of fiscal year 2017.
    Simply put, the system is full, and we are well beyond our 
capacity. This means that new waves of vulnerable populations 
are arriving here and exacerbating the already urgent 
humanitarian security crisis at the border. We don't have room 
to hold them, we don't have the authority to remove them fairly 
and expeditiously, and they are not likely to be allowed to 
remain in the country at the end of their immigration 
proceedings. The status quo is not acceptable.
    Through supplemental requests and emergency declarations, 
we have worked to do everything that we can to address the 
immediate and dire humanitarian crisis. We have deployed 
medical teams from the U.S. Coast Guard. We have received help 
from the Departments of Defense and Health and Human Services. 
We have redeployed CBP officers. And we have engaged with non-
profits across the country.
    But we do need more authorities, as the ranking member 
noted, and more resources to definitively address the crisis. 
We need sustained investment in additional emergency support at 
the southwest border to overcome the humanitarian and security 
crisis that we face.
    The President's budget requests $523 million to address the 
humanitarian crisis. This money will allow us to provide better 
care for those who we come in contact with through 
apprehension, care and custody, detention, and, where 
appropriate, removal.
    Second, to address the border security crisis, it requests 
$5 billion in funding for the construction of approximately 200 
miles of a new border wall system. This is a proven deterrent 
that will enhance our ability to apprehend those entering our 
nation illegally.
    It also calls for 750 additional Border Patrol agents, 273 
Customs and Border Protection officers, and more than 1,660 ICE 
front-line and support personnel.
    We will also make much-needed upgrades to sensors, command 
and control systems, and aircraft to help our men and women 
combat criminals who are profiting from human suffering. I hear 
weekly from our operators on the border that these upgrades are 
badly needed in their fight against transnational criminal 
organizations, smugglers, and gangs.
    I would please ask for your support to our men and women 
who are doing heroic work along the border.
    Although our 2020 budget will help address this crisis, we 
will need additional funding even sooner. Given the scale of 
what we are facing, we will exhaust our resources before the 
end of this fiscal year, which is why this week the 
administration will be sending a supplemental funding request 
to the Congress.
    As I am sure you are only too aware, DHS is not the only 
agency involved in the humanitarian crisis unfolding daily at 
our southern border. Our partners at the Department of Health 
and Human Services are also on the brink of running out of 
resources.
    The administration's supplemental request will address 
critical humanitarian requirements and help to ensure the 
crisis is managed in an operationally effective, humane, and 
safe manner.
    The administration's supplemental request will not only 
provide critical humanitarian assistance, including temporary 
and semi-permanent migrant processing facilities at the 
southern border where families and children will receive timely 
and appropriate medical attention, food, and temporary shelter 
prior to being transferred to other residential locations, but 
also funding for border operations, to include surge personnel, 
expenses, and increased detention capacity, and, finally, for 
mission-support activities, including upgrades to our overtaxed 
information technology systems to manage and process migrants 
accurately, efficiently, and quickly.
    The supplemental request is part one. The second request 
will be the administration's legislative proposal, which will 
be sent to Congress shortly, to address the key drivers of the 
humanitarian crisis.
    But even as we face a challenging border security and 
humanitarian crisis that is a central focus and my central task 
as acting secretary, DHS is always a multi-mission department. 
And we will not lose momentum across any of our key missions in 
the numerous efforts that we are facing, including, critically, 
cybersecurity, securing the 2020 elections, preparing for the 
upcoming hurricane season, and everything else that we are 
asked to do.
    The President's budget also requests $1.3 billion to assess 
evolving cybersecurity risks, [and to] protect Federal 
government information systems and critical infrastructure. The 
budget supports the launch of Protect 2020, the new initiative 
designed to get all states to a baseline level of election 
infrastructure cybersecurity well before the national elections 
of 2020, building on the progress we made during the election 
season in 2018.
    Although DHS does not control or directly oversee state and 
local election infrastructure, we can provide much-needed 
technical assistance and support to our willing partners.
    Our air travel system also needs to continue to evolve and 
upgrade in our security posture. Additional transportation 
security officers and technology will uphold our security 
effectiveness and stay ahead of increasing cost and security 
demands at airports nationwide. The $3.3 billion requested for 
TSA includes funding for an initial 700 screeners and 350 
computed tomography units.
    I want to close by reiterating that the strength of DHS is 
in its people. I would be remiss if I didn't mention the 
tremendous dedication of our front-line officers and agents 
confronting this crisis each day. And I appreciate the members 
of the committee going down to see our personnel, whether it is 
at the border, here, seeing TSA at our airports just as you did 
yesterday, and really getting to know the challenges they face 
and the way they are tackling those challenges.
    Investment in our workforce is going to remain a very high 
priority for me. It was at CBP. It will be during my tenure as 
acting secretary.
    I am very glad the President's budget provides the 
necessary funding to accomplish our vital mission alongside 
funding retention and morale programs for our personnel. The 
resolve and devotion of the men and women of DHS is on display 
daily, and the security of our nation depends on appropriate 
resources to help them to meet the new and challenging 
circumstances.
    As the committee knows, I am 2\1/2\ weeks into this role, 
so I am joined at the table today by Acting Undersecretary Chip 
Fulghum, a tremendous professional whom I have known for almost 
a decade, who has a multi-decade career of service both in the 
United States Air Force as well as the Department of Homeland 
Security.
    He is doing this side by side with me in his last week at 
the Department of Homeland Security, because he is committed to 
providing this committee with the information they need to 
understand our appropriations request and to effectively assess 
our budget.
    And so I just want to thank you, Chip, for sitting next to 
me.
    I will definitely be relying on his expertise on multiple 
areas during our conversation today.
    So thank you, Madam Chairwoman. I look forward to the 
conversation this morning.
    [The information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
             DETENTION: IMPROVING CONDITIONS AND PROCESSING

    Ms. Roybal-Allard. Mr. Secretary, as I mentioned in my 
opening statement, on our trip to the border earlier this 
month, we witnessed migrants continuing to be held in inhumane 
conditions.
    While we did witness CBP personnel trying to manage the 
flow and improve conditions where they could, we also saw many 
inefficiencies among departmental components that are 
continuing to provide delays in processing, transportation, and 
in improving of conditions.
    What steps can be taken to improve efficiencies and the 
department's ability to quickly respond to changing conditions? 
And what is the role of the Interagency Border Emergency Cell 
that was established in April?
    Mr. McAleenan. Thank you for the question.
    So, I know you visited El Paso, Madam Chairwoman. This is 
our sector of the border that has had the most significant 
increase of any across the entire border, more than a 400-
percent increase in the arrivals of family units over last 
year. That has absolutely stretched our resources and our 
processes, both at CBP and across our interagency partners in 
the immigration system. And we are taking a number of steps to 
address that.
    First of all, we appreciate the committees support in 
fiscal year 2019, to provide additional funding to address the 
humanitarian challenges. That means facilities, transportation, 
medical care, and also food and other care and custody support 
for those in CBP custody.
    We are applying that funding. We are in the process of 
delivering the soft-sided temporary processing center that is 
going to allow our El Paso sector to put families and children 
who are arriving in a more appropriate setting during their 
initial processing at the border. That is absolutely critical.
    Our second step will be to upgrade that with a more modular 
and hard-sided facility.
    And then, of course, we would like to establish a permanent 
central processing center in El Paso that would provide the 
appropriate setting for families and children with a whole 
range of services, from medical care to showers, to laundry, 
and really allow us to have co-located partnerships with CIS 
[U.S. Citizenship and Immigration Services] and with U.S. 
Immigrations and Customs Enforcement in one location.
    That is the goal, but we are starting with an immediate 
effort to provide a better setting in our soft-sided facility.
    You asked how we can streamline these processes. I would 
like to work on a unified immigration portal that will provide 
a connection between the various systems of the agencies that 
oversee immigration and make sure that an individual being 
processed can be tracked throughout the system efficiently and 
in an expedited manner, to both improve our processing and 
improve the integrity of the system.
    And then I mentioned the critical element of co-location. 
And we are working closely, obviously, within the DHS family 
across the three immigration bureaus, working with Health and 
Human Services. And it has got to be a very streamline process, 
so that unaccompanied children spend as little time as possible 
at the border in a Border Patrol station or a related facility, 
but also working closely with our immigration courts at the 
Executive Office of Immigration Review. That we can do through 
improved communication, better I.T. systems, and a unified 
approach to this challenge.
    But we have a lot of work to do, as you have seen, and I am 
personally committed to ensuring that the facility conditions 
are appropriate for those crossing the border.

                   INTERAGENCY BORDER EMERGENCY CELL

    Ms. Roybal-Allard. Okay. And the role of the Interagency 
Border Emergency Cell is----
    Mr. McAleenan. Sure. The main function of the IBEC was to--
the Interagency Border Emergency Cell was to identify those 
interagency requirements to respond immediately to the 
humanitarian challenge at the border.
    So they have helped to refine those same categories and 
needs--facilities, transportation, medical care, how do we get 
volunteers down to the border from other DHS components that 
have skill sets that we need, for instance, a driver's license, 
a commercial driver's license.
    When we have conveyances that we needed to move migrants 
who are crossing, we don't always have the people to drive 
them. So simple things like that. We have attorneys surging to 
the border to help process expeditiously and fairly, as you 
noted, which is critical.
    And so they have developed those requirements, which we 
have gone to our interagency partners, including the Department 
of Defense, to help us meet in the near-term.
    Ms. Roybal-Allard. Okay. And let me just say that, the 
administration has for some time called upon Congress to take 
immediate action and we have not received any requests from you 
in that regard. So I am happy that you have stated that we will 
be receiving a request from you.
    And my time is up. And so, I would like to turn it over to 
Mr. Fleischmann.

                        BORDER SECURITY: BARRIER

    Mr. Fleischmann. Thank you, Madam Chairwoman.
    Mr. McAleenan, much has been made about building a barrier 
across the southwest border of the country, so I have some very 
pointed questions. A barrier was not an invention of the 
previous Congress or even this current administration. Is that 
correct, sir?
    Mr. McAleenan. That is correct.
    Mr. Fleischmann. How many miles of fence or barrier were 
constructed prior to January 2017, sir?
    Mr. McAleenan. Approximately 654 miles.

                    BORDER SECURITY IMPROVEMENT PLAN

    Mr. Fleischmann. Thank you, sir.
    The fiscal year 2018 Border Security Improvement Plan was 
mandated in the fiscal 2018 appropriations bill. We have heard 
from you, in your capacity as the commissioner of CBP, that 
this plan was the result of the experiences and needs of agents 
and officers on the ground at the border. How was the plan 
created? And who had input to determine the priorities, sir?
    Mr. McAleenan. That is correct, Congressman. Our Border 
Security Improvement Plan is derived from the men and women in 
the field identifying those technologies and capabilities that 
they need to enhance the security of the border in their areas.
    As you know from visiting us on the border, each area of 
the border has different challenges, in terms of terrain, in 
terms of existing technology, in terms of what barriers that we 
have. And so our sector chiefs on the Border Patrol side, our 
directors of field operations are putting their requirements 
forward for what they need in their areas of responsibility.
    We go through a rigorous process to access and analyze 
those, to validate them and then combine them, before we submit 
the report to Congress on the Border Security Improvement Plan.
    Mr. Fleischmann. Yes, sir. So just to be abundantly clear, 
the input is coming from the men and women who are actually 
doing the work there on the ground and that is what you are 
acting upon, sir?
    Mr. McAleenan. That is correct.
    Mr. Fleischmann. Very good.
    Is CBP following the published 2018 Border Security 
Improvement Plan in determining where to invest construction 
funds?
    Mr. McAleenan. Yes.
    Mr. Fleischmann. Any deviations?
    Mr. McAleenan. I mean, that is our set of priorities that 
we are asking for funding against. And so, that is going to be 
our guidepost.

               BORDER SECURITY: CONSTRUCTION RESTRICTIONS

    Mr. Fleischmann. Thank you.
    Is CBP following the restrictions in the fiscal 2019 bill 
placed on various sections of the border when determining where 
to invest construction funds?
    Mr. McAleenan. Yes, very, very carefully. We will be 
engaging in the consultation required; we will be, obviously, 
mindful of those areas where we are not going to be able to 
build barrier at this time. But of course, we will be following 
those restrictions.
    Mr. Fleischmann. So you have been following the fiscal 2018 
and fiscal 2019 restrictions as laid out by the Congress?
    Mr. McAleenan. Yes, Congressman.
    Mr. Fleischmann. Thank you, sir.
    So, even though the president has transferred other funds, 
you are still following the priorities and plans in the 
published document and the restrictions of the fiscal 2019 
bill?
    Mr. McAleenan. Yes, that is our intent.

             BORDER SECURITY: HIRING, BORDER PATROL AGENTS

    Mr. Fleischmann. Excellent. Thank you.
    I am going to move to hiring then, sir. Staffing and 
retention initiatives are highlighted across many, if not 
almost all, the department's components in the 2020 budget 
request, with funds requested to back up increased numbers.
    The Customs and Border Protection prior year budgets have 
also proposed increasing the amount of agents just like this 
year, but the department hasn't been able to provide 
justification supporting the request. The committee directed 
the department to complete the long overdue staffing report by 
September of this year.
    Further, the I.G. has recently published reports 
highlighting other challenges CBP faces to onboarding a large 
number of people in a short period of time, such as training 
facility limitations and capacity issues in existing agency 
offices.
    I have a question, sir. Has the CBP made progress on a 
border agent staffing methodology, sir?
    Mr. McAleenan. Yes. We have. The personnel requirements 
determination, as you noted, will be delivered to Congress by 
the end of this fiscal year.
    Mr. Fleischmann. Okay. Does the model you are developing 
support the request of 750 additional border agents in 2020, 
sir?
    Mr. McAleenan. Yes, it will support probably more than 
that, but that is the number that we believe we can hire within 
a fiscal year.
    Mr. Fleischmann. And one final question. How will the 
department resolve other issues of training and facility 
capacity to meet the influx of new hires?
    Mr. McAleenan. It is a close partnership between U.S. 
Customs and Border Protection and the Federal Law Enforcement 
Training Centers [FLETC]. And we have worked that out in our 
officer context, where we are enjoying a very successful set of 
hiring--2,000 net CBP officers, over the last 5 years, and we 
are going to hire a net of 1,000 or more this fiscal year. So 
we work to balance the classes at FLETC. And we will be doing 
that for the Border Patrol academy as we seek to add additional 
agents as well.
    Mr. Fleischmann. Thank you, sir. And as I said in my 
opening statement, I want to thank you, Mr. Fulghum, and also 
the outstanding men and women who work in Homeland Security 
every day to keep our great nation safe. And with that, I will 
yield back.
    Mr. McAleenan. Thank you.
    Ms. Roybal-Allard. Ms. Lowey.

                  MIGRANT PROTECTION PROTOCOLS PROGRAM

    The Chairwoman. Thank you, Madam Chair.
    And I want to welcome again the secretary who is taking on 
a really important responsibility. Mr. Secretary, as you know, 
the Migrant Protection Protocols Program was put in place to 
return arriving migrants to Mexico while their immigration 
claims are processed. It is not clear to me how this program 
works. And DHS has only recently begun to provide limited 
details to Congress. This is despite the fact that the program 
has now expanded to other areas, and I understand El Paso is 
one of those areas.
    Given that the program is called Migrant Protection 
Protocols, how does the Department of Homeland Security 
coordinate with Mexico to ensure the safety and well-being of 
returned migrants? And will the executive office for 
immigration review prioritize these cases? Or will migrants be 
forced to remain in Mexico for possibly years as they await 
adjudication of their cases?
    Mr. McAleenan. Thank you for the question, Congresswoman. 
So, the migrant protection protocols are an important effort to 
provide greater access to court hearings, especially at our 
ports of entry where we are working diligently to provide 
access to asylum seekers lawfully presenting without documents, 
but also to achieve an actual court resolution in a reasonable 
amount of time.
    This is something that I think is the fundamental challenge 
we face with the system right now. It is actually getting 
results from the immigration proceeding that can be effectuated 
in a timely manner.
    And what the migrant protection protocols allow us to do is 
two things. One, it allows us to take more people in at ports 
of entry who are presenting asylum claims because we can 
process them without the limitations in our capacity from the 
custody requirements or from the non-detained docket for the 
Executive Office of Immigration Review.
    As you asked, will judges be dedicated to the Migrant 
Protection Protocol? Yes. That is our commitment from DOJ 
[Department of Justice], that they will be able to dedicate 
judges and dockets to the MPP to actually get through hearings 
in months instead of years before even an initial hearing, as 
we currently face today. The other thing it will do is it will 
take away the incentive, which exists right now, to cross 
illegally instead of presenting lawfully at a port of entry.
    We have increased our asylum processing at ports of entry 
120 percent from fiscal year 2017 to 2018, and we are up 
another 100 percent in fiscal year 2019 over 2017. We are on 
pace for more than 70,000 asylum applications at ports of entry 
in this fiscal year. To keep up with that, we need to ensure 
that we provide access to a process.
    In terms of working with Mexico, we obviously had 
conversations before implementing this program to receive 
people back. Mexico is a sovereign nation. That is their 
decision. They made the decision to accept them and put public 
guarantees over protection from a humanitarian perspective, as 
well as access to legal counsel and access to return to the 
ports of entry to be brought to their court hearings.
    The Chairwoman. So, just to clarify because I appreciate 
your answer, you are saying that even though they are being 
sent to Mexico, they will have, and are having, access to legal 
counsel?
    Mr. McAleenan. So, each migrant and each asylum applicant 
is given a list of legal providers that are available. In many 
of these areas, and the main implementation, as you noted, is 
both in Baja, California, or Tijuana primarily, as well as 
Juarez, Chihuahua. We have U.S. attorneys and nongovernment 
organizations that have bi-national presence and collaboration.
    And so we make sure they know who they can call if they 
don't already have an attorney identified, and they have that 
opportunity also to meet with their counsel when they come into 
the United States before their hearing, as well.

                     DETENTION: SEPARATIONS, FAMILY

    The Chairwoman. I would appreciate additional information 
as to how that process is working and whether you think it is 
effective, and whether most or all of the migrants do have 
legal counsel. I would appreciate that.
    The zero-tolerance policy instituted by the Trump 
administration led to the separation of thousands of families. 
And while this inhumane policy technically ended last June, as 
I understand it, CBP continues to separate some children from 
their families.
    I know you described family separation as not worth it, but 
can you explain the circumstances under which CBP will separate 
a child from the parent, legal guardian, or someone claiming 
that relationship?
    Oh, I have--maybe just answer that, I see I've run out of 
time.
    Ms. Roybal-Allard. We will allow him to answer.
    The Chairwoman. Please answer.
    Mr. McAleenan. Yes, thank you.
    So, the conditions where a child might be separated from a 
lawful parent or guardian at this time are extraordinarily 
rare. It is happening for fewer than two per day even though we 
have 1,600-plus families arriving per day. These conditions are 
prescribed both in the executive order from June 20th of last 
year as well as the Ms. L case court order, and therefore, the 
safety and welfare of the child--communicable disease, a 
serious criminal history, a risk presented by that adult to the 
child.
    And so it is being done very carefully, extraordinarily 
rare circumstances, and that is the only time the separation 
occurs.
    The other part of your question, though, is when a family 
member crosses with a child. Under the Trafficking Victims 
Protection Reauthorization Act, a family unit is defined as a 
parent or guardian, not necessarily just another family member. 
So, in those cases, we do have to treat the child as 
unaccompanied, as well, under the law.
    The Chairwoman. To be continued. I know I have run out of 
time. Thank you, sir.
    Ms. Roybal-Allard. Ms. Granger.

                       ALTERNATIVES TO DETENTION

    Mr. Granger. Thank you.
    Because of the sheer volume of people coming to the border 
to claim asylum and the resulting strain on the immigration 
system, record numbers of migrants are being released into the 
United States with court dates and directions to check in with 
their local ICE offices. Many of them completely ignore those 
instructions. We heard on one trip to the border that 
monitoring bracelets were removed as soon as the migrants left 
law enforcement custody in many cases.
    We have invested billions of dollars in alternatives to 
detention. I would ask you, do these programs work, which ones 
of them work, does ICE have the resources to deal with a number 
of immigrants both in terms of those presenting at the border 
and tracking people going through the asylum process?
    While this issue is mainly in the jurisdiction of the 
Department of Justice, do you have suggestions on how the 
immigration courts could speed up the processing and reduce 
their backlog?
    Mr. McAleenan. Thank you, Congresswoman. Several important 
questions there.
    First of all, that is going to be an area that I look at 
very carefully along with the acting Director of ICE Matt 
Albence.
    How can we make our alternatives to detention effective for 
ensuring that people are present for their court hearings and 
that those results that immigration judges eventually find can 
be appropriately effectuated?
    We do not have that process working effectively right now 
as you noted. We are very concerned about people cutting off 
their bracelets and not showing up for court hearings. That is 
not a process with integrity right now.
    We do recognize the committee's provision of additional 
resources in fiscal year 2019 to look at a case management 
program in a renewed light for families that would maybe help 
us ensure that people actually go through the process in an 
expedited manner.
    One of the things that I will be talking about with 
Attorney General Barr and James McHenry who oversees the 
Executive Office of Immigration Review is how we can move 
people through a non-detained docket for those recent border 
arrivals in an effective manner.
    That is absolutely critical. But in terms of your broader 
point, the way that we are actually achieving results is when 
we are able to detain someone in custody through dependency of 
their immigration proceedings.
    That is what works with single adults right now, and that 
is an essential aspect of what we are going to be asking for 
from Congress for families, being able to keep them together in 
an appropriate setting for a fair and expeditious process.
    That is going to be how we establish integrity for that 
group of border crossers, as well.

                         UNACCOMPANIED CHILDREN

    Mr. Granger. And I think all of us that are on this 
subcommittee and all the members of Congress, we realize that 
there were good processes put together at some time. The sheer 
numbers today, we have new process and changes to laws that are 
going to be very important.
    I was on the border on one of the trips recently and the 
person that was working so hard and said what we need is a 
permanent structure of this, I said, no, we don't need a 
permanent structure because we can't do this permanently, the 
numbers are so overwhelming, I--Customs and Border Patrol, they 
are like our military. They say we will do with whatever you 
give us.
    Well, they don't say that anymore because they can't do it. 
And so we really--all of us need to work together with you and 
all that are trying to figure this thing out and how we stop 
those sheer numbers and how we deal with it as we go.
    I have got a little bit more time. You have had such a long 
experience with this issue. How are you seeing the changes 
occur? And I go back to far before this started something that 
we were watching so carefully, to back to 2014 when Speaker 
Boehner asked me to go to the border and see these 
unaccompanied children and what was happening there and make 
recommendations.
    That is when we made recommendations and I went to all 
three countries they were coming from and asked questions of 
the administration there and I said, you want your children 
back, first of all, how much do you want your children back?
    And then what can you do in these countries to make them 
safer so that parents don't take their children to a country 
that they have never been to or pay someone that they have 
never met before.
    So how are you seeing this increasing from that time and 
also just in the last 6 to 8 months?
    Mr. McAleenan. So there has been a number of changes, I 
mean, from that first year of crisis with unaccompanied 
children and family units. I was deputy commissioner of U.S. 
Customs and Border Protection at the time.
    And I think the main challenge we are facing is just a 
growing awareness and the exploitation of that awareness by 
smugglers of the weaknesses in our immigration laws and our 
system.
    We are seeing smugglers advertise differentiated offerings 
for getting to our border in an expedited time, making very 
clear that if people cross with a child, they are going to be 
allowed a different process here in the United States.
    And that has been an invitational posture for the system 
that has been overwhelming as you note. I would recommend to 
the committee the recent Homeland Security Advisory Council 
report, just 2 weeks ago.
    This is a bipartisan group of experts who wrote a non-
partisan report that outlined the crisis we are facing, 
difficulty with facilities and just sheer volume and 
processing, but also very clearly legislative solutions that 
would address both the families and children crossing as well 
as partnering with Central American countries to create greater 
integrity from the beginning of that process forward.
    So I think that is a very good set of external 
recommendations that really in my view accord with what we are 
seeing on the border.
    Mr. Granger. Thank you for reminding us of that. Thank you.
    Ms. Roybal-Allard. Mr. Cuellar.

              U.S. CUSTOMS AND BORDER PROTECTION OFFICERS

    Mr. Cuellar. Thank you, Madam Chair. Mr. Secretary, I 
appreciate the work that you do. As you know, I go to my 
hometown on the border, so I am at the border every week. I get 
to get together with CBP officers and Border Patrol almost 
every week.
    So I know the men and women that work for you all down 
there. Let me tell you, they are doing a heck of a job and I 
want to commend them for the work that they do. This CBP 
enforcement action process, and I asked my staff to put this 
together as you can see, Mr. Secretary, it is a complicated 
matter. It is a very complicated matter.
    Same thing for the arrest and removal process, it is a 
complicated matter and I hope we can sit down in a bipartisan 
way and find some ways to address it, including if you are 
supplemental--I wish you would talk to the Department of 
Justice because we added 50 new judge teams, and I think it was 
2 days after we did the conference report, they sent out a 
letter and said we are out of money because of interpreter 
costs.
    So we haven't hired any of the judges that we added. So we 
keep talking about adding judges, but there is a freeze on the 
judges that we just added in February. So I wish you would talk 
to them and make sure they make that as a supplemental.
    One issue that I want to bring up is of course trade. Every 
day there is more than $1.5 billion of trade between the U.S. 
and Mexico. As you know, you all moved 545 CBP officers down to 
the McAllen area.
    Fifteen percent of that came from the Laredo district, 
which is the largest port we handle, when you put everything, 7 
out of every 10 trucks that come from Mexico, across Mexico, 
our border is through our port of entry.
    You and I spoke and I gave you five different ideas, and I 
think out of the 545 you all have brought back 252 back out of 
the 545. I asked you to spread the pain and go, with all due 
respect, naming any cities here, but any of the cities that, 
you know, instead of just taking them from the border, spread 
the pain and bring CBP officers.
    I asked you about overtime, I asked you about cap waivers, 
I asked about volunteer forces, and the recently retired 
officers also, Coast Guard also. And so I gave you different 
ideas. Even the Public Private Partnership law that we passed 
some years ago where there are--the private industries are 
willing to pay to get some of this work processed, we still 
need to do more and I really would appreciate your help so we 
can get our CBP officers back. They should not be changing 
diapers, they should not be making food.
    I think that is--you know, there is another way to address 
that and this is why we requested in this new budget, and 
hopefully the committee will go with this, 1,200 new entry 
positions for Border Patrol and CBP, where they can do 
everything except arrest people, but I don't think trained 
officers should be changing diapers or making some of those 
changes.
    I know that is important work, but the immigration issue 
should not affect the trade issue, which is a very important 
part. So, I would appreciate anything you can do to bring back 
those officers.
    Mr. McAleenan. Thank you Congressman. And obviously I share 
your concerns about law enforcement professionals, highly 
trained, working on care and custody issues and obviously very 
concerned about CBP officers being diverted from their port of 
entry responsibilities, processing that incredible volume of 
lawful trade, as well as their counternarcotics missions and 
other critical missions at the ports of entry.
    That was an immediate term response to a crisis in terms of 
the numbers in our custody and the time people were facing in 
custody that we needed to provide some support to our Border 
Patrol agents.
    Obviously, we needed to start with folks who were nearby, 
that is why Laredo and some of the other land border ports of 
entry were most affected in that first tranche.
    We have expanded, as you noted, two additional field 
offices providing support, we have advised stakeholders in the 
aviation industry for international air arrivals at the sea 
ports that there are going to be impacts in other areas as 
well.
    But, we have done all of those recommendations, we have 
increased overtime, we have put in cap waivers, we have 
volunteer forces now deployed, and we are using rehired 
annuitants, as well, it is a bit of a process, but we are 
bringing on as many as we can, because we need all hands on 
deck.
    Mr. Cuellar. Yes. I hate to interrupt, because my time is 
almost up and I want to speak to my 5 minutes.
    Do you know when we can get our officers back?
    Mr. McAleenan. So, that depends on the flow, and it depends 
on how successful we are in providing the volunteer forces and 
our contracting time for bringing in some of these contracted 
resources.
    Mr. Cuellar. So, you spread the pain to other places? 
Because, it is not fair that the Laredo district has taken 15 
percent of the cut or transfers and I really would appreciate 
your help on that. And I will follow up. My time is up.
    Mr. McAleenan. We are balancing across field offices, 
understand.
    Mr. Cuellar. Thank you.
    Ms. Roybal-Allard. Mr. Newhouse.

    SCIENCE AND TECHNOLOGY DIRECTORATE, COUNTERING WEAPONS OF MASS 
                           DESTRUCTION OFFICE

    Mr. Newhouse. Thank you, Madam Chair and Mr. Ranking 
Member, and for also our Chair of the Committee and Ranking 
Member of the Committee to be here this morning.
    Mr. Acting Secretary, as well as Mr. Acting Undersecretary, 
welcome to the committee. Thank you for being here with us 
today and, Mr. Secretary, want to thank you for your 
outstanding service and long career of helping to protect our 
nation. I also want to thank you for your stepping up into this 
leadership role and I certainly look forward to working with 
you.
    I have been to the border myself, both north from the state 
of Washington, it is as an important part of your 
responsibility, but also to the southern border. And certainly 
I have, as well as many others, have seen firsthand certainly 
the dedication of the people that are protecting our border to 
work in as humanely a way as possible to--as we work as hard as 
we can to deal with the onslaught of people coming across our 
border.
    It truly is a crisis in many ways. It is an impossible task 
almost that we are asking you to deal with, and if we want 
improvements and changes, in my opinion, it is up to us as 
Congress to provide you with those resources and policies 
necessary for you to carry out this impossible job. So, thank 
you for being here with us this morning to help explain what it 
is you need.
    As you probably know in your 2\1/2\ weeks you are learning 
a lot of things, but there are a number of reorganizations 
going on across the department. I am a representative of one of 
the national laboratories, the Pacific Northwest National 
Laboratory in Washington State. It has been one of the largest 
performers of research and development for DHS across the 
National Lab System and I am interested in how things are going 
with some of the R&D organizations within the department.
    And so, as you grow into this new role at DHS, could I ask 
you your perspective, at this point, on how the reorganizations 
are going in the science and technology directorate and with 
the merger of the Domestic Nuclear Detection Office and the 
Office of Health Affairs that will be forming the Countering 
Weapons of Mass Destruction Office? So, could you give us some 
ideas about that?
    Mr. McAleenan. Sure. And thank you, Congressman, and 
appreciate your comments on the Pacific Northwest National 
Laboratories [PNNL].
    During my career at CBP, one of the first things we did 
post-9/11 to increase our security was to develop the 
capability to detect radiological and nuclear devices crossing 
the border. That work would have not been possible without PNNL 
and I have enjoyed a long-standing partnership in my career 
with the experts at PNNL to help us establish that capability.
    And from our perspective, R&D is absolutely essential, 
given the types of threats we are facing, whether it is in the 
cyberspace, whether it is in unaccompanied aerial systems that 
are challenging us both at the border and in security areas 
away from the border, making sure that we are doing that 
effectively is going to be essential.
    You mentioned both S&T and our Countering Weapons of Mass 
Destruction Office. I am very excited to engage in this role 
with both elements. S&T has helped CBP to develop access to 
innovative technologies coming from startups out in the Silicon 
Valley area, as well as around the country, and we are applying 
that technology effectively in months instead of years because 
of the shorter lead time that their contracting authorities 
have allowed us to take advantage of. I know the benefits of 
partnering with S&T to create better processes and better 
technology at the border, so we are going to continue that.
    On the Countering Weapons of Mass Destruction, we can't do 
this kind of work without a strong Office of Health Affairs and 
a chief medical officer advising us, both in terms of the care 
of custody of people who are crossing the border, but also 
addressing things like the threat from Ebola, and we have done 
that before and obviously we have a new outbreak in Africa that 
we are monitoring closely.
    So, I am looking forward to working with these components 
in my new role. I have done it for years in prior positions at 
CBP and look forward to getting your insights and talking with 
the committee about how we can best manage those key resources 
to support the broader DHS mission.
    Mr. Newhouse. Good. I appreciate that and look forward to 
working with you and I know other members of committee are 
interested in this topic as well. But again, thank you for 
being with us this morning and look forward to working with you 
in your new role.
    Mr. McAleenan. Thank you.
    Mr. Newhouse. Thank you, Madam Chair. I yield back.
    Ms. Roybal-Allard. Mr. Ruppersberger.

              NON-INTRUSIVE INSPECTION EQUIPMENT: ROLLOUT

    Mr. Ruppersberger. Yes, Acting Secretary, first, you have a 
tremendous job and you have a very good reputation. You are a 
professional, you are focused, and you stand for what is right 
and you know there are a lot of issues.
    I just came back from a codel that the Chairman put 
together from the border and I am going to make a couple of 
comments, because I want to--my question and some of my 
observations.
    First thing, you have very good people working, wherever 
that is. I think the main issue at the border now is the 
volume. That is a theme that is really causing a problem. And 
then when we have volume and people that are coming in and we 
can't take care of them, a Border Patrol leader said, you know, 
when you arrest somebody in the United States, you book them 
and then you don't see them until court.
    We arrest them and we have to detain them, and that is not 
really our business and that is where we are having a lot of 
problems with this volume. So we have got to work on that.
    The other issue is that I wish our president would stop 
using this issue of the wall and the perception of everybody 
coming in are criminals or causing problems. I think the 
cartels really are the coordinated criminals, it is a serious 
problem, they have a lot of control and a lot of money, and 
they have the ability to get people in and drugs, as we know 
that.
    So it is a focus that we need to work on. And what you have 
talked about here today, if we can only stop talking about the 
wall, I go to my district and people say, hey, Dutch, build the 
wall, support the wall. And it is really about border security.
    All you have to do is talk about the things that you have 
talked about here today. So I believe hopefully in the next 
year we can start working with you, and we need a 
reorganization of how we are dealing with immigration, not any 
laws, but also how to deal with what we really need.
    We need 1,000 more judges, we need more people focusing on 
where we need to go, we need better equipment and you are 
starting to do that at the border and ports of entry where a 
lot of the drugs are coming in.
    So I just want to say that, and my observation, we have got 
a lot to talk about, Chairwoman, I really thank you for putting 
us together. It is really you learn by going to the front line 
and that is what we did.
    I want to talk about the non-intrusive inspection 
equipment. We provided CBP $182 million for this equipment in 
fiscal year 2018 and $564 million in fiscal year 2019. My 
understanding is that all of the funding is to be directed to 
the southern border.
    I support this technology and want to be sure we are 
screening at sea ports, including the port of Baltimore which I 
represent where a lot of fentanyl is coming into. Of the $746 
million provided by the committee over the last 2 years, how 
much has been spent thus far?
    What is your plan to implement and roll out NII 
technologies along the southern border and elsewhere? And given 
the NII's multiple platforms and capabilities, is CBP able to 
put additional capabilities at sea ports?
    The reason I ask is if these investments are made, and 
there is no question they should be, what impact do you believe 
they will have on maritime ports and does that constitute 
additional investment in NII at maritime ports?
    There are so many other issues, cyber, that we don't have 
time to get into, focus on this one now.
    Mr. McAleenan. Thank you, Congressman. And I will try to 
answer it quickly to make sure you have a chance for a second 
question, but----
    Mr. Ruppersberger. I won't.
    Mr. McAleenan [continuing]. The support from this committee 
for our NII technology is absolutely essential, and it is going 
to be a tremendous opportunity that we have to change the way 
we secure our ports of entry with the investments from both 
2018 and 2019 and the request we have in 2020.
    We spent about three quarters of the fiscal year 2018 
funding already. These are long lead-time items; the new non-
intrusive inspection systems are tremendously capable, but they 
take about 18 months from purchase to deployment. So we are 
progressing on an aggressive timeline.
    With the $562 million in the fiscal year 2019 budget, our 
executive assistant commissioner Todd Owen, he is the guy who 
bought our NII technology after 9/11 in two roles prior. So I 
have tremendous confidence in him to develop an acquisition and 
deployment plan that is going to increase our mission 
effectiveness in a cost-effective and timely fashion.
    We are looking at going from 2 percent of personally owned 
vehicles to scanning 40 percent at our southern land border. 
Those 2 percent of vehicles that we are scanning now cause 80 
plus percent of our seizures. So we know we need to scan more 
vehicles.
    Mr. Ruppersberger. That is great.
    Mr. McAleenan. And for the commercial cargo, we are going 
from 16 percent to 70 percent in about a 2\1/2\ year timeline 
for procurement and deployment at all of the different ports of 
entry on the southern border.
    For the fiscal year 2020 request, I just want to emphasize 
that the request is to recapitalize existing systems at sea 
ports and at northern border ports of entry and to ensure that 
we are maintaining the highest capable technology across our 
ports of entry.
    So this is a multi-year effort to make sure that we are 
able to do that not only at our land border where we have the 
highest threat from counter narcotics, but also at sea ports 
and northern border ports.
    Mr. Ruppersberger. Okay, thank you, and I am going to--I 
don't have time, I just want to talk about drones in my next 
round. Drones on the border. Okay, thank you.
    Ms. Roybal-Allard. Mr. Rutherford.

                   BORDER SECURITY: HIRING, ACCENTURE

    Mr. Rutherford. Thank you, Madam Chair.
    Mr. Acting Secretary, I thank you, thank you both for being 
here this morning. We have talked a lot this morning about the 
effect and the impact of this humanitarian crisis. I want to 
talk just a little bit about what I believe is some of the 
cause of this issue that you are having to deal with now.
    And that goes back to the Flores settlement agreement, 
which initially Jenny Flores was an unaccompanied minor, 
unaccompanied. And the Flores settlement agreement dealt with 
unaccompanied minors only.
    And they could be detained, the agreement was that they 
could be detained as long as necessary, and that was the law up 
until 2015 when the middle district judge from California 
decided to expand the Flores agreement to include accompanied 
children. Not just unaccompanied children, but accompanied 
children.
    And as you said earlier, Mr. Secretary, the traffickers 
figured this out after 2015 and that is why we began to see 
these caravans of families coming to our border and creating 
this humanitarian crisis that we are now trying to deal with 
the effect of.
    But I think we can thank Judge G. from the middle district 
for this and the lack of response to that decision from 
Congress and the lack of response from the administration, not 
this administration, but the previous administration.
    And so I just wanted to kind of set the table for that 
because when I look at your budget, I had a lifelong career in 
law enforcement, I am very familiar with putting together 
security plans, and when I look at your budget, I see a very 
well thought out plan here.
    It is a multi-layer plan. And the Border Security 
Improvement Plan you have the impediment, which is the wall, 
you have the surveillance, which is the remote video 
surveillance system that you are asking for funding, you also 
have plans to build the infrastructure so that when a breach of 
that impediment is detected, you can respond quickly with those 
boots on the ground to get there and apprehend those 
individuals.
    Now, my question though is, on the troops, the Accenture 
program that was supposed to help you bring--I think we had 
7,500 individuals authorized to be hired. From what I can see, 
Mr. Secretary, this program is not working.
    Now, if that is going to change because I heard you mention 
some numbers earlier about up to 1,000 this year, can you talk 
a little bit about how well we can bring these people on?
    Because now we are asking for additional staff, and look, I 
know you need them, and I want to get them to you. But I also 
want to hold this contractor accountable. So, tell me where we 
are at with that.
    Mr. McAleenan. Thank you, Congressman. If I could just 
respond quickly to your points on Flores, because I think that 
history is really important to understand. Congresswoman 
Granger mentioned the 2014 crisis. We had 68,000 families cross 
that year. What the Obama administration did was create family 
residential centers that allowed DHS to detain families pending 
an immigration proceeding. And then, if they didn't have a 
valid right to stay, to remove them.
    As soon as those were established and repatriation started 
happening, the numbers dropped immediately. That changed, 
though, a year later in that reinterpretation of a 20-year-old 
settlement to apply now to not only unaccompanied children but 
accompanied children. And that is the central challenge we face 
today with the families crossing.
    Mr. Rutherford. Exactly. And I should have mentioned also--
I failed to mention earlier that that is where the 20 days 
comes from, as well.
    Mr. McAleenan. Correct. That is correct. That is where the 
limitation on----
    Mr. Rutherford. But onto the issue of hiring----
    Mr. McAleenan [continuing]. Comes together. Yes.
    So, hiring has been my top mission support priority at CBP. 
It will remain that as acting secretary because it applies to 
so many of our components. You mentioned what we have done at 
CBP to change our hiring. We made 40 different process 
improvements during the 3 years prior to my elevation to acting 
secretary.
    That had a significant impact. We hired more than 530 
officers last year, and we hired 130 Border Patrol agents; it 
was the first time that we ended the year with more agents than 
we started in 3 years. Really kind of turned the corner on our 
hiring, and we intend to continue to drive forward.
    The Accenture effort was an effort to try to increase the 
capacity to hire even more quickly. And it didn't work out the 
way that we intended. We did, however, have significant 
developments from that effort, both with digital marketing to 
find new applicants and with applicant care to keep people in 
the system, understanding where they were in the process, and 
we are going to take those lessons and capitalize on them.
    But we are not going to spend money that is not effective. 
And so that is why that contract has been curtailed.
    Mr. Rutherford. Good. Thank you very much. My time has 
expired.
    Ms. Roybal-Allard. Mr. Price.

             287(G) PROGRAM, U.S. IMMIGRATION AND CUSTOMS 
                           ENFORCEMENT RAIDS

    Mr. Price. Thank you, Madam Chairman. Mr. Secretary, I want 
to add my word of welcome to that expressed by a number of 
members this morning. We do appreciate your many years of 
career service with the Department of Homeland Security.
    And I will just speak for myself, I am very grateful that 
you are available at this moment to steer the ship. It is a 
critical time. It is a time of maximum chaos and political 
turmoil, orchestrated by a vindictive president seeking 
scapegoats, it would appear, and shadowy White House aides and 
much more.
    So my hope for you is that you cannot merely survive this 
but that you can also work with us to steer this department 
back to a sane and defensible and balanced immigration policy.
    In that connection, I want to ask you about the 287(g) 
program and ICE raids, particularly as they have affected my 
district and my state in recent months. In February, ICE 
carried out numerous enforcement actions in my district across 
the state of North Carolina. Agents had arrested over 200 
individuals in one week, many of whose only crime was to be 
here without documentation.
    These raids took place statewide in courthouses, 
workplaces, outside of schools, during traffic stops. The 
majority of these arrests were concentrated in areas that had 
recently ended voluntary immigration enforcement agreements, 
including several 287(g) agreements with the agency. Now, I 
want to take just a minute here to quote fully your Atlanta ICE 
field office director. I am going to quote him completely and 
fully.
    Here is what he said. I would say the new normal is you 
will see more visible ICE presence out in the communities. The 
increase in raids is a product of some of the policies that 
have been enacted within the state with respect to Mecklenburg 
County, Durham, Wake County, Orange County.
    I think the uptick you have seen is a direct result of some 
of the dangerous policies some of our county sheriffs have put 
into place. It really forces my officers to go out on the 
street and conduct more operations out in the community at 
courthouses, at residences, doing traffic stops. This is a 
direct correlation between the sheriffs' dangerous policies of 
not cooperating with ICE and the fact that we have to continue 
executing our important law enforcement mission, end of quote.
    I was appalled to hear these arrests justified as the 
direct result of several counties lawfully ending their 
engagement in voluntary immigration enforcement agreement with 
the agencies. And you know they are voluntary. Multiple courts 
have ruled that these agreements are in fact voluntary, to be 
entered or exited according to the best judgment, the 
discretion, of local authorities.
    So, that leads to my question. Can you tell me, is it 
department policy to conduct more enforcement operations in 
localities that have recently ended 287(g) programs? And is the 
department predicating raids as retaliation against local law 
enforcement agencies who are executing their own discretion and 
their own judgment and who have reasonably decided that 
maintaining community access and community trust is absolutely 
critical to their law enforcement mission?
    Mr. McAleenan. Thank you, Congressman, for your kind words 
as I assume this role. Let me go directly to address your 
question. There is no policy of retaliation for jurisdictions, 
first and foremost. And there won't be under my tenure as 
acting secretary. I think what you are hearing from ICE is its 
responsibility to protect communities from those who are here 
without legal permission and have a criminal record.
    Eighty-seven percent of those in ICE custody that ICE has 
arrested in the interior have a criminal record and a reason 
for that targeted arrest. ICE isn't ignoring other people it 
encounters who don't have a criminal background but who are 
here unlawfully, but it is apprehending primarily those who are 
here unlawfully and have a criminal record. And I think that is 
an important aspect of ICE's mission.
    It is also true that it is more efficient, more effective, 
and safer for communities if ICE can work with jurisdictions in 
the jails, in the prisons, to ensure that it is taking into 
custody those who need to be repatriated without going into the 
communities. That is a better approach; that is what we would 
prefer to do. But when we don't have that opportunity, ICE does 
have a responsibility to protect those communities and it will 
do targeted enforcement and apprehensions.
    Mr. Price. My time is about to expire. I have been informed 
this morning that we have received an answer to an earlier 
communication that I and other members of our congressional 
delegation sent seeking clarification. Your answer is pretty 
generic and your Atlanta field director is pretty specific that 
this is a matter of targeting jurisdictions that have ended 
these agreements.
    So, I hope it is not just a matter of straightening out the 
Atlanta director's talking points. I hope it is a matter of 
straightening out the policy and targeting enforcement actions 
where they should be targeted, irrespective of the discretion 
exercise by local law enforcement officials as to how best 
carry out their own responsibilities.
    Mr. McAleenan. Sir, I do think that voluntary collaboration 
is always preferable as you outline. ICE does have a 
responsibility to do targeted arrests of criminal aliens in our 
communities and it needs to continue to carry that out.
    I don't believe that, in this case, nor would it be 
appropriate for retaliation against certain communities. That 
said if ICE can't do pickups at jails, we do have to go into 
the communities to do those arrests.
    Ms. Roybal-Allard. Mr. Palazzo.

                    BORDER SECURITY: NATIONAL GUARD

    Mr. Palazzo. Thank you, Madam Chairwoman and Mr. McAleenan, 
thank you for being here today and, Mr. Fulghum, I appreciate 
your time. We know DHS is a huge Federal agency and you have a 
lot of responsibilities under your care.
    I had a breakfast this morning, the National Guard and 
Reserve Components breakfast. It is one of the largest caucuses 
that we have in the House. And something that since I was on 
the Homeland Security Committee, now on the Homeland Security 
Appropriations, that I have always felt was a huge asset to DHS 
and huge asset to our nation was the use of the National Guard 
and Reserve components, but in this case, more of the National 
Guard.
    When we were having--we have talked about the shortage of 
officers and troops on the ground being DHS employees, how do 
we feel those gaps? And I have always been a strong advocate of 
using the National Guard, especially after their decades of 
service abroad, surge into Iraq and Afghanistan, and getting 
those countries under control.
    And how could they be best utilized on the border? So I 
think you kind of know where my question is going to go here 
is, how are you utilizing the National Guard? Can you do more 
with them? And is there anything that we can assist you, as the 
Congress, in providing additional resources?
    Because I do think they are a great plug and play and they 
bring a--they can be a huge multiplying effect to you while you 
continue to have a shortage of resources. And how are they 
helping your agency and your employees do their jobs on a daily 
basis?
    Mr. McAleenan. Thank you, Congressman.
    I just have to say, our partnership with the Department of 
Defense and the National Guard Bureau has been just tremendous. 
It has been one of the key things we are relying on to increase 
the security of the border as well as to manage the 
humanitarian crisis that we are facing.
    A week and a half ago I was in Rio Grande Valley at a 
midnight muster, and I looked out at that group and we had, 
obviously, a lot of green uniforms at Border Patrol stations, 
but we had eight different colored uniforms, including a 
tremendous contingent of National Guard and that is how we are 
getting a handle on this crisis, both from a border security 
perspective and a humanitarian perspective.
    So, we have had them alongside us on the border for longer 
than a year under this administration under Operation Guardian 
Support. What they are doing is providing the ability for 
Border Patrol agents to get back to interdicting and stopping 
people from crossing unlawfully, by increasing our surveillance 
capacity and by increasing our administrative capacity at the 
stations, and really that partnership is essential for us right 
now.
    Right now we are looking at expanding that to help us with 
some of the transportation and logistics missions that are 
critical to, again, freeing up agents to do their law 
enforcement functions effectively as well as just increase our 
overall capacity given the number of challenges that we are 
facing. That will continue to be a focus of mine at the DHS 
level.
    I already met with Secretary Shanahan on these issues, and 
we are expanding our partnership in the coming weeks. So, I 
just wanted to thank you for your support for the National 
Guard Bureau and we can't--I talked to Governor Abbott about 
it, as well, the Texas Guard is absolutely one of our best 
partners border-wide, no question. So, thank you for that 
continued support, and we will continue to rely on our 
partners.
    Mr. Palazzo. Well, that is good to hear. I think----
    Mr. McAleenan. Hopefully recruit some of them.

                   BORDER SECURITY: DRUG TRAFFICKING

    Mr. Palazzo [continuing]. That would be a great group of 
individuals to recruit from. I know the mission of helping to 
protect our homeland. After all, they are willing to go 
overseas and serve and protect America.
    So, just a quick pivot, and some--the increase of hardened 
drugs and serious drugs that are coming across our border, and 
not just through our points of entry but in between, I know we 
have a southern border and a lot of times we forget about our 
maritime border, but this committee hasn't forgotten about it.
    Can you just tell me, I mean, with the money that we 
appropriate, are you able to effectively stop the flow of the 
heroin, the cocaine, the marijuana, the fentanyl, and all the 
other varieties of drugs that are coming across our border?
    And what do you need? I mean is there more technology, more 
detection devices, whatever we can do to stop the flow of drugs 
from coming into America and destroying our communities?
    Mr. McAleenan. Thank you for that question.
    Quick summary response. In terms of the heroin, the 
synthetic opioids like fentanyl and methamphetamine, which are 
primarily coming across our border from Mexico, the investments 
that this committee has helped us to make in nonintrusive 
inspection technology, as well as border barrier and 
surveillance capability, is going to be essential to addressing 
those flows. And I think that applying the investments that we 
have received effectively is going to make a major impact in 
the next 2 years, and we intend to do that.
    In terms of the cocaine flows, you are absolutely right, 
the maritime border is the number one battleground on the 
cocaine side, and that is something with our U.S. Coast Guard 
assets on the surface as well as maritime patrol aircraft for 
both Coast Guard and U.S. Customs and Border Protection, where 
we are having a tremendous impact in the source and transit 
zone.
    I'm very concerned about increased production in the Andes 
right now, both headed to the United States as well as to 
Europe and Southeast Asia. Again, it takes a balance and 
integrated set of investments, and the investment in the Coast 
Guard fleet is going to be essential to maintaining our 
capability in that area, as well.
    Mr. Palazzo. Glad to hear you say that. My time is expired, 
so I yield back.
    Ms. Roybal-Allard. Ms. Meng.

                    IMMIGRATION: ENFORCEMENT ACTIONS

    Ms. Meng. Thank you, Madam Chairwoman, thank you, Mr. 
Secretary, Mr. Undersecretary for being here today. 
Congratulations to you on your new role. I wanted to ask about 
ICE arrests at courthouses. Advocates have reported that these 
arrests in New York State increased by about 1,700 percent in 
2018 compared to 2016. This is an astounding figure.
    In January 2018, ICE issued Guidance Directive Number 
11072.1 on Civil Immigration Enforcement actions inside 
courthouses. How many immigration enforcement actions that took 
place in 2017 and 2018 violate this directive? And are any 
actions taken against ICE officers who violate this directive?
    Mr. McAleenan. That is something I am happy to take up with 
Acting Director Albence at ICE and understand ICE's approaches 
in terms of following up on any policy violations. I am not 
aware of any in my first 2\1/2\ weeks as Acting Secretary.
    I will note that, again, look for the ability to enforce 
our immigration laws, and to take people into custody, 
especially who have criminal violations, in a safe setting is a 
responsibility of ICE and something we need to continue to do.
    Ms. Meng. Yes, I am just going to what I know to be a 
directive from ICE about not encountering people within 
courthouses and in non-public spaces there. But there are 
stories about, for example, in El Paso, Texas, there is a 
courthouse where a woman was seeking a protective order for 
domestic abuse. Last year officers arrested a Charlotte woman 
and her 16-year-old son outside a court room set aside 
specifically for domestic violence cases.
    So what is the priority in enforcing and removal 
operations? And how do you justify prioritizing the arrest of 
vulnerable survivors of domestic violence like these folks over 
more serious criminals?
    Mr. McAleenan. I am not going to be able to comment on 
specific cases here, but happy to take those back and look into 
them.
    But very clearly, ICE's priorities are to protect 
communities. ICE goes after criminal violators who are also 
here unlawfully, goes after fugitives who have been issued 
final orders and remain in the United States, and ensures 
effective immigration enforcement on recent border crossers so 
that we maintain some integrity of the system at the border. 
And that will remain the priority.
    Ms. Meng. The directive is still in force, correct, 
11072.1? And ICE should be following that directive, correct?
    Mr. McAleenan. I will make sure we get you a briefing from 
ICE on those policies.

                          DETENTION: CHILDREN

    Ms. Meng. Okay. I wanted to ask about another news article 
where CBP detained a 9-year-old U.S. citizen child who 
presented her passport, she was detained for over 30 hours at a 
port of entry. Why was this child detained?
    Mr. McAleenan. So again, in terms of speaking about 
specific cases, happy to do that in another setting with a 
privacy waiver. I can assure you that CBP stopping a child is 
for the child's own concern, for the child's safety and 
welfare, for the concern about whether--what is being presented 
to them is accurate, not for any other purpose.
    But we will be happy to give you a briefing. If you have a 
privacy waiver from the family, we can talk about the specific 
case in depth.
    Ms. Meng. I appreciate that. How frequently do cases like 
this happen? I know you can't go into specifics, but just in 
general how often are minors detained? And how long does it 
take or what protocol happens to confirm their identity and 
citizenship? Is it usually like 30 hours or is it less, is it 
more?
    Mr. McAleenan. So it is not common for children younger 
than 10 to present without an adult crossing the border. 
Determining who should have custody and care of that child and 
working with a consulate can take a while, but it is often done 
within a matter of hours. That is our strong preference.
    What we are facing right now though, Congressman, that I 
just want to highlight is a situation where children are being 
used to cross the border as purported family units when they 
don't have that relationship. We have had more than 3,500 cases 
this year.
    That is why ICE and homeland security investigations have 
deployed teams to both El Paso and Rio Grande Valley to address 
child smuggling and ensure that we are protecting children who 
are being used as pawns to cross the border right now. It is a 
very dangerous scenario.
    Ms. Meng. Where would these children--I appreciate that 
explanation. Where would children like this be held? Are they 
in a cage? Are they behind bars? Or what type of space while 
they are waiting to verify their identity?
    Mr. McAleenan. At a port of entry, I am pretty sure they 
probably stay with an officer in an office setting during that 
time frame.
    Ms. Meng. And that is the protocol?
    Mr. McAleenan. That is a protocol to take care of children 
in the best possible setting we can, given the other challenges 
we are facing at the border.
    Ms. Meng. Thank you, I yield back.
    Ms. Roybal-Allard. Before I go to Mr. Aguilar, I would just 
like to point out for one thing with regards to what Ms. Meng 
was saying that would you give us the percentage of actually of 
people who have fraudulent documentations. My understanding 
that is very small compared to a majority of those who come 
with their children, so I would appreciate that.
    And then also, just for a point of clarification, with 
regards to ICE and the arrests that it is making, nobody is 
objecting to the fact that ICE will go after criminals who are 
a danger to our public safety. That is not the issue.
    The issue is that ICE has been going into communities, 
arresting people who are dropping their children off at school, 
who are coming out of church, who are not hardened criminals 
who present a danger to public safety.
    And then when they do go after someone who, perhaps, let's 
say is a danger to public safety, that in that process they 
also will go and arrest others who are not the target, who very 
often are moms and dads and folks who have been living in the 
community and contributing to that community.
    That is where the concern is and that is where the 
objection is, not that ICE goes after criminals who are a 
danger to public safety. And with that, I will now call on Mr. 
Aguilar.

DEFERRED ACTION FOR CHILDHOOD ARRIVALS: FEDERAL HOUSING ADMINISTRATION 
                                 LOANS

    Mr. Aguilar. Thank you, Madam Chair. Thank you both for 
being here today.
    Mr. McAleenan, earlier this month Secretary Carson 
testified before Chairman Price and the Transportation, Housing 
and Urban Development Subcommittee, but I asked him a question 
about whether DACA recipients were eligible for FHA backed 
loans. And he said he was sure that many DACA recipients have 
FHA backed loans and that HUD's policy on allowing DACA 
recipients to access this type of loan has not changed.
    My question is, has USCIS provided any guidance or 
directive to HUD staff without the knowledge of Secretary 
Carson possibly about the FHA program specifically?
    Mr. McAleenan. I will have to get back to you on that one, 
Congressman, I am not aware.

                  QUALITY ASSURANCE SURVEILLANCE PLAN

    Mr. Aguilar. Okay. My next question.
    In January, the OIG published a report indicating that ICE 
fails to consistently include its quality assurance 
surveillance plan in facility contracts. QASP is critical to 
ensuring the facilities meet performance based national 
detention standards, which require that detention facilities 
are safe for detainees and staff, however, QASP was only 
included in 28 out of 106 detention contracts. ICE provided 
waivers to facilities that exhibited deficient conditions and 
did not include these in their contracts.
    Between October 1st of 2015 and June 30th of 2018, ICE 
imposed only two financial penalties for those not meeting the 
condition standards. In what circumstances are waivers granted? 
And what types of these standards are waived?
    Mr. McAleenan. On this, as well, Congressman, I will have 
to get back to you and get a briefing from ICE on the 
standards.
    I can tell you from sitting side-by-side with ICE 
counterparts over the last several years, looking at bed space 
issues, looking at expanding contracted bed space available, 
the standards both at the very beginning of that contract and 
repeatedly assessed are absolutely critical criteria that ICE 
is facing as it establishes and increases capacity. And from my 
perspective, it is addressed very assiduously in ICE's 
management and oversight.
    Mr. Aguilar. It is addressed in the sense that they are 
trying to meet the bed space, I understand that. I guess what I 
am trying to understand is, as you are going through that 
contract phase, it seems that, based on these metrics, more 
waivers are being granted toward standards. So, we are going to 
continue to hear stories about individuals and facilities not 
in current standards if your growth is going to require waivers 
that waive standards for this care.
    Mr. McAleenan. Actually, what I was emphasizing is that ICE 
hasn't been able to take advantage of facilities that are 
available because it is not going to meet the standards, and 
seeing ICE make those decisions, from my perspective, it seems 
like it is one of the main concerns in any sort of expansion. 
But, we will get you the detailed briefing with ICE.

                DETENTION: LESBIAN, GAY, BISEXUAL, AND 
                        TRANSGENDER INDIVIDUALS

    Mr. Aguilar. I understand. Okay. You are saying that there 
would be more contracts if they relaxed those standards. Okay, 
that doesn't quite mesh with 28 out of 106 detention contracts 
having this waiver, it seems like they are doing quite their 
fair share of waiving things in order to expedite the process, 
but I am happy to gain more knowledge on that.
    Mr. Acting Secretary, in February, ICE confirmed it was 
jailing 100 transgender people in 20 different immigration 
jails across the U.S. Immigration detention is notoriously 
dangerous for transgender and LGBT individuals.
    I sat with an individual in El Paso on our recent trip with 
the Chairwoman, who was LGBT, and he expressed that he 
willingly violated the work requirement. He was willing to work 
a lot more hours in the day just so he could--because he worked 
in the law library and he felt comfortable there, he was 
willing to work more than 40 hours, more than 12 hours a day 
just so he could have that better piece of mind.
    In 2017, a congressional inquiry revealed that LGBT 
individuals in ICE custody are 97 times more likely to be 
sexually victimized than non-LGBT people in detention. What 
steps is--in 2015, recognizing these vulnerabilities, ICE was 
allowed, issued a memo that entitled further guidance regarding 
the care of transgender individuals, which includes 
recommendations.
    What steps can ICE take or should ICE be taking to ensure 
that there is a minimum number of facilities that are modified 
pursuant to care under that existing memorandum? And has ICE 
provided any training or guidance to staff at these detention 
facilities?
    Mr. McAleenan. I apologize, Congressman, given 2\1/2\ weeks 
in, I have not had the chance to go over all of these oversight 
policies with my ICE counterparts here. What I can tell you 
that for DHS at large, protecting all populations in our 
custody is our commitment. Any type of sexual violence is 
unacceptable, needs to be prevented, investigated, followed up 
on under the Prison Rape Elimination Act and so forth.
    I can tell you at CBP, the sensitivity with these 
populations was taken very seriously, including having separate 
detention cells at the San Ysidro port of entry, where we have 
a large transgender population presenting, as well as 
considering that status and parole decisions to ensure people 
are safely held. So, I will look at that with ICE, as well, and 
again, maybe we could add that to the briefing that follows up 
on your first questions.
    Mr. Aguilar. I am happy to, and I think that that is the 
right answer. We have the right guidance here. What we need to 
make sure is that it is implemented correctly and what we are 
seeing is, is that these things sometimes, that my colleagues 
have mentioned, the implementation is the lacking piece. Thank 
you, Mr. Secretary.
    Ms. Roybal-Allard. Ms. Wasserman Schultz.

      DEPORTATIONS: INDIVIDUALS COMPLYING WITH SUPERVISORY REVIEW

    Ms. Wasserman Schultz. Thank you, Madam Chair. Mr. 
Secretary, I want to share with you a brief story about a 
fellow south Floridian, Mr. Walter Gozzer. Walter moved to 
Miami from Peru in 1989 and got a job at a construction company 
where he worked hard to provide for his family. His employer 
was so impressed with his work that they offered to sponsor his 
visa. But the company, unfortunately, went bankrupt and Mr. 
Gozzer's application was consequently denied.
    In 2016, the company opened up under a new LLC, and Walter 
asked his attorney to petition for his case to be reopened, 
even though it meant having to meet with ICE agents who would 
monitor him on a routine basis. He kept up his end of the 
bargain, and he checked in with ICE regularly while his case 
was being processed.
    Then in mid-February, without any warning or cause, ICE 
chose to arrest Walter during a routine check-in at the Miramar 
ICE Facility in Miramar. ICE imprisoned Walter, a loving father 
of a family of four and a 30-year resident of Miami, in the 
for-profit Krome Detention Camp, earning the detention camp 
money for more than a month. On March 21, ICE deported Walter 
to Peru, breaking apart his family and traumatizing his 
children.
    Now, I tell you this story because it is not unique. At my 
district office, we frequently hear from Floridians who had 
loved ones under supervisory review torn away from them without 
warning or cause.
    So Mr. Secretary, why is the administration randomly 
pulling the rug out from underneath immigrants and deporting 
those who are following the rules of supervisory review? That 
is my first question. How is ICE making decisions regarding who 
and when it deports undocumented individuals who are complying 
with supervisory review?
    And can you look into this policy and ensure that the 
Immigration Board of Appeals is amenable to appeals from cases 
like this, where undocumented individuals are doing everything 
they should, and are deported anyway? And I have a follow-up 
question, so----
    Mr. McAleenan. Well, I would just offer that due process is 
essential in our immigration enforcement responsibilities, that 
it occurs both with the Immigration Court system and in the 
decision-making by both ICE and CBP. Again, I don't have the 
specifics on that case that you are asking about.
    Ms. Wasserman Schultz. But it happens every single day.
    Mr. McAleenan. Well----
    Ms. Wasserman Schultz. At any given time in my community, 
you have immigrants who show up for supervisory review 
appointments and have no idea whether the rug is going to 
suddenly be pulled out from under them. So there is no due 
process. They are just arrested, following the rules.
    Mr. McAleenan. So supervisory setting is a much safer 
setting to make an immigration arrest than, again, being out in 
the community, which we have heard several concerns from some 
of your counterpart on the subcommittee today. It is 
appropriate when there are no other forms of relief available 
and, obviously, the court proceeding will occur before removal.
    Ms. Wasserman Schultz. Okay, but my question is, how is ICE 
making decisions--excuse me--how is ICE making decisions 
regarding who and when it deports undocumented individuals who 
are complying with supervisory review?
    Mr. McAleenan. I will have to get back to you on that and 
offer an ICE briefing on their policy for supervisory review.
    Ms. Wasserman Schultz. Okay. And when will you be able to 
do that? How quickly?
    Mr. McAleenan. We can do that in the next week or so.

                     DETENTION: FACILITY CONDITIONS

    Ms. Wasserman Schultz. Okay. Week, not or so, please.
    And Mr. Secretary, my office regularly hears about 
community members being turned away--now, this is specific to 
the Miramar ICE facility, which we have had very significant 
problems with--after waiting hours in line outdoors for their 
appointment. They--they get almost no access to bathrooms, 
water or cover from the sun.
    I have been there myself. Myself, Congresswoman Wilson, 
Congressman Hastings met with senior ICE officials at the 
Miramar facility and addressed these really horrendous 
conditions that immigrants are expected to wait in line, to 
maybe be seen, maybe not. They come from hundreds of miles 
away. My staff has visited the facility several times to 
monitor conditions.
    The last time they were there, they tried helping a 
gentleman from Guatemala who had an appointment letter, but who 
was refused to be seen because he had to first register by 
phone. An advocate--and this happens all the time--an advocate 
who went with my staff tried to call, so he could get an 
appointment, by phone for at least an hour--excuse me, at least 
an hour and a half, but she couldn't get through to a live 
person. Even more alarming, the telephone number that is 
provided does not offer an option to speak to someone in 
Spanish. Even if individuals get through to a live person, they 
may not be able to communicate.
    My staff has seen individuals come from Naples, West Palm 
Beach, Fort Myers and Homestead. Miramar is in Broward County, 
and not all of them have a phone or a car, which makes coming 
to the Miramar facility a financial burden.
    The system seems designed to frustrate immigrants and make 
them waste time and money. Why is ICE making life as hard as 
possible, and why have they not corrected the gross and 
horrendous conditions that immigrants are expected to be able 
to--to be subjected to?
    And when is it going to be corrected? Because I have 
already been promised that these conditions would be corrected, 
and they have not been. There needs to be cover. This is a 
parking lot, a very small parking lot that they stand in in the 
broiling sun. There is no water. They are not allowed to use 
the bathroom, except occasionally in the office building. We 
were promised it would be fixed, and it has not been. When is 
it going to be corrected?
    Mr. McAleenan. I will be happy to look into your concerns 
and get back to you forthwith.
    Ms. Wasserman Schultz. Okay. But I don't want to be looked 
in the eye again and told that these problems are going to be 
corrected, and they are not corrected. This is inhumane.
    Besides the fear of having the rug pulled out from under 
them for showing up and following the rules, on top of that, to 
bake them and their children in the broiling sun, and not let 
them use the bathroom, and treat them like animals, rather than 
people is unacceptable, and it must be fixed.
    Mr. McAleenan. We will get you a clear answer to your 
concerns, Congresswoman.
    Ms. Wasserman Schultz. Thank you.
    I yield back the balance of my time.

                       DETENTION: LENGTH OF STAY

    Ms. Roybal-Allard. That completes the first round of 
questioning.
    Mr. Secretary, let me just say that, unfortunately, some of 
what was described by Ms. Wasserman Schultz is also what we saw 
when we were in El Paso--people standing outside in the heat. 
And just so packed that they couldn't even sit down.
    Earlier in response to one of the questions, you mentioned 
the Homeland Security Advisory Council panel, which recently 
issued a report making several recommendations related to the 
migration of families and unaccompanied children.
    The makeup of the panel was not as balanced as it needed to 
be, since early last year, a number of the Advisory Council 
members who could have contributed to such balance resigned in 
protest against the administration's immigration policies. As a 
result, the report and some of its recommendations also lacked 
balance, and I have several questions with regards to those 
recommendations.
    One of the recommendations was to detain families for the 
duration of their immigration court proceedings, while 
modifying asylum procedures so that a hearing and decision 
could be provided within 20 or 30 days. I understand now that 
the president has now--recommending possibly 180 days, which 
possibly would be possible if they had legal representation.
    But based on the recommendations of the panel, in your 
opinion, do you think 20 to 30 days is enough time for migrants 
to find legal representation and prepare their asylum case, 
which could require the collection of documents from their 
country of origin?
    Mr. McAleenan. So just on your first point, Madam 
Chairwoman, I have full faith in this panel, a tremendous group 
of experts from both sides of the aisle, immigration expertise 
in multiple administrations who looked at this issue carefully 
in hundreds of interviews, a pediatrician who is focused on the 
care of children in DHS custody. They traveled border-wide. 
They are looking at expanding their effort to go to Central 
America, and I do think their recommendation should be taken 
seriously by DHS and by Congress, because it is a really 
important analysis.
    This question is key. It is key both in terms of the 
changes we are asking in authorizing law for managing this 
system and restoring some integrity to the process, and it is 
key to understanding the intent of the Department of Homeland 
Security in this process.
    Nobody wants to detain children, whether they are 
accompanied or not, for a long period of time. The notion that 
we want to detain them indefinitely or for 180 days couldn't be 
further from the truth.
    What has happened is that 21 days is not an adequate time 
period for a full proceeding with due process, with access to 
counsel, with getting documents from Central America to be 
completed. That said, we can go back to 2014 and 2015 when we 
did detain families through their proceedings and the average 
was about 45 days.
    We are going to look at re-doubling our efforts to make 
sure that that can be as expeditious as possible, indeed even 
taking a fresh look at what can be done in 21 days with 
counsel, but the notion that we want to detain children for a 
long period of time is just not accurate, nor would that be an 
effective way to enforce the immigration laws.

                 GOVERNMENT-FUNDED IMMIGRATION COUNSEL

    Ms. Roybal-Allard. Another recommendation of the panel was 
to provide government-funded immigration counsel to migrants. 
Would you support providing counsel to migrants to improve the 
efficiency of the immigration courts and to ensure that asylum-
seekers have the full opportunity to make their claim?
    Mr. McAleenan. That is something I would consider under 
appropriate circumstances and we will be discussing with the 
Department of Justice.

                        PORTS OF ENTRY: METERING

    Ms. Roybal-Allard. And another recommendation was to 
require asylum seekers to arrive at the ports of entry while 
also ensuring the ports have the capacity and resources to end 
the practice of metering. Do you think metering could be 
eliminated with sufficient resources at the port, and if so, 
will you work with us to determine what those resource 
requirements would be?
    Mr. McAleenan. I will absolutely work with you to determine 
the resource requirements. We would like to increase capacity 
to process people presenting lawfully, even if they don't have 
documents, at ports of entry.
    The challenge we have now is 90 percent choose to pay a 
smuggler and cross unlawfully between ports of entry, which 
overwhelms each component of the system that we actually need 
to process those who present at ports of entry as well, 
primarily ICE and primarily the immigration courts.
    So if we could structure both authorizing language and 
resources that would allow us to accept people at ports of 
entry safely, that would be a much better approach and I would 
be willing to work with the committee on that.
    Ms. Roybal-Allard. Mr. Fleischmann.

              NON-INTRUSIVE INSPECTION: PASSENGER VEHICLES

    Mr. Fleischmann. Thank you, Madam Chair.
    Mr. McAleenan, following up on Mr. Ruppersberger's 
questions, we scan very few passenger vehicles that come into 
this country with non-intrusive inspection, NII, equipment in 
order to keep traffic moving.
    But we know that the majority of hard narcotics come into 
this country through the official ports of entry, often deeply 
concealed in false compartments. I understand that CBP is 
exploring the deployment of a system that would enable the 
scanning of 100 percent of passenger vehicles entering the 
country.
    In the past, this committee has maintained a strong 
position of supporting 100 percent scanning, sir. When will 
this system be operational?
    Mr. McAleenan. Thank you, Congressman, and this is the 
application of the significant investment that this committee 
made in fiscal year 2019 in supporting our non-intrusive 
inspection capability at ports of entry.
    You are absolutely right, we have a very small percentage 
of personally owned vehicles that we are able to scan with 
existing deployments of technology, less than 2 percent at the 
border, but it is our most effective tool in identifying those 
deep concealments of hard narcotics crossing at our ports of 
entry.
    So we want to expand that dramatically. That 2 percent is 
targeted, so it is the highest risk, 2 percent, but we think we 
need to get to a much higher number being scanned.
    With the investments that this committee has provided, we 
think that we can get there in about 2\1/2\ years to scan a 20-
fold increase in crossings, up to 40 percent of personally 
owned vehicles. This would be a dramatic change in our 
capability and allow us to target really all personally owned 
vehicles that we think might present a risk crossing, as we 
continue to work with our trusted population at the border 
through this entry system and our other approaches to manage 
risk.
    We will also have our K9's working pre-primary, and we 
appreciate the committee's investment in the K9 Academy and 
providing different, additional K9 teams out to the border. The 
partnership with our investigators is what we are going to need 
to continue to emphasize.
    All of these efforts at the border of our system, and CBP 
is the biggest component in DHS and the largest contingent of 
enforcement at the border. We need that backing, whether it is 
from ERO [Enforcement and Regional Operations] for immigration 
enforcement or from HSI [Homeland Security Investigations] for 
investigations of our narcotics seizures.
    So we will like to continue talking with the committee 
about ensuring that we have adequate resources throughout the 
system to prosecute effectively and resolve those seizures, as 
well.

                     FACIAL RECOGNITION TECHNOLOGY

    Mr. Fleischmann. Thank you, sir. Mr. McAleenan, while 
leading Customs and Border Protection, you oversaw the 
innovative deployment of biometric technologies and 
specifically facial recognition technology to meet 
congressional mandates for biometric exit, as well as finding 
opportunities to improve the efficiency and effectiveness of 
your operations through these capabilities.
    These achievements have been important test beds for these 
technologies that can be utilized in other applications both 
within CBP and throughout DHS. How do you foresee the 
development of facial recognition technology expanding in 
fiscal year 2020, and beyond that, for entry and exit at air, 
land and sea borders, sir?
    Mr. McAleenan. Thank you for that question, and and really, 
this is an area I am very excited about, both in terms of 
increasing our security and making sure that we can address 
impostor threats, but very importantly facilitating lawful 
travel into the country.
    We have a longstanding mandate from Congress to conduct 
biometric exit of those departing the country. For many years, 
it was very challenging to see how we can make that work within 
the existing airport infrastructure and within the existing 
process for boarding an international flight.
    What happened with partnership and S&T--and we had that 
question about research and development and how we identify 
potential innovations earlier--with S&T, we were able to test 
every available biometric technology on the market in a test 
bed site out here in Maryland and determined that facial 
recognition was the easiest to use, and with the increased 
accuracy of comparison, was going to be effective for our needs 
on biometric exit.
    And as we started to deploy that at airports and we saw 
benefits, we have seen air carriers board an A380 in less than 
half the time because passengers are able to use self-service 
e-gates as they boarded that aircraft. We saw that we could 
turn that around and use it on inbound, as well.
    So we are deploying facial recognition now at our major 
terminals on inbound. I just saw it in Miami last month. It is 
just making the process so much more efficient. We are 
identifying impostors, and we are going to be able to 
facilitate that lawful travel in a greatly increased manner.
    We are looking at 97 percent of outbound air travel for 
biometric exit in a 4-year period, so that will be by 2022. And 
then at the same time, as we partner with airports to put that 
in place for outbound, we are also adding it as a simplified 
entry option so that we can increase facilitation for those 
inbound arriving international passengers, as well.
    It is something I am very excited about, partnering with 
TSA. CBP is also going to be able to help enable increased 
procedures at checkpoints, both for security and facilitation 
as well. And that is something that, with the acting deputy 
secretary, Dave Pekoske, we are going to be working on to 
increase the efficiency of the overall system.
    Mr. Fleischmann. Thank you, sir. Madam Chair, I yield back.
    Ms. Roybal-Allard. Mr. Cuellar.

         BORDER SECURITY: STARR COUNTY, PARTNERSHIP WITH MEXICO

    Mr. Cuellar. Thank you, Madam Chair.
    Mr. Secretary, I forgot to mention this at the very 
beginning. I really appreciated the trip that you did down to 
the valley, where you found some balance going down there. 
Because most secretaries just go and talk to law enforcement 
and won't talk to the public, won't talk to anybody. So I 
appreciate the balance that you brought there, especially the 
humanitarian aspect of it where you met with Sister Norma and 
other folks. I appreciate that balance.
    And I was there a few days after you were there and I told 
them I have a lot of faith in the work that you have done and 
will be doing, also.
    Couple things. I would ask you to follow up on the Starr 
County. As you know, we added language that would ask for some 
input. So it looks, by coincidence, that you all had the 8 
miles that you all were looking at where we would get input 
from the local communities and I believe the Starr County 
people came up here and met with your office and even the 
Laredo folks came up and they were saying Look, we are willing 
to do this.
    What did you all do in Starr County that said instead of 8 
miles, we will get rid of 4 miles? And it happens to be that 
those 4 miles are within the city limits where the language 
applies.
    So, it looks like somebody is trying to circumvent the 
legislative language that we added that was very simple input. 
Might be a coincidence but I would ask you to take a look at 
that, number one. Because I mean, nothing wrong to get local 
input as to the design or the alignment of the infrastructure.
    And the other thing is, I was in Mexico City with folks 
from Pelosi's office, Ways and Means, we were there on labor 
reform with the Senate and they just passed it yesterday. And I 
just happened to be with Tonatiuh Guillen, which I think you 
know, he is the head of the Mexican Migration Institute. And it 
just happened to be at that time, 1,300 roughly, mainly Cuban 
prisoners had escaped.
    He and I spoke. And to be very straightforward what I told 
him, I said I think those folks that escape should be reported 
to CBP as people that violated the law down there in Mexico and 
that should be taken into consideration when they ask for 
asylum. My personal opinion on that but I told him they should 
contact Homeland on that.
    The reason I am bringing all of this up is because I think 
we need to give Mexico a little bit more credit to what they 
are doing down there. And any work or any help that you can 
give them--because they don't want to be seen as doing 
America's dirty work, to be quite honest. But they are trying 
to do their part in talking to him and talking to the chief of 
staff or the president, Mr. Alfonso Romo and other folks.
    They are hoping that they can detain and return 600 to 800 
people a day. Let's say 800 people a day, those are 800 people 
a day that would be coming to the U.S. That is about 24,000 
individuals a month if they continue to do their work.
    So, I do want to see how we can help them in the 
humanitarian area, biometrics in the southern part with 
Guatemala. Ask you to do everything you can because, again, we 
have to give Mexico the credit that they are doing. And 
unfortunately, some people don't do that.
    But I think you understand the work that they are doing, so 
I would ask you, one is the language that we added in Starr 
County to make sure there is no circumvention. And number two 
is, what can we do to help the Mexicans?
    And by the way, I have invited Mr. Guillen and other folks 
and they want to come here and I am sure you are going to meet 
with them. And I asked them if they could meet with some of the 
folks here at the capital. And again, thank you for bringing 
that balance to the border, I am very appreciative of meeting 
with Sister Norma.
    Mr. McAleenan. I would very much enjoy meeting with the 
mayors in Rio Grande Valley as well as Sister Norma Pimentel 
and some of our NGO [nongovernmental organization] partners on 
the humanitarian mission. That is essential. I absolutely will 
follow the prudence of the law on the wall and the consultation 
with local communities, especially in Starr County. We will get 
back to you on any concerns on circumvention of that.
    You mentioned our partnership with Mexico. We can't manage 
a regional phenomenon without a close partnership with really 
the main transit country now in Mexico. Historically, they were 
a source country of migration. Now they are primarily a transit 
country, and sometimes a destination country. So that is a big 
change in terms of their policy approach.
    I have met with Tonatiuh Guillen at NAMI [Mexico's National 
Institute of Migration] several times already in his tenure, as 
well as his boss, Secretary Sanchez. And we are going to 
continue that partnership.
    Six hundred to 800 interdictions and repatriations on the 
Mexican southern border is an important step. I do give them 
credit. That is about 25 percent to 33 percent of the crossings 
that we are seeing daily from Central America.
    And really, what we are encouraging is addressing the 
smuggling organizations that are preying on families and 
children. And that is something that I think we have: close 
policy alignment between this administration and the Mexican 
administration.
    We do not want people to be paying smugglers; we do not 
want people to be in dangerous situations trying to head to our 
border. And I think that is an area where we are going to 
continue to partner closely with Mexico.
    Mr. Cuellar. Thank you.
    Ms. Roybal-Allard. Mr. Rutherford.

                          training facilities

    Mr. Rutherford. Thank you, Madam Chair.
    Mr. Secretary, I want to go back to the hiring challenges 
that the department faces because that is just part of it. 
After you hire them, then you have to train them. And I read in 
one of the inspector general's reports that a lack of funding 
for training facilities has actually had some negative impact 
on the ability to train particularly to the scenario-based 
training that you are wanting to move to.
    And I support that 100 percent. In fact, I have in my 
district in St. Augustine, Florida, your Air and Marine 
Training Center. And I believe that that is going to become 
more and more important to the mission, particularly when the 
southern border begins to tighten up, we are going to see more 
and more folks moving--of these transnational drug 
organizations moving to the maritime corridors.
    And so this Marine and Air Training Center has some 
challenges. I have been down there and seen it several times, 
and I just want you to know, I would love to work with you to 
be sure that those men and women have the tools that they need 
to be the best, particularly in the air and marine arenas. So--
--
    Mr. McAleenan. Thank you very much for that offer, 
Congressman. And really, working with this committee and the 
tremendous professional staff that you have, as well as frankly 
in the acting undersecretary's career, I think we are doing 
better and better at ensuring that we are not just investing in 
one part of the cycle and actually hiring and paying a 
professional, but ensuring that they have the training and 
facilities for that training and the equipment they need to do 
their jobs.
    And I appreciate your comments on the air and marine 
facility in your district. It is absolutely world-class 
capability. We need to sustain it to support our men and women 
coming into the workforce, going back for advanced training, 
training on new vessels. We do international training there. 
That is so our partners can be up at our standard. And I think 
that is absolutely essential and look forward to working with 
you to make sure that is sustained.

                        287(G) PROGRAM, U VISAS

    Mr. Rutherford. Yes, I would like to remove some of those 
workaround that they are, you know, faced with.
    Let me go to 287(g). As the chief law enforcement officer 
in Jacksonville for many years, I actually started a 287(g) 
program within our corrections department. Now, I did not 
implement the street aspect of it. But we did--and I did want 
to remove those criminal--that criminal element, of those who 
were also undocumented immigrants. It worked incredibly well.
    Now, one of the things that I hear a lot of people talking 
about--and this is a concern that I had as sheriff. And that 
is, if you create this culture, this underground culture of 
these individuals, these undocumented, not only do they prey on 
each other, but they are preyed upon by others in the 
community. And we have significant problems with this in 
Florida.
    And so one of the things that we worked hard on was 
educating the public, particularly those illegals, about U visa 
and the way that they could use that process to, if they were 
the victim, were the witness of a crime and they were a witness 
that had direct evidence that could help in the prosecution of 
a case, they were eligible for a U visa that would allow them 
to stay in the country.
    That way, they could come forward with the information that 
they had, with no worry of being deported. And so that is a 
little-known and talked about program that I think is important 
to this population, so that we don't create that subculture 
where they are victimized, not only by others in the community, 
but by their own community.
    As we got into that culture, we found that rape and 
domestic violence was just off the chain. And so I think it is 
important that folks understand that they have that U visa 
capability at their disposal.
    Mr. McAleenan. Thank you, Congressman.
    You have highlighted, I think, two important programs that 
we maintain, both 287(g) partnerships, in the correctional 
environment. Again, that is the most efficient, safest way to 
ensure that those who could threaten the community, also here 
unlawfully, are taken into custody. Thank you for your 
partnership when you were in Jacksonville.
    And then the second piece of your point, the concern that 
the most vulnerable populations in our communities are going to 
be victims. And really, the U visa is an appropriate tool for 
that and we do encourage local law enforcement to work with us 
and the Department of State to utilize that effectively.
    Mr. Rutherford. Thank you very much.
    And I see my time is up. I yield back.
    Ms. Roybal-Allard. Mr. Price.

             IMMIGRATION: PARTNERSHIP WITH CENTRAL AMERICA

    Mr. Price. Thank you, Madam Chairman.
    Mr. Secretary, I want to raise an interdepartmental budget 
issue for you. It is one on which you have expressed very 
strong views in your previous position, but it has a new 
relevance to you now at the secretarial level. And that has to 
do with remedial actions with respect to the flow of migrants 
from the triangle countries of Central America.
    Border Patrol agents, as you well know, are overwhelmingly 
encountering families and children who are seeking refuge from 
instability and violence, and just a humanitarian disaster in 
these home countries. They are proactively seeking out your 
agents for help. This is a well-documented phenomenon.
    We, earlier in 2016, when this flow first started, we were 
able to increase support on a bipartisan basis, for home 
country efforts to improve conditions and increase security.
    As you well know, this isn't mainly a border security 
issue, militarizing our border or erecting a wall. That is not 
going to stem this tide of refugees or asylees. They are 
turning themselves in. Our approach to border security needs to 
start 1,500 miles south.
    Now, you have previously briefed this subcommittee, and 
specifically on March 12 of this year, on just that, on how 
improving conditions in Central America is a key component in 
solving our own humanitarian crisis at the southern border.
    And I remember at the time, thinking this was encouraging. 
The briefing addressed what you called push factors, and the 
care for vulnerable populations. And number one, you placed the 
matter of support for Central American security and prosperity. 
Address the push factors--I am quoting here--address the push 
factors by fostering economic opportunity and reduced poverty 
and hunger.
    Well, this administration hasn't gotten that message. In 
fact, the budgets each year have cut aid to these Central 
American countries and to the nonprofits and other 
organizations providing these services, they have proposed cuts 
year after year after year. In some cases, this committee and 
the State and Foreign Ops Committee has put the money back.
    But this has reached a new level. And as often happens, we 
have learned about it by tweet. Here is what the president said 
on October 22 of last year, I am quoting. Guatemala, Honduras 
and El Salvador were not able to do the job of stopping people 
from leaving their country and coming illegally to the U.S. We 
will now begin cutting off or substantially reducing the 
massive foreign aid routinely given to them.
    In other words, the experiment is over, I suppose. And we 
are now going to punish these countries for not solving their 
problems and cut off aid completely. And as you well know, the 
State Department is now looking to suspend the aid in the 
pipeline from 2017 and 2018 to these Northern Triangle--not to 
the governments necessarily, but to the organizations doing 
this good work.
    So you can imagine my questions about this. Does one 
department talk to the other in this administration? Do these 
cuts square with your previously stated goals of supporting 
Central American security and prosperity? What are you doing at 
this moment to make your views known? If your views remain the 
same, what are you doing to make your views known to the White 
House and OMB and the man at the top?
    Mr. McAleenan. Thank you, Congressman. As I have told this 
committee before and expressed publicly at multiple points, 
this regional phenomenon requires a multifaceted strategy that 
addresses not only the border security investments that we have 
talked about extensively this morning, but restoring integrity 
to the immigration system and addressing those vulnerabilities 
in our law. Those are the two things that we control on the 
U.S. side, but it is also going to require our regional 
partnerships to be enhanced, as with Mexico, as I just answered 
with Congressman Cuellar, as well as with Central America.
    And I don't intend to stop working with Central America, 
and have not suggested that I should. During my first week as 
Acting Secretary, I met with the Minister of Public Security 
from Guatemala, talking about joint operations against human 
smugglers and transnational criminal organizations that are 
exploiting the Guatemalan populace. But I do respect the 
secretary of State's views, as well as the president's, that if 
we are going to provide aid to Central America, it needs to be 
targeted, it needs to be effective, and it needs to advance 
American interest and actually reduce the root causes of 
migration.
    Mr. Price. But it doesn't necessarily need to be zero.
    Mr. McAleenan. And we need accountable partners to make 
sure it is effective. So, I will be working within that process 
to advise along the side of the Department of State on programs 
that I think can make an impact for consideration at the White 
House, and I will continue to give my best advice to my 
leadership on the appropriate way to manage this regional 
problem and phenomenon.
    Mr. Price. Thank you. And as I don't need to underscore 
probably, that this is, of course, newly relevant to you now in 
your role as secretary and I hope you will use this opportunity 
to push forward what your view in the past has been as to how 
to approach this challenge.
    Thank you, Madam Chairman.
    Ms. Roybal-Allard. Mr. Aguilar.

                     DETENTION: SEPARATIONS, CHILD

    Mr. Aguilar. Thank you, Madam Chair.
    Mr. Acting Secretary, I wanted to go back to child 
separation and follow up on Ms. Lowey's question a little bit. 
You talked a little bit through the dynamics of when a child is 
still separated and you have talked with us in multiple venues 
about that.
    The subcommittee has asked for the guidance that the field 
officers are using when that determination is made. Is there 
written guidance and criteria that officers or agents use when 
a child is separated and there is the specific criminality that 
you talked about within that family unit?
    Mr. McAleenan. Sure. I think the written guidance starts 
with the President Trump's executive order from June 20th of 
last year, as well as the court order in the Ms. L case, 
interpreted and applied to our field elements through 
operational direction at CBP, and I believe ICE, as well.
    I do think, as Acting Secretary, I will have an opportunity 
to look at how that process is working and ensure that we have 
consistent and strong policies for what is obviously a very 
sensitive matter that needs to be handled delicately and with 
appropriate safeguards. So, we will make sure to look at that 
across the organization.
    Mr. Aguilar. The executive order doesn't talk about the 
specific levels of criminality though, whether incarceration 
time is used, whether length of time is a factor, violent 
versus non-violent which it would be important.
    I guess what I am trying to ask is, you have multiple 
sectors underneath you in that respect that could be 
implementing variations of the same policy. There is nothing 
written that says what level of criminality, non-violent, 
violent, when a child is separated?
    Mr. McAleenan. So, there is operational guidance that goes 
out into the field of both components, but I think you raise an 
important point, because we are going to need officer and agent 
discretion in some of these decisions, right?
    An arrest for child abuse without a conviction might be 
more probative into that risk for a parent than say a 
conviction for wire fraud. It has to be evaluated in terms of 
both a specific offense, the risk to the child, and the 
severity in terms of a conviction or a sentence. So, I think, 
again, taking an opportunity to look across the department in 
this new role, to ensure we have consistent and effective 
guidance is one I will undertake.
    Mr. Aguilar. I just want to understand that your answer is, 
as you understand right now, there is nothing written to that 
level of specificity?
    Mr. McAleenan. I don't know--I haven't read ICE's policies 
on this matter yet, but I will. I know that CBP has given good 
guidance, but also discretion to the frontline officers, and I 
have seen effective implementation of that guidance.

                        WORKSITE INVESTIGATIONS

    Mr. Aguilar. Okay, thank you.
    DHS--next question--has increased the number of worksite 
investigations and in some high-profile cases businesses were 
ordered to pay more than $10 million in judicial fines. 
Homeland Security investigations, EAD, is quoted as saying, 
employers who use an illegal workforce as part of their 
business model puts business that do follow the law at a 
competitive disadvantage. Do you agree with that?
    Mr. McAleenan. I do.
    Mr. Aguilar. It has been reported that there are multiple 
individuals who have worked for the Trump Organization without 
legal status. Can you ensure that the Department won't play 
favorites on who HSI is deployed to in the business setting?
    Mr. McAleenan. So, HSI's efforts will remain targeted at 
the most significant violators. They had a worksite enforcement 
operation that made 300 arrests just earlier this month. It is 
a significant issue that they are going to follow up on to 
ensure that we have integrity in the entire process.
    Mr. Aguilar. Earlier this month, Chairman Thompson sent a 
letter to you about this specifically. ICE hasn't provided an 
answer. Can you let us know what the timeline for an answer 
might be?
    Mr. McAleenan. For Chairman Thompson's letter on which 
issue?
    Mr. Aguilar. Yes, this would be on HSI investigations and 
specifically the Trump Organization.
    Mr. McAleenan. I will get you a response from HSI as soon 
as we can.

                    IMMIGRATION: FRAUDULENT FAMILIES

    Mr. Aguilar. You mentioned that there are 3,500 cases of 
fraudulent families, and the Chairwoman asked for some 
important follow up information and I also look forward to 
seeing that. We understand that part of the issue is the 
definition of families, you mentioned, within TVPRA, can you 
give us some clarity on fraudulent families you are talking 
about?
    Does this apply to aunts and uncles, for example? Under 
your number of 3,500, would it be considered fraudulent family 
if an uncle brought a minor with them? Is that the largest part 
of the fraudulent family, I guess, bucket that you have 
described?
    Mr. McAleenan. So, this is going to be an area of intense 
focus for the department in the coming weeks and months. We are 
going to learn a lot from these HSI teams that have deployed to 
El Paso and Rio Grande Valley. They are bringing forensic 
interviewers, and they are bringing biometric capability to try 
to ensure that we establish those family relationships with 
clarity.
    What I am very concerned about right now, Congressman, is 
that we don't have the time, given the volume and flow, to do 
good interviews with each family that is crossing. And so, I am 
very afraid that we are missing cases where there is not a 
clear family relationship. But to your point, we need to 
establish a clear definition.
    We need to establish consistent metrics across CBP and ICE 
for capturing when that family relationship has been presented 
as a fraudulent relationship. That doesn't mean a grandmother 
or an aunt necessarily with a child saying, we are a family, 
and us determining that is not definitely within the TVPRA. I 
wouldn't call that fraud.
    I think we need to be very clear in what we are reporting 
to Congress, clarifier metrics, but also, we need to have a 
significant focus on this with both CBP and HSI working in 
tandem to identify and address people that are presenting as 
families when they are not, especially if they have brought a 
child across more than once. We have seen that in a number of 
cases that HSI is working right now.
    Mr. Aguilar. Thank you.
    Thank you, Madam Chair.

                      DETENTION: FACILITY POLICIES

    Ms. Roybal-Allard. Okay. That completes round two. And I do 
have a few more questions that I would like to ask.
    One of them has to do with following up on what Mr. Aguilar 
mentioned in an earlier round of questioning, that has to do 
with the reports of--the OIG and the GAO reports that were 
quite damaging with regards to unacceptable standard conditions 
at ICE detention facilities.
    And if you read the reports, you can see that there is 
reasonable concerns about the conditions at these facilities 
and the fact that ICE continues to give waivers to them.
    One of the things that was cited by the Office of the 
Inspector General was that ICE has no formal policies and 
procedures to govern waivers. And that I am hoping that under 
your leadership that you will be able to make some progress in 
making sure that they do create formal policies and procedures 
to govern those waivers so that they are just not haphazard and 
that we will have an ability to look at the waivers against 
those policies and procedures.
    In the fiscal year 2019 bill, we provided resources to the 
Office of Professional Responsibility to hire new detention 
facility inspectors with the goal of increasing inspections 
from once every 3 years to twice per year. Can you tell us what 
the status of that hiring is and when you think ICE will reach 
that inspection frequency? And by when can we expect to see the 
policies and procedures that will govern those issuing of 
waivers?
    Mr. McAleenan. Thank you, Congresswoman, for those 
questions. First of all, we are hiring the detention officers. 
We hope to get about 30 percent of the goal in the remaining 
time in this fiscal year, and then get to the full level that 
was funded as quickly as possible.
    I can tell you from a CBP perspective that there are few 
areas that we worked more carefully to oversee than how we care 
for people in our custody, and what our facilities look like, 
both with the I.G., our Civil Rights and Civil Liberties office 
at the department, with some of the court-ordered oversight, as 
well as internally with CBP, the Office of Professional 
Responsibility and the Management Inspection Division. We also 
hired an independent outside auditor to inspect our facilities 
and make sure that we are doing it in a variety of notice and 
no-notice, so that we can manage those conditions effectively 
across all of CBP facilities.
    I will look at the ICE policies. I am not familiar with 
ICE's waiver policy at this point, but I will dive into that in 
my role. But I can tell you that we are hiring the audit 
officers that have been supported by the committee, and we will 
continue to prioritize that.
    Ms. Roybal-Allard. I do understand that ICE has been 
working to update its national detention standards. Can you 
tell the subcommittee the status of that effort? And can you 
assure us that the new standards will improve conditions and 
not lead to the worsening of conditions at detention 
facilities?
    Because that is a huge concern that many of us have.
    Mr. McAleenan. I can assure you that ICE won't worsen 
standards of care in facilities, but I will absolutely work 
with ICE on any revision of its policy.
    You know, I can tell you that the last 5 years have been a 
period of increased standards across the board, for detention 
and care of people in DHS custody. You know, that is something 
that we will continue to work on from my perspective, in the 
new role.
    Ms. Roybal-Allard. And my hope is that as those policies 
are being determined, that we will have an opportunity to see 
them before they actually are instituted.
    Mr. McAleenan. We will make sure to brief your team and 
you, Madam Chair, if you would like, as well as work with our 
oversight within the Department of Homeland Security, the I.G., 
Civil Rights and Civil Liberties, to make sure that our 
standards are appropriate.

                       DETENTION: PREGNANT WOMEN

    Ms. Roybal-Allard. As you know, this administration 
reversed a policy that forbade ICE from detaining pregnant 
women except in extraordinary circumstances. While in ICE 
detention we have learned that the number of women who have 
lost their pregnancies have nearly doubled in the first 2 years 
of this administration, medical professionals have advised of 
the dangers of placing any pregnant woman in detention.
    Aside from the obvious answer that we should not detain 
pregnant women absent extraordinary circumstances, what is ICE 
doing to prevent this type of tragedy from occurring again?
    Mr. McAleenan. It is another area where I will be working 
with ICE. I can tell you that medical conditions of people in 
custody are taken into consideration, including pregnancy, 
including late-term pregnancy as a factor in whether to do a 
parole release or to make a custody determination.
    Ms. Roybal-Allard. Well, health professionals tell us that 
inadequate health care services have been a major contributing 
factor to these tragedies. And when we asked about a stillbirth 
at a Port Isabel facility, ICE told reporters that it wasn't 
aware of any concerns regarding medical care of pregnant 
detainees, and that stillbirths are rare.
    And it is responses like this that greatly concern me and 
others because it appears that ICE is not taking these issues 
seriously. So I guess my question to you would be, is, how do 
you plan to address this and what can this committee do to 
support your efforts in this regard?
    Mr. McAleenan. My experience with ICE is that it does take 
these issues very seriously. But with that said, as 
commissioner, I focused on it. We got better at CBP. I will do 
the same as acting secretary.

                    BORDER PATROL PROCESSING CENTERS

    Ms. Roybal-Allard. And then finally, I want to go back to 
the El Paso and McAllen facilities, where we provided $192 
million for a new Border Patrol processing center.
    Mr. McAleenan. Right.
    Ms. Roybal-Allard. And it was $30 million for improvements 
to the existing processing center in McAllen. And it is my 
understanding that you are revising the requirements that are 
moving forward with these modular structures. So what is the 
status of each of these projects?
    And can you describe how conditions at the El Paso facility 
will be different than those at the McAllen facility? And what 
changes are you planning to improve the McAllen facility?
    Mr. McAleenan. Sure. So these are the two major sectors 
that are facing the significant arrivals of family and 
children, as you know. And you have been to both, Madam 
Chairwoman.
    What we wanted to do with the Central Processing Center is 
to create a central place where we can bring families and 
children, to not have them in Border Patrol stations.
    What we are going to be able to do with El Paso that is 
different than what we have in McAllen right now, is a purpose-
built center from the beginning, designed based on our lessons 
learned over the last 5 years with this new phenomenon of 
children and families coming across, both in terms of how the 
interior is designed, how it looks, but also for the 
functionality, for the medical care, for the showers, laundry, 
kitchen facilities that we need to care appropriately for 
families in our custody. That is going to be different from the 
beginning.
    That said, we also want to renovate the McAllen facility. 
We are going to take out the chain link. We are going to have 
partitions that are more appropriate in terms of appearance, as 
we protect families in our custody.
    But we also are going to ensure that the transportation 
flow, both the ability to move people securely in and out of 
the facility, is improved, as well as the shower facilities 
there.
    In the meantime, though, we are not waiting. We are using 
our appropriated funding to establish soft-sided facilities to 
provide a better situation for families and children right now 
in those two sectors, given the extensive flow that we are 
facing.
    Ms. Roybal-Allard. Okay. Well, we really do want these new 
processing centers to be successful, and we are hoping that 
there will be some creative thinking in these facilities. For 
instance, could you have child welfare professionals at the 
center, and perhaps in the Border Patrol stations who could 
speak Spanish and have expertise in conducting forensic 
interviews with kids?
    Mr. McAleenan. That is absolutely something that we are 
looking at, and did establish with our own operational funding 
last year in Rio Grande Valley. It is a limited application, 
but we intend to look at all elements of care for those in our 
custody to make sure that we are doing the best we can during 
that, hopefully, very short time that they are in a Border 
Patrol facility.
    Ms. Roybal-Allard. Okay. Another, I guess, idea is that 
because of the large number of actually migrant families that 
are currently crossing the border, CBP and ICE could have begun 
to rely heavily on nonprofit organizations to provide temporary 
shelter to migrants while they planned their next steps.
    Would it make sense to have shelter representatives co-
located at the central processing centers to help migrants 
start working earlier on their travel plans?
    Mr. McAleenan. That is a potential option. From my 
experience, both in El Paso and the Rio Grande Valley, the 
coordination and communication is daily. It is constant to 
ensure that the NGO community understands how many people are 
coming through, what requirements we might have to manage that 
safely, and to partner effectively.
    Ms. Roybal-Allard. Mr. Aguilar.

           TRAFFICKING VICTIMS PROTECTION REAUTHORIZATION ACT

    Mr. Aguilar. Yes. I will be that individual, Madam Chair. I 
don't want to stand in the way of everyone in the lunch hour.
    Just a couple quick things, following up on TVPRA, as we 
were discussing, Mr. Acting Secretary.
    You had earlier mentioned that there would be some 
legislative proposals as well that would be forthcoming from 
the department. Will changes that you are proposing to TVPRA--I 
know that has been a talking point that I have seen out of the 
administration--will that include redefining a family unit to 
be more expansive, to include aunts, uncles, grandparents?
    Mr. McAleenan. I think that is something we could discuss 
with Congress in the context of improving TVPRA to eliminate 
the double standard that now applies for unaccompanied children 
coming from contiguous countries, Mexico and Canada, versus 
noncontiguous countries.
    You know, we have heard from the governments of Central 
America saying that we have an interest in our unaccompanied 
children who have made their trek to the border. We would like 
to be able to provide a safe return for them, but it is not 
provided for right now under the TVPRA. That is something we 
would like to work on with Congress.
    But other changes recommended by members of Congress--that 
is absolutely the dialogue that we want to start so that we can 
talk about addressing this problem together, then making 
effective changes to the law to respond to the flows that we 
are seeing today.
    Mr. Aguilar. You are talking about the continuous-
noncontiguous. That is what we can expect to see out of the 
legislative proposal. Not putting words in your mouth, not that 
you would be closed to those other changes, but you wouldn't be 
proposing any of those in this legislative package?
    Mr. McAleenan. Yeah, the focus is addressing the situation 
where there is an incentive to cross as an unaccompanied child 
with certainty that you will be allowed to stay.
    Mr. Aguilar. Sure.
    Mr. McAleenan. And that is what is causing children to get 
into the hands of smugglers for thousands of dollars to be 
spent with criminal organizations to come to our border. That 
is what we are primarily trying to address with the proposal.
    Mr. Aguilar. I wasn't here in Congress at the time, but 
TVPRA was passed almost unanimously, I think, within the House 
and Senate. So I look forward to seeing your legislative 
recommendations.
    Mr. McAleenan. And could I just add, Congressman, that the 
protections in TVPRA against trafficking of children are 
essential, and we would like to preserve those, and as well as 
the conditions and timelines for custody of children. There is 
no recommended change to any of those elements.

                     CONGRESSIONAL HISPANIC CAUCUS

    Mr. Aguilar. Look forward to seeing the language.
    Mr. Secretary, the Congressional Hispanic Caucus was in 
contact with DHS about the secretary, the prior secretary 
visiting for a discussion, and the date was set for May 23rd. I 
don't want to bind you to your predecessor's calendar, but 
would you be open to keeping this date, or to working to have a 
meeting with the Congressional Hispanic Caucus sometime in the 
next 4 to 6 weeks?
    Mr. McAleenan. Sir, one of my top priorities in this role 
is to have dialogue with members of Congress who are worried 
about these problems, and willing to come together to try to 
come up with common solutions to them. So I will continue to be 
open to engaging. I don't know about that particular date. I am 
not in charge of my own calendar.
    Mr. Aguilar. I understand the feeling.
    Mr. McAleenan. But yes, I would like to engage with you and 
other members of the CHC. No question.

                  NON-INTRUSIVE INSPECTION: SPEND PLAN

    Mr. Aguilar. Absolutely. I appreciate it.
    My last question was just getting a little more clarity on 
the NII that you have mentioned, 2 percent of passenger, you 
said ramping up to 40 percent?
    Mr. McAleenan. Correct.
    Mr. Aguilar. By what year?
    Mr. McAleenan. 2021.
    Mr. Aguilar. And then the commercial you mentioned was 16 
percent going to 70 percent?
    Mr. McAleenan. Correct.
    Mr. Aguilar. In the same----
    Mr. McAleenan. Same timeframe.
    Mr. Aguilar [continuing]. Same timeframe.
    Mr. McAleenan. We are going to present a full spend plan 
and program to the committee in the coming months.
    Mr. Aguilar. I appreciate the added questions, Madam Chair.
    Thank you, Mr. Acting Secretary.
    Mr. McAleenan. Thank you.
    Ms. Roybal-Allard. Let me just say that--that the secretary 
has actually been proactive in asking for meetings, not only 
with the Hispanic Caucus, but other stakeholders, and we will 
be making those arrangements.
    Mr. McAleenan. Thank you.
    Ms. Roybal-Allard. Also, I am sure you have noticed that we 
have a lot of issues, a lot of concerns and questions about 
what is happening at ICE, so I am hoping that once you are able 
to be better briefed on ICE and the concerns that have been 
raised, that we will be able to have another meeting.
    So if there are no more questions, I want to take this 
opportunity to thank Mr. Fulghum for his service to our country 
over the last 34 years, as he prepares to move on to a new 
challenge.
    After serving 28 years in the Air Force, Chip joined DHS in 
2012 as the budget director. He was later confirmed by the 
Senate to serve as the department's chief financial officer, 
and I note that he was the last confirmed CFO for DHS. He has 
since served as the deputy undersecretary for management, the 
acting secretary for management twice, and the acting deputy 
secretary twice.
    Chip, I thank you for the management acumen you have 
brought to the department over the last 6 years. In these last 
few years, we have seen a significant maturation of the 
department's planning and resource utilization. Most of those 
efforts have your fingerprints all over them, including a 
complete restructuring of the department's appropriations 
account.
    The department simply would not be where it is today 
without your 6 years of strong leadership. I truly wish you the 
best as you head to Texas to start your new endeavor as the 
chief operating officer for a nonprofit organization. Best of 
luck.
    And if there are no other comments, we will conclude 
today's hearing. Thank you, Mr. McAleenan.
    Mr. McAleenan. Thank you, Madam Chairwoman. And he is a 
great guy, too.
    [Questions and answers for the record follow:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
   
    

                                            Wednesday, May 1, 2019.

   FY 2020 BUDGET HEARING--CYBERSECURITY AND INFRASTRUCTURE SECURITY 
                                 AGENCY

                                WITNESS

HON. CHRISTOPHER KREBS, DIRECTOR, CYBERSECURITY AND INFRASTRUCTURE 
    SECURITY AGENCY
    Ms. Roybal-Allard. Subcommittee will now come to order. 
Today we welcome Mr. Krebs, the director of the Cybersecurity 
and Infrastructure Security Agency, pronounced CISA?
    Director Krebs. Yes, ma'am.
    Ms. Roybal-Allard. Mr. Krebs, thank you for being here this 
morning to discuss CISA's fiscal year 2020 budget plan.
    I also thank the relatively small but mighty cadre of 
professionals that you are leading. Many have high-demand 
skillsets and could have higher compensation in the private 
sector, yet they have chosen to serve the American people, and 
I greatly appreciate what they do every day to fulfill their 
mission on behalf of our nation.
    In the fiscal year 2019 bill, I was pleased we were able to 
provide a strong investment in protecting the Federal cyber 
network. This included increases in continuous diagnostics and 
mitigation programs, and improvements in securing our nation's 
critical infrastructure, such as our election infrastructure 
and soft targets, such as schools.
    Even with these investments, I remain concerned about the 
threat outlook.
    Even at a time when then-Secretary Nielsen was focused on 
managing a surge of migrants at the southern border, the 
secretary cited cyber threats as her top priority, she said--
and I quote--the cyber domain is a target, a weapon, and a 
threat vector all at the same time. I share her concerns not 
only for Federal networks but also for the nation's critical 
infrastructure because our adversaries are moving and adapting 
at a pace that far exceeds our own.
    That is why it is hard to understand why the fiscal year 
2020 request once again proposes a reduction to these missions. 
For operations and support, the request is a reduction of 5 
percent compared to the current year. For procurement, 
construction, and improvements, it is a reduction of 7.4 
percent.
    If we are to outpace our adversaries who seek to do us 
harm, this reduction appears counter to what we need to do. 
During this hearing, I hope that we will get some clarity on 
this and other aspects of your fiscal year 2020 request and 
whether it realistically provides the resources you need to 
accomplish your missions in our ever-evolving threat landscape.
    Now, before I turn to the director for a summary of his 
written statement and the full text of which will be included 
in the record, let me first recognize our distinguished ranking 
member, Mr. Fleischmann for any remarks he wishes to make.
    Mr. Fleischmann. Thank you, Madam Chairwoman. Appreciate 
your holding this hearing as usual, and the great mutual 
cooperation we have on both sides of this dais.
    Director Krebs, good morning sir. Thank you for coming back 
to discuss the fiscal year 2020 budget request for the 
Cybersecurity and Infrastructure Security Agency.
    I think we had a very good and informative oversight 
hearing a few months ago when we discussed election security 
and the cyber threats your agency is working to combat.
    Every day we are confronted by news of new data breaches in 
both the private sector and unfortunately occasionally a 
Federal agency. I know your agency is committed to attacking 
these threats and incidents from all angles and I thank you for 
that, sir.
    So often we focus on the cybersecurity aspect of your 
mission. However, the recent tragic events in Sri Lanka are a 
tragic reminder of the work we still must do and the important 
work you do at CISA and across the department to protect our 
cities and people going about their daily lives. I am hopeful 
that the funds we provided in 2019 and the request of 2020 will 
further your ability, sir, to protect our critical 
infrastructure.
    I look forward to your testimony this morning. I thank you 
and I yield back.
    Ms. Roybal-Allard. Director, would you please begin your 
statement.
    Director Krebs. Yes, ma'am. Good morning. Chairman Roybal-
Allard, Ranking Member Fleischmann, and members of the 
subcommittee, thank you for the opportunity to testify 
regarding the Cybersecurity and Infrastructure Security Agency 
or CISA's 2020 budget request.
    CISA leads the national effort to save guard and secure 
Federal networks and critical infrastructure from cyber and 
physical threats. In this sense, we serve as the nation's risk 
advisor. To further our efforts in this mission, it is critical 
that across government and industry, we have clarity and a 
common sense of purpose on what it is we need to protect.
    Yesterday, I announced that we reached a new milestone by 
identifying a set of National Critical Functions. The NCFs are 
functions of government and the private sector so vital to the 
United States that their disruption, corruption, or dysfunction 
would have a debilitating effect on security, economic 
security, national public health or safety, or any combination 
thereof.
    NCFs represent an evolution in the nation's risk management 
efforts by focusing on how entities enable functions or 
services across the economy, allowing for a better 
understanding of crosscutting risk factors in the increasingly 
interdependent nature of connected infrastructure.
    The National Critical Functions effort is just one example 
of how CISA is leading the nation's risk management efforts and 
will serve as a roadmap to guide CISA activities and 
investments in the coming years.
    Today, I would like to briefly touch on five of those 
activities: protection of Federal networks, election security, 
operational technology, supply chain risk management, and soft 
target security.
    Starting with Federal cybersecurity, across the Federal 
government, we have better IT capabilities, government wide, we 
are on a path to standardization and leadership awareness is at 
an all-time high. By issuing guidance or directives to Federal 
agencies, providing tools and services, and implementing 
cybersecurity initiatives, we are protecting government and 
critical infrastructure networks from malicious actors. Binding 
Operational Directives have yielded significant results for 
Federal cybersecurity.
    For instance, we have reduced the time agencies were taking 
to patch critical vulnerabilities from an average of 219 days 
to an average of around 20 days today. In many cases, this is 
better than industry. But we can do better. On Monday, I issued 
an updated directive requiring even shorter mitigation 
timeframes and for a broader category of vulnerabilities.
    Also in January, we issued an emergency directive to 
protect Federal networks from a global campaign tampering with 
the internet's phonebook known as DNS. This year's budget will 
develop efforts to centralize DNS resolution for the Federal 
government. If implemented, we could generate a rich set of 
analytics that sit on top of traditional DNS services, further 
securing Federal networks.
    Next, election security. Perhaps the highest profile threat 
today is attempts by nation state actors to interfere with our 
elections. Over the last two years, we have become close 
partners with the election community. Our efforts to protect 
2020 and I did bring party favors, you should all have a bumper 
sticker, are already underway.
    We will focus on broadening the reach and depth of 
assistance emphasizing the criticality of election 
auditability, prioritizing the need to patch vulnerabilities, 
and developing locality-specific cybersecurity profiles that 
officials can use to manage risk.
    Operational technologies such as industrial control systems 
are also important. These components that operate our critical 
infrastructure such as manufacturing, the grid, pipelines, and 
dams. The increasing integration and connecting of these 
technologies has vastly increased the potential impact of cyber 
threats. Included in this year's budget is a voluntary pilot 
known as CyberSentry that will deploy network centers to detect 
malicious activity on critical infrastructure networks 
including ICS.
    Supply chain is also a priority. CISA shares DHS' seat on 
the Federal Acquisition Security Council. This council 
established by law last December will provide a coordinated 
approach to supply chain security. Our success depends on 
collaboration with industry experts as well. Our supply chain 
risk management taskforce has brought together 20 Federal 
partners and 40 of the largest companies in the IT and 
communication sectors to reach consensus on how to best manage 
this risk.
    Of course, CISA also remains focused on physical threats. 
On Saturday, we were once again deeply saddened to learn of the 
tragic shooting at a synagogue in Poway, California. Far too 
often our nation is confronted with another violent attack on 
places such as entertainment venues, places of worship, or 
schools.
    Earlier this month, CISA updated and released a resource 
guide on securing such soft targets in crowded places and also 
takes a leadership role in ensuring school safety going 
forward.
    In closing, I would like to thank the committee for its 
continued support of CISA and mission. The authorities and 
resources provided over the years have helped raised the 
baseline of cybersecurity and mitigate countless threats to 
Federal networks and critical infrastructures.
    Once again, thank you for the opportunity to appear today, 
and I look forward to your questions.
    [The information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Ms. Roybal-Allard. Okay. Director Krebs, I would like to 
begin by having you give us your overall vision for Federal 
cybersecurity, how it is different from the model that is being 
employed today and the challenges that you see standing in the 
way of that vision.
    Director Krebs. Yes, ma'am. Thank you for the question.
    I like to talk about Federal cybersecurity in three primary 
buckets in terms of establishing context.
    One, where we were, where we are, and where we need to go. 
So, when you think back to the OPM breach and the status of 
Federal networks then, in the intervening couple of years using 
authorities Congress has granted us under FISMA including 
binding operational directives, there is no question we have 
made progress.
    I cited the patch mitigation plan, the vulnerability 
management that we put in place going from 219 days for 
patching critical vulnerabilities to less than 20 now into the 
15-day range is a significant improvement. Also on email 
security and web security, we issued a binding operational 
directive for DMARC, that has also put us at the top of the 
heap.
    So, there is no question that we are better than we were 
several years ago. The challenge we have right now, though, is 
that across the civilian agencies there are 99 different 
agencies that we work with to help improve cybersecurity. We do 
provide tools such as the Continuous Diagnostics and Mitigation 
program and the National Cyber Protection System, and those are 
certainly providing the appropriate protections in place now. 
But we have got to get to a more common synchronized baseline 
approach.
    And so, later this year we will issue a cybersecurity 
baseline that will establish a common understanding and 
framework of where these 99 Federal agencies need to go.
    Earlier this week also it was announced by OMB that we will 
be serving as the quality service management offering for 
cybersecurity services, so that we will be able to offer a more 
standardized security operations centers as a service for 
example.
    But to continue going forward in the next several years, 
what I would like to see is once again, standardized approaches 
to cybersecurity across the agencies, a better harmonization 
across services that are provided whether by me or other 
agencies. We have to continue to push awareness of threat 
information out there. We have to understand and increase 
visibility across networks and we have to be able to act 
quickly across those networks.
    Ms. Roybal-Allard. We continue to hear about new cyber 
attacks on Federal networks and critical infrastructure. In 
addition to national security concerns, these attacks often 
lead to the loss of Americans' private information, significant 
economic losses.
    As the general matter, do you believe the Federal 
government is doing enough on cybersecurity and what cyber 
threats are you most focused on in CISA?
    Director Krebs. So I think, again, we have made significant 
progress over the last couple years. But it almost sounds like 
a GAO report, but more work to be done.
    We have to continue engaging the critical infrastructure 
community, we have to continue sharing information on the level 
of the threat. When I think about the threat landscape right 
now, for the Federal networks we are principally continuing to 
focus on advanced persistent threat actors, and that is nation-
state actors. So that would be Russia, China, Iran, and North 
Korea.
    But we are seeing an increase in hybrid threat actors, and 
so what you are seeing is some nation states are using cutouts 
or proxies to further their agenda rather than directly 
engaging the military or intelligence services of those 
countries. So the landscape is becoming increasingly complex 
and diffuse.
    Back to the critical infrastructure space, again, we have 
to engage more critical infrastructure owners and operators. We 
have to get out there and continue to share our understanding 
and provide them a baseline understanding of the things that 
need to be done to protect their networks. And in part, to 
those like in the election infrastructure community where they 
may not have their own resources, their internal resources, we 
need to be able to provide resources to those folks.
    Ms. Roybal-Allard. And if you had access to additional 
resources, what areas would you prioritize for investment?
    Director Krebs. I would scale the existing capabilities we 
have, the technical support capabilities we offer to our 
critical infrastructure partners. I would also significantly 
expand my ability to engage, my stakeholder engagement 
mechanisms.
    It starts by building trust and you can only build trust by 
having relationships and engagement and touch points. We have 
to do more to get out there and engage but once we do, we have 
to be able to follow through in addition to building these 
technical capabilities.
    Mr. Fleischmann. Thank you Madam Chair. Director Krebs, at 
our last hearing we spoke about the department's partnership 
with our great national labs and specifically the top notch 
work being done at the Oak Ridge National Laboratory in my 
district in Tennessee.
    Does CISA have any ongoing projects at Oak Ridge National 
Lab? And if so, how are those projects furthering the missions 
and goals of CISA?
    Director Krebs. Yes, sir. Thank you for the question. Oak 
Ridge has been a long-term partner of CISA and the NPPD 
predecessor particularly in our chemical security efforts. In 
fact, Oak Ridge, I probably call them a plank holder in the 
chemical security program. So we have been doing work with them 
for a dozen years or so.
    We have at least two ongoing contracts right now that one 
provides assistance and back end analytic support to the 
chemical security assessment tool. And this is a critical part 
of our chemical security efforts and that is an important tool 
going forward.
    Mr. Fleischmann. I want to thank you for that and I think 
for the record, any time we can leverage the investments of 
other agencies like at the Oak Ridge National Lab and at the 
Pacific Northwest labs and bring all of our RRDs together, we 
are doing great things for our country.
    In regard to Federal agencies the request includes $694 
million for Federal network protection, a vital and necessary 
investment for the operations of our government. I don't think 
there is much disagreement that these are all well-spent 
dollars.
    My first question is more to do with compliance, how do you 
ensure the agencies comply with the directives and 
recommendations for good cybersecurity practices?
    Director Krebs. We work very closely in terms of compliance 
with the Office of Management and Budget, but also with the 
leadership of the respective departments and agencies. As I 
mentioned, 99 agencies--23 or so of those are large agencies. 
And then you have small or medium, small, micro, and minis.
    We prefer to engage at kind of left of boom. And what I 
mean by that our sense of things is that we can constructively 
engage the CIOs and the network defenders to help them 
implement things like Binding Operational Directives so we 
don't have to get to a position where we are penalizing or 
otherwise having to use some sort of hammer.
    And we have been successful in that. We have not actually 
been in a position to date where we have to go any sort of name 
and shame campaign or anything.
    Again, I sense that the cybersecurity community across the 
Federal interagency is willing and able and positively 
contributing to the mission. But we need to expect more, not 
just of us at CISA but also of our departments and agencies, 
there is more work to be done. We are doing a much better job 
in terms of protecting Federal networks, but there is more that 
we can do.
    Mr. Fleischmann. As an analogous question to that, sir, can 
more be done to encourage compliance or if need be direct 
compliance for good cybersecurity practices at the agencies?
    Director Krebs. So, my sense of things right now is where I 
would like to go and this also points back to the chairwoman's 
question. What we are increasingly finding is that in terms of 
cybersecurity at Federal agencies, it is less about deploying 
tools across the networks.
    What we are finding is we are doing a lot of work just on 
the basic architecture advisory services, basic deployment and 
updating and upgrading, and modernization of the environment so 
that they are deploying more secure by design and by deployment 
rather than bolting on security tools. So I think going 
forward, one of the things we always need to keep in mind is if 
you deploy and configure in a secure manner, then you are not 
spending a lot of money on tools on the backend.
    Mr. Fleischmann. Yes, sir. Mr. Director, do agencies incur 
a cost to their own budgets to do this monitoring or applying 
software patches?
    Director Krebs. Yes, sir. There are always going to be cost 
associated with IT security spend. I think if you look at 
industry for example, about four percent of IT budget is 
cybersecurity expenditures.
    So there are cost associated, the people costs, tool costs, 
licensing costs, time costs in terms of security 
implementation. But, again, if we can include security advisory 
services in just baseline IT planning and IT expenditures, then 
I think we will be getting some economies of scale and 
efficiencies down the road.
    Mr. Fleischmann. Yes, sir. One final question.
    Do you have any suggestions on how we could help educate 
our colleagues and subcommittees that these investments are 
just as necessary as grants or other programs with organized 
constituencies?
    Director Krebs. Yes, sir. I think just like anything else 
in the cybersecurity space, conversation, awareness building, I 
go out and brief boards of directors and C-suites of critical 
infrastructure across the country, I see Congress as a board of 
directors.
    And so, I think anything we can do to help share our 
understanding of the threat environment, share our 
understanding of the things we need to be doing in the various 
agencies whether that is briefing the subcommittees, happy to 
contribute to that effort.
    Mr. Fleischmann. Thank you, sir. Madam Chair, I yield back.
    Ms. Roybal-Allard. Mr. Ruppersberger.
    Mr. Ruppersberger. Okay. This will work. Yes.
    But first thing, Director Krebs, I think you are doing a 
good job. You have got a big job, a lot of issues not only 
educating the public but educating us in Congress. There a lot 
of people in Congress that really need to know a lot more. So, 
keep doing what you are doing.
    First, Chairwoman, I want to thank you for having this 
hearing. It is the second time we have had you here. That is in 
my opinion very positive, because I think we need to make 
cybersecurity a high priority and we have a long way to go, as 
you know, our entire .gov system and what we are doing in the 
whole country. And the more that we can focus with you and you 
can work with us so we could help you with your resources, the 
better we are going to be, because it's serious threat, an 
example of that and then that is going to be question.
    But I think Commerce in 2017 said that we had over $600 
billion stolen. And that is in academia, that is in medical, 
that is in space, that is where we go. And a lot of it is 
China, but there are other countries too that they are stealing 
a lot. So I just want to acknowledge that and thank you for 
making this issue a priority.
    My question, last week I think you spoke at the Atlantic 
Council's International Conference. We were following you 
around so we would know what you are doing. We are your board 
of directors, on cyber engagement. And you highlighted among 
other items, the continued intellectual property theft, assault 
on our country by foreign adversaries.
    The U.S. Trade Representative as I said estimated in 2017 
there was over $600 billion that was stolen. We need to deter 
bad actors while simultaneously providing support and security 
to those who need help.
    Now, in your opinion, how important the Department of 
Homeland Security Emergency Directive Authority--can you give 
us any studies for example of how the use of emergency 
directive has helped improve security? And highlight any items 
in your fiscal year 20 budget that incorporate lessons learned 
from previous emergency directives? Did you get it?
    Director Krebs. Yes, sir. Thank you. The Emergency 
Directive Authority and thank you for the Atlantic Council 
reference, that was a good event and I had some interesting Q&A 
and I think your staff was there for that.
    The Emergency Directive Authority is an important tool in 
the toolkit that we use sparingly and we use it in a pragmatic 
fashion. We used our first emergency directive earlier this 
year in January during the government shutdown, I think I spoke 
about that in the last time I was with you.
    But we working with the industry had detected in global 
scale a DNS tampering campaign effectively, as I mentioned at 
my opening, messing around with the internet's phonebook. We 
have included in the 2020 request a line that would allow us to 
put us on a path to implement a more holistic approach to DNS 
management across the Federal government, rather than agencies 
doing their own DNS records management, this will put us on a 
path of more centralized services, that would allow us the 
ability to lock down DNS as well as understand how the 
adversary may be exploiting DNS.
    As it so happens, malware tends to communicate with its C2, 
its command and control infrastructure oftentimes using DNS. So 
it would put us on top of that, be able to see it and stop it.
    We actually modeled this in part after an approach the 
United Kingdom has taken with their public DNS service, the 
National Cybersecurity Center, my counterpart in the U.K., they 
have taken, they are implementing this service. And so we are 
looking at their success and this is a bit of an example of how 
I look at my international partners as a bit of a test lab. So 
if I see good things that other countries are doing, I try to 
bring it back here. And so this is just one example. But is 
also informed by our January experience with emergency 
directives.
    Mr. Ruppersberger. Also, as you know 80 percent of the 
network is controlled by the private sector. Do you work 
closely with the key players and the people who know what they 
are doing in the commercial side?
    Director Krebs. Yes, sir. Between the ISPs, the registrars, 
the registries, we have a network of partners, and we work with 
them in a couple different ways but we have some of them within 
the National Communications Center at our NCCIC facility in 
Virginia. We actually have telco representatives----
    Mr. Ruppersberger. Could you explain what do you think is 
sort of----
    Director Krebs [continuing]. The National Cybersecurity and 
Communications Integration Center, you are all welcome to come 
over and visit and I invite you to come, we can do a tour. Show 
you what our capabilities are and who the partners across both 
the Federal government and the industry that sit with us.
    But, yes, we have those strong partnerships and really, 
those are key. I said it before that I see CISA, we sit at the 
intersection of Department of Defense, the intelligence 
community, law enforcement and the industry. In many respects, 
particularly the government conversations, we are the advocate 
for industry within the Federal government. So it is important 
that we have close relationships and co-location with our 
industry partners.
    Mr. Ruppersberger. Thank you.
    Mr. Newhouse. Okay.
    Ms. Roybal-Allard. Mr. Newhouse.
    Mr. Newhouse. Thank you Madam Chair.
    Director Krebs, welcome. Thanks for being back with us, 
sharing with us your priorities of carrying out your mission 
and protecting our cyber infrastructure as well as our physical 
infrastructure in the country is increasingly important.
    As you mentioned, you said something like you have to 
engage more with our partners in infrastructure and if there is 
anything that we can do to help you with that, I would 
certainly be interested in whether it is law changes, 
resources, whatever it is that we need to provide for you to 
help you do your job, let us know.
    Something that has come to my attention recently and I have 
actually seen examples of this is something called, I believe, 
it is deep fakes and as that technology seems to be improving 
and growing, people can falsely disseminate information with a 
use of a smartphone and I guess I am not saying we need to 
monitor U.S. citizens by the Federal government.
    However, how do we combat the use of this of getting false 
information out that could have truly negative impact on a lot 
of different things? Are we prepared to combat these kinds of 
technologies that are emerging, and I would just like to hear 
what your perspective is and where we are on this kind of 
emerging technology?
    Director Krebs. Yes, sir. Deep fakes are certainly a 
concern and essentially what we are talking about here is 
whether a video that has been doctored or otherwise manipulated 
to appear as if someone is saying something they didn't say, 
same thing can go for audio.
    I think if you look back to the way some of our 
adversaries, particularly the Russians, but also potentially 
the Chinese have, how they are engaging and influence 
campaigns. If you think about the way the Russians in the 2016 
election manipulated social media, there are certainly 
opportunities for them to use things like deep fakes to confuse 
the public to continue to divide.
    It is an area of focus for the Federal research community 
and the intelligence community, law enforcement to understand 
what the, kind of emerging trend lines are and what the 
capabilities are, who has these capabilities. But ultimately, 
my sense of things and this is one of those things we are 
working towards as we build up towards 2020, but is educating 
the American public on what the trusted sources of information 
are, how to think more critically about information that is 
anonymously posted online, whether it is a video or on social 
media or whatever.
    But that is probably the greatest challenge ahead of us. So 
when I think about election security piece, yes, protecting 
state and local governments' networks is hard but it is 
manageable. Working with campaigns to help protect their 
infrastructure, that is hard but it is manageable.
    The social media thing and really increasing the resilience 
of the American people to withstand or be able to identify 
issues like this, that is going to be the big challenge ahead 
of us.
    Mr. Newhouse. That is what I have seen so far that the 
examples, I don't know if you have seen this Madam Chair, but 
the videos of people that you would recognize and their mouths 
are making the words but it is kind of rudimentary at this 
point but as with everything it will get more sophisticated.
    Director Krebs. And how much more sophisticated does it 
actually need to be before it is good enough?
    Mr. Newhouse. Yes, yes.
    Director Krebs. So, again, we think back to--there are a 
couple of examples of things that we saw in 2016. In the state 
of Ohio, there was a video posted on social media of--that a 
user had claimed that a voting machine was malfunctioning and 
the vote was being changed.
    The secretary of state contacted us. We were able to pass 
that over to the social media company, working with them they 
were able to determine that it was a doctored video. So, maybe 
in some sense it is like a deep fake.
    They were able to debunk that, get the information back to 
the secretary of state who was then able to put out a statement 
and say, You know what? This is not true. It was doctored. It 
has been removed. That will happen within a very quick 
timeframe, less than a couple of hours, really.
    So, there are ways to combat it if you can connect the 
players who can debunk and then the people that are hosting, so 
what we are doing is working through on our side some of the 
frameworks and mechanisms for identifying debunking and 
removing content.
    Mr. Newhouse. Good, good. All right. Well, I appreciate 
that. Thank you very much.
    Director Krebs. Yes, sir. Thank you.
    Mr. Newhouse. Again, thanks for being here and we look 
forward to working with you.
    Director Krebs. Yes, sir. Thank you.
    Mr. Newhouse. Thank you, Madam Chair.
    Ms. Roybal-Allard. I would actually like to give you a 
little bit more time to respond to Mr. Newhouse's opening 
statement in terms of what it is that we can do more to be 
helpful.
    Director Krebs. So, I thank you for that because I actually 
took note. I was thinking specifically, look, I have really 
good tools but I could have the best tools in the world, but if 
I don't have the ability to engage my stakeholders, then they 
are worthless.
    So, I need to get more ability, more people more 
mechanisms, more tools to get out there, engage the critical 
infrastructure community. We are talking thousands and 
thousands and tens of thousands.
    Elections is just one example. So, in 2018, we worked with 
all 50 states in 1,400 local jurisdictions. The challenge here 
is that there are 8,800 local election jurisdictions. So, I 
have got a delta that I have got to match.
    How do I do that? I need people engaging. I need to work 
with stakeholder groups. That----
    Ms. Roybal-Allard. Do you need more authorities--
    Director Krebs. It is not so much authorities. I need time. 
That is one thing you can't buy.
    Mr. Newhouse. Resources----
    Director Krebs. But I need more time and I need more 
resources. Congress has given us $59.4 million in the past two 
years, 2018 and 2019 for election security work. We are 
requesting this year's president's budget about $22.3 million 
per election security work.
    When you think about that, that is over $80 million in 
terms of dedicated election money. That is going to help us 
continue to push out but again, I need time. I need people and 
I need the resources to get out there.
    Once I do get--make that positive contact and the requests 
come in for support, I do have good tools. But the bandwidth I 
have for tool delivery right now is not going to match what I 
suspect the requirement base is going to be.
    State and local governments is just one example of we could 
really solve a lot of the nation's problems if we had the 
ability to engage on a daily basis and provide them tools. And 
if you think about the National Critical Functions list that we 
issued yesterday, 55 National Critical Functions.
    One of those is election security. Congress has invested to 
date $60 million in one critical function, potentially another 
$22.3. So that gives us as I mentioned in my opening a roadmap 
as we prioritize which of those functions are the most 
important. How do we think about the investments that need to 
be dedicated or put against each of those functions going 
forward.
    Mr. Newhouse. So if I may, Madam Chair, thank you for 
expounding on that. It is not a reluctance on the part of the 
8,800 jurisdictions around the country or the managers of dams 
and pipelines and grid throughout the country. It is more an 
issue of our ability as the Federal government to respond to 
those requests and it needs----
    Director Krebs. It is, first, it is going and finding the 
stakeholders. It is engaging with the stakeholders. Not 
everybody, particularly across the small and medium business 
cohort don't have the resources to engage, particularly in 
Washington, D.C. through an advocacy or a trade association. So 
we have got to get out there in the field. That is one part of 
it.
    Mr. Newhouse. Okay.
    Director Krebs. The other part of is just basic awareness. 
For too long, I think we have kind of glossed over the fact 
that there are nation states out there that are trying to do us 
harm. We have got to continue to push to the message that, yes, 
there are risks, particularly as we continue to connect to 
cyberspace.
    In 2016, one of the biggest challenges as we engaged state 
and local election officials is the initial disbelief that they 
were on the frontlines of a nation state attack that a state in 
the Midwest may be a target of the Russian GRU.
    We have to get past this. As you plug into the internet, 
you are in the game. You are in the global game in the 
cybersecurity space.
    Mr. Newhouse. Thank you.
    Ms. Roybal-Allard. Ms. Meng, thank you for your patience.
    Ms. Meng. No problem. Thank you, Madam Chairwoman, ranking 
member. And thank you, Director Krebs for being here again. I 
appreciate your work in updating us and as a new member of the 
subcommittee, I am learning a lot as well.
    As you know, Federal investments in scientific research and 
higher education are critical to our national security, 
maintaining American leadership and innovation and fostering 
economic growth and jobs.
    We know current and future threats to our country's 
cybersecurity are varied and constantly evolving. Given CISA's 
mission along with efforts in DHS Science and Technology on 
cybersecurity, what is CISA's academic outreach strategy for 
cyber research and development?
    How can we maybe be helpful even in our local districts 
with our academic and/or business partners and allies? I am 
concerned also about the fiscal year 2020 budget request, which 
includes a reduction of over $17 million from R&D for cyber.
    What R&D activities or programs will be affected or cut 
with this decrease in funding? And forgive the long question.
    Director Krebs. Thank you for the question. I actually had 
the opportunity yesterday to testify in front of the House 
Homeland Security Subcommittee on Cyber and Infrastructure and 
Innovation alongside Bill Bryan, the senior official 
responsible over at the Science and Technology Directorate.
    And one of the things that--I have known Bill for years and 
one of the things that we committed to when we both came into 
our leadership positions here at the Department was that we 
were going to work together. That we were going to harmonize 
our efforts. That we were not going to work at cross purposes 
and we were not going to work independent of each other. And 
what Bill has done over in S&T through his vitalization program 
is turned S&T into a very customer service-focused 
organization.
    And I have embeds from S&T that sit with my team that work 
regularly with my chief technology officer and are able to 
identify R&D requirements across CISA and then feed those into 
the S&T pipeline.
    Now, Bill does have other cybersecurity stakeholders across 
the department--Coast Guard, ISHSI, Secret Service. So, I am 
not the only customer but I am able to push over requirements 
and he has an understanding of where I want to go.
    And the best part about this is there really no surprises, 
so he is not doing something that may ultimately undermine one 
of the efforts that I am doing. That is not always been the 
case. There have not been strong relationships between S&T and 
previously NPPD.
    So, that was one of those things, we are all in this 
together. And it is important that we work it together. So, 
understanding that there have been some puts and takes in the 
budgets, regardless of where the R&D money lands, whether in my 
budget or Bill's budget, we will get the job done. The 
cybersecurity research and development across the Department of 
Homeland Security will be done in a professional, coordinated 
and ultimately impactful manner.
    Ms. Meng. Thank you. I have another question about the 
EINSTEIN system which looks for known threats. What is in place 
to protect our Federal networks from unknown threats? EINSTEIN 
provides physical protections of information going in and out 
of government premises, also wanted to know what steps are 
being taken to protect this information through cloud 
computing, mobile type networks, and how does EINSTEIN address 
those?
    Director Krebs. So, thank you and I think I spoke about 
this a little bit the last time I was with you. The way that we 
think about EINSTEIN, it is actually wrapped up in a bigger 
program called the National Cyber Protection System.
    And there are a couple of different line items within, or 
work streams within the NCPS. One of them is just basic net 
flow monitoring. And it is looking really at what is happening 
across the networks for forensic purposes.
    And then we have an intrusion detection system, and then 
finally the E3, EINSTEIN 3 Accelerated, which is taking 
classified signatures. And it is important to note that it is 
the only classified signature capability available within the 
civilian space--commercial or government. It is the only game 
in town. And we find significant value out of it in terms of 
targeting nation state campaigns against Federal networks.
    But based on the information that we have been able to 
collect over the last 10 years or so, whether it is from the 
net flow, the detection system or the prevention system, we are 
in the pilot phase of predictive analytics.
    So, we have the ability to understand just in terms of 
looking for anomalous behavior. So it is not about it is a 
signature, it is communicating with a certain DNS. We actually 
have the ability to say that user usually isn't online at that 
time or that user usually doesn't log in from that address or 
location.
    And that is, again, part of the predictive analytics bucket 
that we are able to--and we will be rolling that out in the 
future. But, again, what we need is the people and the 
resources to scale that over Federal government.
    We are still in the early days. We have some request in the 
2020 budget but my hope is that in the future years that as we 
really build this capability, we are going to be able to invest 
in that, really roll it and I think it will be a significant 
game changer.
    Ms. Meng. Thank you. I yield back.
    Ms. Roybal-Allard. Mr. Rutherford.
    Mr. Rutherford. Thank you, director, for being here this 
afternoon and I don't know how you sleep at night with some of 
the issues that you face.
    Director Krebs. I didn't last night. But that is because I 
have five kids and two of them were sick all night, so----
    Mr. Rutherford. Oh, that is----
    Director Krebs [continuing]. Different story.
    Mr. Rutherford. So cyber is nothing for you then. And so 
let me ask you just a sidebar question real quick. The KSAs, 
the knowledge, skills and abilities that are needed within 
cyber, the cyber world and the ability to create innovation, 
how does America compare to some of our peer adversaries? Are 
we in good shape?
    Or, are our universities turning out individuals that are 
capable of defending us in creating that innovation that we 
need to stay one step ahead of adversaries?
    Director Krebs. That is a really interesting question. And 
I have thought about this in a couple different lights, and it 
has been something that has been top of mind for me over the 
last several months, particularly as we think about the 
continued online aggression by in part looking at China, for 
instance.
    They continue to come in and steal our intellectual 
property. They are setting up a system of laws whether it's the 
intelligence law, the cybersecurity law that compel U.S. 
companies to turn over information as they come in to that 
market.
    They are using Chinese students to come into our 
universities and steal intellectual property and research and 
take it back. But ultimately, what I have hope about and 
optimism about is that, any way you cut it, I still think the 
United States of America is the best place in the world to 
live, to work, to innovate.
    If you have an idea, you could bring it forward here, look 
at the companies at Silicon Valley alone but increasingly other 
technology and innovation hubs across the country, in all parts 
of the country, fly-over country or not.
    It is still the best, most innovative place to work. So, I 
have hope that today and in the long-term, we are still turning 
out the capabilities we need. But at the same time, the threat 
landscape is--it is not that the threat landscape is evolving 
so quickly, it is that our understanding of the threat 
landscape is what is evolving.
    And there is a technology deficit and there is a workforce 
deficit. Just yesterday on the Senate side, a bill of cyber 
workforce rotational program came out. Senator Peters, Ranking 
Member Peters is the original sponsor, I think.
    And so when that comes over to the House that would be a 
useful tool across, I think, the Federal government to start 
moving people around, so that we get standardization of 
experiences and we start, can upskill some folks.
    The administration is looking at a number of different 
workforce innovations and I expect imminent action out of the 
White House on that. So, we are making progress there, but we 
have got to think about the existing talent pool and getting 
them in the right spot, whether it is through cross training, 
upscaling.
    We have to think about the education pipeline or K through 
12 as I already talked about, two of my kids, I have got three 
more. I want to make sure that when they hit the workforce that 
they have the tools and talents needed.
    So, it is STEM and STEM investments. We have got to do a 
better job at the education. That is not just the Federal 
government. That is an all of the nation effort. So that is, if 
industry really wants to be, the technology industry in 
particular wants to be setting the global pace, they need to 
invest in their local communities as well.
    And then also it is the educators. Without the educators, 
the K through 12 system and my kids aren't going to have the 
tools they need.
    Mr. Rutherford. You mentioned that one thing that we could 
help you with is, one of the challenges that you face is more 
engagement of the 55 identified critical infrastructure areas 
out there.
    Of those 55, are they in some rank order, you have----
    Director Krebs. So, that is the precise next question. So 
historically, we have been looking to the critical 
infrastructure community at 16 sectors, which is useful in 
terms of organizing across the economy in a kind of artificial 
way.
    But what we were doing with the National Critical Functions 
was looking more systemically. What are the things that the 
sectors deliver and how do they interrelate. So, you can't have 
energy without telecommunications and water and finance.
    You can't have finance without telecommunications and 
energy. So, we are trying to map these interconnections. As we 
look at the 55, the 55 National Critical Functions, we also 
have to keep in mind that if everything is a priority nothing 
is a priority.
    Mr. Rutherford. Right.
    Director Krebs. So, we will have to do some analysis and 
that is what we are going to do next. We will be kicking off a 
prioritization process and that will allow us to figure out 
where we need to dedicate resources, how to align initiatives 
at, various departments and private sector initiatives.
    So, I am very excited. This is an evolution in the way we 
think about risk management. And it will I think really help 
inform both your efforts as well as mine.
    Mr. Rutherford. Okay. I see my time has expired.
    Ms. Roybal-Allard. Ms. Wasserman Schultz.
    Ms. Wasserman Schultz. Thank you, Madam Chair.
    Mr. Krebs, it is good to see you again. When you were here 
in March, if you recall, I asked you how we could have 
confidence that the administration is taking the threat to our 
election system seriously given President Trump's insistence 
that Russia did not interfere with the 2016 election.
    And at the time, you told me and I will just remind you of 
what you said, I quote, I have been in meetings with the 
President when he said he believes the intelligence community 
report, I take him at his word.
    Now, I was reminded of our exchange last week when the New 
York Times published an article stating that in the months 
before she was forced to resign, former DHS Secretary Nielsen 
tried to focus the White House on preparing for new and 
different Russian forms of interference in the 2020 election.
    I guess trying to actually live with the hash tag, but was 
told by Acting Chief of Staff Mulvaney not to bring the issue 
up in front of the President since he still equates the 
discussion of malignant Russian election activity with 
questions about his legitimacy.
    According to the article, Secretary Nielsen eventually gave 
up on her effort to organize a White House meeting of cabinet 
secretaries to coordinate a strategy to protect next year's 
elections.
    So, Director Krebs, has the President received a briefing 
from DHS on potential Russian interference in our elections in 
2020?
    Director Krebs. So, generally speaking, as I mentioned in 
the last hearing, I have been in some meetings with the 
president--haven't been in all meetings with the president, but 
he did agree with the intelligence community assessment, in 
fact, he is on the record in front of the camera last----
    Ms. Wasserman Schultz. Has he had a briefing----
    Director Krebs. From me personally? No, ma'am. He has not.
    Ms. Wasserman Schultz. Has he had a briefing from anyone in 
your department, in your agency? Are you aware of the president 
receiving a briefing from DHS on potential Russian interference 
in our elections in 2020?
    Director Krebs. In the 2020 efforts? Not that I am aware of 
in 2020. I know I have had to talk to Acting Secretary 
McAleenan several times over the last couple weeks. And I 
worked very closely with Secretary Nielsen on this issue.
    Ms. Wasserman Schultz. Right. Okay. But if this is going 
to--if we are really taking this seriously and having it be 
more than hash tag protect 2020 then one would hope that the 
president of the United States would be briefed and be fully 
aware of the risk and be a part of directing what it is that 
should happen in order to actually protect our elections in 
2020.
    So has an interagency strategy to protect next year's 
elections been developed despite Secretary Nielsen's inability 
to organize a White House meeting of cabinet secretaries? And 
when can we expect a briefing on that strategy?
    Director Krebs. So, we are working--the various departments 
and agencies are working on their elements right now in 
coordination with the National Security Council. Director Coats 
was pretty clear about that in his statement last week, that we 
are working together.
    We have a plan. We are pulling the pieces together. In 
terms of an overarching briefing on a strategy, my hope is that 
just like last summer, when we did an all House classified 
briefing and we did an all Senate classified briefing, we can 
pull that together again soon.
    Ms. Wasserman Schultz. That would be incredibly helpful. 
Did the former secretary ever express frustration to you that 
she was unable to organize a cabinet level meeting on election 
security with the president?
    Director Krebs. I was surprised by a number of things in 
the New York Times article. I have no evidence or indication 
that any of those anonymous sources that anything they said was 
true. Secretary Nielsen and I worked very closely on election 
security efforts and she never mentioned anything.
    Ms. Wasserman Schultz. So she wasn't trying to organize a 
cabinet level meeting?
    Director Krebs. No, ma'am. What I am saying is that she 
never mentioned to me that she was told not to bring it up with 
the president.
    Ms. Wasserman Schultz. But there wasn't--she was trying to 
organize a meeting and that meeting didn't happen.
    Director Krebs. Ma'am. I don't know specifically whether--
what her specific conversations with Mulvaney were, with the 
chief of staff.
    Ms. Wasserman Schultz. Okay. Again, trying to assess the 
seriousness of the administration's commitment to protect in 
2020, last week, President Trump's son-in-law and Senior 
Advisor Jared Kushner characterized Russian interference in the 
2016 election as a couple of Facebook ads.
    Is that a fair characterization? And how would you 
characterize the depth of Russia's interference in the 2016 
election?
    Director Krebs. So, I think the intelligence community--and 
I didn't see this specific interview but the intelligence 
community was very clear. The intelligence community assessment 
of January 17, the DOJ indictments were very clear on the 
Russian efforts, the Mueller report very clear on Russian 
efforts.
    Ms. Wasserman Schultz. So, it was far deeper than a couple 
of Facebook ads, the Russian interference with the 2016 
elections?
    Director Krebs. There were three distinct lines of effort, 
attempting to interfere and intervene with state and local 
election officials. There were hacking campaigns against the 
DNC. And there were the social media discord campaign, which 
continues to this day. It is not just election-focused.
    They generally speaking, the Russians are attempting to 
divide Americans along any issue that is potentially 
exploitable.
    Ms. Wasserman Schultz. Lastly, before my time expires. 
Kushner also claimed that investigations into election 
interference by Russia have been way more harmful than the 
interference itself. Do you agree with Jared Kushner that 
investigations into election interference have been more 
harmful than the interference itself?
    Director Krebs. Yes. The Mueller investigation was a duly 
authorized investigation by the Department of Justice. I think 
the Volume one builds on the intelligence community assessment 
and prior indictments.
    Ms. Wasserman Schultz. We are going to need more than a 
hash tag. I trust your commitment to it but making sure that 
this commitment goes to the highest levels all the way up to 
the president and the White House.
    Perhaps, you need to make sure that the folks in the White 
House understand the depth of what we experienced in 2016 and 
really commit to making sure that we can never allow it to 
happen again.
    Director Krebs. Yes, ma'am. We are all in.
    Ms. Wasserman Schultz. I hope all means really means all.
    Ms. Roybal-Allard. That concludes round one. So we are 
going to have a second round.
    Mr. Krebs, you stated that addressing a supply chain risk 
is one of your top priorities for CISA. Could you help us 
better understand the threat and its scope and what activity 
CISA is engaged in to mitigate that threat?
    Director Krebs. Yes, ma'am. So, supply chain is one of 
those areas that as I have talked about, our better 
understanding of risk. The more we understand the risk 
landscape, I think the more refining that, the more work we 
have to do.
    Supply chain is probably the area where that is most 
apparent. We have two kind of central lines of effort within 
the Department right now, within CISA. One is on the Federal 
network side, so thanks to Congress's action last year, we have 
just since stood up the Federal Acquisition Supply Chain 
Council. The first meeting was held yesterday, in fact. And 
Assistant Director Manfra of the Cybersecurity Division within 
my agency is the DHS chair, the DHS representative to the 
Council.
    That will focus on how to enable better Federal acquisition 
processes, including building on some of the learnings we have 
from the Kaspersky anti-virus Binding Operational Directive. We 
will be able to issue exclusion orders to take action on 
certain procurements or actions, products, services that may be 
across the Federal enterprise.
    So very hopeful that this will help evolve the way that we 
manage risk. And the idea ultimately is to get us into a better 
kind of left of boom or left of procurement, pre-procurement 
position where we are making better decisions and we are 
getting contracting officers and people to actually write the 
RFPs to have the appropriate understanding of how to get best 
outcome, so we don't have to tell people to pull stuff out down 
the road.
    So Federal side, and the on the industry side as I 
mentioned in my opening, we have an ICT supply chain 
taskforce--20 Federal government agencies, 20 IT sector 
companies, 20 communications companies.
    And that was stood up last summer after the National Risk 
Management Center was opened. And the concept here with the 
taskforce is to bring folks together and first and foremost get 
an understanding of what everyone is doing across the Federal 
space and the industry space.
    So have an inventory of what all the supply chain tools, 
capabilities, resources are. And then beneath that, there are 
four other work streams. First, is what is the right 
bidirectional threat sharing framework?
    So, if I have information on something like Kaspersky in 
the future, how do I get that out into industry? How does the 
industry share something that they may find that would be 
concerning in their supply chains?
    Number two, it is an actual risk assessment framework for 
making sure that we are talking about risk in the supply chain, 
not just the threat but the actual impact and the potential 
consequences of a vulnerable or an exploitable piece of 
hardware or software. How do we talk about that consistently? 
And so, it is not tower of Babel conversations, we are using 
the same language.
    Third is figuring out what the elements of a qualified 
bidders list and qualified manufacturers list would look like, 
so we can have--white list isn't the right way to put it but we 
know where to go for trusted procurement. We know where to go 
for trusted products and services. And lastly, kind of 
similarly, what are the incentives structures that we need to 
put in place for both Federal procurement and private sector 
procurement to encourage buying from original equipment 
equipment manufacturers and authorized resellers to eliminate 
the counterfeit threat and white labeling.
    We still see even in the Federal government shadow IT, 
where people can use P cards to go buy things off eBay and 
others that may not be what they claim to be, that could be 
some--there could be a case where a product brought--offered 
by, for instance one of the companies restricted by Section 889 
from the last year's NDAA. It could be something from one of 
those companies that has been white labeled, meaning they take 
the label off of it and then they give it to somebody else and 
they put their label on it, and then that enters into the 
supply chain.
    So we need to be thinking not just one hop, but two, three, 
four hops out in terms of eliminating risk.
    Ms. Roybal-Allard. And what more could be done if 
additional resources were provided? And does the 2020 budget 
help you to get there?
    Director Krebs. So the 2019 budget gives us, I think, a 
preliminary jumping off point for $2 million to $3 million for 
our supply chain efforts to put staff against our supply chain 
risk management efforts within the National Risk Management 
Center, but my sense of things is this will be the 
conversation, this will be what really drives the risk 
management conversation in 2 to 3 years, is the supply chain 
piece.
    So we have got to continue bringing supply chain risk 
management experts into the department. We have to continue to 
build the mechanisms for conversation in the frameworks for the 
Federal government, but ultimately, in terms of actually 
managing the Federal government space, I am going to need 
tools.
    I am going to need to bring in tools, for instance, to 
improve our--we do supply chain risk management assessments of 
the CDM Approved Products List, but I think we could probably 
do more. I think we can go deeper. I think we can continue to 
expand our understanding of relationships across vendor 
supplier relationships.
    Ms. Roybal-Allard. Okay. After this hearing I would like to 
talk to you a little bit more about some of those ideas.
    Director Krebs. Yes, ma'am.
    Ms. Roybal-Allard. Okay.
    Mr. Fleischmann. Thank you, Madam Chairman.
    Director Krebs, yesterday afternoon, we met with Acting 
Administrator Gaynor in a hearing on FEMA's 2020 budget 
request. This year, FEMA is requesting $9.6 million to 
modernize five more sites of the Integrated Public Alert and 
Warning System, IPAWS, and $18.3 million to fund, among other 
IT investments, improved resilient communications for immediate 
cybersecurity vulnerabilities. CISA's request includes $167 
million for emergency communications as well.
    How does your mission to protect communication as a 
critical infrastructure sector intersect with FEMA's mission of 
first responder and recovery agent?
    Director Krebs. Yes, sir. Thank you for the question.
    This is an area of the agency that I actually don't get to 
talk about as much as it really deserves. So the Emergency 
Communications Division within CISA is responsible for ensuring 
the interoperable communications of public safety first 
responders and law enforcement across the country.
    And it is less about providing technical capabilities, 
actually deploying the communications devices and the networks, 
but it is more about establishing a framework and including the 
National Security Emergency Communications Plan, but the 
framework within which our state, local, Federal responders all 
interoperate, meaning regardless of where you sit, what 
jurisdiction, what level of government, in the event of a 
crisis or response event, you can interact. You can talk.
    That was one of the key learnings coming out of the 9/11 
Commission. We are continuing to push into this effort. So a 
lot of this for us is capacity building. It is getting out 
there doing training on safe comm, for instance. We do a 
significant amount of engagement. This is kind of my earlier 
point about the more I can engage, the more successful we will 
be. ECD, its bread and butter for the last 15 years or so, when 
it was previously the Office of Emergency Communications, has 
been just a steady diet of getting out there, working with 
first responders, they have an incredibly cooperative and 
positive relationship with their stakeholders.
    And it is really truly driving results, including as we 
think about the deployment FirstNet right now, which Mr. Gaynor 
may have spoken about, but there is more to do here as well. So 
it is not just about being able to interoperate, being to able 
speak seamlessly, but they are now increasingly--particularly 
as we go to next-gen 911 and things like that, there will be 
cybersecurity risks that we are introducing to operations.
    And emergency responders have been traditionally physical 
responders, but we need to make sure that they are aware of 
some of the cybersecurity risks that are within the 
technologies that they are using.
    Mr. Fleischmann. Yes, sir. And how were the two funding 
initiatives different and could do without the other, sir?
    Director Krebs. Oh, I haven't thought about it from that 
perspective. But I think they all serve their own purposes and 
I think they are important. And we work very closely with FEMA. 
We work very closely with the IPAWS team and I think going 
forward, they absolutely serve very important independent 
purposes.
    Mr. Fleischmann. Yes, sir. The attacks in Sri Lanka on 
Easter Sunday were a somber reminder of why we need security 
agencies.
    The budget includes a $1 million increase for the Bomb-
Making Materials Awareness Program and transitions the 
initiative to a program of record. In this unclassified 
setting, sir, how this additional $1 million will be used in 
2020 and what metrics will be used to achieve these funds?
    Director Krebs. So BMAP, the Bomb-Making Awareness Program, 
Materials Awareness Program is a hugely successful effort for 
us. What the additional $1 million will do in addition to 
making it a program of record will allow additional modules to 
be added. I have talked a lot today about stakeholder 
engagement. It will also allow us to continue to expand our 
ability to engage across the stakeholder community.
    One thing to think about is the, I was saying in the 
unclassified space is where the threat streams are changing a 
little bit, we have historically been, whether it is the CFATS 
program or chemical security voluntary programs, what we are 
seeing is a bit of a shift in how the adversary is chemicals in 
commerce and bomb-making awareness is one of those things, how 
we can--whether it is in the private sector or state and 
locals, give them the right cues so that they can look for 
things that might be included in a bomb so that they can see 
something, say something.
    Mr. Fleischmann. Thank you, Director Krebs. I have 
appreciated your testimony. Madam Chair, I yield back.
    Ms. Roybal-Allard. Ms. Meng.
    Ms. Meng. Thank you. I just wanted to briefly follow up on 
one of my questions about more we can do back home or locally. 
You have talked about the importance of investment in STEM 
technology and obviously R&D. What more can the academia world 
or our corporate allies, what more should they be doing? In New 
York, for example, have you been able to have conversations, 
discussions with corporate allies in what more they can be 
doing whether it is STEM, STEAM education or just R&D 
investments in general.
    Director Krebs. Absolutely. This is one of those questions 
that I could spend the rest of the day talking about I think 
the things we need to do.
    Ultimately, any way you cut it particularly on a 
cybersecurity side, success is going to depend on collective 
effort. It is a shared responsibility.
    I need to be putting people in a position where they can 
make the right decisions or the appropriate decisions to manage 
their risk in the right way, but that is not just about 
deploying a patch. That is also about engaging locally in the 
community. That is about investing in future technologies, but 
doing it in a way that ensures that it is done in a secure 
manner.
    I think there are a number of things I could put to 
recently that are good examples of how industry is engaging. 
Just a couple weeks ago, a few companies, MasterCard, Workday, 
Microsoft and a couple others launched something known as the 
Cyber Talent Initiative, where they will help pay for college 
for a couple--for students, either graduate or undergraduate 
programs and then working with the Federal government, will be 
provided jobs and then it is sort of a scholarship program. 
They come in, they work for us, and then they can go back out 
into industry.
    That is just one example of how we are seeing investments 
in the education pipeline. I think those are important to keep 
up. R&D, of course, the Federal government does invest whether 
it is In-Q-Tel, DARPA, HSR, whatever it is, they will continue 
to invest in research based on the requirements that we have 
developed or identified, but any way you cut it, the industry 
whether it is the high-tech community or whatever, will 
continue to be really pushing the innovation in the United 
States.
    Now, what I think they could do more of is as you look at 
the global marketplace, as you think about countries like 
China, it is an opportunity, for sure, for revenue. It is an 
opportunity for potential advanced partners, but there are 
significant risks and threats that go along with it. There is a 
very clear agenda on part of the Chinese government to outpace, 
outstrip, and John Demers from DOJ says rob, replicate, and 
replace.
    So we are at-risk long-term of losing our competitive 
advantage in the world. There are a couple battle lines being 
drawn right now and I think 5G is probably one of those, but we 
have got to continue to invest. We have to have our companies 
and our organizations as they engage in the marketplace need to 
be thinking beyond the next quarter or two and think about the 
next 5 years or so, think on behalf of the shareholders long-
term, don't just hand over your source code when you go engage 
in certain markets, protect your intellectual property.
    The same thing, as I have already mentioned, goes for the 
academic community here. When you think about students that are 
coming in, it is not about limiting the students.
    It is about understanding what is valuable, what research 
you are doing is valuable, whether it is a Federally-funded 
grant, whether it is an industry-funded grant, understand what 
is valuable in your networks, protect it, limit the access as 
appropriate, but understand that we have is valuable, but at 
the same time, we need to ensure that particularly in the 
academic community that that open--that the ethos of open 
engagement and academic exploration continues, again, to drive 
that innovative and competitive edge.
    Ms. Roybal-Allard. Mr. Newhouse.
    Mr. Newhouse. Thank you, Madam Chair. And, again, Director 
Krebs, thank you for being here with us today.
    You have talked a little bit about the efforts along the 
lines of ensuring our elections process is safe and secure. In 
your written testimony, you discussed a lot of the things 
leading up to the 2018 election that the agency engaged in, 
table top exercises and different things.
    Could you talk a little bit about what is planned for 2020, 
some--maybe taking what you learned in 2018 and also, how you 
are addressing some of the deficits that you have identified in 
state and local governments?
    Director Krebs. Yes, sir. So I always, like kind of telling 
the story of where we were, where we are now, and where we need 
to go. So in 2016 when the Federal government began to, 
understood what was going on and realized that there this 
important election infrastructure out there that may be 
susceptible to exploitation or attack, we didn't necessarily 
know who the stakeholders were. We didn't know who secretaries 
of state were. We didn't know who the local officials were. So 
there was a lot of catch-up and it wasn't even about building 
trust then, it was just trying to figure out who they are and 
get stuff into their hands, and there was any trust.
    You know, there was a lot of concern that what is 
historically by statute and tradition managed by the state and 
local governments was going to be overtaken by the Federal 
government and that is obviously something that we are not 
interested in doing, but there was a lot of just discovery.
    Mr. Newhouse. Suspicion.
    Director Krebs. There was suspicion. But yes, definitely 
discovery. So in terms of the run up to 2018, what we were 
doing was building trust and sharing information on what the 
threat was and then basic tools and capabilities, so it was 
kind of that upward climb.
    Now, we have, as I mentioned earlier, relationships and 
engagement with all 50 states. And that level of engagement 
grows every single day. We have states that are looking to do 
new things with us on every single day. In addition, there is 
those 6300 or so additional jurisdictions, 7500 jurisdictions 
that we have got to engage.
    That is, again, going to take time and just steady diet of 
engagement, and it is not just going direct to the election 
officials, but it is also working with their supply chain. So 
there are vendors out there that provide election management 
services to thousands of stakeholders. So we need to work with 
that group of folks and then they can, we can ride in on them 
to engage the election officials.
    But in terms of specifics for 2020, again, it is reaching 
as many of those officials as possible. It is really improving 
our understanding of where the risk lies in the system. What 
are those things that are vulnerable? What are those things 
that have the highest consequence? What are the things that 
have the highest likelihood, and conversely what are the things 
that where there is the lowest likelihood of exploitation?
    So we can inform the conversation the right way so not 
every little vulnerability that pops up is the end of the 
world, because ultimately what we are trying to do is yes, 
protect the system so it can't be exploited, but we have to 
restore confidence in the electoral process because what is at 
stake here is fundamentally is democracy.
    Through that process, we will also be pushing just like we 
are doing on the Federal government side, but patch management, 
really getting folks in a position to patch, patch, patch. We 
are still seeing some cases where it has taken too long to 
patch critical vulnerabilities.
    We will do that, but ultimately, getting to auditability. 
Getting to end-to-end auditability across the systems whether 
that is through hand-marked paper ballots or whatever, we have 
got to get to a position where we have confidence that we can 
work back through the system and understand how that vote was 
cast and that it was counted correctly.
    Mr. Newhouse. Okay. Thank you. Again, thank you for your 
testimony.
    Director Krebs. And on the resource front--didn't address 
that--there is a technology deficit. There is equipment out 
there that is in some cases 15 years old. I have talked before 
about five states that still have these DREs, the no paper 
trail machines. They are all pretty much on a path by 2020 to 
remove those machines and put other machines that have some 
kind of paper auditability within those systems, but in some 
cases, we are still seeing lack of investment at the state 
legislature side.
    There are a couple states that are trying to sort it out. 
They either don't have it in their general fund available or 
for whatever reason. So there is--the money is going to have to 
come from somewhere. I personally don't care where it comes 
from. But we need to get those machines in place or the paper 
process in place so that we can have auditability across the 
system.
    Mr. Newhouse. All right. I agree. I agree. Thank you.
    Director Krebs. Thank you.
    Ms. Roybal-Allard. Mr. Rutherford.
    Mr. Rutherford. Thank you, Madam Chair. Director, two quick 
things and I will wrap up. You know, as America's energy 
production continues to rise particularly in natural gas, and 
we are moving it all around the country from where it is being 
produced to where it needs to be used. And my district has a 
lot of natural gas storage and transportation issues. Can you 
talk a little bit about the cybersecurity, I am sure that is 
one of the 55 infrastructure----
    Director Krebs. In fact, the pipelines are, yes, sir.
    Mr. Rutherford. Yes. So how can you in an unclassified way 
I guess, can you talk a little bit about how well we are 
protecting that?
    Director Krebs. Absolutely. So in fact, Director Coats in 
the Worldwide Threat Assessment mentioned the security and 
cybersecurity pipeline specifically in an classified manner. 
Last year, we kicked off with TSA and FERC and DOE and our 
industry partners our pipeline security initiative. And so it 
was working across the country, tiering pipelines based on 
significance, priority, and relevance to the generation and 
movement of product. And we have been out there, we have 
conducted some boots on the ground assessments to get an 
understanding what the security posture is.
    TSA has worked on this issue for a decade or more. They 
have issued guidance that has been generally well-received, but 
what we are trying to do is get out there and get a better 
understanding of really what the security posture is. And so we 
will do that through boots on the ground. We will do that by 
releasing self-assessment tools, but this is a priority area 
for us.
    Mr. Rutherford. Have we seen evidence of attacks on, cyber 
attacks on this infrastructure system?
    Director Krebs. So at the unclassified level, there, a 
couple years ago, 2012, 2013, there was some targeting of 
pipelines. And so we have enough information to understand that 
there are people out there interested in understanding what our 
pipeline infrastructure looks like, how the industrial control 
systems and operational technology works, but more importantly 
what we have now and in part what we can achieve through the 
National Critical Functions List is it is not just about the 
grid, because if you don't have baseload generation to feed the 
grid, then it doesn't matter if you have a grid or not.
    So what we are getting to is that interconnected nature of 
our infrastructure and that, developing that understanding, 
evolving our understanding, ensuring that we are aligning our 
resources, and aligning our investment, and aligning our 
initiatives and so that we can look for those gaps. And so next 
year when we come back, we will say, All right, you know what, 
in the course of this pipeline security initiative, we found 
some gaps here perhaps, and so we can roll that into the 2021 
budget, 2022, 2023, so on and so forth.
    But, again, we are building awareness, we are improving our 
understanding but we have a massive infrastructure here in the 
United States. And sometimes I am a little jealous of my 
partners in maybe smaller geographies. We have massive 
infrastructure here and we have a whole lot of work to do.
    And I appreciate the fact that I have had the chance to get 
up here and talk to you now twice this year, so we can share 
what our vision is, share what our plan is, because I am not 
going to be able to do this alone, industry is not going to be 
able to do this alone, you are not going to be able to do this 
alone. We have got to be able to do this together.
    Mr. Rutherford. And so let me close with this. And I think 
something that you said earlier about the students from China 
and how much a university allows them into research and those 
kind of things. I think that is an immigration issue that we 
need to look at.
    Why are we educating these individuals and then forcing 
them to go back? Now, some may be coming here as bad actors 
just trying to get that intellectual property to go back, but 
many come here and want to stay here. And we are sending 
engineers back when we need engineers.
    So the immigration issue is one thing I think that really 
ties into this actually.
    And then the other is on that innovation side again is our 
patent laws. We are stifling innovation by not allowing some 
of--you know, by allowing people to, in these disruptive 
innovations be dragged out through the courts for years, and 
finally these small inventors give up. And I think in this 
world of cyber particularly, we want to encourage all the 
innovation we can. And so I just throw that out to you as 
something that you may be able to help with as well.
    Director Krebs. And I will try to do this as quickly as 
possible recognizing I am over time here. The DNI released or 
declassified last year a slide what is known as the Wheel of 
Doom or the Wheel of Death and it basically shows the various 
tactics and techniques that the Chinese government is using to 
advance their economic interests. That includes traditional 
espionage, it includes cybersecurity, intellectual property 
theft, but also appropriation of R&D, mergers and acquisitions, 
non-traditional collection.
    There is this whole suite of approaches they are using. It 
is very strategic, but it is actually manifesting tactically 
here today and over the past couple years. And this was one of 
the things that Secretary Nielsen, previous Secretary Nielsen 
was focused on, but figuring out what are the department's 
levers that they pull in response to the Wheel of Doom. Working 
with the Department of Justice, the Department of Defense, the 
full suite of inter-agency and USG capabilities, but your 
immigration point is one of them.
    But this goes back to my earlier point of, I think we have 
inherent advantages in the United States of America, where we 
will always drive innovation and it is a mighty attractive 
place to live, whether you are on the West Coast here or 
somewhere in between, this is a great place to be and this is a 
great place to live. This is a great place to work. It is a 
great place to raise a family. We need to take advantage of 
that. We can operationalize that, too.
    Mr. Rutherford. Madam Chair, I yield back.
    Ms. Roybal-Allard. Okay. Are there any other questions? 
If----
    Mr. Fleischmann. Just----
    Ms. Roybal-Allard. Go ahead.
    Mr. Fleischmann. I wanted you to mention and I wanted to 
get on record. What is your focus and where on the list of your 
critical function set is the agricultural food production? And 
what are you doing, if you could just briefly talk----
    Director Krebs. So food production delivery is a critical 
function, as is water. You know, these are the basic, as FEMA 
would say, part of the lifeline sectors in terms of you tell me 
three or four days after a hurricane runs through whether it is 
the panhandle of Florida or whatever and you don't have food if 
you don't have water, how happy you are going to be.
    Mr. Fleischmann. Basic needs.
    Director Krebs. Yes. So it is on the list of National 
Critical Functions. We have identified that, and so now just 
generally on the critical functions piece, we are going into a 
prioritization cycle. We will be working with both industry and 
the agencies that have sector-specific agency authority, in 
this case, Department of Agriculture. We will be working with 
them to understand what their understanding of the risk is, 
what their initiatives are, what we can do together to help 
better align efforts.
    And ultimately, the concept here is we need to act, we need 
to prioritize--or we need to manage risk.
    Mr. Fleischmann. And more than just emergency situations 
from disasters, but from--I was director of agriculture for our 
state and one of the things that we were concerned with was 
people coming in intentionally doing something to impair our 
ability to produce food. Contaminations or spreading--rendering 
whole feed lots inoperable, different things like that.
    So I just wanted to make sure that that was part of the 
thinking.
    Director Krebs. Yes, sir. So, again, it is aligning the 
threat streams what we may understand a bad actor may do, 
costing it against the potential consequences and in your case 
and there are certainly a number of states that would have a 
really bad year if they were lose their livestock.
    Mr. Fleischmann. Thank you.
    Ms. Roybal-Allard. Okay. If there are no further questions, 
then the hearing will conclude. Thank you very much, Director, 
for being here and I look forward to following up with you on 
some things.
    [Questions and answers for the record follow:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    

                                          Wednesday, July 24, 2019.

 U.S. CUSTOMS AND BORDER PROTECTION--BORDER PATROL APPROPRIATIONS FOR 
                                  2020

                                WITNESS

CARLA L. PROVOST, CHIEF U.S. BORDER PATROL
    Ms. Roybal-Allard. The subcommittee will come to order.
    Today we welcome the chief of the Border Patrol, Carla 
Provost--and I would note that Chief Provost is the first woman 
to hold this important position. Chief, thank you for being 
here today.
    First I want to acknowledge that the men and women of the 
Border Patrol have faced a multitude of challenges this year 
with the high numbers of migrants who have been seen coming 
across the border. I know they have worked long hours and have 
been asked to do work they have never imagined would be part of 
their job.
    While I continue to believe the majority of your personnel 
carry out their mission in a professional manner and treat 
those in their custody with humanity, I have significant 
concerns about the reports of mistreatment by some Border 
Patrol agents.
    I am also concerned that the Border Patrol culture may be 
too tolerant of a minority of bad actors. Understanding the 
many challenges facing the Border Patrol, I hope we can work 
together to effectively address those challenges. That, is part 
of why we are holding this hearing today.
    Considering recent events and disclosures, I look forward 
to knowing what you are doing to address reports collected by 
government case managers of the abuse and mistreatment of 
children in Border Patrol custody, specifically in Yuma, 
Arizona.
    I am also interested in learning what you are doing to 
improve the conditions in your holding facilities, which the 
inspector general in El Paso described as horrific. 
Specifically, I remain concerned about conditions under which 
families and children are being held by the Border Patrol.
    Last month, Congress allocated additional funding to 
improve living conditions in the Border Patrol's temporary 
holding facilities. This included providing adequate space, 
comfort items, and access to medical care. And I look forward 
to hearing what you are doing with the additional resources.
    Also of great concern and interest is what are you doing in 
response to the disclosure of disgraceful comments made by what 
is hopefully a small, but loud and troublesome, subset of your 
workforce. We have been disturbed and disappointed by these 
reports of inappropriate discussions on Facebook, and 
humiliating treatment and cruelty towards migrants.
    Chief Provost, every member of this subcommittee is 
committed to improving our security at the border, but you must 
do it in a way that is consistent with our national values 
including a commitment to those in need. Unfortunately, that is 
not happening throughout your agency. We need to talk about 
what appears to be a dangerous subculture at the agency that 
cannot be tolerated and must be addressed. This mission 
requires leadership that will enforce and emphasize treating 
migrants humanely and respecting their rights. I want to work 
with you to ensure that happens.
    On a separate issue, in response to the recent challenges 
at the border, the administration directed the implementation 
of the Migrant Protection Protocols, as well as the cross-
training of border agents to perform the duties of USCIS asylum 
officers.
    I have significant concerns about both initiatives, and 
will be interested in hearing your perspective on these 
assignments which are outside of your scope of work and are 
impacting your stated mission and duties to protect our 
borders.
    Finally, it is concerning how this administration has 
implemented policy after policy that seems singularly focused 
on reducing the flow of migrants without regard to our 
country's asylum laws or the impact they will have on migrants' 
rights, particularly their right to claim asylum.
    This is just one example of how many of the President's 
actions are contrary to what we mean when we say our border 
security policies must be consistent with our laws and our 
American values. Together we must find that balance which, 
sadly, up to now, has been lacking in many areas.
    Before I turn to the chief for a summary of her written 
statement, the text of which will be included in the hearing 
record, let me first recognize our distinguished ranking 
member, Mr. Fleischmann, for any remarks he wishes to make.
    Mr. Fleischmann. Thank you, Madam Chairwoman.
    Chief Provost, thank you for being here today to testify on 
the challenges you and your agents are facing at our Southwest 
border. This is an important hearing, and I hope my colleagues 
welcome the chance to hear directly from the Border Patrol 
about the numbers of people arriving at the United States and 
why there are so many people at the border stations.
    This fiscal year alone, your agents have processed more 
people than reside in the State of Wyoming or the State of 
Vermont. Perhaps by the end of July it will be more than the 
District of Columbia, the State of Alaska, or North Dakota. 
Those numbers are staggering.
    I was able to go to the border this year and see firsthand 
some of what your outstanding people are facing every day. I 
know the situation has become challenging every week as the 
numbers have increased. And I know that the officers I met are 
dedicated people doing their best to rise to meet this crisis. 
I was very impressed with their honesty and deduction to the 
mission of the CBP.
    I think we all agree that camping out in an overcrowded 
border station office is not the best place for children. That 
is why HHS is supposed to take those children in as soon as 
they have a place available. But when HHS ran out of money, 
they could not take the kids.
    Adults should not be camping out in an overcrowded border 
station, either. I think we all agree with the IG's findings. 
It is not a safe situation for either the migrants or the 
Border Patrol agents. That is why ICE is in charge of migrant 
detention in this country. But when ICE does not have enough 
money or bed space, they cannot take the adults. That is why 
you are left with these overcrowded border stations, because 
the law does not give you much choice.
    The answer is not more tents or more meals. We need to take 
a comprehensive approach to this problem to address the 
patchwork of laws, practices, rules, and rulings that make up 
today's immigration and asylum structures. Until we are willing 
to do that, I fear we will never really solve the humanitarian 
crisis that we have today.
    Chief Provost, again I want to thank you for meeting with 
me yesterday. I learned a tremendous amount from our 
conversation. Please pass along my personal gratitude to the 
men and women of the Border Patrol for their work.
    I am very much looking forward to your testimony. Thank 
you, and I yield back the balance of my time.
    Ms. Roybal-Allard. I would now like to yield to the 
chairwoman of the full Appropriations Committee, Mrs. Lowey.
    The Chairwoman. I would like to thank Chairwoman Roybal-
Allard and Ranking Member Fleischmann for holding this 
important hearing today.
    Chief Provost, the Border Patrol has an essential role in 
securing our border. That role comes with incredible 
responsibility. You and many of your colleagues have failed to 
properly fulfill those responsibilities.
    It has been reported that you were a participant in a 
secret Facebook group used by CBP employees to share racist and 
xenophobic tropes, among other highly offensive imagery, 
including reprehensible jokes about the violent sexual assault 
of a Member of Congress. I look forward to your explanation for 
why you participated in this group and why you failed to report 
its existence or take any action to shut it down.
    I am deeply concerned that this conduct shows that you and 
your agency are supporting a dehumanizing culture, or at least 
a subculture, whose bias extends to how you treat vulnerable 
populations on a daily basis. You have seen that bias effect 
the way CBP interacts with migrants.
    For example, last week NPR reported that Border Patrol 
officers asked a 3-year-old Honduran girl to choose which of 
her parents she would remain with in custody and which would be 
separated from the family and sent to Mexico. I think that 
warrants repeating. Your officers asked a 3-year-old to choose 
between her parents. The family was fleeing MS-13 gang 
violence, and the little girl, Sophie, suffers from a serious 
heart condition. This trauma could stay with Sophie forever, 
and asking her to pick a parent is simply shameful.
    The Trump administration has also continued attempts to 
implement regulations that run contrary to established law. The 
asylum rule announced earlier this month would prohibit 
migrants who have gone through a third country from seeking 
asylum in the United States. This would essentially ban all 
asylum claims for those traveling through Mexico.
    But of course that callousness is the very point of the 
regulation. From recent interviews Acting Director Morgan has 
given, it sounds like even if this unlawful regulation is not 
immediately enjoined, it will only be piloted at one location 
along the Southwest border. Still, the fact that this 
regulation is even something that has been contemplated by the 
administration is horrendous.
    While we confront a serious humanitarian crisis at our 
Southern border, a culture of dehumanization festers in the 
very agency charged with keeping us safe and serving as the 
face of American values to those seeking refuge. You have a 
great deal to explain to this committee today. Thank you for 
appearing before us.
    Ms. Roybal-Allard. I would now like to recognize the 
ranking member of the full committee, Ms. Granger.
    Ms. Granger. Thank you, Madam Chair. Thank you, Chief 
Provost, for taking the time to testify before us today. I know 
the huge challenges you are under, and to take this time, I 
greatly appreciate it.
    I want to begin by recognizing the enormous workload that 
the employees and agents you represent are now facing at the 
border. It is a job that has to be done 24 hours a day every of 
the week. Would you tell the men and women at the border that 
we know that they are keeping us safe and that they are doing 
the best under the most, most trying times.
    It is important that members of the committee understand 
the reality of the ground as we conduct oversight of the Border 
Patrol in this hearing. I have had the opportunity to visit the 
border many, many times. I live in Texas. We have done it for 
pleasure, and now we are doing it to see how serious it is.
    I have spoken with so many agents and observed firsthand 
the challenges they face. The challenges your people are 
facing, I do not know how long they can do it. To ask people to 
do what they are doing and then face misunderstandings of what 
they are trying to do makes me very sad.
    It is unsustainable. I went to the border on one trip and 
someone was saying, ``Well, what we need is we need a permanent 
structure here that is''--and I said, ``Stop right there. We 
cannot do this permanently.'' Your people cannot do this 
permanently. So we have got to have the best solution we can to 
stop this.
    These men and women on the front line are in a growing 
crisis, and when I would go, I would think it could not get 
worse the next time I went, and it was worse. And so we owe all 
the thanks and all the support. During the trip I made where 
the migrants are--it was increasing so fast.
    In January, the numbers were going with 58,000 migrants a 
month--a month--coming across the border. The problem became 
worse, with more than 100,000 migrants a month in March and 
April, and it exploded to 144,000. It seems unbelievable, and 
if you see those lines, you can stand at the front of the line 
and you cannot even see the end of the line as they come over.
    Unfortunately, the funds provided in the fiscal year 2019 
bill were not enough to meet the processing and detention 
requirements of the hundreds of thousands of people who have 
come to the border this year. The migrant influx has caused 40 
to 60 percent of the Border Patrol to be dedicated to the care 
and the feeding and the processing of migrants.
    And when I sit there and talk to them and they would 
explain, the people that were coming up, mothers with children 
with no diapers or a diaper they have had on for three days, 
and no baby food, and terrible conditions, people who have 
never been to a doctor in their entire life, and the Border 
Patrol is leaning over and asking them questions and risking 
their own lives. I think we need to be very aware of that.
    CBP has shifted more than 700 officers from other points of 
entry, resulting in longer wait times at the border for legal 
crossings. That is all they could do. The agency has canceled 
training and mandated overtime hours and shut down checkpoints, 
and still Border Patrol facilities, as you know, are over 100 
percent capacity every single day.
    This is not sustainable. These people are making a 
dangerous journey, but the people doing our border patrol are 
also in danger every day. We have to do better. We have to be 
more supportive. We have to listen very carefully.
    I hope the Congress will take a first step this week by 
passing the budget deal that the President and the 
congressional leaders struck on Monday night. With the 
additional funding available in the agreement, we will avoid 
arbitrary cuts to our Nation's security and can invest in 
meeting this challenge that you are facing every day.
    Chief Provost, I look forward to hearing from you today 
about the conditions on the ground and what Border Patrol needs 
to truly address this crisis. And please send our thanks, and 
my thanks to you. I yield back.
    Ms. Roybal-Allard. Thank you, Ms. Granger.
    Before we begin, I would like to remind members that they 
will be called for questioning based on the seniority of those 
present when the hearing was called to order, alternating 
between majority and minority members. Also, to ensure that 
everyone has ample time to ask questions, I would ask each 
member to try and stay within the allotted five minutes per 
round.
    So Chief Provost, if you would please begin your statement.
    Chief Provost. Thank you, and good afternoon, Chairwoman 
Roybal-Allard, Ranking Member Fleischmann, and members of the 
subcommittee, as well as full committee Chairwoman Lowey and 
Ranking Member Granger.
    You have asked me to testify today regarding the 
supplemental funding provided by Congress on June 27. By the 
time this funding was received, Border Patrol had been dealing 
with this crisis on our border for more than eight months. 
Border Patrol waited 58 days for the supplemental funding to 
arrive, but we began addressing the crisis long before.
    Our agents started working overtime to manage the influx 
back in January, and they have been working tirelessly ever 
since. In the fiscal year 2019 appropriation, this subcommittee 
supported our request for over $415 million to help us make 
investments in medical care, transportation, and facilities, 
and to purchase additional food, clothing, and hygiene 
products.
    For months we have been using our own operational funds to 
construct soft-sided facilities, surge agents and officers to 
the border, and add air and ground transportation to transfer 
families to less crowded facilities for processing. The $1.1 
billion CBP received in the supplemental has allowed us to 
replenish our operational funds while continuing our ongoing 
humanitarian support efforts.
    A week after the supplemental request was sent to Congress, 
I testified that the funding requested by our partners was just 
as critical as our own. HHS and ICE were in dire need of 
additional bed space to keep up with Border Patrol processing 
and apprehensions.
    We have already seen results from the $2.9 billion that HHS 
received for UACs. The numbers of UACs in our custody has 
decreased from a peak of 2700 in early June to approximately 
300 today, and they spend significantly less time in our 
custody awaiting placement. Unfortunately, Congress denied 
ICE's request for adult bed space and we are seeing results 
there as well. Adults continue to spend far too long in Border 
Patrol custody.
    We had more than 19,500 people in our custody in late May, 
which we have now decreased to less than 10,000 due to the 
decline in apprehensions and our close coordination with our 
partners. 10,000 was the level then-Commissioner McAleenan 
called ``a breaking point'' when we first surpassed it in 
March, and it is unsettling that we are now considering it a 
reprieve.
    To be clear, the crisis is not over. While this is crisis 
is unlike anything that we have seen before, this is not the 
first time Border Patrol has served in a humanitarian role. The 
advanced specialized training of the Border Patrol search, 
trauma, and rescue units has been saving lives for more than 20 
years.
    We have over 1200 agents who voluntarily maintain EMT and/
or paramedic certifications. We established the Missing Migrant 
Program to help families locate loved ones and to identify 
those who tragically perish on the border. And we continue 
placing rescue beacons and location markers to help migrants 
who become lost. No one directed the Border Patrol to take 
these steps to save lives. This is who we are.
    Today Border Patrol agents are being asked to be everywhere 
all at once--on the border stopping dangerous criminals and 
deadly drugs, in the river and across the desert saving the 
lives of migrants put at risk by smugglers, and at our 
processing facilities providing humanitarian care. But despite 
these impossible expectations, it has become popular to blame 
my agents for the humanitarian crisis rather than help them 
address it.
    It is not just my agents who are overwhelmed, but my 
facilities as well. I cannot stress enough that these 
facilities simply were not built to house people long-term. 
They are basically police stations. They are not equipped with 
dormitories, kitchens, cafeterias, recreational spaces, or 
visitor areas like ICE and HHS facilities are.
    Although we continue to invest in portable sinks, toilets, 
showers, and laundry services, especially at locations where we 
house UACs and families, these investments are only a Band-Aid. 
When our partners cannot transfer individuals out of our 
custody as quickly as we apprehend and process them, our 
facilities become overwhelmed and conditions deteriorate.
    In February I told Congress that Border Patrol is the only 
part of our immigration system with no ability to control who 
comes our way and when or where they do it. I implore Congress 
to look at the entire system because while we are the only 
agency represented here today, Border Patrol cannot do this 
alone.
    I thank you for the funding that you have provided in the 
near term. But to make a lasting impact, Congress must make the 
changes to the legal framework that we have outlined time and 
time again. I am aware these changes must take place outside of 
an appropriation bill, but I am asking you to lead your 
colleagues in a productive, holistic effort to address the root 
causes of this crisis rather than just the symptoms. A Band-Aid 
is simply not enough.
    Thank you, and I look forward to your questions.
    [The prepared statement of Chief Provost follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    Ms. Roybal-Allard. Chief Provost, let me begin with an 
issue that was raised that I think is on everybody's mind.
    Your initial press release to the story about the Facebook 
group for Border Patrol agents implied that you were surprised 
by the racist, vulgar content that it exposed, and subsequent 
reports, however, indicated you were a member of that group as 
recently as last November.
    Can you please explain why you initially joined the group, 
and why and when you chose to leave the group?
    Chief Provost. Certainly. And thank you, Chairwoman, for 
the opportunity to speak about my personal Facebook account.
    I joined Facebook in 2016 mainly to reach out to friends 
and colleagues, friends from back home where I was raised in 
Kansas as well as friends that I have made over the years in 
the Border Patrol as I have moved along the entire Southwest 
border throughout my career.
    Sometime in 2017--I believe it was right about 2 years ago 
from now--a colleague invited me to some groups. They had 
mentioned to me that in my acting role as the chief at that 
time, that some of the agents were discussing how I was doing, 
and it was something that I was certainly interested in 
knowing, how I am representing my workforce. I did not think 
anything of it at the time.
    I am an extremely--I am on Facebook very, very rarely. I 
use it occasionally, as I said, to speak with friends back 
home, to answer instant messages, and now and again to try to 
see how my workforce feels I am doing.
    Let me be clear. On July 1st was the first time that I saw 
those highly offensive and absolutely unacceptable posts when I 
saw them in the ProPublica report. As soon as I saw them, I 
made sure that I put an announcement out to the workforce 
condemning the actions of those individuals. It is completely 
unacceptable and not representative of the Border Patrol as a 
whole.
    I also self-reported to the Office of Professional 
Responsibility once I realized that this was a group that I was 
a member of. Not only did I self-report, I turned my entire 
Facebook account over to the Office of Professional 
Responsibility, and when I say that, I gave them my login and 
my password so they had full access to my account. And they 
were able to go in and look at all of my activity over the 
three years that I have been a member of Facebook.
    When I mentioned earlier that I am an infrequent user of 
Facebook, in their assessment, for example, from June of 2018 
through June of 2019, I logged onto Facebook on nine different 
days. Nine days in a year, less than once a month. Sometimes I 
would go for months without logging on, and then other times 
maybe once or twice within a month time frame.
    I am as outraged as everyone else when it comes to the 
statements that were made on that page. As an agency, CBP, we 
are working diligently--the Office of Professional 
Responsibility immediately opened up investigations into the 
posts that have come out from that one site, and I believe 
there have been some others since then. They are investigating 
all of these.
    The Border Patrol has issued--we have issued cease and 
desist letters to individuals that employed by us that have 
made--either made those posts or made comments to those posts. 
We also have placed some individuals on administrative duties 
while the investigations are being completed by the Office of 
Professional Responsibility.
    As I stated before, this is not indicative of the Border 
Patrol that I know. I have given half of my life, literally 
half of my life, to this organization. I was born and raised in 
Kansas, about as far away from the border as one could possibly 
be, and was a police officer when I joined. I expected that I 
would use the Border Patrol to move on to something that, when 
I was 25 years old, I considered to be bigger and better.
    One year in this organization, and I swore I would never 
leave, and it is because of what I just mentioned to you in my 
opening statement. The men and women that I have had the 
experience with over my career are those who are out there 
saving lives, who are volunteering to be EMTs, who are signing 
up for BORSTAR, who are being proactive. And they are true 
civil servants and want to protect this Nation.
    We take allegations like this extremely seriously, and a 
few bad apples are not representative of the organization. 
There are bad doctors. There are bad nurses. There are bad 
teachers. But we do not vilify the entire group of those 
individuals. We need to take action on those who have violated 
our standards of conduct, and we need to hold them accountable, 
and we will do that.
    I really appreciate the opportunity to explain this today, 
and thank you.
    Ms. Roybal-Allard. I do have a follow-up question.
    Chief Provost. Certainly.
    Ms. Roybal-Allard. Based on your testimony, you are saying 
that the first time that you were aware of these inappropriate 
comments was when it was broken in the news?
    Chief Provost. On July 1st. Yes, ma'am.
    Ms. Roybal-Allard. And also that you are committed to 
taking appropriate disciplinary action against personnel who 
violated the CBP standards of conduct?
    Chief Provost. Yes.
    Ms. Roybal-Allard. As a follow-up, I understand the CBP 
Office of Professional Responsibility, which is looking into 
specific allegations against individual employees, has in fact 
in the past reprimanded employees from this very group because 
of similar posts. Yet these posts continued, and it appears 
that there is a subculture among agents that has been allowed 
to propagate because the agency has been too tolerant of this 
small but pervasive subculture.
    Would you agree that such a subculture exists and that the 
Border Patrol has been maybe a little too tolerant of it? And 
what steps are you taking to ensure that this does not happen 
again? For example, are you considering to change that 
subculture by making changes to the Border Patrol social media 
policy, diversity, bystander, and workforce resiliency 
training, and better educating employees on reporting 
mechanisms and consequences?
    Chief Provost. Thank you for the question. I personally 
disagree when it comes to a subculture in the Border Patrol. As 
I stated before, there are many things that we are doing. The 
AC of the Office--the assistant commissioner, I apologize--of 
the Office of Professional Responsibility in 2018 put out a 
memo addressing social media when we started seeing some issues 
when it came to social media. These were not necessarily 
specific to this site. I do not know what sites they were 
specific to, but there were some social media issues.
    We have created training. And I should have mentioned this 
earlier, but all of the workforce, the CBP workforce, will 
complete this training by the end of the fiscal year. It has 
just become available. The Office of Professional 
Responsibility has been sending out reminders. I have send out, 
and will continue to.
    I will tell you, as I said before, the few bad apples that 
we have in our organization we do not want as well because they 
do not represent my men and women, my workforce of 20,000 who 
are out there risking their lives to protect this country. We 
take all allegations extremely seriously. And I can tell you 
that everything will be investigated completely.
    When it comes----
    Ms. Roybal-Allard. Let me just as you, are you looking, for 
example, at your recruitment efforts and the application 
process to find a better way to filter out cultural bias by 
people you may hire?
    Chief Provost. We have a very extensive background 
investigation for everyone who is hired on. And as you all 
know, ever since the Anti-Border Corruption Act of 2010, our 
men and women all take a polygraph as well when they come on. 
This is something that to me is extremely important.
    In my career, I helped draft the 2014 new Use of Force 
policy. In fact, I oversaw that. And the one time that I have 
stepped outside of my role as a Border Patrol agent was in 2015 
when I became the deputy assistant commissioner of the Office 
of Professional Responsibility.
    ``Honor First'' is the motto of the Border Patrol, and I 
hold that near and dear to my heart. And it is extremely 
important to me that we deal with this issue. But I still would 
not call it a subculture. The vast, vast majority, 99 point 
whatever percent, of our men and women are good, hardworking 
American citizens who are doing the best they can in a very, 
very difficult crisis.
    Ms. Roybal-Allard. Ranking Member Fleischmann.
    Mr. Fleischmann. Thank you. Chief Provost, it is 
unfortunate that some are leaving the impression that Border 
Patrol refuses to do the kind of humanitarian work needed on 
the border today. But I have been to the border and some of 
these facilities, and from what I have seen, not only are the 
agents having to abandon the mission they were hired for, but 
they are doing their very best to care for these migrants under 
overwhelming circumstances. So I have some questions in that 
regard.
    Is humanitarian assistance new to the Border Patrol?
    Chief Provost. No, sir. As I stated earlier, we have been 
doing this for decades.
    Mr. Fleischmann. And what humanitarian duties are your 
agents performing on a daily basis that is taking them away 
from their primary mission of safeguarding our border?
    Chief Provost. Right now, as you stated, 40 to 60 percent 
of my workforce, because of the sheer numbers of individuals 
coming across and particularly the large number of family units 
and unaccompanied children, they are spending a large part of 
their time doing transportation, medical watch. We are still 
currently sending--doing 80 hospital runs a day. That means 80 
individuals that are coming into our custody and our care that 
we have to take for additional medical.
    They are feeding, providing hygiene, meals, all of that 
throughout the processing process, as well as, because we are 
having to hold people in our custody longer than we should or 
had been when it came to unaccompanied children and are still 
having that issue with single adults, that is extensive and 
long-term care that we are just not set up to do.
    Mr. Fleischmann. Thank you. How many hours do you estimate 
your agents are spending performing these humanitarian duties?
    Chief Provost. It is an extremely large number. As I said, 
we were doing, I think, 80 hospital runs a day. And I think it 
is something like 240,000 hours that we have--when it comes to 
medical alone.
    Mr. Fleischmann. What kind of humanitarian efforts has the 
Border Patrol performed over the years that are similar or 
different to those being performed currently?
    Chief Provost. As I stated earlier, when it comes to saving 
lives, we have rescued over 4,000 people already this year. And 
that is every year, tragically, that we deal with that. And we 
also, unfortunately, find many individuals who do not make it 
through the dangerous journey of crossing our border.
    But we have EMTs, and as I stated, that is a voluntary 
program, over 1200 emergency medical technicians. That is the 
next largest after the Department of Defense in this country 
when it comes to--or in the Federal Government when it comes to 
emergency medical personnel. That is voluntary. We created that 
on our own.
    We have done all of these different things--the migrant 
protection protocols, the rescue beacons--throughout the years 
to ensure the safety of those individuals, to the best that we 
can, that are coming into our custody.
    Mr. Fleischmann. Thank you. HHS received their full request 
from the supplemental to increase their resources for 
facilities and beds for unaccompanied minors. It sounds like 
this funding was greatly helped by the efficiency by which CBP 
was able to transfer these children out of DHS custody and into 
the care of HHS. Is that correct, ma'am?
    Chief Provost. That is correct. And not only has it helped 
cut down on how many we have had in custody, but also the time 
in custody. And I just want to really be clear here. I do not 
want children in my facilities. I do not want families in my 
facilities. They are not meant to house that population. I want 
to get those unaccompanied children into the hands of HHS as 
quickly as I possibly can.
    Mr. Fleischmann. Unfortunately, the supplemental request 
included similar funding for ICE to house adults but those 
funds were not included in the final legislation. If the 
additional funding was given to ICE specifically for single 
adult beds for those who transferred from CBP custody, do you 
believe you would see the same kind of impact that you have 
already seen from the funding of HHS, that would have far fewer 
single adults sitting in CBP custody for days and weeks on end. 
Is that correct?
    Chief Provost. I do. I would not have an overcrowding issue 
at all right now if it were not for single adults that I am 
having to hold because ICE cannot pick them up from me.
    Mr. Fleischmann. Very good. Madam Chair, I believe my time 
is about expired. I will wait for round 2, and I yield back. 
And I thank you.
    Ms. Roybal-Allard. Mrs. Lowey.
    The Chairwoman. Chief Provost, even though the 
administration's zero tolerance policy that led to the 
separation of thousands of children from their parents ended 
last June, the Border Patrol continues to separate some 
children from adults who claim to be their parents or 
guardians.
    Can you explain the circumstances under which CBP will 
separate a child from a parent or legal guardian or someone 
claiming that relationship? And when you separate based on the 
lack of a parent or legal guardian relationship, do you 
classify that separation as a fraudulent family?
    Chief Provost. Thank you for the question, ma'am. Yes, 
there are certain circumstances where we do still have to 
separate families. And I want to be very clear, and you stated 
this, too, that we have to--a family unit is defined by law for 
us as a parent or a legal guardian.
    We do have many children that are coming either with other 
siblings, some are coming with other siblings that are minors, 
aunts, uncles. By law, I cannot keep those individuals 
together. But that is not what is considered a fraudulent 
family.
    We have identified over 5600, I think, in the Border Patrol 
what we would call fraudulent families. When we are talking 
about someone like an aunt or uncle, it is only a fraudulent 
family if they initially claimed to be a parent and then we 
determined that they were, let's say, for instance, an uncle or 
an aunt.
    We have numerous families that are coming, or family 
groups, not family units but family groups, that are coming 
where an aunt or an uncle may be with a niece or nephew. Those 
are not considered fraudulent. However, by law, I have to 
separate them because they do not meet, by law, a family unit. 
I can only keep children with a parent or a legal guardian by 
law.
    The Chairwoman. Just to clarify because this does not make 
sense to me at all, and in fact have you reported to the people 
or person for whom you are, shall we say, complying with the 
law? This does not make any sense.
    Chief Provost. So the TVPRA and the Homeland Security Act 
have a definition of an unaccompanied child. And that defines a 
UAC as a child who has no lawful immigration status in the 
United States, has not attained 18 years of age, and with 
respect to whom there is no parent or legal guardian in the 
United States or no parent or legal guardian in the United 
States is available to provide care and physical study. That is 
the Homeland Security Act.
    And in the Trafficking Victims Protection Reauthorization 
Act, it clearly states that the U.S. Border Patrol is required 
to transfer custody of a UAC to the care and custody of HHS. 
That is the only people that we can turn them over to.
    The Chairwoman. Let me clarify because this is puzzling.
    Chief Provost. Sure.
    The Chairwoman. The law dictates what is considered a 
family.
    Chief Provost. Yes.
    The Chairwoman. It would concern me greatly if families 
were classified as fraudulent when the adult in question is an 
aunt, grandparent, or some other adult who is not a parent. Are 
these treated the same as other cases of fraud when there is 
truly no familial relationship? You have been in this position 
how long?
    Chief Provost. I have been doing it permanently for 
approximately a year, but I have been in an acting capacity for 
another 18 months beyond that. So 2\1/2\ years.
    The Chairwoman. Now, you are saying that if a child is with 
an aunt or uncle, by law you cannot keep them together and you 
call it a fraudulent relationship?
    Chief Provost. By law----
    The Chairwoman. Did you ever complain or try to reform 
that? That makes absolutely no sense.
    Chief Provost. So if I may clarify, by law I cannot keep 
them together, but that does not mean that we call them a 
fraudulent family. They are only a fraudulent family if the 
adult falsely claims that they are a parent and it is 
determined that they are not then a parent.
    So those are not a fraudulent family. However, by law I 
have to treat then--let's say the adult is a single adult and 
the child is an unaccompanied child. And I have to transfer 
them over to Health and Human Services if they are not with a 
parent or a legal guardian.
    The Chairwoman. Okay. Now, I want to get back to that 
because this really does not make sense.
    When you separate based on criminal background, do you 
consider the severity of the crime or length of time since the 
criminal act occurred? What does a criminal background mean?
    Chief Provost. Well, it can mean various things. So that is 
one of----
    The Chairwoman. I mean, they crossed a red light?
    Chief Provost. No. Not something like that. But if they 
have something that does not allow us to release them into the 
United States when it comes to their criminal honest, that is 
going to impact our ability. And in those cases, we do have a 
separate a parent from a child.
    If we have to turn the parent over to--as well as serious 
medical conditions. We have done that. When something like that 
happens, we do our best to get the parent and the child back 
together, or we work with HHS, depending upon how long someone 
has been in the hospital.
    But if they have a serious criminal record that leads to 
where we need to turn them over to ICE because of their 
criminal history, then we do separate those individuals. We----
    The Chairwoman. Whether the child is 2 years old? Three 
years old? Four years old?
    Chief Provost. We put them into the hands of Health and 
Human Services, and then they do vetting on who is an 
appropriate sponsor or if there is another family member in the 
United States to take them.
    The Chairwoman. Now, I would just think, in conclusion 
because I have used my time, shouldn't the standard for 
separation always be whether the parent or the person is a 
threat to the child? If there is no threat, shouldn't there be 
no separation? Because you are talking to a 2-year-old, a 3-
year-old, a 5-year-old, a 4-year-old. Is that not correct?
    Chief Provost. Ma'am----
    The Chairwoman. If you believe that there is no threat to 
the child, shouldn't there be no separation?
    Chief Provost. The threat to the child is one of the things 
that we consider. But if you violate the law--and we have U.S. 
citizens who violate the law every day that are taken away from 
their children. I am just explaining to you what the law 
states, and we----
    The Chairwoman. Have you ever tried to get that law 
changed, or report to a superior that you are taking a 2- or a 
3-year-old away from an aunt or an uncle?
    Chief Provost. We have educated Congress in briefings in 
relation to what standards we have to go by based on the law. 
As you know, it is my job to enforce the laws that are on the 
books.
    The Chairwoman. Thank you. I think we have work to do 
together.
    Ms. Roybal-Allard. Mr. Newhouse.
    Mr. Newhouse. Thank you, Madam Chair, Mr. Ranking Member. 
Chief Provost, thank you very much for being with us this 
afternoon. And also I would like to thank you for your service, 
and also the men and women you have under you, for the 
important work you do to keep our Nation and our borders safe 
and secure.
    I would just like to continue the same ideas, or the same 
subject, anyway, that Chairman Lowey is talking about. In your 
testimony we have in front of us, you say that, and I quote 
you, ``To be clear, these families and those posing as families 
are generally not concerned with being caught by the Border 
Patrol.'' And then further on, you go on to continue, 
``Smugglers are exploiting this dynamic.''
    So I would concur with what I have seen at the border. I 
have been to the Southern border and toured some of your 
facilities. and was, in talking with some of your folks, 
enlightened to the fact that there is a lot of incidence--at 
least suspected incidence--of non-biological children being 
used to help people cross the border illegally, due to the 
Flores settlement that is in effect.
    In fact, I have witnessed myself several kids being brought 
in that some of your people suggested that they thought they 
recognized those kids from being used in previous crossings 
with different people. And so I just want to confirm you are 
aware this is going on at the border.
    Chief Provost. Yes, sir. That is. Border Patrol alone has 
identified over 5600 fraudulent families. Homeland Security 
Investigations has also come in and, based on cases that we 
refer now in many locations, are investigating fraudulent 
families.
    There have been cases where children have been, tragically, 
recycled. Smugglers are taking advantage of these children. 
They are taking advantage of the families that are coming 
across. And they are making money off of these people and 
putting their lives at risk.
    Mr. Newhouse. Madam Chair, I would ask unanimous consent to 
enter into the record--I have a story from the Washington 
Examiner that is titled, ``DNA Tests Reveal 30 Percent of 
Suspected Fraudulent Migrant Families Were Unrelated.'' I would 
just like to have that entered into the record.
    Mr. Newhouse. Thank you. In the article that I have here in 
front of me, it states that in a pilot program, approximately 
30 percent of rapid DNA tests of immigrant adults who were 
suspected of arriving at the Southern border with children who 
were not theirs revealed the adults were not related to the 
children.
    Chief Provost, in your view, and I would ask you for a 
little criticism or constructive criticism, do you believe it 
is the failure of Congress to reform the Flores decision that 
enables coyotes and smugglers to traffic children for the 
purpose of gaining illegal entry into the U.S.?
    Chief Provost. I certainly believe that we have to address 
the Flores settlement agreement. That is probably the main 
factor that is leading to families being put at risk and 
children being put at risk. The smugglers make money off of 
them. They entice them to come.
    They do tell them that if you come with a child that you 
will be released into the country, which is currently the case 
because we cannot hold any families longer than 20 days due to 
all children not being able to be held that long. We need to be 
able to hold families together--not in a Border Patrol 
facility, let me be very clear--in a family residential center 
throughout an expedited immigration process if we are truly 
going to address this issue and not just put a Band-Aid on it. 
That is a huge pull factor.
    These families are not aware of the dangers of crossing our 
border that they are going to be put into. They are not aware 
of how the smugglers are going to treat them. So the smugglers 
are utilizing that to their benefit to make money and to treat 
these individuals as a commodity, basically.
    Mr. Newhouse. Commodities, yes, not humans. Well, in my 
humble opinion, I do not believe that--in fact, I would agree 
with Mrs. Lowey that we do need to make some changes through 
Congress. We should not be enabling the trafficking of 
children. Our policies are allowing that to happen.
    I do not think there is any place else in the U.S. where we 
would release a child to an adult without confirming a familial 
or legal guardianship, and we should not be doing that in this 
instance as well. But we do. And we hope, I think we all hope 
and pray, that the children we release are going to be safe 
with those people that they are being left with. But we should 
not be taking that chance at their expense, allow these 
criminal acts to be happening.
    So I would hope that we could make some changes in Federal 
law to make sure that you can do your job to the best of your 
ability, and that we can all be assured as much as possible 
that these kids are being taken care of. So thank you for your 
testimony today. Thank you, Madam Chair.
    Ms. Roybal-Allard. Before I go to Mr. Cuellar, I just want 
some clarification because we are concerned about any 
fraudulent families whatsoever. But it is my understanding that 
the report that was just mentioned, where there was 30 percent 
fraudulent, that that was 30 percent of a subset of a test, of 
a test group. It is not 30 percent of the total number of 
children coming across the border with families. Could you 
clarify exactly what that----
    Chief Provost. It is difficult for me, ma'am, and I 
apologize. But that is from what HSI is doing in relation to 
the DNA testing. They are not--I can tell you that that is not 
something that is being done on every family unit that we have 
coming through.
    So when the Border Patrol suspects a possible fraudulent 
family, we are referring them to HSI, and they do have some 
teams out in the field that are doing investigations. I believe 
that is a number that is provided by them. So I do not want to 
be wrong in what I am telling you, but I can say that not every 
family unit is being referred, if that helps. I am not sure.
    Ms. Roybal-Allard. Okay. So it may be a test group. But 
nevertheless, it is still a concern.
    Mr. Newhouse. Madam Chair, you are absolutely right. This 
was a pilot that lasted for a few days in McAllen and El Paso.
    Chief Provost. I apologize, sir. That is the HSI program 
that they have been doing.
    Ms. Roybal-Allard. Okay. Thank you. And we will submit it 
for the record.
    [The newspaper article follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
  
    Mr. Cuellar. Thank you, Madam Chair. Chief, I want to thank 
you for the service that you and your men and women do. I do 
agree with my colleagues that if there is a problem, there is a 
bad apple, we need to go after those bad apples.
    But I still think the majority of your people are good 
people. I go to church with them. I see them at the stores. And 
I do not think your men and women wake up in the morning trying 
to see how they are going to hurt some of the immigrants. So I 
do want to say that.
    And I have done this in the past, where I have recognized 
your offers in McAllen and Laredo for the lives that they save 
because there are a lot of times that they put their lives to 
jump in the river or whatever the case might be to go save the 
lives that they have. So actually, I will be having some of 
those ceremonies in August.
    Two things I want to focus on. One is the Border Patrol 
processing centers, and the other one is what do we need to do 
to do a better job to keep men and women. We added money for 
retention, but I do not think that should be a one-year thing. 
I think we need to make sure we keep giving retentions or some 
sort of--I do not know if it is hardship, locality, pay 
compensation in the proposed language.
    I do not know what the chairwoman of the committee is going 
to do, but I have some suggestions there So we can try to 
retain our men and women at the border because, as you know, 
Border Patrol was losing more men than women that they were 
hiring at one time, and I am glad you got rid of that contract 
because you were spending money, and I would rather give that 
money to the Border Patrol folks. So I would like to hear a 
little bit about what we can do to retain men and women a 
little better for Border Patrol.
    But the other thing on the border processing centers, in 
2006--and correct me if I am wrong in this--in 2006, 90 percent 
of the people coming into our Southern border were Mexicanos; 
within hours, 95 percent of the people would be returned. And 
we know why.
    And now, 73 percent of the people coming in are from the 
Northern Triangle, and 97 percent of the people coming in stay 
in. We actually have less than 2 percent in detention beds, and 
I am not talking about the border processing center. In 2006, 
we also had 10 percent of the people coming in were 
unaccompanied kids or family units. Now over 61 percent of 
those people are now family units and unaccompanied kids.
    So in the old days, the border processing centers were set 
up to deal with male adults mainly to come look for a job, and 
for smaller amounts. And now you have a larger amount of people 
in family units. I think what some folks call ``cages'' are 
basically, the way I understand this, they are dividers, chain 
links, because you do not want to keep a kid overnight with an 
adult that might have a criminal record.
    So basically, you separate them in three areas: 
unaccompanied kids, family units, and adults. And adults will 
go to ICE, and if there is no space in ICE, they get 
bottlenecked there and stay there a little longer than 72 
hours. Unaccompanied kids go straight in to Health and Human 
Services. That is a different process. And as you know, kids 
from Mexico are treated very differently from any other kid 
from across the world, or young folks, should I say.
    And then of course you have the family units that are 
dropped off at the bus stations. And as you know, we added $30 
million for reimbursements. And I think it should be more than 
$30 million, but that is a good start there.
    So my question is, what do we need to do to make sure we 
hire the right people, we screen them, as the chairwoman said, 
and retain them? And then the other thing is, can we do a 
better job on the Border Patrol processing centers? Like you 
said, they are basically police stations. They do not have 
dorms. They do not have clinics. They do not have kitchens. 
They were set up for a different purpose. And we need to put 
money there on that.
    But I do ask you to use your money wisely because I think 
we added about $30 million for the McAllen, and I do not know 
how much of a bang you are going to get, from what I understand 
you are going to get for that. So if we provide any money, we 
have got to make sure we get a better bang so we can treat 
people with respect and dignity while they are in the border 
processing centers.
    Chief Provost. Certainly. And thank you for the questions.
    When it comes to hiring and retention, as I stated earlier, 
we do have many factors--on hiring, a very extensive background 
investigation. We have the polygraph. We also have revamped our 
training at the academy. And I would offer to any of you here, 
please go visit our academy and see the great training that our 
new hires are receiving. A 117-day academy that is--I am 
extremely happy with what we are seeing coming out of that.
    On the retention issue, that is an issue for us. I have n 
working diligently on retention, whether through our 
Operational Mobility Program, where we afford agents the 
opportunity to move to different locations, or through 
retention incentives. And that is something that I certainly 
will continue to ask Congress for support on, and I am open to 
ideas to help keep these men and women that I have. I want to 
retain them as long as I can, our great working men and women.
    When it comes to our processing facilities, as I stated 
earlier, thank you for the funding to help us deal with the 
things that we need. We are adding shower trailers, laundry, 
more portable toilets, handwashing stations, more hygiene 
products, meals, and such.
    But long term, I would tell you that this is not what the 
Border Patrol should be doing. I want folks out of our custody 
and care as soon as possible. I want to get them processed, and 
then I want them out of our facilities. I have so many 
facilities that are already in need of work, and I am getting 
funding for one to two facilities a year. It would take an 
extensive period of time to permanently do something there. And 
it is taking my men and women away from their primary mission 
of border security.
    So just as we are thinking about how to deal with this, I 
would just ask the members here to consider, once again, I want 
these families and kids in either family residential centers or 
in Health and Human Services.
    Mr. Cuellar. My time is up. But we did add money, or we are 
proposing to add money, for entry-level positions.
    Chief Provost. Yes.
    Mr. Cuellar. So your men and women can do what they need to 
do and then we get those folks to do the changing of diapers 
and all of that. Thank you.
    Chief Provost. Yes.
    Ms. Roybal-Allard. Mr. Rutherford.
    Mr. Rutherford. Thank you, Madam Chair.
    Chief, I almost want to apologize for the position that 
this Congress and previous Congresses have put you in. As a law 
enforcement officer myself, I know how frustrating it was for 
me back in the 1970s when I was dealing with domestic violence 
cases and the law precluded me from putting people in jail that 
I knew had broken the law, that had abused women, and I could 
not do anything about it because of the law.
    So I can only imagine the frustration that you all have at 
the border that your men and women who care about folks are 
going through in their effort to carry out their job when this 
body fails to act on an arcane immigration system that, because 
of our lack of action, the Flores settlement in the 1980s comes 
into being, and that was not all that bad. But we did not act; 
the courts did.
    But then what happened in 2015 was the expansion of the 
Flores settlement agreement by a judge, Judge Dolly Gee in 
California. She created the greatest danger for these folks who 
are traveling to our Southern border from these Northern 
Triangle countries by saying that as long as you had a child 
with you, you had a free pass to get into this country. We were 
not going to hold you more than 20 days. Change the structure 
from a reasonable time to 20 days. She created this situation.
    That is why we see all these caravans, this increase in 
families coming to our border. We have created the pull. We 
have created the incentive. We have created the desire through 
the court system for these people to find children that they 
can then use as a key to unlock entry into the United States, 
and go on a very dangerous journey with drug traffickers and 
human traffickers who are making tons of money off of this 
process, tons of money off not only the--the death of some of 
these kids. It is horrific.
    So when I look at the picture that was recently very well-
distributed of the gentleman with the baby in the water, 
everybody looked at that and assumed that they drowned. I did 
not. I am a law enforcement officer. The first thing I thought? 
A trafficker probably killed them. Probably drowned them. Most 
of the Rio Grande you can walk across. Now I do not know about 
that particular section. But it is more likely to me that some 
human trafficker killed those individuals, not that they 
drowned.
    So my question is this. In this year's budget, there is no 
money for Border Patrol officers between points of entry. But 
in this year's budget--and I think my colleague, Mr. Cuellar, 
touched on this--what are the numbers that you are actually 
going to be able to hire now, that you have currently 
authorized?
    Chief Provost. Well, I have approximately 19,500 agents 
right now. I do have, thankfully, 442 trainees at the academy, 
and my classes are full at this point in time. This looks to be 
the second year in a row because last year we actually did hire 
more people than we lost, by 118, I think. I am projecting that 
we will be somewhere around 150 to 200 more this year, assuming 
graduates through the trainees in the academy right now.
    Mr. Rutherford. So when we talked to field operations, who 
manage the ports of entry, they talked about having moved 
officers around. And in your written testimony, at least, you 
mentioned 700 officers that you have moved. Now, has that had 
an impact on other areas, a negative impact on other areas that 
you had to move them from?
    Chief Provost. So we currently have 731 from Office of 
Field Operations, my brothers and sisters in blue that work at 
the ports of entry that are supporting my men and women in our 
efforts. I also have 325 Border Patrol agents from the Northern 
and Coastal Regions that I have pulled down on TDY. And we also 
have a volunteer force of 342 that are helping us with this 
crisis right now.
    And it is certainly pulling them away from their other 
duties, but it is a necessity at this point. I desperately need 
their help to handle this crisis.
    Mr. Rutherford. Thank you. And my time is expired. But I 
want you to know that I am committed to not just dealing with 
the symptoms of this thing, but we have to address the pull 
that we have all created--not you, not your officers, but this 
body.
    Chief Provost. Thank you.
    Mr. Rutherford. Our inaction. I yield back.
    Ms. Roybal-Allard. Ms. Wasserman Schultz.
    Ms. Wasserman Schultz. Thank you, Madam Chair.
    Chief Provost, I want to return to the line of questioning 
that Chairwoman Lowey was on, and also, which is the similar 
line of questioning, on an issue I raised with Acting Secretary 
McAleenan.
    Lawyers in South Florida have represented at least 20 
undocumented children at the Homestead facility that were 
apprehended far from the border, in the interior of the 
country, and who had biological parents living in the country, 
yet they were separated and detained as unaccompanied minors 
anyway.
    Now, I will tell you, I am a mother. I have twin 20-year-
olds and a 16-year-old. If my 16-year-old were 2 hours from me, 
as the young man was apprehended with his uncle, documented by 
the Miami Herald and eventually released after being detailed 
for 5 days without the ability to make a phone call by your 
officers--if my child was apprehended and they were 2 hours 
from me and I was not contacted and given an opportunity to 
come get her, when this young man had been in the country since 
he was 9 months old and his mother was 2 hours away in the 
United States, that to me--I would be flipping out, to say the 
least. But that is a direct violation of the statute and of the 
definition of unaccompanied minor.
    You cited the definition earlier to Chairwoman Lowey. But 
as you said, it is, A, no lawful immigration status in the 
United States, B, has not attained 18 years of age, and C, with 
respect to whom there is no parent or legal guardian in the 
United States--not the case with these 20 children who were 
apprehended in the interior, including this young man--and 
there is no parent or legal guardian in the United States 
available to provide care and physical custody.
    Now, I will tell you that if I am 2 hours away, I am 
available to provide care and physical custody. So are you 
interpreting this statute to mean immediate local physical 
custody? Because that is not the letter of the law, and it is 
not how it reads.
    Chief Provost. Congresswoman, I would say in this effort 
that this is something that HHS is equipped to do when it comes 
more so than we are. The Border Patrol----
    Ms. Wasserman Schultz. No. But I am talking about the 
actual apprehension----
    Chief Provost. When we----
    Ms. Wasserman Schultz [continuing]. Where a child, instead 
of being returned to their parent in the United States, is 
instead treated as an unaccompanied minor. Again, I have 
documentation of at least 20 children who have been apprehended 
in this way with parents in the United States, apprehended in 
the interior, not returned to their parents, not able to make a 
phone call.
    Chief Provost. When we apprehend them, if they are 
unaccompanied, I need to transfer them over to HHS. And if I 
may, they are better equipped--this is not something that the 
Border Patrol--just like as a police officer. When I was a 
police officer, we would bring in child protective services to 
deal with that.
    Ms. Wasserman Schultz. I am sorry, but your policy, your 
policy, Chief, and CBP's, states that unaccompanied kids ``must 
be offered use of a telephone.'' I have been informed of 
instances where children were not permitted to call their 
parents until they reached ORR custody days after apprehension 
by CBP.
    This young man, who was finally returned to his mother last 
Sunday, had been in the United States since he was 9 months 
old. His mother, again, was 2 hours away from him. And he was 
left in your facility for 5 days with no ability to make a 
phone call.
    Chief Provost. If they have not had the ability to make a 
phone call, Congresswoman, I would definitely say that is 
something that we need to investigate.
    Ms. Wasserman Schultz. That policy has not changed? That is 
still the policy, that they are to be able to make a phone 
call----
    Chief Provost. No. We allow them to make phone calls.
    Ms. Wasserman Schultz [continuing]. While in your custody? 
So how are you going to ensure that this policy is followed? 
And will you look into, comprehensively, whether or not there 
are children in your custody being defined as unaccompanied 
minors who are not being granted the ability to make a call?
    Chief Provost. I will certainly take back your allegations 
and speak with the Office of Professional Responsibility, who 
does those investigations. Yes, ma'am.
    Ms. Wasserman Schultz. Thank you. And I would like to ask 
you a question about the culture of cruelty that exists, 
appears to exist, in your agency.
    In an email to a supervisor, there was a widely reported 
incident that occurred at the El Paso processing center in 
which an agent recounted seeing a colleague forcing a Honduran 
migrant to hold a sign that had the words, ``Me gustan los 
hombres,'' or ``I like men.'' An agent instructed the man to 
walk with the sign in front of a group of other migrants to 
humiliate him.
    The agent who reported the incident recounted that several 
colleagues laughed while this was occurring. This is a 
disgusting account on so many levels. It is cruel, 
dehumanizing, and homophobic. There are countless other 
examples of cruel and inhumane treatment that I asked the 
Secretary about.
    I asked him if he would do a comprehensive investigation as 
to these allegations into how CBP officers are treating 
migrants, the accusations of kicking children awake in the 
middle of the night while they are asleep. He would not make 
that commitment except on individual cases.
    Will you make the commitment here and now, to do a 
comprehensive investigation about the cruel acts that many of 
your CBP officers, as well as they might be taking care of 
others--I am not saying they are all bad, but there are 
widespread reports that demand a comprehensive investigation. 
Will you commit to that?
    Chief Provost. I can tell you that is not the job of my 
Border Patrol officers. That is the job of the Office of 
Professional Responsibility. I can tell you that that 
instance----
    Ms. Wasserman Schultz. Is it being investigated by the 
Office--
    Chief Provost [continuing]. Is definitely being 
investigated.
    Ms. Wasserman Schultz. Comprehensively or individually?
    Chief Provost. I cannot speak for all of the investigations 
that the Office of Professional Responsibility currently has 
going. But I can tell you that I do know that that case is 
under investigation.
    Ms. Wasserman Schultz. So the only--and then I will 
conclude, Madam Chair; thank you for your indulgence--so you, 
like the Secretary, are only aware of and only willing to 
commit to individual investigations of specific allegations 
rather than the--because if it were me and I had widespread 
accusations of my officers, people under my supervision, being 
accused of cruelty, I would want to get to the bottom of it, 
not case by case, but where the breakdown is and how that is 
being allowed on the border.
    Chief Provost. Ma'am, this is something that we work close 
with the DHS Office of the Inspector General, which that is 
their job, as well as the Office of Professional 
Responsibility.
    Ms. Wasserman Schultz. Madam Chair, unfortunately there 
appears to be a culture of cruelty that goes all the way to the 
top in the Department of Homeland Security. Thank you. I yield 
back.
    Ms. Roybal-Allard. Mr. Aguilar.
    Mr. Aguilar. Thank you, Madam Chair.
    Thank you, Chief, for being here, and I wanted to just go a 
little further than my colleague about the subculture 
discussions because I think this speaks not only to leadership, 
but this speaks to how we treat folks and the standards that we 
employ.
    Are you familiar with the term ``tonk''?
    Chief Provost. I have heard that term before.
    Mr. Aguilar. And in what context have you heard that term?
    Chief Provost. It is a highly inappropriate term that we do 
not tolerate in the Border Patrol that was a term from--my 
experience, from many, many years ago.
    Mr. Aguilar. Have you heard that term from officers in the 
field?
    Chief Provost. That is not a term that I have heard as of 
late. When I was a young agent, yes.
    Mr. Aguilar. Have you seen it recently in emails or texts, 
or heard it outside of your term as an agent?
    Chief Provost. I was just made aware of and an 
investigation is ongoing into, I believe, a t-shirt that was 
made with something like that. I have not seen it.
    Mr. Aguilar. A t-shirt that was made by an agent?
    Chief Provost. I do not know whether or not it was made by 
an agent.
    Mr. Aguilar. Last week Secretary McAleenan testified before 
the House Committee on Judiciary that he does not think that 
the CBP has a culture of dehumanizing migrants. Don't you feel 
that at least that term, tonk, is dehumanizing?
    Chief Provost. I do agree that that term is dehumanizing.
    Mr. Aguilar. Do you think it is appropriate for CBP 
officers or any agents to share personal and identifiable 
information of migrants?
    Chief Provost. No. It is not. We have to protect the 
privacy of those in our custody and in our care.
    Mr. Aguilar. And I assume you have answered this in the 
context that Office of Professional Responsibility is going to 
be looking at and continues to look at those. Would they also 
look at individuals who may have, online, mocked the death of 
child migrants as well?
    Chief Provost. Most definitely. And there is a case that I 
am aware of based on the Facebook information that is being 
investigated right now.
    Mr. Aguilar. Back to the Facebook. You said you joined--I 
might have heard you wrong. When you were giving the statistics 
at the beginning, you said June of 2018 to June of 2019 you 
visited the group, or as it was told to you by OPR, four times 
you opened up Facebook or four times you visited the group?
    Chief Provost. Facebook. And it----
    Mr. Aguilar. Four times you visited Facebook.
    Chief Provost. Four different days that I was on Facebook 
in 2019. It was nine times in a year from June through June 
of--nine days, I should be specific, nine days that I logged 
on.
    Mr. Aguilar. Nine days that you logged on----
    Chief Provost. That was just to Facebook.
    Mr. Aguilar [continuing]. In the 12 months on Facebook?
    Chief Provost. Yes. Yes, sir.
    Mr. Aguilar. In the 12 months. And logging on can be done 
through your mobile device or through a desktop, or did OPR----
    Chief Provost. I use an iPad, a personal iPad.
    Mr. Aguilar. Okay. And so four times this calendar year, 
nine times the prior 12 years (sic) to----
    Chief Provost. Twelve months.
    Mr. Aguilar. Twelve months.
    Chief Provost. Nine days and 4 days. And the reason I say 
``days,'' I think, in the 4 days I was on twice in one day, for 
instance.
    Mr. Aguilar. Right. Which would be common for a user on 
that platform.
    You said you joined this group in 2017 at the request of a 
colleague. So from that time in 2017 to June of 2018, was there 
any data that OPR had given for your Facebook use and/or your 
visiting? Because I understand you commented on a post within 
that group as well.
    Chief Provost. I commented on a post within, I believe, 
what was the 10-15 Times 2 group. But if I may explain, when I 
log on, the reason I commented on that is because my agents 
were talking about me. And I will go in and I search posts. I 
did not even know at the time what group I was on or whether I 
was on a group.
    I did a search for myself, and because people were talking 
about the fact that I had been on a Jeopardy! question. So I 
searched myself, and that came up. I did not know at the time 
what group that was on until the posting came out.
    I do not go into Facebook and go into groups. I go into 
Facebook, and I either talk to my friends in my group or I do, 
quite often, and that was revealed in the information that the 
Office of Professional Responsibility looked at, I do search 
myself quite often.
    Mr. Aguilar. So you would go into Facebook. You would hit 
the little icon to search. You would type in your name----
    Chief Provost. Yes.
    Mr. Aguilar [continuing]. On that search piece. And then it 
would then populate within----
    Chief Provost. Posts that I would search through, posts 
that would potentially have my name in it.
    Mr. Aguilar. The way those sites work, it would generally 
put to the top of the list those that had connections to you.
    Chief Provost. Yes.
    Mr. Aguilar. Either individuals who were friends or groups 
that you had joined.
    Chief Provost. Correct.
    Mr. Aguilar. Those would then show up at the top.
    Chief Provost. Correct.
    Mr. Aguilar. And so that is when you noticed that. That is 
when you saw that. And then you replied to that post because 
you had searched yourself and they were talking about you.
    Chief Provost. Yes, sir.
    Mr. Aguilar. Okay. Thank you, Madam Chair.
    Ms. Roybal-Allard. Mr. Price.
    Mr. Price. Thank you, Madam Chairman.
    Like many Members of Congress, I have felt some obligation 
to travel to the border to see these conditions myself. And I 
must say your agents were accommodating in helping us do that 
in McAllen and Brownsville two weeks ago. I went to Laredo a 
year ago.
    The striking thing this year is how much worse things are, 
how much worse things are. And it is partly the influx of so 
many people, but it is also a failure to provide for these very 
basic accommodations, and a failure of policy to get people 
through the process in a fair and orderly way.
    Forty men packed in a cell for six people. Vice President 
Pence tried to put a positive face on that, but the press was 
right there. They saw for themselves. And then in the Ursula 
Center for the families and unaccompanied children, people who 
had not had a change of clothes or a shower for days, and so 
on. We spoke to a lot of people who have been stranded in 
processing centers for days, even weeks, when the standard is 
supposed to be 72 hours.
    One thing we need to get at is to what extent is this, all 
this, these conditions and the situation we find, to what 
extent is this a failure in policy? I must say the most 
irrational policy of all has to be President Trump cutting off 
the very aid to the Triangle countries that has been directed 
to stemming this flow by improving conditions and dealing with 
conditions in those home countries. How in the world can that 
even be contemplated?
    But then, closer to home, what about the accommodations 
that we provide? What about the process for processing and 
dealing with cases? And then, of course, there is a specific 
set of problems dealing with medical care and the kind of 
medical needs that these people who are being held have.
    I want to ask you one question about the 72-hour standard, 
and then I want to move to the medical issue. But I know 72 
hours is not an absolute requirement, but it is a goal that I 
am sure you embrace.
    How long, on average, are tender age children being kept in 
Border Patrol facilities in particular and in general? Can you 
address the 72-hour standard, which I think, given the state of 
these facilities, we can all agree is highly desirable to move 
people through as quickly as possible, and what it is going to 
take to come anywhere near to meeting that standard. And if you 
want to comment on different subsets of populations as to the 
situation you are facing.
    Chief Provost. Certainly, Congressman. First and foremost, 
when it comes to processing, we do prioritize the processing of 
unaccompanied children first and then of family units and then 
single adults. When we were at our height, when I mentioned 
earlier that we had a time with 19,000 people in our custody, 
HHS was unable at that time to take people out of our custody 
within the 72 hours.
    I can tell you since you all have funded HHS, that number, 
as I stated earlier, has dropped dramatically. Along with that, 
our time in custody has dropped. And when it comes to 
unaccompanied children in our custody and care, currently--
obviously it changes at different times--but somewhere in the 
1- to 2-day time frame, and are being turned over to Health and 
Human Services right now.
    That is the current state we are in. That was not the state 
we were in when we had 2700 children in our custody. But I 
needed HHS to be able to take them out of my custody. And I do 
agree: I want all of these individuals out of my custody as 
quickly as possible.
    Family units, as soon as we can process them and release 
them. We are doing that. We are working with local 
nongovernmental organizations and doing our best to release 
them to those individuals. And that is more like a 2- to 3-day 
time frame.
    The problem I have right now is single adults because I 
have to wait for ICE to have the bed space. Those individuals, 
I do not have the exact time, but they are being held in our 
custody far too long.
    Mr. Price. Those are the people in the cages, shouting out, 
``I have been here 40 days''?
    Chief Provost. Well, and once again, I believe Mr. Cuellar 
stated earlier, the reason that we have to be able to separate 
different groups and we need to be able to see those 
individuals. Thus the use in some of our facilities like in Rio 
Grande Valley with the Central Processing Center. We want to be 
able to have eyes on to ensure nothing is happening to these 
individuals.
    But yes, it is mostly single adults now that we are having 
issues with when it comes to going beyond the 72-hour realm.
    Mr. Price. Well, I know my time is expired, so I will wait 
until the next round on the medical issue. But coming into that 
Ursula facility, put on masks. Duly warned that there is a lot 
of contagion here. And so I do have some questions that stem 
from that experience and those observations. Thank you, Madam 
Chair.
    Ms. Roybal-Allard. Ms. Meng.
    Ms. Meng. Thank you, Madam Chairwoman. Thank you, Chief 
Provost for being here.
    I wanted to ask about an issue, interior enforcement. You 
stated in your testimony that your workforce is extremely 
strained due to the crisis at the Southern border. However 
strained your workforce is, Border Patrol is still--they are 
still conducting interior enforcement. New York farmers, 
specifically, have had issues with workers being picked up and 
detailed by agents, and there have been numerous interior 
enforcement actions across the State of New York that have 
impacted farmers and farmworkers.
    According to the New York State Department of Labor, there 
are between 40,000 to 80,000 individuals employed on farms in a 
given year, including domestic, guest workers, migrant, and 
seasonal labor. A high proportion of the New York agriculture 
workforce are vulnerable to immigration enforcement, which 
leaves farms in New York State vulnerable to losing their 
workforce.
    Given its close proximity to an international border, New 
York State has a significant Border Patrol presence, which 
enables CBP agents to question, detain, and search individuals. 
What type of criteria does Border Patrol use when it decides to 
question these individuals?
    Chief Provost. If I may, and I am just wanting to clarify 
for my own, you are talking about--because when you are 
speaking about interior enforcement, that is generally ICE ERO 
or Homeland Security Investigations. That is not something that 
the Border Patrol generally does.
    Now, we do have traffic checkpoints that come in as a 
secondary support system that we are doing. And I am just 
trying to clarify for my own edification. I apologize. But are 
you potentially speaking to enforcement efforts by ICE and HSI?
    Ms. Meng. So there is no enforcement by CBP agents in or 
near farms in New York State?
    Chief Provost. We do some roving patrol. This may be 
something that I need to follow up with you on so that I can 
understand better. And I apologize, but we do some roving 
patrol and we do have checkpoints. But generally, when we are 
talking about interior enforcement actions, that is the job of 
ICE. And I am not sure. Maybe that is something that I need to 
come sit down and speak with you about more in depth.
    Ms. Meng. Sure. We have just had a lot of stories from our 
farms and farmers about workers being picked up. And so if you 
could get back to us.
    Chief Provost. I will take that--yes. I will take that back 
and see whether or not that is something that we are doing. And 
I will get back with you.
    Ms. Meng. Thank you. And we would love to----
    Chief Provost. I apologize. It may be ICE that we are 
talking about here. And in that case, I do not have that 
information.
    Ms. Meng. Okay. Well, specifically I want to know what role 
CBP plays and what criteria is used when----
    Chief Provost. Okay. If it is all right, I would like to 
take that back. And I will get you an answer on that.
    Ms. Meng. Of course. Thank you.
    Another question I have, a story about a colleague of ours 
at the Ursula Detention Center who encountered a 13-year-old 
U.S. citizen, at the Ursula Detention Center where children are 
also held in cages. And I wanted to get more background about 
this incident. Why was this U.S. citizen child held in a cage? 
Is this standard practice? How often does it happen? What is 
the protocol?
    Chief Provost. Not knowing the exact case that you are 
talking to, and if you send me that information I am more than 
happy to follow up on that exact case, there are instances, 
though, where in particular children, U.S. citizen children, do 
come in to our care and custody, for instance, if they are 
traveling and have maybe crossed the border with a parent who 
is an illegal alien.
    So that does happen at times, and we try to keep them 
together, and the parent can make a call on what happens. I am 
not sure of the specific case that you are speaking to. If you 
have a time frame, that would help me. But I am certainly more 
than happy to look into any specific instances.
    Ms. Meng. Sure. This specific incident was reported in an 
article in the national paper, USA Today. It was our colleague, 
Congresswoman Annette Barragan, who had been on a congressional 
tour at the Southern border, specifically at Ursula Detention 
Center.
    Do you know how many U.S. citizen children are in Border 
Patrol custody? And how long are they detained for?
    Chief Provost. Those are few and far between. And I do 
believe in that instance that this was a child with an illegal 
alien mother, who the mother and the child were released on 
their own recognizance. I will confirm that that is the case. 
Those instances are few and far between. I do not have an exact 
number for you, but it does happen from time to time.
    Ms. Meng. If you could get back to us as well, I would like 
to know how many U.S. citizens at any given time, including 
currently, are in Border Patrol custody and the average time 
that they are detained, and the process that they must go 
through to get released.
    Chief Provost. And once again, if they are in with a 
parent, we are going to work through processing the parent 
accordingly and then work to--if it is a family unit in 
particular, to release them as soon as possible. But I am more 
than happy to follow up on that with you.
    Ms. Meng. Thank you. I yield back.
    Ms. Roybal-Allard. Mr. Ruppersberger.
    Mr. Ruppersberger. Thank you. I have two areas I want to 
talk to you about.
    First, I recently, within a month or so, I visited the 
border. And quite frankly, I was really surprised and shocked 
on what I saw. I know one of the Border Patrol agents made a 
comment to me, though. If you are a police officer in the 
United States and you arrest somebody, you see them in court. 
We have these issues now, we have detail these people, and we 
really are not in the detaining business. And that has caused a 
lot of issues with the volume that we have had in.
    Now, again, you are dealing, what I have seen, with an 
unprecedented volume of immigrants, and you need more 
resources. There is no question. We just passed a bill which 
provides $4.5 billion to alleviate the humanitarian crisis on 
the border. We did not get everything we wanted in it, but we 
got a lot, and that is a good start. But it is not the end.
    Now, we need to fix the overcrowding. We need to hire 
hundreds more judges--that is a major issue--so we can move the 
people in the United States or out, and they have a status. We 
have to provide more aid to the Northern Triangle countries. 
Not a lot that you have to deal with, but we need to make sure 
that we deal with the problems. These are why people are 
leaving. And as long as they feel threatened and there is 
corruption in these areas, we are going to keep having a lot of 
the problem.
    We need to bring in more doctors to screen detainees--very 
important issue, especially with the young children and kids, 
but everybody who needs a doctor. We need to abide by 
international law and allow people to seek asylum. That is a 
big issue, and we have to do that. And these people are running 
for their lives. And overall, we need to restructure our whole 
immigration system.
    Now, short-term, there are third party organizations, such 
as the Red Cross, who are willing to roll up their sleeves and 
help out at no expense to the American taxpayer. I keep hearing 
about the flu and lice outbreaks. This is both concerning and 
preventable. I am fully aware that these volunteers will need 
to be toughly screened before providing assistance.
    Now, to that end, are you willing to open up your doors to 
these humanitarian organizations? And if so, how can Congress 
help? This could help some of the issues we are dealing with, 
especially with a group like the Red Cross.
    Chief Provost. Sir, I do not want to speak out of line. I 
will tell you that----
    Mr. Ruppersberger. Speak what comes up.
    Chief Provost [continuing]. We are working very, very 
closely with medical professionals--and by the way, thank you 
for the funding because that is supporting having more medical 
professionals in our facility. We have expanded to over 200 
medical professionals in our facilities across the board.
    I cannot speak to the legalities on the Red Cross. I do 
know that we are working with FEMA within the department as 
well, and looking at all different kinds of possibilities. I 
agree that we need the medical assistance in our facilities. I 
just cannot speak to what we can or cannot do. It is certainly 
something that I will take back and see whether or not that is 
something that is feasible.
    Mr. Ruppersberger. Well, we need to make it a priority. 
Another thing I learned, too, we talk about the immigration 
issue as very political. That is unfortunate because a lot of 
countries take in immigrants. If you look at our history, we 
all somehow, other than probably the American Indians, came 
from some other country.
    What I see--and I have spent years in law enforcement as a 
prosecutor--and what I see right now, the cartels are in 
control of a lot of the things that are going on, not only from 
a drug point of view, but also from shaking down these 
immigrants, these people that are coming, trying to find a way 
that is better for their families.
    And that is a priority that we do not talk about any more 
in this country. Our media does not talk about it. That is a 
big problem, about what is happening and the volume that we 
need to deal with.
    The other thing I want to talk about--our chairwoman and 
other people have brought it up--and that is about the 10-15 
private Facebook book. There are a lot of good agents out 
there. A lot of bad people--a few bad people make it look bad 
for an entire agency. And it happens in Congress. It happens in 
a lot of organizations.
    Now, this group has about 9500 members strong. They are 
posting racist, misogynistic comments and cracking jokes about 
detainees dying in their custody. There are reports of alleged 
misconduct such as agents telling detainees to drink from 
toilets. As a former prosecutor and county executive, I worked 
with law enforcement for decades. And never in my life have I 
ever seen such a lack of professionalism and disregard for 
human suffering. This is human suffering.
    So I do not believe that most of your share those views, 
and I will tell you this. I served on the Intelligence 
Committee for 12 years, and I served with Silvestre Reyes, who 
was a member of the Border Patrol. He told stories, and I 
learned to respect your agency because of what he told me about 
the Border Patrol, and how tough it is between the borders. And 
there is a certain camaraderie that is there.
    But a few people are really hurting your agency right now, 
and a lot of people--just like ICE, a lot of good people in 
ICE--the same way. A few bad people, and certain policies by 
our administration, unfortunately, are really causing problems 
with your agencies and the respect. So we have got to turn it 
around.
    So my question is: What are you doing to restore the 
credibility and reputation of your agency as it relates--you 
talked a little bit about the 10-15 group--but generally, you 
have got a long way to go now to rebuild your reputation to the 
average person in this country.
    Chief Provost. So thank you for the question. And as I 
stated earlier, you are exactly right. Those individuals are 
not representative of my men and women as a whole. That is why 
we have taken steps. OPR, the Office of Professional 
Responsibility, is all-in on this investigation, meaning 
putting a large sum of resources into it. And as I stated 
before, we will hold those accountable who have done that.
    In my statement to the workforce, I made mention of, and I 
will continue to make mention of as I am reaching out to the 
workforce as we are spreading training, that all this does is 
harm our reputation. That being said, I would love to see more 
from the media and others reporting on the amazing things that 
my men and women are doing because I do spend--every week I am 
making calls to the field on rescues, agents who are putting 
their lives on the line, as you have stated.
    That is not making it into the public eye. That is not 
making it into the media. And we are putting that information 
out. And I would love to see that be out so that the public can 
see--when we are talking about over 4,000 rescues this year, 
when we are talking about agents who have pulled children out 
of a river in the Del Rio area, where actually the river is 
extremely dangerous, and the smugglers do put children in inner 
tubes that are made for a swimming pool and push them out into 
the river, and put women in those situations.
    I agree that we have to deal with those few bad apples. 
This is a priority for us as an organization. It is a priority 
not only for me, also for the Secretary, as I know he has 
spoken to as well.
    Mr. Ruppersberger. My time is up. But I think the stories 
that you hear, the bad stories which have to be put out there, 
you need to tell the good stories about saving peoples' lives 
also.
    Chief Provost. Thank you.
    Mr. Ruppersberger. I yield back.
    Ms. Roybal-Allard. Just a very quick follow-up with regards 
to Congresswoman Wasserman Schultz's question regarding the 
incidence in the Yuma Sector about abuse of unaccompanied 
children while in your custody.
    The information was gotten by caseworkers from ORR, when 
the children went to ORR. When there are those kinds of 
allegations by these children, does ORR then give Border Patrol 
that information?
    Chief Provost. We did not receive that information until 
the investigation came out. It went to OIG, and I do know that 
the Office of Inspector General is investigating that. But that 
is certainly information that I would love to have so that we 
can address any of these concerns up front.
    Now, whether they are giving it directly to OIG and/or to 
the Office of Professional Responsibility, that is something 
they should be doing as well. And I----
    Ms. Roybal-Allard. Nothing prevents them at this point from 
doing that?
    Chief Provost. Not that I am aware of. Those are generally 
the entities that they are going to give it to. But we 
certainly want them giving those types of allegations to either 
DHS OIG or CBP Office of Professional Responsibility.
    Ms. Roybal-Allard. Well, we will make sure that that 
happens.
    Chief Provost. Thank you.
    Ms. Roybal-Allard. One of the things that I find very 
concerning is that despite the guidance exempting vulnerable 
populations from placement in the Migrant Protection Protocols 
Program, we have been made aware that pregnant women and LGBT 
migrants have indeed been sent back to wait in Mexico.
    Since your agents apparently are not consistently following 
the criteria that you have given, what is being done to ensure 
that the agents do not return vulnerable individuals? And what 
oversight mechanisms do you have in place to ensure that 
outcome? My understanding is that they are given general 
guidance and that there is nothing in writing.
    Chief Provost. They are given guidance, and of course there 
is supervisory oversight when it comes to individuals that we 
are returning through the Migrant Protection Protocol Program. 
I want to be clear, we also work very closely with the 
Government of Mexico, and we are not just turning people back 
across the border. We are turning them over to them. They are 
working with nongovernmental organizations and shelters in 
their areas for placement for them.
    The standards when it comes to the MPP program speak to, 
obviously. Anybody that we have over 96 hours in our custody or 
has entered more than 96 hours prior is not eligible for it, as 
well as individuals who are, of course, Mexican nationals and 
those who express a fear of Mexico are going to be sent to 
USCIS for a creditable fear. They----
    Ms. Roybal-Allard. I guess--excuse me for--but I guess what 
I am trying to find out is what is the weakness in the system 
that has made it--that has allowed, in these cases, for 
vulnerable populations to in fact be returned to Mexico?
    Chief Provost. We follow the standards of the MPP. No 
unaccompanied alien children are sent back. Citizens and 
nationals of Mexico, aliens processed for expedited removal----
    Ms. Roybal-Allard. But Chief, we have examples that it in 
fact is happening. So what I am trying to get at is to ask you: 
Can you look into what is happening and where are those 
weaknesses that are actually resulting in these vulnerable 
populations being returned?
    Chief Provost. So if they have circumstances where they 
have medical or mental health issues, like current medical 
issues, if they have been cleared, then they can go back. But 
it is something that I am more than happy to talk to you about 
further and to work with you on, on what your actual concerns 
are in it.
    Ms. Roybal-Allard. I think--because I want my other 
colleagues to have a chance to ask questions--but I would like 
to follow up with you on this.
    Chief Provost. I will definitely follow up. I would like to 
understand a little bit better your specific concerns when it 
comes to cases of individuals that we are sending back.
    Ms. Roybal-Allard. We will follow up.
    Chief Provost. Okay.
    Mr. Fleischmann. Thank you, Madam Chair, and I want to 
thank my friends on both sides of the dais for a very 
productive hearing. And Chief Provost, thank you. Thank you for 
your thorough answers, and again, the tremendous job that you 
and the men and women in CBP are doing.
    Something that resounds, I think, on both sides is that our 
leaders, the House and the Senate and the administration, we 
need to come up with policies. I think the sheriff said it 
best. Law enforcement is put in a very difficult position. You 
have got to follow the law, and you do. And if the laws are not 
put in place so that you can do your jobs, then we have some 
work to do. And I sincerely hope that our colleagues do that in 
the very near future to deal with this crisis.
    Following up on my earlier line of questioning, how long 
does it take, on average, for a border station staff to process 
a ``large group''?
    Chief Provost. Well, a large group, just to be clear, has 
varied. We count a large group as anybody over a hundred, a 
group of a hundred. But just this year we broke records that I 
certainly do not want us to be breaking, with one large group 
of over a thousand in one group. So obviously it is going to 
depend upon the size of the group.
    But when I have days where I have got over 5,000 illegal 
aliens coming across the border, it is extremely time-consuming 
to get those individuals just transported logistically, 
especially if they are coming across in remote locations, 
medically screened, processed through the system.
    It can take, with an extremely large group, days to get 
them handled. It just depends. It depends upon the size of the 
station where they cross. It depends upon the staffing that we 
have on. And it depends upon the size of the group. We have had 
over 200, 203 large groups, that have crossed our border this 
year. That is over a hundred people in each group. Last year we 
had 13 total. The year before, I think it was just a handful.
    Mr. Fleischmann. Yes, ma'am. Does processing already 
include a medical screening and medical treatment, if 
warranted?
    Chief Provost. Definitely if warranted, and all children 
are screened now medically.
    Mr. Fleischmann. Thank you. Perhaps the metrics should be 
adjusted so we are counting how many hours to be processed and 
medically screened, and then to start a new clock on how long 
it takes for ICE and HHS to respond to notification for pickup. 
Is that possible? What story do you think would be told if we 
start looking at these various steps at the border as separate 
activities versus just ``in custody''?
    Chief Provost. Well, I can certainly tell you, Congressman, 
that as I have stated numerous times, Border Patrol is the only 
ones that cannot say no. If migrants come across the border 
illegally and then present themselves to my men and women, we 
have a responsibility, a legal responsibility, to take them 
into custody. And then they are in our care and custody.
    And we do not have the ability to say, ``I am sorry, I do 
not have any more space,'' whereas, I think, that as I 
mentioned earlier, it is critical that my partners at HHS and 
ICE have the funding that they need to be able to take these 
folks out of our care and custody.
    And once again I will recognize, certainly, the efforts of 
this committee when it comes to the funding that was provided 
to HHS. That has been a tremendous help. I certainly do not 
want 2700 unaccompanied children in my custody. I never want to 
see that again. And it has made a big difference. But because 
of ICE not having the beds, that does have an impact.
    There are obviously numerous factors that impact the 
processing and getting individuals done. As soon as we have 
them processed, though, I can tell you, we notify either HHS or 
ICE that they are ready for them to go. And we do work hand in 
hand with them on moving those that have been in our custody 
the longest.
    Mr. Fleischmann. Yes, ma'am. Again, Chief Provost, thank 
you for your testimony.
    Madam Chair, I believe they have called votes, so I am 
going to yield back.
    Ms. Roybal-Allard. Yes. In fact, they have called votes. We 
have the option. We can do one real quick round, or we can come 
back. So I do not know what the committee would prefer.
    Mr. Cuellar. One quick one.
    Ms. Roybal-Allard. One quick round?
    Mr. Cuellar. Yes.
    Ms. Roybal-Allard. Okay. Then the next, Cuellar.
    Mr. Cuellar. Yes. Thank you. One quick question.
    Again, I appreciate what your men and women do, but there 
are some issues. I think you were down in Laredo when we had 
this Border Patrol agent that murdered multiple individuals. I 
think it was a veteran. I think we had another Border Patrol 
agent within the same time that killed his girlfriend and baby.
    My question is, even though you do a polygraph exam, do you 
do any sort of--I do not know what your position is on 
psychological testing for those folks, number one? And then 
number two is, in talking to the men and women at the border, 
they are afraid sometimes to talk when they have an issue 
because if they go in to their supervisor and say, ``I got a 
problem,'' what is the first thing they do? They take the gun 
away.
    So they basically are told, union members told, ``Go talk 
to a priest.'' And there has to be some sort of support 
services because you can understand law enforcement. If you 
tell them you got an issue they are going to take your gun 
away.
    So my question is on polygraph--I mean, on psychological 
and any sort of support. Thank you very much.
    Chief Provost. Thank you, Congressman. We currently do not 
have a psychological evaluation. We do a very extensive 
background check. We do polygraph. And we also do 
reinvestigations every 5 years. That is something, I would say, 
that we should speak with the Office of Professional 
Responsibility in relation to, on psychological exams. I can 
tell you that I did take one for my police department when I 
hired on.
    When it comes to things for the agents, concerns that they 
have, we have created a peer support program and our own 
chaplain program to help support our men and women when they do 
need to talk about issues as well. But I would certainly want 
my men and women to be willing to go talk to their supervisors 
when they have an issue.
    And of course, if they have an allegation, they can go 
directly to the Office of Inspector General or to the Office of 
Special Counsel or to the Office of Professional Responsibility 
without any of their chain of command knowing, particularly if 
they have a concern with their chain of command.
    Ms. Roybal-Allard. Mr. Rutherford.
    Mr. Rutherford. Thank you, Madam Chair. Very quickly, I 
think it incredibly important that we not only help you with 
the symptoms of this issue that you have to deal with, but we 
also have to address the causes. And I think that is evidenced 
by the fact that when I see videotape of these large groups, 
203, a hundred plus--I think I actually saw the video of the 
thousand group coming across----
    Chief Provost. We did release that, sir.
    Mr. Rutherford. But they do not run from your officers. 
They run to your officers. And the reason for that is, they 
understand the draw that we have created, the pull, as you all 
call it, that continues to bring them here. This body, this 
Congress, has got to address that and this issue in that way.
    One quick question also. Can you tell me, you move 731 
officers. You also had some military assistance down there. How 
did that go? Was it worthwhile or----
    Chief Provost. The DOD assistance has certainly helped up, 
particularly when it comes to, for instance, running our mobile 
surveillance cameras for us. That has allowed me to free up 
agents. They are helping us with our situational awareness so 
that the agent can respond. They have provided air support. 
They are now providing some support when it comes to meal 
preparation for the individuals in our custody and care, and 
other things. So they have been a huge support as well.
    Mr. Rutherford. Very good. Thank you, and I yield back.
    Ms. Roybal-Allard. Ms. Wasserman Schultz.
    Ms. Wasserman Schultz. Thank you, Madam Chair.
    Chief Provost, immigration lawyers who work with detained 
migrants have told my office that they have heard reports of 
CBP pressuring teenage girls into signing documents stating 
that they are adults, and of accusing girls of lying when they 
have asserted that they are minors. By signing such a waiver, a 
child would lose legal protections and become subject to 
expedited removal, criminal charges, and transfer to ICE 
custody.
    Chief Provost, yes or no: Is this a legal practice?
    Chief Provost. No.
    Ms. Wasserman Schultz. And will you commit to investigating 
these accusations and, if substantiated, hold CBP officers 
committing these actions accountable?
    Chief Provost. Definitely.
    Ms. Wasserman Schultz. Okay. Thank you very much, and I 
have one additional question. Abusive behavior, as I indicated 
in my prior questioning, seems to be tolerated at CBP, although 
I know you are disagreeing with that or certainly following up 
on individual cases of abuse. But this is widespread abuse, and 
it apparently frequently goes unpunished.
    Out of a total of 7,239 agency disciplinary academies in 
fiscal year 2017, only 70 were removal actions. That represents 
less than 1 percent. What kind of misconduct would prompt a 
removal of an employee in your agency? And why is this number 
so low when reports of CBP abuse and misconduct are so 
commonplace?
    Chief Provost. Lack of candor would be an issue. Conduct 
unbecoming can lead to a removal as well. But there are various 
levels along the disciplinary----
    Ms. Wasserman Schultz. Lack of candor meaning lying?
    Chief Provost. Yes. Yes. There are numerous things that 
could bring to light discipline. I would state, though, also 
during 2017 that we did have hundreds of individuals that 
received suspensions. We did have demotions. We did have 
everything from the lower level of a counseling or a written 
reprimand up to removal. This is something that, as I stated, 
we take very seriously. There were several allegations that 
were unsubstantiated, though, as well in that number that you 
provided.
    Ms. Wasserman Schultz. And I am sure that there were some. 
But it is 7,239 agency disciplinary academies, and less than 1 
percent resulted in removal. I would think that things like 
kicking a child awake while they are trying to sleep on the 
floor, covered by tinfoil, is something that would indicate a 
culture of abuse and abusive practice by an individual who 
certainly does not belong employed as a Customs and Border 
Patrol officer, and would not be exemplary of the 4,000 rescues 
that you have you have conducted.
    Chief Provost. It would definitely not be, ma'am. But once 
again, those are allegations that have to be investigated. And 
whether or not those allegations are true, once it becomes----
    Ms. Wasserman Schultz. So why is the number so low when the 
reports of CBP abuse and misconduct are so commonplace?
    Chief Provost. Well, once again, reports are allegations. 
It does have to do with--of that, I believe 3800 of that number 
that you give were unsubstantiated allegations. And once again, 
those are not investigated by me. Those are investigated either 
by the Office of Inspector General or the Office of 
Professional Responsibility. That is their job to deal with.
    So when you are saying the number of 7,239, 3,806 were 
unsubstantiated claims----
    Ms. Wasserman Schultz. Still leaves over 4,000 that were 
not.
    Chief Provost [continuing]. And there were various forms--
there were various forms of discipline that were handed out. 
And it will depend on every type of situation.
    Ms. Wasserman Schultz. Okay. I would like a comprehensive 
overview of what the forms of discipline were, by number, of 
those remaining 4,000 cases that were----
    Chief Provost. I will get with our labor/employee 
relationships group on that.
    Ms. Wasserman Schultz. Thank you.
    Ms. Roybal-Allard. Mr. Aguilar.
    Mr. Aguilar. Thank you, Madam Chair.
    Chief, the family separation policy was in effect from at 
least April to June of 2018, and reports indicate that children 
were separated before then. We know that families were 
separated before the President implemented this policy, also 
known as Zero Tolerance.
    You were appointed acting chief in April of 2017. Did you 
play any role in advising agents in how to carry out family 
separation policy?
    Chief Provost. Well, first, as I have stated, we never had 
a specific family separation policy in my 25 years.
    Mr. Aguilar. Zero Tolerance policy?
    Chief Provost. In my 25 years, I have had to separate 
families. This is not something that is new to the Border 
Patrol. One, we have a responsibility under the TVPRA to ensure 
the safety of children. So there are always going to be cases, 
as there still are today, where we have to separate families.
    We do not take that lightly. That is something that is very 
difficult for any of my men and women to do. That is something 
that--the care of the children is of utmost concern. But this 
is something that has been done. I have worked under four 
administrations. It has been done in each of those 
administrations. And it is, of course, being done in compliance 
with the Executive Order and with Ms. L right now. But it is 
something that we have done throughout my career.
    Mr. Aguilar. So you are saying it was just business as 
usual. Nothing was different between April and----
    Chief Provost. I am saying Zero Tolerance was different. It 
was prosecution initiative, though not focused on family units.
    Mr. Aguilar. Sure. What role did you have in helping guide 
your agents on what the new prosecutorial standard was?
    Chief Provost. I gave direction out to the field, once Zero 
Tolerance came down the chain of command, on Zero Tolerance as 
a whole when it came to prosecutions.
    Mr. Aguilar. And everyone knew that that was a change in 
process; that was a new process coming down from the top?
    Chief Provost. It was a Zero Tolerance program and a 
program that was focused on prosecution initiatives that we 
have done numerous different prosecution initiatives over the 
years.
    Mr. Aguilar. Thank you, Chief.
    Ms. Roybal-Allard. Mr. Price.
    Mr. Price. I know we are running out of time as the clock 
ticks on this vote. But I do want to return to the issue of the 
medical care situation.
    At Ursula was where I observed this, but I hope you could 
provide an answer more generally, and perhaps some of this for 
the record. I would appreciate your immediate response, though, 
to how much attention you are paying to this, how critically 
you are regarding this situation.
    It looked pretty bad, frankly. I mention that we had to put 
on masks, and there was a warning of contagious diseases in the 
air. But just seeing the line of migrants waiting to be seen by 
medical staff, looking at those who had been seen. We spoke 
with a father who was lying on supposedly a quarantine mat 
outside with a daughter. Looked very sick to us. She was 
clearly ill.
    And that did not look like much of an isolation situation. 
It was not clear when they were going to actually be taken to a 
medical facility. There are people who had been seen who were 
waiting to go to a local healthcare facility or to Weslaco, the 
CBP's isolation border facility, and so on. It was not a good 
scene. It appeared to be overwhelmed.
    Now, you realize there is money in this emergency 
humanitarian supplemental, $112 million specifically for 
consumables and medical care in CBP facilities. I wonder what 
your assessment of the need is, the priority that you give 
this, and in particular, we are going to want to know how 
quickly and in what ways you can utilize these funds.
    Chief Provost. Certainly. And this is of course of serious 
concern to me, to my men and women as well. There are numerous 
individuals coming into our custody that are sick when they 
arrive. We are expanding, and thank you for the funding that 
has helped us to expand our medical contracts, where we have 
over 200 medical professionals now working in our facilities. 
We are also able to buy more medical bags, cardiac monitors, 
and other medical supplies to assist in this issue.
    As I have stated, we are doing--right now, on average, 
Border Patrol agents are taking 80 people to the hospital a day 
across the Southwest border. Obviously, when the medical 
professionals advise that anyone in our custody needs further 
medical attention outside of what they can provide there, we 
will take them to a hospital and we will stay with them 
throughout that time until they can be medically cleared.
    This is of great concern, specifically with the demographic 
that we have coming across. We have nearly 300,000 children who 
have come across our border illegally between the ports of 
entry this year. And as we all know, I think, that is a very 
vulnerable population when it comes to the health risks.
    So it is of great concern to us. Thank you for the funding. 
We will continue to expand. And I am more than happy to come 
back at any time and speak with you on how those funds are 
being utilized.
    Ms. Roybal-Allard. Ms. Meng.
    Ms. Meng. Thank you. I just wanted to go back to the MPP 
conversation before. What are Border Patrol's procedures when 
processing some of these individuals, specifically 
unaccompanied minors? And has Border Patrol returned asylum-
seeking minors to Mexico?
    Chief Provost. One of the exclusions is unaccompanied minor 
children cannot be a part of the MPP program. So we are not 
returning unaccompanied children.
    Ms. Meng. When you are returning other asylum seekers to 
Mexico, do Border Patrol agents ask if they face danger or 
persecution in their home country?
    Chief Provost. So when it comes to them waiting in Mexico 
for their asylum case, if they show a fear of Mexico, then they 
go back to USCIS to express that fear. Otherwise they are 
waiting, then, in Mexico for their hearing here in the U.S. and 
then are brought back across for that hearing.
    Ms. Meng. So if anyone expresses that they fear danger or 
fear of persecution in their home country, they are brought to 
USCIS facilities?
    Chief Provost. Are you asking specific to the MPP program?
    Ms. Meng. Yes.
    Chief Provost. Specific to that, they would need to show a 
fear of Mexico. And if they show a fear of Mexico, then they 
are referred to--because they are being returned and waiting in 
Mexico for their hearing up here. So if they show a fear of 
Mexico, then they are referred back to USCIS on whether or not 
they have a credible fear of persecution or torture. But when 
it comes to whether or not they have a fear of their home 
country, then they are going to get their day in court to 
express that in front of a judge.
    Ms. Meng. So where do they go if they do not specifically 
mention Mexico?
    Chief Provost. If they are part of the MPP program, the 
22,000, I think, that we have done so far, then they are going 
to wait in Mexico for their court date.
    Ms. Meng. Okay. And if they specifically say Mexico, then 
they are put in USCIS custody?
    Chief Provost. Then they will go to USCIS to see whether--
for a determination of fear of going to Mexico.
    Ms. Meng. Okay. Thank you. I yield back.
    Ms. Roybal-Allard. Unfortunately, we have run out of time. 
We will submit other questions for the record.
    And I just want to say thank you for your time, for being 
here, and I look forward to a lot of follow-up on many of the 
issues that were raised today.
    Chief Provost. Certainly. And thank you for inviting me 
today.
    Ms. Roybal-Allard. We are off the record.

    [Clerk's note.--The Border Patrol did not answer questions 
submitted for the record in time for the printing of this 
hearing.]

                                           Thursday, July 25, 2019.

       OVERSIGHT HEARING--U.S IMMIGRATION AND CUSTOMS ENFORCEMENT

                                WITNESS

MATTHEW T. ALBENCE, ACTING DIRECTOR, U.S. IMMIGRATION AND CUSTOMS 
    ENFORCEMENT
    Ms. Roybal-Allard. Acting Director Albence, thank you for 
your patience and your willingness to stay until 4 o'clock 
given the votes that we had. We appreciate it.
    Today we welcome Matthew Albence, the Acting Director of 
U.S. Immigration and Customs Enforcement.
    Thank you for being here this afternoon. As we continue to 
monitor the challenging situation on the southern border, we 
look forward to hearing your perspective on ICE's operational 
and funding priorities and requirements.
    As chair of this subcommittee, I am committed to ensuring 
the integrity of our borders and strengthening our immigration 
system. But I am equally committed to making sure we do so 
according to all our laws and in a way that exemplifies our 
American values.
    In particular, we must ensure that, in accordance with our 
laws and values, those fleeing violence and persecution have 
meaningful opportunities to seek asylum. We must get this 
balance right, and I believe that we can if we work together.
    It is a false choice to believe that more migrants need to 
be unnecessarily detained and that cruel and exclusionary 
immigration laws need to be enacted in order to increase 
security in our country.
    Our own Constitution, Federal law, and several 
international agreements serve as the foundation for the rights 
and protections I believe need to be embodied in our efforts to 
address the humanitarian crisis we are currently experiencing.
    Unfortunately, the rhetoric and the policies of this 
administration have made achieving that balance more difficult 
and, by all indications, have exacerbated our challenges at the 
border.
    We must also be mindful of the resource limitations that we 
face. There is likely no area of our bill where we have 
sufficient resources to fully address known requirements.
    For instance, we have barely cracked the surface of what 
the Coast Guard truly needs to address the flow of illegal 
drugs in the transit zone or to protect our sovereign interests 
in the Arctic.
    Detention is a very expensive option that should be 
reserved for cases where public safety or flight risk is a 
valid concern. When public safety is not a concern, ICE should 
use alternatives to detention.
    When used as intended, with appropriate case management, 
alternatives to detention have proven to be effective in 
mitigating flight risk and improving compliance with 
immigration court requirements.
    For those whose detention is appropriate, I remain 
seriously concerned about substandard conditions at ICE 
detention facilities. In addition to what I have personally 
witnessed, we continue to get alerts from the media, the Office 
of the Inspector General, the Government Accountability Office, 
and advocacy organizations about detention facilities that do 
not meet ICE's minimum standards but are nevertheless allowed 
to continue operating.
    Preventing these inhumane conditions can only be achieved 
if ICE leadership makes clear that anything less is 
unacceptable and will have consequences. I will continue to 
work with ICE to ensure that this happens.
    On a more positive note, I want to highlight the good work 
ICE does in areas such as combating human trafficking, human 
smuggling, child exploitation, and the smuggling of fentanyl 
and other opioids.
    In the fiscal year 2019 appropriation, the subcommittee 
provided additional resources to Homeland Security 
Investigation for these efforts. This is a great example of a 
mission where we have worked together to accomplish shared 
goals, and we have sustained these efforts in our fiscal year 
2020 bill.
    Lastly, I want to follow up on the letter I sent you on 
July 12 about increased interior enforcement operations. I 
requested that you submit for the record today some of ICE's 
written policies and procedures which I described in that 
letter.
    This kind of transparency is very important for us to 
better understand how ICE's leadership expects its frontline 
officers and agents to operate. I understand that you have 
submitted documents in response, so I thank you for that, and I 
look forward to reviewing them and will follow up accordingly.
    Before I turn to the Director for a summary of his written 
statement, the text of which will be included in the hearing 
record, let me first recognize our distinguished ranking 
member, Mr. Fleischmann, for any remarks he wishes to make.
    Mr. Fleischmann. Thank you, Madam Chair. I am going to keep 
my remarks very brief, as I know we have been delayed by votes.
    Welcome, Director Albence. Thank you for your time and your 
testimony before the subcommittee today.
    There has been a lot of change in leadership positions at 
the Department in recent months, and it is reassuring to me to 
have an Acting Director with your years, really decades of 
experience at the helm. Thank you for assuming the awesome 
responsibility of leading this law enforcement and homeland 
security agency.
    I very much appreciated the other day with you and your 
most able staff the visit and the update. It helped me to 
understand exactly where we are and where we are going.
    Again, I thank you for your hard work. I look forward to 
working with you, and I look forward to your testimony today, 
sir.
    Madam Chair, I yield back.
    Ms. Roybal-Allard. The order in which members will be 
called for questioning will be based on the seniority of those 
present when the hearing was called to order, alternating 
between majority and minority members. Also, to ensure everyone 
has ample opportunity to ask questions, I ask that each member 
stay within the allotted 5 minutes per round.
    Director, please begin your statement.
    Mr. Albence. Good afternoon, Chairwoman Roybal-Allard, 
Ranking Member Fleischmann, and distinguished members of the 
subcommittee.
    As you are aware, the United States is currently facing an 
unprecedented national security and humanitarian crisis at our 
southwest border. Over the past year, the number of aliens 
apprehended at or near the southwest border has increased 
significantly.
    Today, however, I am here to address other parts of the 
immigration system that remain in desperate need of resources 
and funding as well as to highlight the need for legislation 
that would help put an end to the current border crisis once 
and for all.

                       ICE: INTERIOR ENFORCEMENT

    The fact is, the majority of the aliens encountered at or 
near the border are released into the interior of the United 
States for removal proceedings, and the immigration courts 
currently have a backlog of more than 900,000 cases and 
growing. The dedicated officers and agents of ICE are 
responsible for managing these cases as well as those of the 
more than 3 million aliens currently on ICE's docket.
    Many aliens do not appear for removal proceedings, 
violating the terms of their release, including the terms of 
the Alternatives to Detention program, and fail to appear for 
their hearings or comply with removal orders.
    The result is that the border crisis has become a national 
crisis, which requires a strong interior enforcement component 
that lends certainty to lawfully issued orders by immigration 
judges.
    The reality is if our immigration laws are only enforced at 
the border and you fail to provide adequate resources to ensure 
that those who have entered illegally proceed through the 
immigration process and, if ordered removed, are actually 
removed, the entire system will break down. This failure will 
continue to serve as a magnet for additional aliens to 
illegally enter the country, and you will never have a secure 
border.
    With this in mind, I come to ask for your assistance in 
providing ICE the funding it desperately needs to address not 
only the ongoing humanitarian crisis, but also the concurrent 
national security and public safety crises.
    While ICE's immigration enforcement is focused on the 
interior, the current situation at our border directly impacts 
this agency and its resource requirements.

                          BORDER SECURITY: CBP

    CBP's 780,633 encounters include more than 390,000 members 
of family units and 63,000 unaccompanied alien children. This 
represents 63 percent of all southwest border encounters in 
fiscal year 2019 year to date.
    Notably, in the last few months ICE alone has been forced 
to release more than 215,000 members of family units into the 
interior of the United States due to the Flores settlement 
agreement.
    ICE's resources have been overburdened by the record 
numbers of CBP apprehensions at the southwest border and 
Congress' repeated failure to fund ICE detention and 
transportation requirements at ICE-requested levels. ICE is 
currently detaining over 53,000 single adults, and there are 
approximately 8,000 single adults in CBP custody awaiting 
processing or transfer to ICE.
    Due to its very limited detention capacity, ICE must 
generally reserve its detention space for those who require 
congressionally mandated detention, along with those who pose a 
national security, public safety, or flight risk.
    However, based on increased enforcement activity on the 
border, additional ICE detention capacity and transportation 
funding is urgently needed.

                        ICE: ENFORCEMENT ACTIONS

    To ensure the national security and public safety of the 
United States and the faithful execution of the immigration 
laws passed by Congress, ICE officers may conduct targeted 
enforcement actions against any removable alien who is present 
in violation of immigration law.
    Despite what is often sensationally misreported, these are 
not indiscriminate raids or sweeps. Instead, ICE's operations 
are carefully planned based on person-specific, intelligence-
driven leads, focusing on those who represent a public safety 
threat as well as those who have received a lawfully issued 
order of removal from an immigration judge.
    Approximately 90 percent of ERO's administrative arrests in 
the interior of this country are of aliens that have prior 
criminal convictions, face pending criminal charges, are 
immigration fugitives, or who have been previously been removed 
from the country and have illegally reentered, the latter of 
which is a Federal felony that ICE prosecutes extensively.
    However, the crisis on the border has negatively impacted 
ICE's interior enforcement mission and thus the public safety 
of our communities. Resources dedicated to removing dangerous 
criminals from the streets have been redeployed to manage the 
increased workload stemming from the border surge, resulting in 
an over 14 percent decrease in criminal alien arrests this 
fiscal year.

                        ICE: FUGITIVE OPERATIONS

    Additionally, ICE has reassigned members of Fugitive 
Operations teams to manage detained dockets or help respond to 
the border crisis.
    The failure of Congress to increase funding for Fugitive 
Operations over the course of the last decade has created a 
tremendous strain on ICE's ability to effectuate arrests of 
specific aliens who have failed to comply with removal orders 
or with release conditions, including those who have absconded 
while on ATD.
    While Congress has sought to increase funding for ATD, it 
has failed to fund the necessary resources that make the 
program effective.
    Without sufficient numbers of Fugitive Operations officers 
to search for and arrest aliens who fail to comply with ATD, as 
well as sufficient detention space for those aliens to be 
detained once they are located and arrested, ATD will continue 
to offer very little benefit for its cost.

                        ICE: IMMIGRATION LAWYERS

    Additional resources are also requested in fiscal year 2020 
to ensure that ICE's Office of the Principal Legal Advisor is 
able to carry out statutory responsibility to prosecute 
administrative immigration cases before the immigration courts.
    While Congress has increased the number of funded DOJ 
immigration judges and support positions during recent budget 
cycles, OPLA funding has not kept pace, thereby exacerbating 
the backlog.
    More critically, and most critically, I would like to 
highlight legislative changes that are urgently needed. To be 
clear, the fiscal year 2020 budget request only provides the 
necessary funding and resources for ICE to address the symptoms 
of the crisis. It does not, nor can any amount of resources 
solve the problem.

                        ICE: LEGISLATIVE CHANGES

    Legislative changes are the only viable option to swiftly 
put an end to the current crisis, reducing the victimization of 
migrants looking for a better life, and starving the cartels 
and transnational criminal organizations of a major segment of 
their illicit enterprises.
    Absent these changes, current laws will continue to be 
exploited and the pull factors they create will only result in 
more illegal immigration and worsen the humanitarian crisis.
    We ask you to terminate the Flores settlement agreement and 
clarify the government's detention authority with respect to 
alien minors; amend the Trafficking Victims Protection 
Reauthorization Act to provide for the prompt repatriation of 
all UAC who are not victims of human trafficking and do not 
express fear of return to their home country; and address the 
credible fear standard.
    The current standard has proved to be ineffective in 
screening out those with fraudulent, frivolous, or legally 
insufficient claims and has further strained our overwhelmed 
immigration system.

                            HUMAN SMUGGLING

    By requiring the release of family units before the 
conclusion of immigration proceedings, seemingly well-
intentioned court rulings and legislation are being exploited 
by transnational criminal organizations and human smugglers.
    These despicable smugglers have created an entire illicit 
industry with untold millions of dollars being made through the 
sale, rental, and recycling of children utilized by 
unscrupulous adults to pose as family units.
    To fight this activity, Homeland Security Investigations 
has reassigned hundreds of special agents and intel analysts to 
Border Patrol facilities to ferret out fraudulent family units 
and UAC. These same loopholes also encourage further illegal 
immigration as the record numbers indicate.
    These are not talking points. These are facts based on my 
over 25 years of law enforcement experience, and they represent 
the major challenges currently faced by ICE.
    Every day the dedicated, courageous, professional men and 
women of ICE work to promote homeland security and public 
safety by faithfully executing the laws established by Congress 
to protect the integrity and credibility of our country's 
borders, as well as our national security and the safety of our 
communities nationwide.
    The increase in the flow of illegal migrants and the change 
in those arriving at our border are putting the migrants, 
particularly young children, at risk of harm from smugglers, 
traffickers, criminals, and the dangers of the difficult 
journey, and are placing unsustainable pressure on our entire 
immigration system.
    Ultimately, to solve the border crisis we must work 
collectively to ensure the integrity of our immigration system 
as a whole.

                        ICE: RESOURCE RESTRAINTS

    Failing to adequately resource interior enforcement 
efforts, such as Fugitive Operations, detention beds, and ICE 
attorneys, creates nothing more than the appearance of border 
enforcement, creating a pull factor that ultimately drives more 
people to make the dangerous journey to the United States, 
incentivizes more illegal activity, and delays justice for 
those with meritorious claims for asylum.
    As a nation of laws, we owe it to the citizens of our 
country to maintain the integrity of our immigration system, 
especially when faced with a serious and ongoing national 
crisis.
    Day in and day out the women and men of ICE have worked 
tirelessly, with limited resources and an outdated legal 
framework, to ensure the safety and security of our country. 
They have done this despite villainization, personal attacks, 
and the toll it takes on their families and personal lives. 
They pay this price every day for simply doing their jobs under 
the laws passed by Congress.
    A crisis is at hand, a change is needed, and it is your 
responsibility as Members of Congress to act.
    Thank you again for inviting me to testify today. I am 
honored and humbled to represent the more than 20,000 American 
patriots with Immigration and Customs Enforcement. I ask that 
you provide the funding sought in the President's fiscal year 
2020 budget, and I look forward to your questions. Thank you.
    [The information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
  
              CONTINUING RESOLUTION: SUSTAINING OPERATIONS

    Ms. Roybal-Allard. Director Albence, as you know, we have 
serious concerns about ICE's ability to manage its budget 
within the means provided by Congress. The lack of transparency 
into how ICE executes its budget also exacerbates our concerns.
    Under a continuing resolution operations should continue at 
the level funded in the prior year appropriation. For the 
current year that means ICE should have maintained an average 
daily population of 40,520 during the CR period. And yet, for 
the first quarter ICE's use of detention beds surged from 
44,000 to over 46,000, and this was before the significant 
migrant surge at the border.
    During the period of the CR, did ICE make any attempt to 
operate within the funding levels identified by Congress for 
custody operations, and if so, what specific actions did it 
take?
    Mr. Albence. Thank you, Madam Chairwoman.
    We continually look to utilize our detention resources in 
the most efficient manner as possible. Our standing 
instructions to our field offices, our 24 ERO field offices, 
continually look at their populations to ensure that those 
individuals that are detained are the most appropriate for 
detention.
    Again, many of those individuals that are currently 
detained are individuals that Congress has mandated must be 
detained by law. Seventy-four percent of the individuals that 
are currently in ICE custody are subject to mandatory detention 
under the Immigration and Nationality Act.
    The vast majority of those other individuals are 
individuals who are public safety threats, who are gang 
members, or individuals who may not reach the mandatory 
detention threshold but we have felt that they are appropriate 
for detention and not appropriate for any sort of release back 
to the community.
    With regard to your question, during the CR the numbers 
began an uptick in the middle part of last summer and continue 
to rise through the fall and not to the level that we have 
seen, unfortunately, during the calendar year fiscal year 2019.
    However, in order to prevent a wholesale catch-and-release 
system, which we knew would create further incentives for 
individuals to come to the country illegally, we made the 
conscious decision to try to detain as many people as we 
possibly could to help prevent a rush on the border. 
Unfortunately, the numbers continued to come as a result of the 
fact that many of those people we can't detain because they are 
UAC or family units.

                          ICE OPERATING PLANS

    Ms. Roybal-Allard. To better understand how ICE budgets for 
its operations, the report that accompanied the fiscal year 
2019 appropriation directed ICE to brief the committee on a 
detailed plan for operating within its budget. This was due 60 
days after the date of enactment and was to be provided monthly 
thereafter.
    The first briefing was due by April 16. To date, we have 
not received even one, and by now we should have received four. 
Why has ICE failed to comply with this briefing directive?
    Mr. Albence. I will have to look into that specific 
directive. I do know that we are holding weekly migration calls 
with the four corners staff, during which time both CBP and ICE 
provide detailed information with regard to their ongoing 
operations, to include detention and funding execution.
    We have posted a lot of our material on the website. I do 
have the list of requirements after our discussion earlier, and 
we will go through them and certainly have to get back to you 
with a detailed response on each one of those.
    Ms. Roybal-Allard. Okay. Just as a follow-up, you know, the 
Department's funding transfer authority exists to address 
unforeseeable and unavoidable circumstances. But it seems clear 
to me that ICE routinely operates with full expectation that it 
will be bailed out by this transfer authority that it has or 
some other means.
    As the Acting ICE Director for the coming fiscal year, I 
hope that you can commit to operating within the funding level 
that is appropriated by Congress.
    Mr. Albence. I certainly will do my best to do so. I can 
tell you that we have numerous budget meetings with very hard 
decisions made all the time with regard to what operations we 
are going to have to curtail or what funding we were going to--
or, excuse me, initiatives we might not have to be able to do 
as result of the limited funding.
    Our detention modeling has been accurate for the past 3 or 
4 years, the model that we utilize, and we asked for 52,000 
beds in the fiscal year 2019 budget. Had we received that money 
as requested, we would not be in any circumstance where we need 
to do any sort of reprogramming or shortfall.
    Ms. Roybal-Allard. Just as a reminder as we move forward, 
appropriation bills are also law, and including continuing 
resolutions, with no less authority than the Immigration and 
the Nationality Act. In fact, the authority of appropriation 
bills is derived directly from Article I, section 9, clause 7 
of the U.S. Constitution. And I quote: ``No Money shall be 
drawn from the Treasury, but in Consequence of Appropriations 
made by Law.''
    So when Congress enacts appropriation bills it does so 
based on informed analysis provided by the Appropriations 
Committee on how best to target--to use--the use of limited 
resources.
    So I just want to emphasize that transfer authority is 
provided by Congress to allow executive branch agencies to 
respond to unforeseen events and circumstances and not to 
routinely augment appropriations for a particular activity.
    And I will pause on my questioning and I will now turn to 
the chair of the full committee, Mrs. Lowey.
    The Chairwoman. Sorry I was delayed, but it looks like we 
are passing our final bill this session. But I am pleased to be 
here with my colleagues to welcome you.
    Director Albence, I am very concerned that this 
administration's policies negatively impact the well-being out 
of our immigrant populations. I am especially concerned about 
the effects on vulnerable populations like unaccompanied 
children.

                    UNACCOMPANIED CHILDREN: SPONSORS

    In April 2018, your predecessor, Director Homan, signed an 
agreement with HHS that provides for information sharing 
between your agencies regarding the vetting of potential 
sponsors for unaccompanied children. The mere existence of this 
agreement has had a chilling effect on the number of potential 
sponsors who would otherwise have been willing to come forward 
to take these children out of Federal Government custody and 
care for them.
    Not only does this make the mental and emotional stress 
these children already face even worse, it has led to 
significant additional Federal costs as children remain in HHS 
custody for far longer than necessary. It is clear to me that 
this agreement is misguided at best.
    So if I can ask you a few questions.
    First, how many arrests have been made of sponsors, 
potential sponsors, or their household members since this 
agreement was signed?
    Mr. Albence. I don't have the exact number, and we haven't 
made any arrests since the appropriations bill that was passed 
prevented us from utilizing that information. So section 224 of 
the fiscal year 2019 appropriations bill prevents us from using 
that HHS information to make arrests. So prior to that date, I 
can get you the exact number, but it is going to be around 330.
    The Chairwoman. However, you have the information from the 
households to which the youngster is going. Isn't that correct? 
So if the youngster goes to an uncle and in that household 
there may be three undocumented, four undocumented family 
members, you have that information. Is that correct?
    Mr. Albence. We wouldn't necessarily have the information 
with regard to individuals that are in the household. HHS has 
limited some of the sharing of information in various 
iterations during the course of this MOA. But, again, we are 
prohibited from using that information to take enforcement 
action against that sponsor.
    The Chairwoman. Given that children may already be present 
in a sponsor's household, how does ICE ensure the safety and 
well-being of children during enforcement actions, and what 
arrangements are made for these children?
    Mr. Albence. So, certainly we take the safety of children 
at the utmost important as we plan any operation. In fact, the 
entire MOA exists as a result of some tragic circumstances in 
which UAC were placed with traffickers.
    This was an attempt to try to prevent traffickers and other 
individuals who may do harm to these children from being 
sponsors and getting children into their custody.
    Our research, showed as we were going through these cases 
when we were able to use that information, nearly 40 percent of 
the people that were sponsors actually had criminal records. So 
there are certainly calls for concern with regard to the 
individuals that were sponsoring the children.
    With regard to your exact question, we have extensive 
training that we provide to all of our field offices. We have 
field office juvenile coordinators. We have a juvenile 
residential management unit up in headquarters and a national 
headquarters program manager that oversees how our field office 
juvenile coordinators conduct their operations. We do extensive 
training with that. Our officers are trained professional law 
enforcement officers.
    We are no different than any other law enforcement agency. 
Once you go into a residence, as much planning as you could do 
beforehand, you don't quite know what is inside that door. And 
there are a lot--every law enforcement agency is faced with 
challenges when they go into these houses and they find that 
there are children there that were either unanticipated or that 
need a caregiver to take care of them.
    So we work very closely with the--generally, we are able to 
find, if the parent has another parent in the country that they 
can have the child stay with, a family member or other relative 
that the parent consents to letting that child stay with, we 
will let the child stay with them. And most times that is 
generally what happens.
    The Chairwoman. Well, as you know, the fiscal year 2019 DHS 
bill included a provision that constrained ICE's ability to use 
information resulting from this agreement with HHS to deport a 
sponsor, potential sponsor, or a member of their household with 
some limited exceptions like a felony conviction for child 
abuse or an aggravated felony.
    Nevertheless, the agreement still stands, and potential 
sponsors are still concerned about what would happen to them if 
they were to offer to become a sponsor.
    Given that these protections are in place, why has ICE not 
rescinded the agreement or at least amended it to reflect the 
protections provided in law?
    And with these restrictions in place, I would be interested 
to know, as I conclude, because my time is--well, I will just 
ask the first question.
    Why haven't you rescinded this agreement or at least 
amended it to reflect the protections provided in law?
    Mr. Albence. There have been some discussions with regard 
to how we could tailor the MOA in a manner that would be more 
effective and in compliance with the law. Those have not 
reached to fruition.
    But, again, I will reiterate, based on the fact that the 
appropriations language forbids us from utilizing that 
information, large portions of that MOA have been rendered 
largely moot.
    The Chairwoman. Well, let me conclude. And I thank you, 
Madam Chair, for giving me the opportunity as I was on the 
floor introducing the bill.
    But I do want to say, in my discussions with many people in 
our community, and we were at Homestead, there is a real 
concern about providing enough sponsors, because they are 
afraid that they will be picked up or Grandma will be picked up 
and someone in the household. So I look forward to continuing 
this discussion.
    Thank you, Madam Chair.
    Ms. Roybal-Allard. Mr. Fleischmann.
    Mr. Fleischmann. Thank you, Madam Chair.

                           DETENTION FUNDING

    Director Albence, yesterday we heard from Chief Provost in 
our Border Patrol oversight hearing. As you can imagine, we 
spent a lot of time pursuing questions about the overcrowding 
and detention facilities at the southwest border.
    As you would surmise, because HHS received more funds in 
the supplemental to care for unaccompanied minors, Border 
Patrol was able to quickly move minors out of CBP sites and 
into ORR facilities.
    Conversely, because ICE did not receive funds in the 
supplemental and didn't receive an increase in the regular 
fiscal year 2019 bill, CBP is still sitting on a lot of single 
adults at the border with no relief in sight.
    Because of this backup, and because the numbers of 
apprehensions at the border are still astronomically high, CBP 
facilities, both OFO and Border Patrol, are beyond capacity 
every single day.
    The inspector general has published reports in just the 
last weeks on the dangers to both the migrants and your 
colleagues at CBP.
    What are you doing to ensure that the southwest border 
apprehensions are a priority for beds and transport within the 
ICE system, sir?
    Mr. Albence. Thank you. Let me be first to commend Chief 
Provost and her CBP team for doing a tremendous job under the 
most incredibly difficult circumstances that there are out 
there.
    Mr. Fleischmann. Thank you.
    Mr. Albence. We are in the process of ramping up our 
detention. Unfortunately, we made a conscious decision during 
the continuing resolution period to not acquire additional 
detention space because we didn't know where the appropriations 
bill would end up and we did not want to end up further in the 
hole than we were.
    So as a result of not getting the appropriations until 
February and then starting the process to identify additional 
beds, it takes a longer time to turn them on. When HHS gets 
additional money, they have Homestead or they have a facility 
such as that where they can turn on beds quickly.
    When we want to turn on a facility we have to go to--
generally have to go to a contractor, and they need to recruit, 
train, hire, vet their personnel, plus get the facility up to 
speed to meet our standards prior to placing individuals into 
that.
    So we have turned on about 6,000 or 7,000 beds during the 
course of the year thus far. We have got about another 4,000 or 
5,000 that will be turned on by the end of August. And that is 
the culmination of the process that began once we received the 
budgets and started moving forward.
    So our modeling indicated to us that we were going to need 
to have those beds, but we just simply didn't have the funds to 
turn them on in a timely fashion.
    Mr. Fleischmann. Yes, sir. And I am clearly empathetic and 
sympathetic with your plight.
    In that that regard, in moving towards solutions, is money 
the only challenge? And does this problem extend beyond just 
dollars, sir?
    Mr. Albence. Well, it certainly does. Again, money helps us 
better deal with the symptoms of the crisis, and that includes 
being able to relieve the--getting additional detention funding 
to relieve the overcrowding in the Border Patrol stations. They 
are sitting on, I believe, probably about 8,000 single adult 
males that are waiting to either be processed or placed in ICE 
custody.
    We can't place them into custody unless we have a bed to 
put them in, and we can't have the beds to put them in unless 
we have the money to buy those beds.
    We have done many things internally to improve our 
efficiency, and, in fact, our average length of stay in 
detention has gone down even while our detention beds have gone 
up. So we are better utilizing the resources that we have been 
given. But, again, a crisis means a crisis, and there is more 
bodies that are there than we have the capability to do so. 
But, again, we are just dealing with the symptoms at that 
point.
    Unless the law changes that allows us to detain families 
during the course of a truncated immigration proceeding where 
they are entitled to due process but keep them in custody, in a 
safe, secure environment, just like we did in 2015 when we 
built family detention under the prior administration and we 
saw the numbers drop precipitously, that will be a certainly--
and as I mentioned in my opening statement, fixing the Flores 
settlement agreement will be a huge help to that.
    The credible fear threshold, again, is part of the problem. 
A lot of the reason these individuals are holding--these single 
adults are holding down these beds is because they are getting 
credible fear because the threshold for that credible fear is 
so low. But when they actually go through court and get in 
front of a judge, only less than 10 percent of the Northern 
Triangle individuals are actually getting asylum.
    So there is this different standard which creates a 
situation where we are holding these individuals in custody for 
60, 70 days as they go through that process, and at the end of 
that process they are going to be removed anyway. So it 
certainly makes sense to have the initial screening be more on 
line with what the ultimate decision factors would be by--from 
an immigration judge.
    Mr. Fleischmann. Yes, sir.

                          DETAINEE STATISTICS

    One quick two-part question. How quickly are single adults 
being repatriated back to their home countries? And do you know 
the average lengths of stay in an ICE facility after being 
turned over from one of the CBP facilities? And I am beyond my 
time, so I will ask for a quick response, sir.
    Mr. Albence. So it depends on the circumstances. A lot of 
it depends on where the individual is from. Some countries, 
especially Northern Triangle countries where we have great 
relations, we have scheduled charters, you know, almost every 
day if we need them. We can return those individuals, if we get 
the removal order, if they take the expedited removal and don't 
claim asylum, or once the judge orders them removed, we can 
turn them quickly.
    I would say--and I can get you the exact number--I think 
average length of stay right now for a single adult is going to 
be in the 40- to 41-day range.
    Mr. Fleischmann. Thank you, sir.
    Madam Chair, I yield back. Thank you.
    Ms. Roybal-Allard. Mr. Newhouse.
    Mr. Newhouse. Thank you, Madam Chair.
    Thank you, Ranking Member.
    Acting Director Albence, thank you for being here with us 
today. And I also want to express my thanks for your service as 
well as all the men and women that work with you in helping to 
keep our Nation safe. So thank you very much.
    Mr. Albence. Thank you.

                       DETENTION FACILITY ATTACK

    Mr. Newhouse. I wanted to talk today a little bit about a 
couple things, but first of all, some thoughts surrounding a 
disturbing, violent attack by an avowed Antifa assailant that 
was conducted just over 2 weeks ago at one of your facilities 
in my home State of Washington. In fact, it is a facility that 
I had the pleasure of visiting a short time ago.
    And by the way, Madam Chair, the conditions I observed, I 
believe that all of the needs of the detainees there were being 
met very well. And so I just wanted to make sure that you 
understood that, that things that I observed were, in fact, 
above standards, I would think.
    But this man armed with a rifle and an incendiary device, 
if you recall, attacked the detention center in Takoma on July 
13. He tried to ignite a propane tank. He tossed lit objects at 
vehicles as well as buildings. He lit a car on fire. 
Authorities found, as I mentioned, a rifle, incendiary devices 
on him, as well as a knife, and also collapsible batons.
    I am very concerned by this. I have got to tell you that I 
think everybody would agree with me that this is pretty 
frightening to have happen. I am certainly thankful that no 
officers, no detainees were injured or killed in this attack.
    But what is even just as concerning, but maybe more so, is 
to hear and read about the things that members of the radical 
Antifa groups are saying about this man. They are calling him a 
martyr and calling for more direct action just like this.
    Unfortunately, this wasn't the first time that this man had 
attacked one of your facilities. I believe last year the same 
individual had wrapped his arms around a police officer's 
throat during a protest.
    You know, I have been thinking about this. I think a lot of 
us have probably been reflecting about what is going on in our 
country, our national discourse, both here in Washington, D.C., 
and around the country, and how perhaps this vehemence against 
our law enforcement and against men and women who are, as you 
said, doing the jobs we asked you to do to protect our Nation 
and uphold our laws, how is that affecting these people's 
ability to do their jobs. And I just wondered if you had any 
thoughts about that, Mr. Director.
    Mr. Albence. Thank you, Congressman.
    Yeah, I wish that was an isolated incident. As you 
mentioned, there are significantly increasing numbers of 
violent protests against our officers who are doing an 
incredibly professional, difficult job under the most complex 
and difficult of circumstances incredibly well.
    You know, assaults, unfortunately, against our officers are 
up significantly. They have been on the rise continually over 
the past couple years, both on our officers that are out there 
in the field conducting law enforcement efforts as well as 
officers--and even our contractors--in our detention facilities 
where they are being attacked and assaulted.
    We had a nurse that was punched in the face last year, and 
the trauma that she suffered as a result of that is 
unmentionable.
    And I have said it publicly and I have done some media 
appearances, and I mean no disrespect, but they are picketing 
the wrong people. Congress is responsible for the laws that we 
are enforcing.
    If there is a desire to change the laws and these people 
wanted to have the laws changed, they know where Capitol Hill 
is. They can come over here and picket and do it.
    But to come after the men and women who are American 
patriots doing the job, again, they put their life on the line 
every day when they go out there.
    And it is not just the law enforcement officers. You know, 
when we had people trying to storm our office in Portland, 
right, we had non-law enforcement officers being threatened, 
having their cars vandalized, didn't think they were going to 
be able to get out of the parking lot, by protesters. That is 
not right and it shouldn't be that way.
    So I would hope that everybody involved in this process and 
this issue would take a step back and a deep breath and realize 
that the law enforcement officers are the ones that are 
comporting themselves in the proper manner in this entire 
process. And it is those that are wishing that they didn't 
exist that are the ones that are behaving in an unprofessional 
and unsafe manner.
    Mr. Newhouse. I appreciate that, Mr. Albence. And, again, 
thank you for your service and for being here with us today.
    Thank you, Madam Chair, for calling on me.
    Ms. Roybal-Allard. Mr. Ruppersberger.
    Mr. Ruppersberger. Thank you.
    First thing, I would like to respond to this, what you 
said. Our country is a democracy. I think we have the best 
country in the world. Those of us who have traveled to other 
parts of the world appreciate it. I think a lot of it is the 
check and balances.
    I have worked in law enforcement in the past for over 10 
years. And I agree that you have dedicated men and women who 
work in law enforcement and they are good people. There are 
also some bad people in law enforcement, and that few amount of 
small people give a bad reputation.
    I think right now this country is split. I think a lot of 
it has to do with national media on both sides of the aisle 
where people get their information. I think our President--and 
I don't want you to respond, he is your boss--has infuriated 
this issue of immigration, that all people coming in this 
country are bad and wrong and murderers and rapists and 
whatever.
    But your job is to enforce the law, and I agree, and we 
want to change the law, we need to do that. But when the 
average person in this country sees abuses of children and 
families, that is where a lot of this comes from, and we are 
concerned about it. We are saying, this is not who we are. And 
then there are certain agencies that are being blamed, and you 
are probably one of the top.
    So how do we deal with this? I feel strongly that where you 
are and ICE is you need to make sure that you focus on the 
immigration laws. But there are also ways to do this.
    Now, we just passed a supplemental, and you are going to 
have money coming to you now to deal with issues. Now, because 
of the debate back and forth, you are not going to be allowed 
to use this money for enforcement. You are going to be allowed 
to use this money for issues such as detention facilities that 
are better, to be able to put people out that you can't hold, 
to keep families together in a more humane area.

                          CRIMINAL ENFORCEMENT

    I would personally--and I am going to get to my question--I 
would personally like to see ICE focus--and you are known, just 
like the FBI is known for something, DEA is known for 
something, you are known for focusing on the felons. That is 
what you do best. That is what you can do. You need to focus on 
the felons.
    And when it looks like you are going after immigrant 
families with children, and when our President puts out we are 
going to go out there and arrest 25,000 people, or whatever he 
said that number was, that doesn't help you, it doesn't help 
our system of justice, and it scares the dickens out of these 
families who are here because they want a better life.
    And we know it might be legal, but we are not going to fix 
this issue until we deal with the issue of volume generally, 
until we deal with right now the Honduras and Guatemala and El 
Salvador countries so that people won't want to come here. And 
that is out of your mission really. Your mission is to, when 
people break the law, you need to enforce it.
    So first thing, what is your priority as far as the bad 
guys, so to speak, the felons? And why does it seem, the 
perception that you are out there going after people who have 
been here for years and pick them up and they have families and 
that type of thing? I think that is where the problem is with 
ICE and where you have your bad reputation for a lot of people 
in this country.
    Mr. Albence. Thank you. And, unfortunately, I think there 
is a lot of misinformation out there, which doesn't help.
    Mr. Ruppersberger. That is why I am asking you the 
question.
    Mr. Albence. Yeah. Sure.
    So our priorities and our enforcement numbers are largely 
consistent over the past decade, if maybe 7, 8 years. Ninety 
percent of the people that we arrest are convicted criminals, 
which is the largest--and I am just solely talking about the 
civil enforcement stuff, not the great stuff that HSI is doing. 
But ninety percent of the individuals that we arrest are 
convicted criminals, charged with a criminal violation, are an 
immigration fugitive, meaning they have had their day in 
immigration court----
    Mr. Ruppersberger. Well, let me stop you right here. Felony 
type or automobile, speeding tickets? What?
    Mr. Albence. Well, again, speeding ticket, if it is not--
the way we find out most of the individuals that are here in 
the country illegally is through the criminal justice system. 
So three out of every four people that we arrest--in fact, it 
is higher than that, but three out of four that we arrest come 
out of our Criminal Alien Program.
    Those are individuals that are sitting in the custody of 
another law enforcement agency after having been arrested by 
that law enforcement agency for some criminal violation. That 
is how we are aware of their presence, is once their 
fingerprints are run through the FBI database they bounce off 
ours.
    So, again, 90 percent criminals, pending criminal charges, 
immigration fugitives, and individuals that have illegally 
reentered the country after being deported, which, again, as I 
mentioned, is a felony.
    But to your larger point and with regard to restoring 
integrity of the immigration system, if we do nothing else 
besides working the criminal aliens, what we have in effect 
said that we are no longer going to--there is no longer going 
to be a consequence for anybody coming to this country 
illegally, even if you go through the entire immigration court 
process, which Congress spends hundreds of millions of dollars 
on every year between ICE and DOJ, that that order issued by an 
immigration judge is not worth the paper it is written on, why 
do we even have the process?
    No other law enforcement agency in this country is being 
asked to ignore a lawfully issued judge's order. And when you 
say we can only go after felons or only go after criminals, 
that is what that in effect means.
    Mr. Ruppersberger. Well, I say that because that is the 
priority. There is 11 million people here. You can't go after 
11 million people. So you have got to pick your priorities.
    My time is up. I just want to ask one question. Why do you 
feel that you are being criticized, that there are so many 
people in this country that want to ban ICE? From your 
perspective, why do you think that is the case? And what do you 
think needs to be done to change that?
    Mr. Albence. Again, I think it is largely a part of 
misconception and misunderstanding as to what we do.
    Look, if you want to talk about abolishing ICE then that 
means that----
    Mr. Ruppersberger. I am not saying that.
    Mr. Albence. No. No. But I am saying, but those that say 
they want to abolish ICE, what that means is that they don't 
want 140,000 criminals removed from the country every year. 
That means they don't want HSI removing 10,000 gang members, 
arresting 10,000 gang members every year. That means they don't 
want HSI removing 10,000 pounds of opioids from the street, 
including 3,000 pounds of fentanyl.
    That means we don't want the second largest agency on the 
Joint Terrorism Task Force to exist, for which 54 percent of 
the cases are made out of HSI. That means we no longer want to 
have counterproliferation investigations and we want sensitive 
military equipment to go overseas to our enemies.
    You know, that means----
    Mr. Ruppersberger. That is a good answer, and that is what 
you have to get out to the public.
    My time is up. I will get you in the next round.
    Mr. Albence. Thank you, sir.
    Ms. Roybal-Allard. Mr. Rutherford.
    Mr. Rutherford. Thank you, Madam Chair.

                     CRIMINAL ALIEN PROGRAM: 287(G)

    Director Albence, first, I want to say thank you for the 
job that you and your men and women are doing out there and 
really apologize for the Congress and the courts and the 
position that we have put you in. And I know it is a very, very 
difficult situation, because not only have we created bad law, 
but there is also this sentiment in the country that 
disrespects all authority.
    The folks that are talking about banning ICE, you know, 
there was another group that was marching down the streets of 
New York chanting, what do we want? Dead cops. When do we want 
it? Now.
    We just saw on television the other night two New York City 
Police Department officers having water dumped on them.
    You are absolutely right, people need to take a step back, 
take a breath, and start respecting law enforcement.
    I have got some bad news for you. The President asked for 
$9.3 billion so that you could do your job. We are only going 
to give you $8 billion, it looks like. So somewhere in there 
you are going to have to transfer probably another $1.3 billion 
around so that you can complete your mission. That is not on 
you, that is on us.
    And so let me ask you this. When we talk about your budget 
and ways that you can do your job more efficiently, you 
mentioned the Criminal Alien Program. I was a lifelong law 
enforcement officer, 12 years as a sheriff. I ran a 287(g) 
program in my jail. I know how efficient and safe that was for 
your officers, for my officers, and for every citizen in my 
city.
    And I have to tell you, my blood boils when I see these 
cities say that they are not going to work and coordinate with 
ICE. Because let me ask, do you think it is safer for you to go 
into a jail and arrest these criminal aliens--and these are the 
criminals that my good friend is talking about down there. 
These are the ones--90 percent of your arrests are out of these 
jails. So is that safer?
    Mr. Albence. It is absolutely safer, safer for our 
officers, it is safer for the individual you are trying to 
arrest, and it is safer for the general public at large.
    Mr. Rutherford. And can you comment, is it cheaper?
    Mr. Albence. It is certainly cheaper, I mean. And to give 
you perspective, we used to get, before this issue came up with 
sanctuary cities and people not wanting to honor detainers, and 
talking to the field office director from Los Angeles at the 
time, he said they used to get 200 criminals a day out of L.A. 
County. That has dwindled down to a handful now based on State 
laws that are there.
    I mean, that is something that we have asked Congress for. 
And, look, everybody is safer. Every community is safer when 
law enforcement works together.
    Mr. Rutherford. Absolutely.
    Mr. Albence. We all take the same oath to uphold the 
Constitution and to keep our communities safe. So we are all 
better when we work together.
    That said, there are many law enforcement agencies that 
would like to work with us but due to some court decisions or 
due to some executive orders or State laws or just the fear of 
litigation and liability, they are reticent to do so or their 
county board of supervisors or legal department won't let them.
    We have been asking Congress for years to codify the 
detainer and indemnify sheriffs or local law enforcement 
agencies that honor those detainers.
    Mr. Rutherford. Right.
    Mr. Albence. Most sheriffs, if they know that they are 
indemnified from tort actions or that a habeas claim that is 
made from an individual being held on detainer, they will 
gladly take them up.
    Mr. Rutherford. Right. And look, the detainer issue, I 
understand some people throw that up as a red herring in 
argument, but, look, I am going to tell you, all I have to do 
is call ICE, and before that individual has changed into their 
street clothes ICE can be there to pick them up. It is just the 
coordination effort. So I think that is a red herring that 
folks throw out there that just don't want to help ICE get 
these people out of our country.
    Now, I saw a CBS report in Miami saying that 37 Florida 
agencies have agreed or show an interest in being part of the 
287(g) program, but that there were delays in getting these 
agencies into the program.
    Now, I think you touched on a little bit of it. Can you 
talk about what some of the other delays might be getting into 
that? Is it budgetary for them or for you?
    Mr. Albence. No. Part of it is budgetary for us. The 287(g) 
budget has remained static for the past 4 or 5 years since I 
directly oversaw it. That has part to do with it. Part of it 
has to do--look, if we are going to give somebody--delegate 
immigration authority, and you know as a 287(g) partner, we 
don't take that lightly.
    We vet all those individuals. Even though they have been 
vetted and have a background check by the local agency they 
work for, we vet them ourselves to make sure that we are 
comfortable with who we are delegating that authority to. 
Sometimes there is facility infrastructure with regard to T1 
lines so that we can install our computers and the like.
    So there are some logistics. We are trying to move as 
quickly as possible. We do have a new program called the 
Warrant Service Officer program which is a subset--a very 
limited delegated authority to just execute warrants on our 
behalf at the direction of an ICE supervisor or officer. And 
Florida actually was the first place we rolled that out. We 
rolled out in nine counties and we will continue to expand.
    Mr. Rutherford. And we appreciate the partnership that we 
have had with ICE for a long time.
    And, Madam Chair, I see my time has run out.
    But thank you for your service.
    Ms. Roybal-Allard. Thank you, sir.
    Ms. Wasserman Schultz.
    Ms. Wasserman Schultz. Thank you, Madam Chair.

                            MIRAMAR UPDATES

    Director Albence, I don't want to pursue this line of 
questioning if you are not specifically familiar with the 
ongoing issues at ERO Miami in Miramar. Are you familiar?
    Mr. Albence. I am fairly familiar. I have been there and I 
know that my staff back briefed me after they briefed you a 
couple months ago, so----
    Ms. Wasserman Schultz. Okay. So after that meeting with 
them and we got the detailed answers to questions, there were a 
number of questions that they really didn't give us an answer 
for. And these issues of poor infrastructure, people standing 
out in the blazing sun, security that is working with ERO Miami 
treating people--treating undocumented immigrants rudely, still 
prohibiting them from being able to have volunteers distribute 
food and water, those issues are all continuing, and we have 
gotten insufficient answers related to canopies, bathroom 
expansion, and other issues.
    I would like you to take this document that I can get you a 
copy of, I want to share with you the concerns that I have on 
the answers not being adequate.
    I still need an answer about what is being done to follow 
up to make sure that security officers at the facility are not 
treating the people who are presenting at the office with an 
appointment rudely, speaking rudely to them, refusing to speak 
to them in Spanish, and really giving them a general hard time.
    It is a very small parking lot. There is no coverage 
whatsoever, and I realize this parking is going to be expanded, 
but that won't happen until next year.
    Additionally----
    Mr. Albence. Ma'am, can I answer? I do have some updated 
information if you would like.
    Ms. Wasserman Schultz. Yeah. Just let me get this all out, 
because I have another question I want to ask you.
    Mr. Albence. Okay. Thank you.
    Ms. Wasserman Schultz. The other issue that was not 
answered adequately was a letter is sent to an immigrant who is 
told to come for a specific appointment. When they get there 
they are told that they have to call the phone line and not 
only that the letter is not--is insufficient. When they call 
the phone line they are not connected with a person who speaks 
their language. The only option is in English.
    The answer that I got in writing was insufficient and 
didn't provide me with an answer other than the policy about 
what is supposed to happen rather than trying to get to the 
bottom of what is actually happening.
    And then the other insufficient answer related to the 
distribution of food and water by volunteers. I understand that 
in the letter that you sent to me--in the memo you sent to me 
you detailed that they are instructed in their letter to bring 
adequate food and water while they wait and that it is your 
liability that is an issue allowing volunteers to distribute 
food and water.
    That makes no sense to me. If you look at the configuration 
of that parking lot, there is no obstacle or damage or harm 
that could come if people are simply allowed to bring food and 
water to help make sure we can relieve the difficulty of the 
people there.
    So if you could answer those questions and give me more 
substantive, specific answers to those concerns, I would 
appreciate it.
    Mr. Albence. Sure. So I did ask for an update beforehand. 
So I know the outdoor water fountains will be ready for public 
use on August 9 of this year.
    Ms. Wasserman Schultz. Okay. Good.
    Mr. Albence. And the new parking lot will be available to 
visitors on August 22.
    Ms. Wasserman Schultz. The new parking lot in August, not 
next January?
    Mr. Albence. August 22, right here.
    Ms. Wasserman Schultz. Okay. Good.
    Mr. Albence. I know that there is a permanent canopy 
project being looked--again, GSA obviously is involved. I know 
they were in the briefing with you.
    Ms. Wasserman Schultz. Yes.
    Mr. Albence. And I have been in that facility about a year, 
year and a half ago. And I expressed concerns with regard to 
the conditions in which the employees were working in too 
because they are very cramped in there.
    Ms. Wasserman Schultz. It is really cramped.
    Mr. Albence. It is. So, I mean, across the board, so I know 
it is being reviewed by GSA and our Office of Facilities and 
Management within ICE to try to--for pricing and getting a 
contract vehicle to put that in, so we are moving forward on 
that.
    Ms. Wasserman Schultz. Okay. I appreciate it. And I just--
--
    Mr. Albence. We can give you just----
    Ms. Wasserman Schultz. Yeah. I just need to talk to you 
more in detail about the concerns.
    Mr. Albence. Okay. Happy to come talk to you anytime.
    Ms. Wasserman Schultz. Thank you.

                          REMOVAL OF VETERANS

    The other question I want to get out, ask you real quick, I 
chair the Military Construction Veterans' Affairs Subcommittee, 
and what we are concerned about is that there are conclusions 
in a report written by GAO that looked into ICE's failures to 
consistently follow your own policies when moving forward with 
removal proceedings for noncitizen veterans.
    According to GAO, some veterans who were removed may not 
have received the level of review and approval that ICE has 
determined is appropriate for cases involving veterans. The 
report also concluded ICE does not know exactly how many 
veterans have been placed in removal proceedings or removed or 
if their cases have been handled according to ICE's policies 
due to a lack of consistent recordkeeping.
    So these are really disturbing deficiencies. Are you and 
your agency currently working to ensure consistent 
implementation of ICE policy for handling noncitizen veterans? 
Are you working to develop a policy that makes sure you know 
how many veterans are in your system and that they are being 
interviewed properly?
    And finally, the report recommends that ICE maintain 
complete electronic records on veterans and removal proceedings 
or who have been deported. You don't have a system like that. 
Have you established one yet?
    Mr. Albence. So the military veterans is something, 
obviously, that we are very sensitive to. They do require and 
do get a much higher level of scrutiny than an ordinary removal 
case. Oftentimes they are kicked up to----
    Ms. Wasserman Schultz. GAO report says that they are not 
getting----
    Mr. Albence. Again, oftentimes they are kicked up to 
headquarters. We don't have--and I know it has been discussed. 
I don't know where we stand, but I am certainly happy to get 
back to you about trying to find a code in our system that we 
can put in there so that we can readily identify which cases 
are military. So then, when we are asked questions about them 
or need to produce reports, it will be easily done.
    But with regard to having a complete electronic record, we 
simply don't have the system to allow that. We have made 
requests in the budget for many years to have upgrades to our 
system that haven't been funded. So absent a significant amount 
of funding that would allow us to have an electronic system of 
record that would have the whole A-File, I know CIS is working 
on something to the effect, but we don't have anything like 
that.
    Ms. Wasserman Schultz. Madam Chair, I know my time is 
expired, but these are people who have served our country, and 
they are supposed to be given a heightened level of review as a 
result of serving our country even though they are undocumented 
immigrants.
    If you don't know how many of them are in your system then 
it is nearly impossible for you to be able to treat them with 
the dignity and respect that they deserve and thank them for 
their service. So, I mean, you can't just say we don't have 
enough money or the capacity to do that. You have to be able to 
keep track of them so you can follow your policy.
    Mr. Albence. I was speaking to your last question with 
regard to an electronic A-File system, basically is what you 
sounded like you were looking for.
    Ms. Wasserman Schultz. Right, it is, so you know how many 
are in your system.
    Mr. Albence. Again, the funding for that is not available. 
We have ways within our existing system that I think can be 
tweaked that would allow us to do that.
    But, again, most of these individuals are--a lot of them 
actually aren't undocumented. They were lawful permanent 
residents that actually were convicted of aggravated felonies, 
which is how they ended up being removed.
    Ms. Wasserman Schultz. That is a different situation. I am 
talking about the people who aren't.
    Thank you, Madam Chair. I appreciate your indulgence. Yield 
back.
    Ms. Roybal-Allard. Ms. Meng.
    Ms. Meng. Thank you, Madam Chair.

                         FAMILY CASE MANAGEMENT

    Thank you, Mr. Director, for being here.
    I wanted to ask about the Family Case Management Program 
ATDs, alternative to detention. In June 2017, ICE terminated 
the Family Case Management Program. The daily cost of family 
detention per individual is approximately $300. However, case 
management programs cost around $36 a day for one family.
    I just wanted to ask why ICE decided to terminate the 
Family Case Management Program.
    Mr. Albence. Thank you.
    The Family Case Management Program was a program that was 
incredibly expensive for what the ultimate result was. So, for 
example, in the 18 or so months that the program existed there 
were only 56 cases that were concluded. Forty-one were actually 
terminated for noncompliance, meaning the individuals didn't 
show up to their hearings; eight individuals self-removed; 
seven were issued a removal order or voluntary departure from 
an immigration judge; and nine received relief.
    So for the $17 billion or so that was invested in that 
program at the time we received 15 removals, which was about 
$1.16 million per removal, as opposed to--and with regard to 
compliance, the rates under FCMP were actually a little bit 
lower than under our standard ATD program, our ISAP, Intensive 
Security--Intensive Supervision Program, excuse me.
    And, in fact, this shows some of the challenges with 
dealing with cases in a nondetained environment. Three quarters 
of those cases more than 3\1/2\ years later still haven't been 
decided by the immigration courts. So that shows some of the 
backlog.
    So if we had kept this program at the cost that we were 
doing, we would probably be up to $26 million, $30 million 
right now, with maybe another $20 million or $30 million more 
to go, for less than 1,000 cases. It is just not good fiscal 
sense to try to keep that.
    Now, there were some things in this program that we found 
useful, that we have incorporated into our current ECMS, our 
Existing Case Management System, that is outside of FCMP, and 
those that we have implemented in there where we found might 
have some use, we have implemented that and put that in there.

                       ALTERNATIVES TO DETENTIONS

    Ms. Meng. So, I mean, the OIG reports that the alternative 
to detention program had compliance rates of 99 percent for ICE 
check-ins and appointments and 100 percent attendance at 
immigration court hearings.
    When you are measuring success of the program does ICE 
include immigrants that it removed from the program who then 
later failed to comply with the requirement? And shouldn't the 
program only measure compliance of those who are consistently 
and actively within the program?
    Mr. Albence. Well, the ultimate purpose of the immigration 
court system is for an individual to be availed all due process 
and make their case in front of an immigration judge as to 
whether or not they have the lawful right to remain in the 
United States. So the ultimate measure should be whether or not 
the order issued by the judge is actually adhered to.
    What we have seen is that the number of individuals that 
are actually removed, which most of the individuals at the end 
of this process receive a removal order. That is just the way 
it is. Most of the individuals that make an asylum claim or 
apply for some sort of withholding or other form of relief 
generally don't get that. So most of the cases that go through 
the immigration court end up with a removal order.
    ATD, over the past several years, has been fairly level at 
removing about 2,700 people that are on ATD. In fact, between 
2014 and 2017, the ATD budget more than doubled. It went from 
$91 million to $183 million. And as a result of that $92 
million investment, we have removed 273 more people. That is 
it. If those same dollars had been put into detention, we could 
have removed 10 times the number of people as we did that were 
on ATD.
    Ms. Meng. You mentioned that there are parts of the program 
that have been useful. You know, these programs, as you know, 
are more humane, helping vulnerable families with young kids, 
pregnant women, people with health concerns, victims of 
domestic violence.
    And would there ever be potential to improve programs like 
this, such as working with nonprofit organizations? A lot of 
them are more equipped to provide case management assistance to 
immigrants within the communities that they serve. And I just 
wanted to know what the status of incorporating nonprofit 
organizations into these sorts of programs to provide gap 
services that GAO care might not be providing.

                               NONPROFITS

    Mr. Albence. Right. So we work very closely with the 
nonprofits. We were given some additional funds in 2019 as well 
as in the supplemental for the ATD program, which we are 
utilizing to help try to make that program more effective.
    But one thing, and it was asked previously and it is asked 
frequently both here and in the media, is you hear these cases 
of individuals that have been here 6, 7, 8 years, have been 
complying with all their check-ins, and then why does ICE 
arrest them.
    That is what the back-end of ATD enforcement looks like. 
Those individuals who have been here for 6 or 7 or 8 years have 
most times been appealing their case to the Board of 
Immigration Appeals, to the Circuit Court, they may have filed 
a petition for review, a motion to reopen. Those cases drag 
out. When we talk about a crisis, having 3 million cases that 
are unadjudicated in the immigration court system is a crisis 
as well.
    So it takes these cases so long to get through the process 
that these individuals are here for 6 or 7 years. But 
ultimately the judge orders that individual removed, and we are 
sworn to execute that removal order. The Immigration and 
Nationality Act says: You shall take into custody.
    So to me, I think, if you are looking at the entire 
enforcement continuum, and, obviously--you know, if we have a 
system whereby we can detain individuals for a short period of 
time and they can avail themselves of all due process, make 
whatever claims they want in front of an immigration judge, and 
have them adjudicated in a short timeframe while they are in 
custody, in a safe and secure environment that is sanitary and 
well run and meets all of our standards, and you can have a 
decision on that case in 40, 50, 60 days, to me that is a lot 
more humane than having some individual out on the street for 5 
or 6 or 7 years where they get a family, have children, develop 
roots, all the while knowing that they had no lawful right to 
be in the country.
    And then when we go to effectuate that removal order we are 
tearing families apart, or it is just the poor noncriminal 
nonimmigrant.
    I think it is more humane to do it on the front end and let 
them have their day in court. If they are entitled to stay, the 
judge will let them stay. If they are not, then we execute the 
removal order.
    And I think, frankly, that will reduce the pressure you are 
seeing on the border. The reason you are seeing all these 
people coming to the border is because they know we can't hold 
them.
    Ms. Meng. Well, I just want to end by thanking you for 
acknowledging the importance of humane and swift treatment for 
these families, keeping them together. And you talked about all 
the legal options that they pursue. That is their legal right 
to do so.
    Mr. Albence. Absolutely.
    Ms. Meng. Thank you. I yield back.
    Ms. Roybal-Allard. Mr. Aguilar.

                       DETENTION OF U.S. CITIZENS

    Mr. Aguilar. One item that concerns me, you have talked 
about U.S. citizens, in response to a question, U.S. citizens 
that have been detained. ICE has a history of incorrectly 
detaining U.S. citizens. Two citizens in my district were 
detained by ICE and were later awarded settlements to 
compensate them for the arrest.
    In the fiscal year 2019 DHS bill we required ICE to issue 
statistics on the detention of U.S. citizens. The bill gave ICE 
6 months to complete the report which was due in May. We 
haven't received any of that available information.
    If a person can prove their citizenship with a passport or 
birth certificate, why are they being held further by ICE? What 
circumstances would that happen?
    Mr. Albence. So I will check on the report, just first off, 
so I apologize, and I will look into that to see where we stand 
on that.
    We have a specific policy with regard to how we handle 
individuals who are making claims to United States citizenship 
that are in our custody. ICE does not have the lawful authority 
to say anybody is or is not a citizen. What we do is when we 
are provided with probative evidence that an individual in our 
custody is--looks to be a citizen, we will release that 
individual from custody and then instruct the individual how to 
go to CIS and do whatever paperwork they may need to do to 
actually get a naturalization certificate or a documentation of 
citizenship, whatever the case may be.
    So that is the process we utilize. A lot of the people that 
end up being citizens in our custody didn't even know they were 
citizens. They actually don't find out--the Immigration and 
Nationality Act is very complex. The naturalization charts, we 
used to have to memorize them in the academy, and that was a 
long time ago, and I can't tell you I memorized them anymore.
    But it is very complex, and some of the individuals don't 
even know that they are a citizen until we actually start to 
investigate their background and we realize that, oh, they are, 
in fact, a citizen, at which point we obviously----
    Mr. Aguilar. Yeah, I am not, Director, I am not talking 
about cases where an individual finds out that they are a U.S. 
citizen. I am talking about cases where individuals have 
clearly said that they are citizens. What troubled me with your 
answer is that when someone looks to be a citizen.
    You know, I have got a list here of nine: Guadalupe 
Plascencia from San Bernardino, from my community; Sergio 
Carrillo from Rialto, but from Austin, Texas, 5 days detained, 
2 days detained. These are U.S. citizens or individuals who 
were born in the United States and U.S. citizens or have been 
naturalized.
    These aren't individuals who found out that they were U.S. 
citizens, Director. These are individuals who told your 
officers that they were U.S. citizens. And you are talking 
within the process of this that that you advance it when they 
look to be a citizen. It just strikes me that all of these 
individuals are Latinos and that you are talking about how 
someone looks.
    So can you talk to me a little bit about this?
    Mr. Albence. I was not referring to anybody's appearance, 
and that was clear if anybody listened to the context of what I 
was saying. I am saying when we review the individual, make an 
interview, look at their documentation, if the documentation 
shows--I will use the term ``shows''--shows that they have 
evidence, probative evidence of being a citizen, then that is 
when we release them from custody.
    I can tell you from my experience that I had it happen to 
me personally. Many individuals who are citizens in a border 
environment, especially if they are involved--primarily when 
they are involved in criminal activity--will claim to be a 
noncitizen because--especially when they are Mexicans.
    I was working smuggling cases as an agent in San Antonio. 
They would claim to be a Mexican national because they knew 
that they would get turned around 5 hours later, they weren't 
going to get prosecuted, and they could come back in at will.
    So, again, we look at all the information that is in front 
of us to make that determination. Look, we have no lawful 
authority to hold U.S. citizens. We don't want to hold U.S. 
citizens. That is not our business or our job. But we have to 
look at the evidence that is available to us.
    Mr. Aguilar. But it is also difficult--in prior discussions 
we have had in this committee, we also found out that within 
the drop-down box that you had for where an individual is from, 
there isn't--United States isn't in that drop-down box. So it 
is even difficult for you to track how many U.S. citizens you 
detain, even for a small portion of time.
    What type of racial profiling education, what type of 
training do your officers receive, specifically applying to 
U.S. citizens, so we can be certain that this doesn't happen as 
much? Three days, 2 days, 5 days, 3 weeks. There has been cases 
recently in the press, U.S. citizens--Members of Congress 
finding U.S. citizens who were detained not in ICE custody. I 
just want to make sure that we are learning through this. So 
can you talk a little bit about the training that you receive 
specific to racial profiling?
    Mr. Albence. Sure. And there is no tolerance for racial 
profiling in ICE. It starts at the basic training level, where 
our officers and agents receive training on racial profiling at 
the very beginning of their law enforcement career.
    We abide by DHS policy. We abide by DOJ policy with regard 
to racial profiling or cases that are being prosecuted. It is 
continually something that is stressed in our in-service 
trainings. We have supervisory schools. We have law enforcement 
training. There is no tolerance for racial profiling.
    Mr. Aguilar. Yeah. I guess I would still like to follow up 
a little bit more on the documentation piece. If someone 
presenting--I don't carry my birth certificate. But if someone, 
you know, has these documents and is claiming to be U.S. 
citizen, what is the disconnect? Why are they continuing to be 
detained? Appreciate it.
    Thank you, Madam Chair.
    Ms. Roybal-Allard. Mr. Cuellar.
    Mr. Cuellar. Thank you, Madam Chair.
    I represent a lot of Border Patrol agents, a lot of CBP 
officers, men and women in blue, field operations, a lot of ICE 
officers also from San Antonio down to Laredo and down to the 
McAllen area. And I have to say, I do appreciate the work that 
the men and women do. I don't think you all should be 
demonized.
    If there is an issue with a policy, we go after the policy. 
We don't go after the men and women. If the current law--and 
some of the immigration laws that we have have been around for 
years, and it usually says laws passed by Congress, you shall 
do certain things. So I just want to just make sure that if 
there is a bad apple, we go after that bad apple. And I think 
you agree with me.
    But I just want to say that your men and women are probably 
the same people that were working under the Obama 
administration, now under the Trump administration. Again, not 
the men and women, but the policies, or if somebody wants to 
change the ``shall'' do certain things to the law, then 
Congress should go ahead and do that.

                          DETENTION STANDARDS

    You also have certain protocols that you follow and--you 
know, because there are folks that say that there are no 
protocols. I mean, for example, you have the performance-based 
national detention standards of 2011, which I think was revised 
in December 2016. And that one, again, took the input from 
nongovernmental organizations and other groups to make sure 
that we improve medical, mental health services, access to 
legal services, religious opportunities, improve communication 
with detainees that have limited proficiencies, et cetera, et 
cetera, et cetera.
    On top of that, we also have in the appropriations--and I 
started, I guess, in 2014, so I am looking at from 2014 on, 
there are riders that we have added, both myself and other 
members, that talk about detention standards, that talk about 
transparency and ICE detention centers, that talk about ICE 
detention facility contracts, for example.
    One of the sections prohibits ICE operation and support 
funds for being used to continue any contract for the provision 
of detention services if two of the most recent overall 
performance evaluations received by the facility are less than 
adequate, or something equivalent to that. So there are--you 
know, there is other provisions dealing with ICE on this.
    So one is to make sure that we understand there is a 
particular protocol and language that we have there. Also on 
top of that, I think the ICE non-detained docket is 2.4 million 
individuals roughly. We are adding about 10,000 cases to the 
immigration courts every week. There is over 1 million subject 
to final orders for removal that we have.
    And then out of the detained docket, I think it is less 
than 2 percent of the undocumented individuals are actually in 
ICE custody across the 200-plus facilities that you have. So 
now that I have laid that out, tell me your response on the 
protocols, the laws, the workload that you have and the 
environment.
    And, again, I want to make sure that we treat people with 
respect and dignity. I am talking about the folks that are 
under your, you know, facilities on that. So give me your quick 
perspective on what I have just laid out on the structure that 
we have there.
    Mr. Albence. Thank you, Congressman.
    I wholeheartedly agree that it is imperative that those 
individuals that are within our custody are kept in a safe and 
secure environment, and are treated humanely and professionally 
with dignity the entire time they are in our custody. And that 
is what we endeavor to do. And that is what our standards do.
    Our PBNDS 2011, I think, is probably thicker than this. And 
we are actually in the process of revising some of our 
detention standards, and we have actually worked closely--and I 
know the staff here has worked very closely with our custody 
management division with regard to updating some of those 
standards. So----
    Mr. Cuellar. I am sorry to interrupt. So you are working 
with the Appropriations Committee, and are you working with----
    Mr. Albence. We have NGOs. We have a lot of NGOs that work 
in the immigration space. We actually invited law enforcement 
in as well, because they are the ones, ultimately, when we 
contract with these county facilities that have to implement 
and use some of these standards. So we want to make sure that 
what we do is meaningful.
    And some of the standards that we have are, you know, 20 
years old that aren't relevant anymore. For example, when you 
talk about they need to have a locksmith on their staff that is 
a certified locksmith, some of these jails don't have key locks 
anymore. So, you know, we would have to ding them or give them 
a waiver when we do those inspections. So we are trying to make 
them more relevant to today's technology.
    Mr. Cuellar. Thank you.
    Ms. Roybal-Allard. Mr. Price.
    Mr. Price. Thank you, Madam Chairman.

                          CRIMINALITY BREAKOUT

    Mr. Director, let me return to--I think it was Mr. 
Ruppersberger's line of questioning about the targeting of 
detention and deportation, the, I would say, very baffling 
claims and counterclaims that have often been made in this 
area. You didn't give us a breakdown, and I want to ask you to 
do that. It was--the ERO arrest was the category. And you said 
90 percent of those arrests either have prior criminal 
convictions or pending criminal charges, or they are 
immigration fugitives, or they were previously removed from the 
country and illegally reentered. What is the breakdown of that 
90 percent in terms of those four categories?
    Mr. Albence. About 66 percent are convicted criminals, 
about 21 percent are pending criminal charges, about 2 percent 
are the fugitives, and 1 percent would be the illegal 
reentrants.
    Mr. Price. When you say prior criminal convictions, what is 
the range of criminal convictions?
    Mr. Albence. Well, the range of criminal convictions and 
the vernacular we utilize is the same as utilized throughout 
the law enforcement community, anybody who has been convicted 
of a criminal violation. In fact, we only get fingerprints from 
local law enforcement agencies when they submit them for a 
criminal violation.
    Mr. Price. So is entering the country illegally being 
apprehended, coming back in, is that a criminal--I just want to 
get clear. How many of these people are violent criminals, you 
know, as we often say, a threat to the community?
    Mr. Albence. So our 2018 report is online. Off the top of 
my head, two of the top five charge--I think the top charge is 
DUI, then I know within that top five is drugs and assaults. 
And I don't have those numbers directly in front of me, but 
they are on the website. We could certainly get them to your 
office this afternoon easily enough.
    Mr. Price. Well, it would help to, I would say, break down 
these categories a little more straightforwardly, knowing that 
as we discuss the prioritization, the exercise of prosecutorial 
discretion. You know, the point of that discussion is to 
prioritize dangerous people in terms of whatever else we do in 
the area of detention and deportation to prioritize people who 
are a threat to the community, knowing that that is the purpose 
of the discussion.
    It strikes me that there would be a much more helpful way 
to present these statistics than--you know, 90 percent sounds 
great, of course. I mean, I know why you would frame it this 
way. But even 66 percent prior criminal convictions, I mean, 
that begs for a further breakdown.
    Knowing--just being very straightforward here about the 
purpose of the policy, the purpose of the discussion, the 
purpose of the targeting, which, on this subcommittee, we have 
worked on for many, many years.
    And by the way, nobody is saying everybody else gets a free 
ride, but we have said for years that given limited resources, 
given the fact that we are going to deport maybe 400,000 people 
a year out of 11 million people who are here, there is going to 
be discretion exercised. And that discretion needs to be 
intelligently and appropriately exercised to remove dangerous 
people. So it would help at least to have statistics that are 
responsive to that concern.
    Mr. Albence. I fully agree, and I wholeheartedly support 
being transparent. We have quarterly calls with the media with 
regard to all of our statistics when it comes to immigration 
enforcement. Our end-of-year report is about 20 pages long. It 
breaks down by nationality, by country, by crime, all sorts of 
things. I mean, thankfully, there are not 40,000, 50,000 
criminals--or, excuse me, murderers that we need to arrest 
every year.
    Mr. Price. Thankfully they are not. But it would be helpful 
to know how many actually there are----
    Mr. Albence. About 800 last year.
    Mr. Price [continuing]. And whether we are prioritizing 
those people. Anyway, I am going to ask you to break down that 
prior criminal convictions category more precisely----
    Mr. Albence. Happy to do so, sir. Thanks for the time 
yesterday. Appreciate it.
    Mr. Price [continuing]. So that we know to what extent we 
are dealing with violent criminals.

                        AVERAGE DAILY POPULATION

    My time is fast running out, but let me just quickly give 
you an example of another way to frame this. This has to do 
with the daily count of detainees, a slightly different 
universe. But from September 16 to December 18, there was a 22 
percent increase in the daily count of detainees. That is from 
39,000 to 47,000.
    But the number of individuals who had committed serious 
crimes dropped by over 1,200 despite that overall increase. And 
the number of immigrant detainees who had never been convicted 
of even a minor violation grew by 8,300 people. Now, that is a 
different framing of statistics that puts a very different 
light on the situation.
    I just think, in a way, the beginning of an intelligent 
discussion here, especially a discussion of appropriate 
targeting and prioritization and the exercise of discretion, 
needs to be a more straightforward presentation of the facts. 
And I think what I just gave does indicate that we have had 
some slippage, considerable slippage in the degree to which we 
are targeting dangerous people.
    Mr. Albence. So exactly what happened there is exactly what 
is going on on the border now. That is a result of all border 
cases. That is when the border surge began. So all those 
noncriminal border cases that are in our custody are mandatory 
detention cases because they are under the expedited removal 
process, as dictated by Congress under section 241 of the INA.
    And the reason that the criminals dropped is because I had 
to redeploy officers from working the criminals to deal with 
the border surge cases. That is a direct result. And when we 
say it is a crisis, it affects the entire immigration 
enforcement continuum. And it does make everybody less safe, 
because we are able to arrest fewer criminals.
    I mentioned in my opening statement, we are down 14 
percent. We are going to arrest 15-, 18,000 less criminals this 
year directly because of what is going on on the border. This 
crisis is not limited to the border. These individuals are not 
staying in the border communities and just--and there--they are 
dispersing into the country, and we have to manage those cases. 
Some of those individuals are getting involved in criminal 
activity, and we have fewer and fewer resources to actually 
deal with that, unfortunately.
    Mr. Price. We will return to this.
    Thank you, Madam Chairman.

                    TRANSPARENCY INTO ICE OPERATIONS

    Ms. Roybal-Allard. Director, before I ask my question, I 
just want to respond to something that you mentioned in your 
response to Ms. Wasserman Schultz, a question about the ability 
to provide reporting about ICE's detention and removal of 
military veterans.
    You mentioned that part of the problem is due to a lack of 
funding to modernize your systems. In 2018, Congress provided 
an additional $6 million for this purpose, and in 2020, I 
recommended an additional $2.5 million. Both additions are 
above the administration's budget request.
    I am also recommending an additional $2 million for your 
law enforcement systems and analysis division who do the 
analysis and the reporting. I am trying to help by adding 
funding above what you are asking for. If this isn't enough, I 
think it is important that you tell us exactly what it is you 
need so that you can be more transparent about your operations.

                          DETENTION FACILITIES

    I would like to just follow up a little bit more on some of 
what Mr. Cuellar was talking about with regards to detention 
facilities and the conditions that are there. And I have 
several questions, so I am going to try and ask as many as I 
can in the time that I have.
    First of all, it is really unacceptable, the substandard 
conditions at ICE facilities that have been reported, and also 
which I have, myself, seen in my visits. And I am hoping that 
we will be able to make some progress on that together.
    So one of my questions is, have you carried out a full 
review, and taken the necessary corrective actions to ensure 
that the recommendations from the OIG and the GAO and ICE's own 
standards and oversight recommendations, are being implemented 
at every detention facility that ICE operates?
    Mr. Albence. Thank you.
    Yes, we have. We have a comprehensive oversight framework 
that we utilize. I would say that our detention facilities 
receive more scrutiny and appropriately so, and we have no 
reason to have any reason not to have that scrutiny, and we 
welcome transparency.
    I mean, we have detention service monitors that work for 
headquarters that oversee facilities out there in the field. We 
have--in many of these larger facilities, we have assistant 
field office directors that are on the ground that deal with 
issues on a day-to-day basis. Some of these detention service 
monitors are on site. And thanks to you and the committee for 
the additional funding in 2019 for OPR, Office of Professional 
Responsibility, the Office of Detention Oversight we received--
were able to fund 14 more positions. And----
    Ms. Roybal-Allard. And what is the status of that hire?
    Mr. Albence. The 14 positions will be on board by the end 
of this fiscal year, and we expect to be able to do, I 
believe--and I can get you the exact number--I thought we were 
about 15--we plan to do about 15 more inspections this year 
than we were able to do last year, based on the additional 
funding. And obviously, once we get those new inspectors on, 
that will only increase going forward.
    Ms. Roybal-Allard. Okay.
    Mr. Albence. I am sorry.
    Ms. Roybal-Allard. Okay. I am just trying to get all my 
questions in time.
    Mr. Albence. Go ahead.
    Ms. Roybal-Allard. You know, we continue to hear disturbing 
reports that ICE is contracting for additional detention 
capacity where basic standards are not being met. One example 
is a relatively new facility in Texas that does not allow 
contact visitation unless there is a significant advance 
planning.
    ICE standards state that contact visitation should be 
provided, especially when minor children are involved. 
Remember, we are talking about civil detention, not criminal 
detention. And my question is, do you believe it is acceptable 
for ICE to enter into these agreements to provide civil 
detention services where reasonable opportunities for contact 
visitation with families and attorneys can't or won't be 
required, which is contrary to your agency's own standards?
    Mr. Albence. I am not familiar with that facility, but I 
will certainly look into it.
    On the larger question, as you well know, all of our 
contracts that we are required to enter into without--any 
contract that we enter into is supposed to be at the PBNDS 2011 
standards. And, then, if we don't meet those standards then we 
are supposed to notify Congress 30 days prior to actually 
entering into that contract, which we have done.
    And those notifications have actually probably been fairly 
few. Since I am not in the ERO day-to-day anymore, I can't tell 
you how many there are, but I only remember one or two that we 
sent when I was the EAD. But I know all the new contracts that 
we are doing in order to get this additional capacity to deal 
with the border cases, we are contracting at the PBNDS 2011 
level.
    Ms. Roybal-Allard. Okay. The note that I have here that 
this is in Montgomery County, and that it was--you started 
using it October of 2018, so if I could get some additional 
information.
    Mr. Albence. I am happy to look into it. Thank you.
    Ms. Roybal-Allard. Okay. Thank you. Mr. Fleischmann.
    Mr. Fleischmann. Thank you again, Madam Chair.
    And thank you, Director Albence. This testimony is very 
informational and helps us all do our job.

                           DETENTION CAPACITY

    Mr. Director, the DHS Secretary sent a letter dated March 
28 that states, and I quote, "Without additional assistance, we 
will be forced to increase the releases of the single-adult 
population from ICE, the only population for which we can 
currently effectively enforce U.S. immigration laws."
    When meeting with Border Patrol agents, the point is made 
time after time that if we can't keep up with detaining and 
returning single adults, we have lost the border. Question: Do 
you agree, does the sentiment of the March 28 letter still 
hold?
    Mr. Albence. Without a doubt.
    Mr. Fleischmann. How can we make sure that we don't lose 
ground on this population, sir?

                          DETAINEE HEALTHCARE

    Mr. Albence. Again, dealing with the symptoms now, absent 
additional capacity, I don't know how you would do it. There is 
not a way to move these cases through the system really much 
quicker than they currently do. And we certainly need to make 
sure that the individuals have all ability to access their due 
process rights, and so if they want to have appeals of their 
cases and the like, they are certainly free to do so, and we 
want them to have all due process.
    So absent additional capacity, there is only so many beds 
that we have and only so quickly we can turn them around.
    Mr. Fleischmann. Yes, sir. From your testimony earlier, and 
from what I have seen, it is evident that resources alone won't 
fix this crisis. This is a very complicated set of issues that 
would have been solved by now. Again, going back to the March 
28 letter, the Secretary referenced a legislative proposal to 
Congress in the coming days to address the immigration and 
asylum policies.
    My question, sir, do you know the status of an immigration 
proposal from the Department or the administration, and will we 
see an official proposal, sir?
    Mr. Albence. Congressman, I don't know the exact status. I 
can tell you that I know what the proposal contained, and it 
would have contained the items that--among others, but the 
three main items that I mentioned in my testimony with regard 
to Flores, the TVPRA, and the credible fear threshold. We can 
certainly check and get back with you.
    Mr. Fleischmann. Yes, sir.
    Mr. Director, recent outbreaks of measles, mumps, and 
chickenpox have closed thousands of beds as you try to limit 
the exposure to just the affected cohort. How are you managing 
to contain the outbreak, and how many detainees are ill, and 
how many beds are affected?
    Mr. Albence. So it changes. I am not sure how many we have. 
For the past 6 to 8 months, it has generally been around 4,000 
to 5,000 beds that are cohorted as a result of diseases. And, 
frankly, that makes a point, which I should have made, so I 
appreciate you for bringing it up. Even with the expanded 
capacity, when we have to quarantine a whole wing, we could 
lose--so at any one time we may have 1,500, 2,000 beds that are 
actually vacant, but those beds are within the quarantine pod 
such that we can't utilize them.
    Mr. Fleischmann. Yes, sir.
    What efforts are you making to ensure detainees at the 
affected sites specifically, and across ICE facilities, have 
unfettered access to medical care? And what efforts are 
underway to make sure the population isn't introduced to new 
outbreaks, sir?
    Mr. Albence. Again, with regard to not introducing the 
population, we utilize all standard practices within the 
detention environment, you know, to ensure those individuals 
are quarantined and kept separate from the general population, 
and are not released from custody until we are certain that 
they are past incubation period and are clear.
    With regard to medical--and, again, thank you to the 
committee for the additional medical funding that was in the 
supplemental that we put directly to use--we have been 
leveraging some additional resources from public health.
    As I am sure you are aware, the officer--we have sworn 
commissioned public health officers that do a lot of our 
medical and oversee our medical program, and that includes 
doctors, nurse practitioners, you know, social workers, the 
whole plethora of medical services that are provided. And they 
do a tremendous job, and their sole existence, and they take it 
to heart, is to ensure the safety and care and health of the 
individuals that are in detention.
    Mr. Fleischmann. Yes, sir.
    One final question. When do you anticipate the outbreak 
will pass, and what actions will you need to make the 
facilities safe to use again?
    Mr. Albence. If I knew that one, I would be in Vegas. I 
mean, new people come in every day, right. The Border Patrol 
has no idea what they are going to catch, and we have no idea 
what diseases individuals are catching may have. So my guess 
is--it is not a new phenomenon, it has just expanded because 
the numbers have expanded so greatly. But we have had to do 
this in the detention realm for as long as we have held aliens.
    Mr. Fleischmann. Very well.
    Madam Chair, I yield back.
    Ms. Roybal-Allard. Mr. Ruppersberger.

                       ALTERNATIVES TO DETENTIONS

    Mr. Ruppersberger. Yeah. I want to talk a little bit about 
alternatives to detention. About maybe a month, month and a 
half ago when I visited the border, witnessed significant 
overcrowding. We know--again, I think the biggest issue we have 
now is volume, and whether it is judges, whether it is dealing 
with this problem, and we are having a serious problem.
    I said yesterday in the hearing that the Border Patrol 
agent said, you know, when we make arrests, it used to be we 
would see them in court or whatever, and that is what we do 
here. Well, now you have a whole other dynamic to your mission, 
and that is holding these individuals.
    I want to talk about discretion with respect to your 
agency. You have the discretion to release many of the non-
violent, non-flight risk detainees on parole or bond. Home 
visits, check-ins, telephone monitoring, GPS monitoring, ankle 
bracelets are options at your disposal.
    Again, looking to what your mission is and what I think--
and Congressman Price and I both have tried to focus on the bad 
people, the individuals that are really--that we need the 
expertise of ICE officers to go after. That is where I would 
like to see your mission, and I would like this country to 
understand that. And what a lot of people are seeing is that we 
are going to come out and get you, and the families that have 
been here, and they are afraid and local governments aren't 
working with you. I mean, it is just not where it needs to be.
    Now, my question is that--you know, I think we provided $20 
million for alternatives to detention, and these programs are 
less costly to American taxpayers, more humane in standard 
detention. And they come with court compliance rates, you know, 
up to about 90 percent when you do put people in these types of 
situations.
    How fast can you expand alternative to detention programs 
to reduce this overcrowding? Which I believe helps you, it 
helps our country, it helps the image of what a lot of people 
are seeing is abuse of people and families and children.
    Mr. Albence. So most of the--in fact, every--unless the 
small percentage that claimed negative credible fear within the 
family residential center environment and are found not to have 
it are released into the community. We have, at this point, 
based on funding, we have about 101,000 individuals on ATD. We 
could put, based on existing funding, about 64,000 people on 
the GPS bracelet annually, and keep them on there.
    At our current volume, that is about half the number of 
people that came in in the month of May, at which point, we 
would not be able to put anybody else on a bracelet until those 
individuals came off. And as you well know, on the non-detained 
docket, those cases may go 3, 5, 7 years, such that we would be 
able to put very few individuals on a bracelet from that point 
forward, meaning everybody else would just be released.
    And frankly, what we have seen, and which goes to why we 
have surged so many resources from his to the border to deal 
with these fraudulent family units is that the absconder rate 
for these family units is far higher than it ever was for the 
single adults that we used to use it on.
    So it is about 26 percent right now of the absconder rate 
for family units on these GPS. And we have got criminal 
investigations at his is ongoing, in which we have individuals 
that are under surveillance and watching them cut off the 
bracelets.
    And, again, I think a lot of it comes from the fact that 
these aren't real families. It is individuals that are single-
adult males that are renting a child in Mexico, paying a 
smuggler, or the cartel for that child, bringing them into the 
country, and as soon as they are processed and released, they 
can care less what happens to the child, and they go on about 
their way and cut their bracelet off.
    So, again, there is some success with regard to showing up 
at hearings and meetings. That success drops precipitously once 
the individual nears the end of their process because the 
chances of them getting removal order are going to be higher. 
If they are going for a status hearing or, you know, a marriage 
hearing, they may not get an order. So----
    Mr. Ruppersberger. Let me stop you there because I have 
only got a minute.
    In policing, your job is to protect our society and arrests 
when people break the law. In some area where you have--and I 
am from the Baltimore region. I represent Baltimore City, and 
they have got a bad rep right now. We have got to work on 
trying to turn that around.
    Part of that is you have a system with somebody focusing on 
community type policing. So, instead of everyone who is here 
waiting whatever needs to be done that they are not going to 
fear ICE other than if they get arrested, they are going to be 
treated that way, because you have got an image issue.

                               ICE IMAGE

    And as a Member of Congress, I don't want you to have an 
image issue, because you have a mission, and that mission is 
based on the laws that we have passed. But you have got to work 
on this. Do you have any type of--and this is my last question, 
because my time is up now. Do you have any type of program 
trying to work on your image now, whether you believe it or 
not, is not good for 50 percent of this country?
    Mr. Albence. I would love the media to publish all the 
tremendous things that we do, and we try diligently to get our 
story out there. Unfortunately, it is not sensational to say 
ICE did a good job and removed this aggravated felon, or ICE 
removed this murderer back to El Salvador while it faced 
charges, or ICE seized, you know, 1,000 pounds of fentanyl, or 
ICE rescued this child from active sexual exploitation.
    Those stories don't get picked up. And I can do as many TV 
shows as I want, and a lot of it just falls on deaf years, 
unfortunately. And I think that is where we were going to 
earlier was just the rhetoric is so high on this issue----
    Mr. Ruppersberger. Can I just have 30 seconds and give it 
to Mr. Price? It is just two numbers.
    Ms. Roybal-Allard. Two numbers?
    Mr. Ruppersberger. Two numbers. I want to point out one 
concern: The amount of arrests for traffic is 26,000; traffic 
offense 30,000. That seems like it would be the highest 
numbers. That is part of our issue. Mr. Price is going to deal 
with that. I yield back.
    Ms. Roybal-Allard. Mr. Rutherford.
    Mr. Rutherford. Thank you, Madam Chair.
    Sir, Director, do you or your officers get to decide who 
will actually be deported out of custody?

                       REMOVALS AND DEPORTATIONS

    Mr. Albence. Again, unless the individual already has had 
their day in immigration court, and has received a final order 
of removal from an immigration judge, we are the front end of 
that process just as a local beat cop or a detective is in the 
criminal justice system. We are making the arrest based on 
probable cause and are following our charging document, which 
in our case is called a notice to appear, as opposed to, you 
know, a criminal complaint filed by a local jurisdiction.
    Mr. Rutherford. But your men and women make no deportation 
decision, correct?
    Mr. Albence. Correct. We make the arrest. The judge makes 
the determination with regard to--in limited circumstances, 
there are some cases in which individuals under the law are not 
entitled to a hearing with regard to the removability issues, 
but they are entitled to a hearing with regard to asylum or 
other form of relief from removal.
    Mr. Rutherford. Right. And the reason I ask, and I think 
you said it earlier, you know, you don't get to pick and choose 
what laws you are going to enforce. And so, one of the things 
that I think people need to understand--and it really kind of 
came up on the military issue--your officers, when they go to a 
287(g) facility and pick up an individual on a detainer, that 
individual has been charged, you don't have a choice, you pick 
them up. Whether they have military service in their background 
or not, and how that will impact on their individual case is 
really up to the judge, not you or your officers. Is that 
correct?
    Mr. Albence. That is correct. The judge makes the decision 
on removability.
    Mr. Rutherford. Okay. So let me change gears here. While 
there was a decrease in the number of migrants that were 
crossing the border in June relative to May, we still have over 
100,000 people that crossed the border. We are still hearing 
about the metering going on at the ports. CBP detention 
facilities are still over capacity. You just received $208.9 
million in the supplemental bill.
    So my question today is, do you anticipate that that will 
get you through the end of the year, and that is going to be 
enough, or what is the burn rate on that?
    Mr. Albence. So the money that we were given, and we are 
appreciative of it, is, you know, for the areas in 
transportation, medical services, the money that we were able 
to give to his to go down and do additional family fraud 
investigations and DNA testing, which has proven very 
successful, that money is greatly appreciative and went right 
to work.
    Unfortunately, from a detention perspective, we are still 
short and we are also still short a little bit in the 
transportation area. So, I mean, our request in the 
supplemental was around $110 million, and that need still 
remains.
    Mr. Rutherford. Right. I tried to move $600 million over to 
you guys from forfeiture and seizures to address the detention 
beds and that failed.

                           RAPID DNA TESTING

    But let me ask this also: After a successful pilot in May--
you mentioned the rapid DNA processing--ICE, you all were 
awarded a $5.2 million contract for additional DNA testing and 
supplies. Can you give me an idea how that program is going, 
the rollout? How is it looking?
    Mr. Albence. It is looking--when I say it is looking good, 
I mean that from an operational perspective. From a criminal 
justice and victimization perspective, it is looking bad 
because we ran the first week of it last week. We have opened 
up in seven different Border Patrol facilities. We have got two 
machines in each facility with more machines to come.
    And within the first week, there were 102 referrals to us. 
We found 17 instances of fraud based on the DNA test. And, in 
fact--this is an experience we saw when were in the pod as 
well--14 of the individuals broke to the fact that they weren't 
really family units to begin with----
    Mr. Rutherford. At all.
    Mr. Albence [continuing]. At all, before they even took the 
DNA test, because they saw that that was a potential for them.
    So we are continuing to pursue that as that rolls out, and 
we add additional machines and capability, I am sure that the 
results will go up significantly. And I am hopeful that there 
is some deterrent effect with that as well because word 
spreads.
    Mr. Rutherford. Yeah. Yeah.
    And how many family groups have you discovered through 
that, where it is not a parent, but it is an aunt, an uncle, 
that sort of thing?
    Mr. Albence. So we have got a couple things going on at one 
time. If you look at just the family fraud investigations that 
have been going on in the surge that we have got down there 
that is going on for several months, we are only getting the 
cases that Border Patrol refers to us. So we have had about 
3,000 cases referred to us. Through the investigative process, 
we have found about 400 of those to be fraudulent.
    Most of them--there are some that are family members. But 
when we are saying that they are fraudulent, they are 
presenting themselves as if they actually are father and son, 
or mother and son, whatever the case may be, or what we are 
finding a lot of them is that they are actually adults.
    So you have got an uncle that is 32 years old, and you have 
got a kid that is 19 years old, and he comes in and says, this 
is my 17-year-old kid, release us as family unit. So we have 
actually presented 790 prosecutions during this time, and 682 
have been accepted for prosecution.
    What we are also seeing, which is very troubling to us, and 
we are doing our best to combat it, is a lot of the individuals 
claiming to be UACs aren't UACs. We are finding individuals 
that are 23, 24 years old coming up with 16-year-old or 17-
year-old birth certificates.
    We are extremely concerned about that, because those 
individuals are going to go into HHS custody. And the last 
thing we want is a 24-year-old male being in custody with a 
bunch of 10-year-old boys. That is an untenable situation for 
all concerned.
    You know, our overarching goal, as we have said all along, 
is to keep the safety of these children, and so we have 
identified 59 of those. Fifty-eight of those have been 
prosecuted. The U.S. Attorney's offices down on the southwest 
border have been a tremendous partner for us.
    Mr. Rutherford. Thank you for your service.
    Madam Chair, I yield back.
    Ms. Roybal-Allard. Mr. Aguilar.
    Mr. Aguilar. Thank you, Madam Chair.
    Thank you, Mr. Director.

                               ICE RAIDS

    On Tuesday this week, you told reporters that the reason 
ICE raids were successful is because the agency had the element 
of surprise. You also said that when media attention is drawn 
to potential ICE raids, it inhibits the ability of ICE agents 
to do their job. Is that a fair summary?
    Mr. Albence. I am not sure I said we had the element of 
surprise with all the media attention that that got. But, you 
know, I am not sure the exact quote, but----
    Mr. Aguilar. Typically, when congressional offices ask for 
additional information about rumored raids, ICE frequently 
tells us that that information can't be shared because of 
pending operations. You know that that is generally the 
response that we receive, correct?
    Mr. Albence. The only thing--that is correct, except to the 
fact that I think it is a disservice to classify them as raids. 
We were going after targeted individuals who had been through 
the immigration court process who we know who they were and had 
been issued a removal order from an immigration judge.
    So I think doing a raid--again, I think calling them that 
heightens the temperature with all these issues as opposed to 
just when the sheriffs go out, or a police department goes out 
and executes a warrant on somebody that has a warrant, they 
don't call it a raid. They say, We are going to go arrest this 
guy. That is what we are doing.
    Mr. Aguilar. Sure. And in some cases, there is quite a bit 
of collateral arrests that are made as well, and I think that 
is where, in my interpretation and that is my feeling--and we 
can get into a whole conversation about trust within the 
agency. And I think that, you know, you have talked a lot, and 
I know that that is a point of frustration at times for folks 
about that relationship with the community, but I think that 
that comes with trust.
    And when the collateral numbers, you know, increase and 
varies pretty significantly by field offices even, you know, 
that is a concern for us. That is a concern as a policymaker, 
and that is, I think, when you get into a classification, and 
what I would call a raid is when there are significant 
collateral arrests that are made.
    If you want to go in and target someone and you can 
highlight the criminality, you know, that is fine. But when you 
get into the collateral pieces and you start, you know, 
grabbing other folks who were in proximity and breaking 
windows, pulling people out of cars like, I mean, those are 
things that heighten the level, and I just want to make sure 
that you understand that that is what we are talking about.
    Mr. Albence. I certainly do. And collateral arrests have 
occurred throughout the time of immigration enforcement, and 
they occur in law enforcement. Our law enforcement practices 
are the same as State and local law enforcement agencies. When 
they go into a residence and they have a warrant and they are 
going to identify for their safety, as well as the safety of 
the participant--or, excuse me, the residents of that house, 
they are going to identify those individuals.
    And they are also going to try to determine if those 
individuals have wants or warrants, or if that individual, 
maybe they have a gun on them, is committing a crime in their 
presence, they are going to arrest them.
    When I was with DEA; almost every time we went into a house 
and arrested the target of our warrant, there was somebody 
else, or many somebody elses, that also ended up being 
arrested. It is the same thing when we go into a residence. We 
go in for officer safety and ensure that we know who is in that 
house. The last thing we want is a tragedy, to have somebody 
jump out of a closet and scare one of our officers or----
    Mr. Aguilar. Someone with orders of removal is not the same 
as a drug dealer that you are getting at the DEA. I mean, I 
would just reject that comparison.
    But let me move on, because I just wanted to have that 
conversation about the announcements of targeted enforcement, I 
will call them. You don't want to call them raids. So do 
announcements of ICE enforcement actions impact officers' 
safety and effectiveness?
    Mr. Albence. What we try to do is ensure that when we go 
out and do our operations, we have as much operational security 
as possible. When we go out to knock on the door or take an 
enforcement action, we generally notify local law enforcement 
to make sure we don't have a blue-on-blue situation. So we make 
sure that there is information that the people in the community 
that would be in a position to need to know do know.
    Mr. Aguilar. But the fewer people that know, generally the 
more effective and probably the better for officer safety. Is 
that fair to say?
    Mr. Albence. Again, it depends if you are talking specifics 
or talking in generalities. If there is specifics, like when 
our operational plan was leaked to the media and there was 
specifics, that is disconcerting, yes.
    Mr. Aguilar. So the President announced on multiple 
occasions that large-scale operations were going to detain 
undocumented immigrants as part of operation Border Resolve. 
Did the Department or you know that the President was going to 
announce those pending operations?
    Mr. Albence. No. I don't believe they reached out to us for 
our input. But I mean----
    Mr. Aguilar. Do you think it put officers' safety in 
danger?
    Mr. Albence. I don't. Again, I mean, The Washington Post 
was reporting on this back in the fall. Again, when you talk 
about high level that we are going to be doing X, Y, and Z 
without specifics, I mean, I think everybody knows we are going 
to be doing immigration enforcement. We generally take, in the 
civil immigration context, 300 to 400 arrests a day. So our 
teams are out there every single day, so it is no secret that 
we are out there.
    Mr. Aguilar. Yeah. It is no secret you out there. I mean, I 
think the President putting millions behind it and, you know, 
amps it up, you know, quite significantly. So I would just, you 
know, caution if--and I hear you talk about the rhetoric of 
this conversation. Well, you know, I don't think that that is 
limited to Members of Congress is all I would offer. Thank you, 
sir.
    Ms. Roybal-Allard. Mr. Cuellar.
    Mr. Cuellar. Thank you, Madam Chair.
    Mr. Director, I know we have been talking a lot about 
immigration, but I also want to thank your men and women that 
do work on the other cross-border criminal activity, which 
includes financial crimes, money laundering, bulk cash 
smuggling, commercial fraud, intellectual property theft, cyber 
crimes, human rights violation, human smuggling, human 
trafficking, and other work that you all do. So I do want to 
thank them for the other work that they do, even though we do 
spend a lot of time on immigration.

                           IMMIGRATION COURTS

    The other thing is, I feel that if you go to some of the 
countries they have their immigration courts at the border. 
Your folks have been a little resistant trying to put the 
courts at the border, I can tell you. They will give me all 
these different excuses why. But, you know, I think we ought to 
hold people at the border, give them their day in court, give 
them their due process.
    And as you know, according to the immigration court office, 
if you have 100 people, 88 percent of them are going to be 
rejected from asylum claims, and then twelve of them are going 
to be accepted. But unfortunately, if we let people into the 
country, they are here for 2, 3, 4, 5 years, whatever it is.
    Immigration courts also tell us that 44 percent of them 
don't show up after they are given the permiso, the notice to 
appear. So I think we are doing it backwards. I think the Trump 
administration, the Obama administration have been doing it 
backwards, and we should have them there. So I would ask you to 
have your folks reconsider the positions that they have taken 
in the past where we have those immigration courts as much as 
possible.
    When we talk about immigration courts, that we have added, 
I think, about 315 since we started working on it, I guess 
since 2014, you know, the first thing they do is say, Well, we 
want to do video conference. Well, as you know, the reason they 
send judges to Houston, to New York, San Francisco, and all 
that is because they release people, then they want to put 
judges where the people have been released. So I think we are 
doing it backwards. But I would appreciate that and like to 
follow up.
    The other thing is we have been adding judges, and I think 
that your Office of Principal Legal Advisors needs to do a 
little--needs a little bit of help. I believe your information 
is, you probably need another 128 additional attorneys, and 41 
additional support staff so the immigration judges can do the 
work.
    I think what we are missing right now are court space. We 
actually have more judges than court, and we are hoping that 
during this appropriation process, working through another 
subcommittee, that we add court space, number one; number two, 
that we add those attorneys, because if you don't have those 
attorneys, it is hard for the judges to do the work.
    I would ask you also, because I do know a lot of 
immigration judges, that you all look at the old movie called 
the--the old show called ``Night Court.'' I do understand that 
your attorneys leave at 5:00 or so, from what I hear from 
judges, or somewhere 5:00, 6:00. And, you know, in many ways we 
ought to look at that show, and if we need to do a little bit 
of extra work, we should have some sort of nightshift to 
address the backlog.
    So anyway, we want to be supportive on adding more moneys 
on that, and I would like to get your thoughts on what I have 
just mentioned.
    Mr. Albence. Well, certainly. And I agree that trying to--
look, we have got to be inventive, and we can't keep doing the 
same thing the way we have been doing and expect something to 
change, right?
    I agree, as you are seeing in the MPP context, we are 
setting up these courts at the POEs and holding the hearings 
there. Again, I think we can leverage VTC for that, both for 
EOIR. And, again, obviously they are the biggest player on 
this, right. They own the courts. They own the management of 
the courts. So, I mean, a lot of this falls on their shoulder, 
and we work closely with them, of course.
    You know, but I think it holds promise. Again, the 
challenge comes into--especially now with so many of the family 
units being the largest number of cases coming in, right, that 
we can't hold them, we can't detain them under Flores long 
enough to get through that immigration court process. So that 
is one of the bigger challenges.
    I will tell you that--and when I testified when I was the 
EAD for ERO, and I will say it again, I will take 200 attorneys 
before I take 200 officers at this point, because the 
bottleneck is just there. The massive amount is there. I will 
get more productivity from those attorneys than I will from 
those officers, just because the work is there. And so we are 
working closely with EOIR to try to find some ways to do some 
of these things, if we can leverage technology.
    We have opened up courtrooms in some of our new facilities 
so that we can move those cases through more rapidly. But this 
is one of the ones where, again, it is resource dependent. And 
you are right, it is not just attorneys; it is courtrooms and 
facilities and support staff and the like, and we will take 
whatever we can get, plus some.
    Mr. Cuellar. Thank you so much.
    Mr. Albence. Thank you.
    Ms. Roybal-Allard. Mr. Price.
    Mr. Price. Thank you, Madam Chairman.
    Mr. Director, let me just briefly revisit the statistics on 
whom you are detaining and deporting, mainly just to underscore 
my request, because I want to move onto another question.

                         CRIMINALITY BREAKDOWN

    But I have been looking at some figures about the 
breakdowns we were discussing. It appears that three of the top 
four categories in terms of people who are categorized as 
criminals, criminal convictions, three of those four categories 
are drug offenses DUI--I mean, traffic offenses DUI, traffic 
offenses more generally, and immigration offenses.
    Now, other crimes here are very serious, many of them 
violent. But as far as the numbers are concerned, I would just 
return to my prior assertion that, you know, our overall 90 
percent figure really is not helpful. The appearance is, that 
it is obscuring the discussion more than it is helping with it, 
given the fact that the discussion has been and needs to be on 
prioritizing dangerous people, people who are a threat to the 
community.
    I appreciate your comments about the way the diversion of 
personnel from the interior to the border surge has compromised 
your abilities. On the face of it though, it doesn't seem to me 
that would affect the ratio of it--yes, it affects the overall 
number who you detain and deport. It shouldn't affect the 
overall ratio of dangerous criminals to others. So if there is 
any figures on that that would clarify the situation further, I 
would appreciate it. But we certainly need a breakdown of that 
90 percent.

                            SANCTUARY PLACES

    Now, let me turn to something that has been in the 
headlines in my own district, but that--it just puzzles me 
nationwide, and I want you to comment on it. There, of course, 
is a very often very difficult situation involving people who 
are taking sanctuary in places of worship. But how are you 
putting pressure on those immigrants and those who are 
supporting them? That is the question.
    And there is a recent case, a 38-year-old mother of four 
taking sanctuary in the Church of Reconciliation in Chapel 
Hill, in my district, one of five individuals taking sanctuary 
in a church in North Carolina, one of at least 50 across the 
country.
    Now, just out of the blue, July 1, she received notice that 
ICE intends to fine her $314,007 for, quote, willfully failing 
or refusing to leave the United States and for having, quote, 
connived or conspired to avoid deportation. That amounts to 
$799 a day for each day that she has been in sanctuary.
    Now, apparently, she is one of fewer than ten undocumented 
immigrants living in sanctuary who received this notion of a 
fine for this just impossibly high sum they can't possibly pay. 
It is my understanding the financial penalties for violating 
immigration laws, of course, do exist. They have existed since 
the mid-1990s. But it is very rare that they have gone above 
about $1,000.
    So what is this all about? Why is ICE now using these 
extremely severe financial penalties to target this group of 
individuals? How did you determine that it should be $799 a 
day? Actually, the law states that civil penalties for 
immigrants should be something like $500, it states, not more 
than $500 a day. What is going on with these fines, and how are 
you choosing whom to impose them on?
    Mr. Albence. Thank you.
    So we have been looking at this. And, again, what we are 
trying to do is hold individuals accountable and try to restore 
some integrity to the rule of law and the immigration system. 
If you have individuals--again, and we are applying the laws 
that Congress has passed and authorized us to do. They have 
authorized that civil fines be levied on certain offenses or 
certain behavior.
    One includes a fine for an individual to ignore a voluntary 
departure ordered by an immigration judge. There is a fine that 
comes with that. There is a fine for failure to depart for 
individuals with final orders of removal. And there is very 
strict criteria that must be met in order for that to happen, 
and one of those is the order was issued in person. So it 
wasn't even that--the individual can't say they didn't know 
they had the order. It has to be an in-person order, which is 
essential.
    The $799--and we did a Federal Register on this last year 
when we began the process, is accounting for inflation, and 
that is how it came to that amount. But if we are going to have 
any integrity with the immigration system, I don't think we can 
have a system whereby somebody can avail themselves of all due 
process, work for--you know, work the system for 5, 6, 7, 8 
years, and then when they get a result that they don't agree 
with, go take sanctuary in a church where they know our 
sensitive locations policy prevents them from having the law 
enforced against them.
    So we are going to use all the tools available to try to 
gain compliance with the lawfully issued judge's order. And 
part of this, too, is, if we want to have a secure border, 
there has to be consequences for illegal entry, and that means 
that you have to leave the country if you are ordered removed 
by an immigration judge. And if you fail to leave the country 
and there is a way that we can fine you civilly, then we are 
going to do that, too.
    Mr. Price. You think there is any doubt these people have 
that you are on their case?
    Mr. Albence. Not now.
    Mr. Price. I mean, why are you doing this now? Why are you 
doing this now? How did you pick the 10 people around the 
country that you were going to slap these fines on?
    Mr. Albence. So we have been doing it--I will be off a 
month or two--maybe October of last year we started this 
process. We have been going through each of the field offices. 
And, again, there is very defined criteria which an individual 
has to meet in order to be eligible for a fine.
    So it actually takes quite a while to review the case to 
determine if they meet all the factors required by law and 
statute to be amenable to being fined. So we have been going 
through various field offices. They are going through their 
cases of fugitives and individuals who have avoided orders of 
voluntary departure, trying to find individuals that are there.
    And some of the individuals, when we located them, we 
arrested them and removed them rather than fining them, because 
we knew where they were and able to locate them. But 
individuals that we can't locate or aren't able to find or that 
take sanctuary--I mean, put it this way, there is more 
sanctuary cases out there than those that were fined. It is the 
other ones that we reviewed didn't meet the legal criteria for 
a fine.
    Mr. Price. Well, if you could, for the record, furnish what 
those legal criteria amount to.
    Mr. Albence. Certainly. We have it all written down.
    Mr. Price. It is certainly a mystery to me and to my 
community.
    Thank you, Madam Chairman.
    Ms. Roybal-Allard. We are past the time, and appreciate 
your agreeing to stay here beyond the 3:00 schedule that we had 
originally given you.
    I do have some other questions that I will submit, 
particularly with regards to the treatment of pregnant women in 
detention that I will be following up. But thank you very much 
for your time, and look forward to continuing to work with you 
on some of the issues that have been raised.
    Mr. Albence. As I do. Thank you.
    Ms. Roybal-Allard. Thank you.
    The committee stands adjourned.

    [Answers to submitted questions follow:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
</pre></body></html>
